<html>
<title> - CURRENT SITUATION IN IRAQ</title>
<body><pre>[Senate Hearing 110-267]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-267
 
                       CURRENT SITUATION IN IRAQ

=======================================================================


                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                        JANUARY 12 AND 25, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE

40-523 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                  (ii)


                           C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                                  Iraq

                            january 12, 2007

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense......................     7
Pace, Gen. Peter, USMC, Chairman, Joint Chiefs of Staff..........    11

  The Current Situation in Iraq and on the Administration's Recently 
Announced Strategy for Continued United States Assistance to the Iraqi 
Government and for an Increased United States Military Presence in Iraq

                            january 25, 2007

Perry, William J., Senior Fellow, Hoover Institution; and Former 
  Secretary of Defense...........................................    97
Ross, Ambassador Dennis B., Counselor and Ziegler Distinguished 
  Fellow, the Washington Institute for Near East Policy; and 
  Former Director for Policy Planning in the Department of State 
  Under President George H.W. Bush and Special Middle East 
  Coordinator Under President Bill Clinton.......................   103
Keane, GEN John M., USA (Ret.), Former Vice Chief of Staff, 
  United States Army.............................................   109

                                 (iii)


                                  IRAQ

                              ----------                              


                        FRIDAY, JANUARY 12, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner \1\ 
(chairman) presiding.
---------------------------------------------------------------------------
    \1\ Note to Readers: The 110th Congress convened on January 4, 
2007. Committee memberships, however, were not made official by the 
Senate until the afternoon of January 12, 2007. This hearing convened 
at 9:32 a.m. on January 12, 2007. As you will read, Chairman Warner 
gaveled the hearing open and then passed the gavel to his successor, 
Senator Carl Levin, effecting for purposes of this transcript a change 
in the chairmanship of the committee.
---------------------------------------------------------------------------
    Committee members present: Senators Levin, Kennedy, Byrd, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Pryor, 
Webb, McCaskill, McCain, Warner, Inhofe, Sessions, Collins, 
Ensign, Chambliss, Graham, Cornyn, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Gabriella Eisen, 
professional staff member; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; William G.P. 
Monahan, counsel; Michael J. Noblet, research assistant; Arun 
A. Seraphin, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Pablo Carrillo, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Derek J. Maurer, minority 
counsel; Elaine A. McCusker, professional staff member; David 
M. Morriss, minority counsel; Lucian L. Niemeyer, professional 
staff member; Christopher J. Paul, professional staff member; 
Lynn F. Rusten, professional staff member; Sean G. Stackley, 
professional staff member; Kristine L. Svinicki, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, minority counsel.
    Staff assistants present: David G. Collins, Micah H. 
Harris, and Benjamin L. Rubin.
    Committee members' assistants present: Mieke Y. Eoyang and 
Sharon L. Waxman, assistants to Senator Kennedy; Frederick M. 
Downey, Assisant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Richard Kessler, assistant to 
Senator Akaka; Jeff Benson and Caroline Tess, assistants to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; Gordon Peterson, assistant to Senator Webb; Nichole M. 
Distefano, assistant to Senator McCaskill; Richard H. Fontaine, 
Jr. and Paul C. Hutton IV, assistants to Senator McCain; Arch 
Galloway II, assistant to Senator Sessions; Mark Winter, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Matthew R. Rimkunas, assistant to Senator 
Graham; Russell J. Thomasson, assistant to Senator Cornyn; and 
Stuart C. Mallory, assistant to Senator Thune.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Thank you very much. As a consequence of 
the recent election and as a consequence of the Republican 
caucus, I stepped down as chairman. The Senate has as yet not 
reorganized, so the designated chairman, Senator Levin, desires 
that we adhere to the strict rules, and at this time I pass the 
gavel to my good friend Senator McCain for such purposes as he 
may wish to make of it.
    Senator McCain [presiding]. This may be one of the shortest 
passages in history. [Laughter.]
    Senator Levin. I think we will stop it right there, as a 
matter of fact. [Laughter.]
    Chairman Levin [presiding]. Thank you.
    Senator McCain. Congratulations, Senator Levin. I look 
forward to working in the same strong bipartisan fashion which 
has characterized our membership on this committee for many 
years. We thank Senator Warner for the great job that he did as 
chairman of this committee. We congratulate you and look 
forward to working with you.
    Chairman Levin. Thank you, Senator McCain.
    Senator Warner. I join in those remarks.
    Chairman Levin. The feelings are very, very mutual indeed, 
and Senator Warner has set a style here that I intend to 
emulate in terms of bipartisanship. It has been a tradition of 
this committee and that will continue, I know, and I know that 
it is your intention that it continue as well, Senator McCain.
    Apparently, we are going to have two votes coming up in 
about 20 or 25 minutes and we will see how that will be handled 
when we get to that point. But let me first welcome Secretary 
Gates and General Pace to the committee this morning. This is 
Secretary Gates' first appearance before this committee as 
Secretary of Defense. We anticipate and look forward to more, 
Mr. Secretary, and I hope you do too. We congratulate you on 
your confirmation, of course. We hope both of you will convey 
to our troops and to their families the gratitude of this 
committee for their dedication, their sacrifices, and their 
service to our country.
    I also want to say a special welcome to the new members of 
the committee: Senator Pryor, who is returning for his second 
tour of duty; and Senator Webb, Senator McCaskill, and Senator 
Martinez.
    All of us share the common goal of trying to maximize the 
chances of success in Iraq. The reason that I oppose increasing 
the number of U.S. troops in Iraq as the President outlined 
this week is because I do not believe that it will help us 
achieve success in Iraq. In fact, I believe that the policy 
will help prolong the violence in Iraq and make it harder to 
achieve this goal while increasing the loss of American lives 
and treasure.
    Increasing the number of U.S. forces in Iraq is a flawed 
strategy because it is based on the false premise that there is 
a military solution to the violence and instability in Iraq 
when what is needed is a political solution among the Iraqi 
leaders and factions. Iraq's own Prime Minister Maliki 
acknowledged recently that, ``The crisis is political and the 
ones who can stop the cycle of aggravation and bloodletting of 
innocents are the politicians.''
    Our sending more troops to Iraq suggests that the future of 
Iraq is in our hands when, in reality, it is in the hands of 
the Iraqis themselves. On Wednesday evening the President said 
that he had made clear to Iraq's leaders that America's 
commitment is not open-ended. I welcome those words, but the 
reality behind the President's new rhetoric is that the open-
ended commitment continues. More American military men and 
women would be sent into the chaos of Iraq's sectarian violence 
without condition, without limitation.
    President Bush indicated that the Iraqi government needs 
``breathing space'' to make political progress. I believe the 
opposite is true. The Iraqi leaders do not need breathing 
space; they must feel real pressure to reach a political 
settlement. Increasing our military presence in Iraq takes 
pressure off.
    The Iraq Study Group (ISG) put it this way last month: ``An 
open-ended commitment of American forces would not provide the 
Iraqi government the incentive it needs to take the political 
actions that give Iraq the best chance of quelling sectarian 
violence.''
    President Bush also said the Iraqis have set benchmarks for 
themselves. But look at the track record of the Iraqi 
government in meeting some of its past benchmarks and promises. 
Iraqi President Talabani said in August 2006 the Iraqi forces 
would, ``take over security at all Iraqi provinces by the end 
of 2006.'' That pledge has not been kept.
    The Prime Minister said last June that he would disband the 
militias and illegal armed groups as part of his national 
reconciliation plan, and in October he set the timetable for 
disbanding the militias at the end of 2006. That commitment has 
not been kept.
    The Iraqi Constitutional Review Commission was to present 
its recommendations for changes in the constitution to the 
Council of Representatives within 4 months of the formation of 
the government last May. The commission has yet to formulate 
any recommendations.
    Prime Minister Maliki put forward a series of 
reconciliation milestones to be completed by the end of 2006 or 
early 2007, including approval of the provincial election law, 
the petroleum law, a new de-Baathification law, and the militia 
law. None of those laws have been enacted as committed.
    The Iraqi Army pledged six battalions in support of 
American and coalition efforts during Operation Forward 
Together last summer. In fact, the Iraqis provided only two 
battalions. That is not a track record that inspires confidence 
in Iraqi pledges and commitments.
    The President said that ``America will hold the Iraqi 
government to the benchmarks that it has announced.'' But how 
did the President say we are going to do that? What will the 
consequences be if the Iraqis fail to meet these benchmarks, 
particularly since some of them have been established and 
missed in the past?
    The President said, ``If the Iraqi government does not 
follow through on its promises it will lose the support of the 
American people.'' That is an empty threat given the fact that 
the Iraqi government has already lost the support of the 
American people and it has not affected their behavior.
    The President's most recent plan, like the previous one, 
includes no mechanism to hold the Iraqis to their commitments. 
Deepening our involvement in Iraq would be a mistake, but 
deepening our involvement in Iraq on the assumption that the 
Iraqis will meet future benchmarks and commitments, given their 
track record, would be a compounding of that mistake.
    We must also be mindful of what the President's increase in 
U.S. forces would mean to our already overstretched Armed 
Forces. Sending more troops to Iraq will have a negative effect 
on our soldiers, their families, and on the ability of this 
Nation to respond to other contingencies that may arise. The 
combat brigades now in Iraq will be extended beyond their 
normal tours by as much as 4 months, as has happened at least 
twice before.
    Additional combat brigades would need to be deployed, 
brigades which will be short of personnel and equipment because 
the state of readiness of Army and Marine Corps units that are 
not currently deployed to Iraq or Afghanistan is low. Many of 
these brigades have only been back from their last deployment 
less than 12 months. Many of the soldiers in those brigades 
will have had much less than 12 months with their families 
because they have to train up for their next deployment. That 
violates current policy and good practice and will harm morale 
and retention down the road.
    Just 2 months ago, General Abizaid testified before this 
committee against increasing the number of U.S. troops in Iraq. 
He said: ``I met with every divisional commander, General 
Casey, and the corps commander General Dempsey. We all talked 
together, and I said, `in your professional opinion, if we were 
to bring in more American troops now, does it add considerably 
to our ability to achieve success in Iraq?' They all said no. 
The reason is because we want the Iraqis to do more. It is easy 
for the Iraqis to rely upon us to do the work. I believe that 
more American forces prevent the Iraqis from doing more, from 
taking more responsibility for their own future.''
    General Casey made that same point on January 2 when he 
said, ``The longer that U.S. forces continue to bear the burden 
of Iraq's security, it lengthens the time that the government 
of Iraq has to make the hard decisions about reconciliation and 
dealing with the militias. The other thing is that they can 
continue to blame us for all of Iraq's problems, which are at 
base their problems.'' That was General Casey.
    For America to supply more troops while the Iraqi leaders 
simply supply more promises is not a recipe for success in 
Iraq. Telling the Iraqis that we will increase our troops to 
give them yet more breathing space will only postpone the day 
when Iraqis take their future into their own hands and decide 
whether they want to continue to fight a civil war or to make 
peace among themselves.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I join you in 
welcoming our witnesses here today, and I am very pleased to 
serve again with the returning members of our committee, and I 
again would like to welcome all the new members to the 
committee.
    Mr. Chairman, it is a hard thing to change course in the 
middle of a war. I commend the President for recognizing the 
mistakes of the past and for outlining new steps on the 
military, economic, and political fronts. I believe that 
together these moves will give the Iraqis and America the best 
chance of success.
    We should make no mistake. Potentially catastrophic 
consequences of failure demand that we do all we can to prevail 
in Iraq. A substantial and sustained increase in U.S. forces in 
Baghdad and the Anbar Province are necessary to bring down the 
toxic levels of violence there.
    There is much agreement that the dire situation in Iraq 
demands a political solution. That is true. But we must also 
realize what it will take to enable any political solution. It 
is simply impossible for meaningful political and economic 
activity to take place in an environment riddled with violence, 
as Baghdad is today. Security is a precondition for political 
and economic progress. Until the government and its coalition 
allies can protect the population, the Iraqi people will 
increasingly turn to extragovernmental forces, especially Sunni 
and Shia militias, for protection.
    Only when the government has a monopoly on the legitimate 
use of force will its authority have meaning, and only when its 
authority has meaning can political activity have the results 
we seek.
    The presence of additional coalition forces would allow the 
Iraqi government to do what it cannot accomplish today on its 
own--impose its rule throughout the country. They can do this 
by engaging in traditional counterinsurgency activities aimed 
at protecting the population and breaking the cycle of 
violence. In bringing greater security to Iraq and chiefly to 
Baghdad, our forces would give the government a fighting chance 
to pursue reconciliation.
    As I have said before, a small, short surge would be the 
worst of all worlds. We need troops in the numbers required to 
do the job in place for as long as it takes to complete their 
mission. We must ensure that we are committing sufficient 
numbers of additional troops, and I look forward to our 
witnesses' testimony on this score. It would be far better to 
have too many reinforcements in Iraq than to suffer, once 
again, the tragic results of insufficient force levels.
    The other elements of the President's strategy are also 
critical. The Iraqi government must meet new benchmarks, 
including a reconciliation process for insurgents and 
Baathists, more equitable distribution of government resources, 
sharing oil revenue with the entire Iraqi population, and 
holding provincial elections that will bring Sunnis into the 
government.
    Also, Iraq's neighbors need to play a more constructive 
role. For example, I would like to see the Saudis fund a major 
jobs creation program in Iraq. Gulf States must not fiddle 
while Baghdad burns.
    I know that some of my colleagues disagree with the troop 
increase in Iraq and I have heard the calls for a withdrawal to 
begin in 4 to 6 months. Those who advocate such a policy have a 
right, even an obligation, to join in the debate on this issue. 
I believe these individuals also have a responsibility to tell 
us what they believe are the consequences of withdrawal in 
Iraq. Do they not fear Iranian, Saudi, and Turkish involvement 
in Iraq, a wider regional war, a haven for terrorists, a 
humanitarian catastrophe? Do they truly believe that we can 
walk away from Iraq?
    We were able to walk away from Vietnam. If we walk away 
from Iraq, we will be back, possibly in the context of a wider 
war in the world's most volatile region. I believe that those 
who disagree with this new policy should indicate what they 
would propose to do if we withdraw and Iraq descends into 
chaos.
    We made many, many mistakes since 2003 and these will not 
be easily reversed. Even greater than the cost thus far and in 
the future, however, are the catastrophic consequences that 
would ensue from our failure in Iraq. By surging troops and 
bringing security to Baghdad and other areas, we can give the 
Iraqis and their partners the best possible chance to succeed.
    From everything I saw during my trip to Iraq last month, I 
believe that success is still possible. I would not support 
this new strategy if I did not think it had a real chance of 
success. But let us realize there are no guarantees. By 
controlling the violence we can pave the way for a political 
settlement. Once the government wields greater authority, 
however, Iraqi leaders must take significant steps on their own 
and they must do it right away.
    Increasing U.S. troop levels will expose more brave 
Americans to danger and increase the number of American 
casualties. When Congress authorized this war we were 
committing America to a mission that entails the greatest 
sacrifice a country can make, one that falls disproportionately 
on those Americans who love their country so much that they 
volunteer to risk their lives to accomplish that mission.
    When we authorized this war we accepted the responsibility 
to make sure they could prevail. Increasing deployments is a 
terrible sacrifice to impose on the best patriots among us. My 
travels and meeting with many servicemembers lead me to 
believe, however, that these Americans will once again do 
everything they can to win this war.
    I will conclude by commending the President's announcement 
Wednesday night that he plans to increase the standing size of 
the Army and Marine Corps by some 92,000 soldiers and marines. 
Such a step is long overdue, particularly given our commitments 
in Iraq and Afghanistan. I believe that the increase in end 
strength is in the national security interests of our country. 
I hope it will receive the backing of all Senators.
    Chairman Levin, again, thank you. I look forward to the 
testimony of the witnesses today.
    Chairman Levin. I thank you, Senator McCain, very much.
    Let me note that Senators Bayh and Clinton are not here 
today because they are on a previously scheduled trip to 
Afghanistan and Iraq, but they want the witnesses to know that 
they intend to submit questions for the record.
    Again, our thanks to you, Secretary Gates. You have taken 
on a huge responsibility and you have done it, I believe, with 
great thoughtfulness and we appreciate the reaching out which 
you have done to so many of us during the few weeks that you 
have been there and have had so many other responsibilities.
    Secretary Gates.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman, Senator McCain, 
and members of the committee. Let me say at the outset that it 
is a pleasure to appear before this committee for the first 
time as Secretary of Defense. The Senate Armed Services 
Committee has long been a steadfast friend and ally of the men 
and women in uniform and a source of steadfast support in 
meeting the Nation's defense needs. I thank you for that and I 
look forward to working with you.
    Let me begin by quickly summarizing two announcements I 
made yesterday morning, one of which Senator McCain just 
referred to. I have recommended to the President an increase in 
the two Services of 92,000 soldiers and marines over the next 5 
years--65,000 soldiers and 27,000 marines. The emphasis will be 
on increasing combat capability. The increase will be 
accomplished in two ways. First, we will make permanent the 
temporary increase of 30,000 for the Army and 5,000 for the 
Marine Corps. We then propose to build up from that base in 
annual increments over 5 years, 7,000 troops a year for the 
Army until they reach 547,000, and 5,000 a year for the Marine 
Corps until they reach 202,000.
    While it may take some time for these troops to become 
available for deployment, it is important for our men and women 
in uniform to know that additional manpower and resources are 
on the way.
    Second, for several months the Department has been 
assessing whether we have the right policies to govern how we 
manage and deploy members of the Reserves, the National Guard, 
and our Active units. Based on this assessment and the 
recommendations of our military leadership, I am prepared to 
make the following changes to Department policy. First, 
mobilization of ground Reserve Forces will be managed on a unit 
basis instead of an individual basis. This change will allow us 
to achieve greater unit cohesion and predictability in how 
Reserve units train and deploy.
    Second, from this point forward members of Reserves will be 
involuntarily mobilized for a maximum of 1 year at any one time 
in contrast to the current practice of 16 to 24 months.
    Third, the planning objective for Guard and Reserve units 
will remain 1 year of being mobilized followed by 5 years 
demobilized. However, today's global demands will require a 
number of selected Guard and Reserve units to be remobilized 
sooner than this standard. Our intention is that such 
exceptions will be temporary.
    The goal for the Active Force rotation cycle remains 1 year 
deployed for every 2 years at home station. Today most Active 
units are receiving 1 year at home station before deploying 
again. We believe that mobilizing select Guard and Reserve 
units before their 5-year period is complete will allow us to 
move closer to relieving the stress on the total force.
    Fourth, I am directing the establishment of a new program 
to compensate individuals, in both the Active and Reserve 
components, that are required to mobilize or deploy early or 
extend beyond the established rotation policy goals.
    Fifth and finally, I am directing that all commands and 
units review how they administer the hardship waiver program to 
ensure that they are properly taking into account exceptional 
circumstances facing military families of deployed 
servicemembers.
    It is important to note that these policy changes have been 
under discussion for some time within the Department of Defense 
(DOD) and would need to take place regardless of the 
President's announcement the other night.
    Just as an aside, but an important one, I am pleased to 
report to the committee that all Active branches of the 
military exceeded their recruiting goals for the month of 
December, with particularly strong showings by the Army and the 
Marine Corps. Our Nation is truly blessed that so many talented 
and patriotic young people have stepped forward to defend our 
Nation and that so many servicemen and women have chosen to 
continue to serve.
    With respect to the President's initiative, he described a 
new way forward in Iraq on Wednesday night, a new approach to 
overcoming the steep challenges facing us in that country and 
that part of the world. I know many of you have concerns about 
the new strategy in Iraq and in particular are skeptical of the 
Iraqi government's will and ability to act decisively against 
sectarian violence, and are skeptical as well about a 
commitment of additional troops.
    The President and his national security team have had the 
same concerns as we have debated and examined our options going 
forward. Yet our commanders on the ground and the President's 
intended nominee as the new commander believe this is a sound 
plan, in no small part because General Casey and other senior 
military officers have worked closely with the Iraqi government 
in developing it.
    Further, the President, Ambassador Khalilzad, and General 
Casey have had prolonged and extremely candid conversations, 
not just with Prime Minister Maliki, but with other senior 
leaders of the Iraqi government, and have come away persuaded 
that they finally have the will to act against all instigators 
of violence in Baghdad.
    This is, I think, a pivot point--the pivot point--as the 
Iraqi government insists on assuming the mantle of leadership 
in the effort to regain control of its own capital. I want you 
to know that the timetable for the introduction of additional 
U.S. forces will provide ample opportunity early on and before 
many of the additional U.S. troops arrive in Iraq to evaluate 
the progress of this endeavor and whether the Iraqis are 
fulfilling their commitments to us.
    Let me make two other quick points. First, this strategy 
entails a strengthening across all aspects of the war effort, 
military and nonmilitary, including the economic, governance, 
and political areas. Overcoming the challenges in Iraq cannot 
be achieved simply by military means, no matter how large or 
sustained, without progress by the Iraqis in addressing the 
underlying issues dividing the country.
    Second, we must keep in mind the consequences of an 
American failure in Iraq. As I said in my confirmation hearing, 
developments in Iraq over the next year or 2 will shape the 
future of the Middle East and impact global geopolitics for a 
long time to come.
    I would not have taken this position if I did not believe 
that the outcome in Iraq will have a profound and long-lived 
impact on our national interests. Mistakes certainly have been 
made by the United States in Iraq. But how ever we got to this 
moment, the stakes now are incalculable. Your senior 
professional military officers in Iraq and in Washington 
believe in the efficacy of the strategy outlined by the 
President. They believe it is a sound plan that can work if the 
Iraqi government follows through on its commitments and if the 
nonmilitary aspects of the strategy are implemented and 
sustained.
    Our senior military officers have worked closely with the 
Iraqis to develop this plan. The impetus to add U.S. forces 
came initially from our commanders there. It would be a 
sublime, yet historic, irony if those who believed the views of 
the military professionals were neglected at the onset of the 
war were now to dismiss the views of the military as irrelevant 
or wrong.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman, Senator McCain, members of the committee. Let me say 
at the outset that it is a pleasure to appear before this committee for 
the first time as Secretary of Defense. The Senate Armed Services 
Committee has long been a steadfast friend and ally of our men and 
women in uniform and a source of support in meeting our Nation's 
defense needs. Thank you for that. I look forward to working with you.
    Let me begin by advising you of two announcements I made yesterday.
    First, the President announced Wednesday night that he would 
strengthen our military for the long war against terrorism by 
authorizing an increase in the overall strength of the Army and the 
Marine Corps. I am recommending to him a total increase in the two 
Services of 92,000 soldiers and marines over the next 5 years--65,000 
soldiers and 27,000 marines. The emphasis will be on increasing combat 
capability.
    This increase will be accomplished in two ways. First, we will 
propose to make permanent the temporary increase of 30,000 for the Army 
and 5,000 for the Marine Corps. Then we propose to build up from that 
base in annual increments of 7,000 troops for the Army and 5,000 for 
the Marine Corps until the Army reaches a level of 547,000 and the 
Marine Corps reaches a level of 202,000.
    I am aware that the armed services committees have been leading the 
national debate over the proper size of the military. Accordingly, I 
hope that you will join in supporting this important initiative.
    While it may take some time for these new troops to become 
available for deployment, it is important that our men and women in 
uniform know that additional manpower and resources are on the way.
    Second, for several months, the Department of Defense (DOD) has 
been assessing whether we have the right policies to govern how we 
manage and deploy members of the Reserves, the National Guard, and our 
Active component units.
    Based on this assessment and the recommendations of our military 
leadership, I am prepared to make the following changes to DOD policy.
    First, mobilization of ground Reserve Forces will be managed on a 
unit basis instead of an individual basis. This change will allow us to 
achieve greater unit cohesion and predictability in how Reserve units 
train and deploy
    Second, from this point forward, members of the Reserves will be 
involuntarily mobilized for a maximum of 1 year at any one time, in 
contrast to the current practice of 16 to 24 months.
    Third, the planning objective for Guard and Reserve units will 
remain 1 year of being mobilized followed by 5 years demobilized. 
However, today's global demands will require a number of selected Guard 
and Reserve units to be remobilized sooner than this standard. Our 
intention is that such exceptions be temporary. The goal for the Active 
Force rotation cycle remains 1 year deployed for every 2 years at home 
station. Today, most Active units are receiving 1 year at home station 
before deploying again. Mobilizing select Guard and Reserve units 
before this 5-year period is complete will allow us to move closer to 
relieving the stress on the Total Force.
    Fourth, I am directing the establishment of a new program to 
compensate individuals in both the Active and Reserve components that 
are required to mobilize or deploy early or extend beyond the 
established rotation policy goals.
    Fifth, I am also directing that all commands and units review how 
they administer the hardship waiver program to ensure they are properly 
taking into account exceptional circumstances facing military families 
of deployed servicemembers.
    It is important to note that these policy changes have been under 
discussion for some time within DOD and would have needed to take place 
irrespective of the President's announcement on Iraq.
    I am also pleased to report that all Active branches of the U.S. 
military exceeded their recruiting goals for the month of December, 
with particularly strong showings by the Army and Marine Corps. Our 
Nation is truly blessed that so many talented and patriotic young 
people have stepped forward to defend our Nation, and that so many 
service men and women have chosen to continue to serve.
                             iraq strategy
    On Wednesday night, the President described a new way forward in 
Iraq--a new approach to overcoming the steep challenges facing us in 
that country and in that part of the world.
    I know many of you have concerns about the new strategy in Iraq 
and, in particular, are skeptical of the Iraqi government's will and 
ability to act decisively against sectarian violence, and are skeptical 
as well about a commitment of additional American troops. The President 
and his national security team have had the same concerns, as we have 
debated and examined our options in Iraq going forward. Yet, our 
commanders on the ground--and the President's intended nominee as the 
new commander--believe this is a sound plan, in no small part because 
General Casey and other senior military officers have worked closely 
with the Iraqi government in developing it. Further, the President, 
Ambassador Khalilizad, and General Casey have had prolonged and 
extremely candid conversations not just with Prime Minister Maliki but 
with other senior leaders of the Iraqi government and have come away 
persuaded they have the will to act against all instigators of violence 
in Baghdad.
    This is, I think, the pivot point in Iraq as the Iraqi government 
insists on assuming the mantle of leadership in the effort to regain 
control of its own capital. While I doubt General Pace and I can change 
many minds here today, perhaps we can allay at least some of your 
concerns. Above all, I want you to know that the timetable for the 
introduction of additional U.S. forces will provide ample opportunity 
early on--and before many of the additional U.S. troops arrive in 
Iraq--to evaluate the progress of this endeavor and whether the Iraqis 
are fulfilling their commitments to us.
    Let me make two additional points. First, this strategy entails a 
strengthening across all aspects of the war effort--military and non-
military--including the economic, governance, and political areas. 
Overcoming the challenges in Iraq cannot be achieved simply by military 
means--no matter how large or sustained--without progress by the Iraqis 
in addressing the underlying issues dividing that country.
    Second, we must keep in mind the consequences of an American 
failure in Iraq. Multiple administrations of both political parties 
have concluded that what happens in southwest Asia, the Gulf region, 
and the Middle East more broadly is of vital interest to the security 
and prosperity of the American people. As I said in my confirmation 
hearing, developments in Iraq over the next year or two will shape the 
future of the Middle East and impact global geopolitics for a long time 
to come.
    Whatever one's views of the original decision to go to war and the 
decisions that brought us to this point, there is broad agreement that 
failure in Iraq would be a calamity for our Nation of lasting 
historical consequence.
    The violence in Iraq, if unchecked, could spread outside its 
borders and draw other states into a regional conflagration. In 
addition, one would see:

         An emboldened and strengthened Iran;
         A safehaven and base of operations for jihadist networks in 
        the heart of the Middle East;
         A humiliating defeat in the overall campaign against violent 
        extremism worldwide; and
         An undermining of the credibility of the United States.

    The actors in this region--both friends and adversaries--are 
watching closely what we do in Iraq and will draw conclusions about our 
resolve and the reliability of our commitments. Should we withdraw 
prematurely, we could well leave chaos and the disintegration of Iraq 
behind us. Further, governments in the region probably are already 
asking themselves: If the Americans withdraw in defeat from Iraq, just 
how much farther, and from where else, might we withdraw?
    I would not have taken this position if I did not believe that the 
outcome in Iraq will have a profound and long-lived impact on our 
national interest.
    Significant mistakes have been made by the U.S. in Iraq, just like 
in virtually every war in human history. That is the nature of war. 
But, however we got to this moment, the stakes now are incalculable.
    Your senior professional military officers in Iraq and in 
Washington believe in the efficacy of the strategy outlined by the 
President Wednesday night. They believe it is a sound plan that can 
work if the Iraqi government follows through on its commitments and if 
the non-military aspects of the strategy are implemented and sustained.
    Our senior military officers have worked closely with the Iraqis to 
develop this plan. The impetus to add U.S. forces came initially from 
our commanders there. It would be a sublime, yet historic, irony if 
those who believe the views of the military professionals were 
neglected at the onset of the war were now to dismiss the views of the 
military as irrelevant or wrong.

    Chairman Levin. Thank you very much, Secretary Gates.
    General Pace.

 STATEMENT OF GEN. PETER PACE, USMC, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Pace. Mr. Chairman, Senator McCain----
    Chairman Levin. Let me interrupt you and forgive me for 
doing this. The vote is now into the second half and I think 
after you have concluded, General Pace, what we will have to do 
is adjourn because there are two votes. So we will recess for 
perhaps 10 or 15 minutes, enough time at least for some of us 
to get back to begin our round of questions. We will do that 
immediately after you are finished, General Pace.
    General Pace. Thank you, Mr. Chairman.
    Sir, I would like to thank you, Senator McCain, and all the 
members of the committee, as the Secretary has done, for your 
very strong bipartisan, sustained support of the military. We 
appreciate all that you do for us.
    Also, I would like to thank all the members of the 
committee who go on fact-finding trips, visit the troops, and 
especially those of you, most of you, who have had a chance to 
visit the troops in the hospitals. That makes a difference and 
the word gets out to the troops that you are visiting them and 
that you are visiting them not only where they are serving, but 
also when they are injured.
    I would like to take a minute to thank the troops publicly 
for what they do. It is an incredible honor for me to sit 
before you and represent them. They continue to perform 
magnificently and to do everything we have asked them to do. I 
would especially like to thank their families who are 
sacrificing for this Nation as well as anyone who has ever worn 
the uniform. The addition of troops and the extensions of 
troops all impact families and we deeply appreciate what they 
do on the home front to provide support to the security of this 
Nation.
    If I may, Mr. Chairman, for just a minute, outline the 
military plan that General Casey has worked out with his 
commanders side-by-side with the Iraqi commanders in support of 
Prime Minister Maliki's initiative to change the political and 
economic environment in Iraq in a way that would allow for 
success militarily as well. The plan calls for a senior Iraqi 
commander of Baghdad under whom there will be two Iraqi 
division commanders, one responsible for east of the river and 
one responsible for west of the river. Below them will be nine 
districts, each commanded by an Iraqi brigade commander, and in 
those districts there will be the support of a U.S. battalion 
partnered with those Iraqi units.
    Inside each of those districts there will be three to four 
police stations that will be the hubs of activity for the Iraqi 
army, Iraqi police, and U.S. forces. So the Iraqis can be in 
the lead doing the patrolling, doing the door-to-door census 
work and being a presence; those will be the hubs for the rapid 
reaction forces that will allow us to do this mission.
    General Casey and his Iraqi counterparts did a troop-to-
task analysis, meaning what do we need to do and how many 
troops do we need to do it. In the process of doing that 
analysis, they needed more Iraqi and U.S. troops, General Casey 
and General Abizaid came forward and asked for additional 
troops for Baghdad.
    The Iraqis will also provide additional troops. They have 
pledged to have three Iraqi brigades move from elsewhere in the 
country into Baghdad. These brigades and their commanders have 
been selected in coordination between General Casey and his 
counterpart, as have been the two division commanders and the 
nine brigade commanders who are going to be stationed in 
Baghdad. This has been a collaborative effort, but one that has 
been supported by the prime minister.
    The significant difference in my opinion is the pledge of 
the Iraqi leadership to allow for their commanders to work 
throughout Baghdad without regard to sectarian areas to bring 
rule of law to all criminals, to work in mixed neighborhoods 
and Sunni neighborhoods and Shia neighborhoods to bring the 
peace that is required.
    Significantly, $10 billion of Iraqi money has been 
allocated, pledged, to reconstruction efforts. That is 
important and significant. There is also a pledge from both of 
our governments, both Iraq and the United States, to increase 
economic activity to provide jobs to get the young men off the 
street and productively employed.
    Out in al-Anbar Province, where we have had recent success, 
the Marine commanders have asked for reinforcements to 
reinforce that success. The Sunni sheiks in that area have 
taken on the al Qaeda mission themselves and in fact have 
encouraged their youth to join the local police. About 4,000 
have been recruited so far and about 1,000 of those are 
currently in training in Jordan so they can come back to the 
Sunni neighborhoods and provide support.
    Our commanders have been asked for the equivalent of one 
brigade plus-up out in al-Anbar, two brigades of U.S. and three 
brigades of Iraqi in Baghdad. They are happy to have the 
additional forces that are put in the pipeline on the U.S. side 
that are onwards to go, that can be turned off if not needed, 
but that can in fact arrive and reinforce success or be 
prepared to take action should the enemy do something that we 
have not already planned for.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, General.
    We are now going to recess for about 15 minutes. Sorry for 
this, but that is the way the Senate operates.
    [Recess from 10:04 a.m. to 10:30 a.m.]
    Chairman Levin. The committee will come back to order.
    We are going to have a first round of 7 minutes. Secretary 
Gates, again our apologies for the interruption, but that is 
the last vote for today, so we will not have any more votes to 
interrupt us.
    Mr. Secretary, first let me ask you whether you agree with 
Prime Minister Maliki's statement that ``the ones who can stop 
the cycle of aggravation and bloodletting of innocents are the 
Iraqi politicians''?
    Secretary Gates. I think that it certainly is the Iraqis 
themselves that have to stop the cycle of violence. I think it 
includes the politicians. It includes some of the religious 
leaders and some of the others. But certainly the political 
leaders have to be a part of that.
    Chairman Levin. The President said a few weeks ago that the 
United States ``will be in Iraq so long as the Iraqi government 
asks us to be in Iraq.'' Is that still our policy?
    Secretary Gates. Yes, sir.
    Chairman Levin. Is that not the kind of open-ended 
commitment which the Baker-Hamilton group said was a mistake 
because, in their words, ``An open-ended commitment of American 
forces would not provide the Iraqi government the incentive it 
needs to take the political actions that give Iraq the best 
chance of quelling sectarian violence, and in the absence of 
such an incentive the Iraqi government might continue to delay 
taking those difficult actions''? Is not that kind of an open-
ended statement exactly the wrong message to the Iraqis?
    Secretary Gates. Sir, what I think the President had in 
mind was that we would probably have to be in Iraq to provide 
help of one kind or another to the Iraqis for quite some time, 
and obviously we are interested in a longer-term strategic 
relationship with them--interested in talking to them about 
that. We do not want permanent bases in Iraq.
    I think that what the President was describing was, over 
time, a dramatically reduced American presence, but the fact 
that we would continue to be there and help them in some 
respects for as long as they wanted us.
    Chairman Levin. Now, the Iraqis have made both military and 
political commitments to us, is that correct?
    Secretary Gates. Yes, sir.
    Chairman Levin. If those commitments are not kept, then 
what?
    Secretary Gates. I would say two things. First, Mr. 
Chairman, as I indicated in my statement, I think we are going 
to know fairly early in this process whether the Iraqis are, in 
fact, prepared to fulfill the commitments that they have made 
to us in terms of being able to go into all neighborhoods, lack 
of political interference in military operations, and things 
like that.
    So I think we will have a pretty good idea early on.
    Chairman Levin. Like when?
    Secretary Gates. I would think, on the military side, 
probably within a couple of months.
    Chairman Levin. Keep going.
    Secretary Gates. I am sorry. What was the second part of 
your question?
    Chairman Levin. If they do not keep their commitments?
    Secretary Gates. I think if at that time we conclude that 
at a government level and on a broad level they have not 
fulfilled their commitments, then I think we have to reevaluate 
our strategy.
    Chairman Levin. Just saying we are going to reevaluate our 
strategy is the definition of an open-ended commitment. Again, 
we reevaluate strategy all the time. Just to say if you folks 
do not live up to what you commit, well, then, we are going to 
reevaluate, that is not pressure on the Iraqis. That is the 
same thing which has been going on for years.
    Secretary Gates. The President did indicate to Prime 
Minister Maliki that his patience was not unlimited. I think 
that the premise of this entire strategy is, in fact, the 
Iraqis taking the lead and fulfilling these commitments. If 
they fail to do those things, then I think it is incumbent upon 
the administration and incumbent upon me to recommend looking 
at whether this is the right strategy.
    Chairman Levin. That has been true, though, for years, has 
it not?
    Secretary Gates. I think that what is perhaps the newest 
part of this is that it really does put the onus on the Iraqis 
to come through. This is the Iraqis' idea. The Iraqis seem to 
want to be in charge of this operation, to take the leadership. 
I think they recognize they are running out of time, not 
necessarily even in terms of the American political scene, but 
in terms of their own political scene and the deteriorating 
situation in their own capital.
    Chairman Levin. Have they set up a timetable or agreed to a 
timetable to meet those commitments?
    Secretary Gates. The commitments that they have made as 
part of this plan? They have made several commitments that they 
have already fulfilled.
    Chairman Levin. I am talking about the ones that they have 
not fulfilled. Is there a timetable to take on the militias, 
for instance?
    Secretary Gates. The military operation--and I will defer 
to General Pace--but their first additional brigade, as I 
understand it, is to move to Baghdad around the 1st of 
February, and our first brigade will get there about the middle 
of January. So my understanding--and I will ask General Pace to 
comment--is that the operation itself will probably begin with 
some seriousness around the first week in February.
    Chairman Levin. In terms of saying to the militias that 
they are going to disarm those militias and they are going to 
take them on with robust rules of engagement, do we have a 
specific timetable for that?
    Secretary Gates. Not that I know of. But we will move 
immediately--the first targets will be the mixed 
neighborhoods--but it is clear that that includes neighborhoods 
that are majority Shia. So they will be moving on those. There 
will be no safe havens in this, but I think it is fair to say 
that they will start with the mixed neighborhoods first.
    Chairman Levin. Without a timetable?
    Secretary Gates. General?
    General Pace. Sir, the Secretary is right, there is no 
timetable.
    Chairman Levin. Ambassador Khalilzad said in August that 
Iraq faces an urgent crisis in securing Baghdad. That is 
August. He said that to combat this complex problem Prime 
Minister Maliki's government has made securing Baghdad its top 
priority. ``The Iraqi government's Baghdad Security Plan has 
three principal components,'' Ambassador Khalilzad said, 
``those components are: first, stabilize Baghdad zone by zone. 
Four Iraqi army battalions, two coalition brigades, and five 
military police companies will be redeployed to Baghdad, 
resulting in more than 12,000 additional forces on the city 
streets.'' Did that happen?
    Secretary Gates. No, sir.
    Chairman Levin. Then the Ambassador also said, ``after 
joint coalition and Iraqi military operations have secured a 
neighborhood or district, a structure of Iraqi security forces 
sufficient to maintain the peace is expected to be left in 
place.'' Did that happen?
    Secretary Gates. I better defer to General Pace because I 
was not here then.
    General Pace. It did not, sir.
    Chairman Levin. It did not happen.
    In October Prime Minister Maliki said: ``The initial date 
that we have set for disbanding the militias is the end of this 
year or the beginning of next year.'' Did that happen?
    General Pace. No, sir, it did not.
    Chairman Levin. Maliki also said that a government 
committee was formed in October to give the militias a deadline 
to lay down their arms. Did that happen?
    General Pace. To my knowledge it did not, sir.
    Chairman Levin. I am afraid that we are in the same 
situation we were back then. We have promises and commitments 
without deadlines, promises that were not kept, to do the exact 
same thing that they say they will do now, but without 
consequences if they fail other than that we will reevaluate 
our strategy.
    It seems to me that is not a change of course. That is a 
repetition of the path that we are on, which is a path that 
promises are made about taking on militias, for instance--and 
by the way, money was promised before, too, to be allocated by 
the Iraqi government, which never came through. So we have 
promises, commitments made, but nothing is conditioned upon 
them on our part, and there are no consequences when they fail 
other than a general statement that then we will review our 
strategy.
    So it seems to me part of the real reaction that I think 
you and the President have seen is that there is a commitment 
of real troops getting in deeper militarily on our part, but on 
the part of the Iraqis there are just promises without 
consequences for failure to live up to those promises.
    My time is up and we will again have a 7-minute early bird 
rule here. Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    Secretary Gates, how soon can we expect General Petraeus' 
nomination to come before the committee?
    Secretary Gates. I signed the nominating papers this 
morning and they were being hand-carried over to the White 
House today. I will call and let them know of the committee's 
interest in receiving them as quickly as possible.
    Senator McCain. The chairman and I discussed this. I am 
very happy to say, we could have a hearing as quickly as 
possible. Hopefully, that could be as early as next week if we 
get the papers. I think it is very important if you have a new 
team to get the new team in place to implement a new strategy. 
I think my colleagues share that desire.
    Secretary Gates, you said yesterday and again today that in 
a couple of months we will know. We have the first brigade, as 
you just mentioned, about mid-January, another one mid-
February, and another one mid-March. How will we know within a 
couple of months as to whether they are being effective or not, 
when really the third of five brigades as I understand it is 
not even there until mid-March?
    Secretary Gates. I think what we will have is some 
indication of whether the Iraqis are keeping their commitments 
in terms of not whether the operation itself necessarily has 
been effective, but whether the Iraqis have fulfilled their 
commitments to provide specific brigades by specific times, 
whether they are in fact allowing the operations to proceed 
without political interference, whether they are allowing the 
operations to go into all neighborhoods. Those are the things.
    Senator McCain. Those are important distinctions.
    Do you have confidence that the present Iraqi government 
will carry out the commitments that they have made in recent 
days, as Senator Levin just discussed?
    Secretary Gates. As the chairman has indicated, the record 
of fulfilling commitments is not an encouraging one. But I will 
say this: They really do seem to be eager to take control of 
this security situation. They will have control of all but one 
of their own divisions, military control of all their 
divisions, by March. Prime Minister Maliki asked me when I was 
there about 3 weeks ago, ``how can I be held accountable if I 
do not have control of my own military forces? How can you hold 
me accountable if I do not have control of my own military 
forces?''
    Everything that we have seen beginning with the 
appointments of the military officers to lead this campaign 
that they have promised to do by a specific date, they have 
done so far. I think the feeling on the part of those who have 
talked to Prime Minister Maliki--and I think it is important to 
stress that the President and the Ambassador and General Casey 
have not just talked to Maliki about these commitments; they 
have talked to President Talabani, Vice President Hakim, Vice 
President Hashemi. So that it is the entire Iraqi government 
that has embraced these commitments this time as opposed to 
just Prime Minister Maliki in the past.
    So I think there is a sense of confidence on the part of 
General Casey and those that are dealing directly with the 
Iraqis on this that they have every intention of fulfilling 
their commitments this time.
    Senator McCain. General Pace, there is a popular notion in 
Washington that U.S. troops are getting ``caught in the 
crossfire'' between the Sunni and Shia. When I was there, every 
military person I talked to said when American forces go in the 
violence subsides. Has that been the history of our involvement 
in this Sunni-Shia sectarian violence?
    General Pace. Sir, it has been. We are not caught in a 
crossfire. The vast majority of our casualties are from the 
improvised explosive devices (IEDs). When we have been going 
into neighborhoods and providing presence there, we have not 
been in firefights. But what we have needed is the additional 
Iraqi troops to be able to stay in the neighborhoods and 
provide security so that they can do the hold and build pieces 
of this, and that is why the Iraqi commitment to the three-
pronged plus-up--troop plus-up, political plus-up, and economic 
plus-up--is so fundamental to the success.
    Senator McCain. Are you confident, General Pace, that we 
have a sufficient number of troops in this plan to get the job 
done?
    General Pace. I am confident, given the Iraqis delivering 
on their promises and the economic legs of this stool, that the 
military part of this plan is sufficiently resourced both from 
the standpoint of what the commanders on the ground have asked 
for and any additional troops that we made available to them 
that are going to go unless the commanders on the ground say 
please stop.
    Senator McCain. It is a matter of concern to a lot of us.
    Secretary Gates, are the Iraqis more or less likely to rely 
on sectarian militias for their security if we announced a 
withdrawal of American forces in 4 to 6 months?
    Secretary Gates. I think that any time you announce a 
specific deadline or a specific timeline for departing in a 
situation as volatile as this, you basically give your 
adversaries the confidence that all they have to do is wait you 
out.
    Senator McCain. General Pace?
    General Pace. I did not understand the question, sir. Could 
you repeat?
    Senator McCain. Let me put it to you in a different way. If 
we announced a withdrawal within 4 to 6 months, should we not 
just go ahead and announce the withdrawal?
    General Pace. Sir, if we announced a withdrawal I think our 
enemies would just simply hold their breath and wait for us to 
get out of town. We should not announce a withdrawal. We should 
announce our intent, we should resource that intent, and we 
should see it through.
    Senator McCain. Secretary Gates, let us suppose that we do 
withdraw in 4 to 6 months, as has been espoused in a letter to 
the President of the United States by the Senate Majority 
Leader and the Speaker of the House, what happens in the region 
then in your opinion, Mr. Secretary?
    Secretary Gates. I think it will depend on the 
circumstances in Iraq at the time. If we withdraw and the 
situation descends into chaos, which----
    Senator McCain. How likely is that?
    Secretary Gates.--which I think most people believe is a 
very real possibility, given what has happened over the past 
year.
    Senator McCain. What do you believe?
    Secretary Gates. I think it is highly likely that there 
would be a significant increase in sectarian violence in Iraq, 
that the government would probably begin to come apart, that 
the army might come apart, and that you would probably have 
outside elements. So you would have a significant increase in 
violence and an increased interest in the part of other players 
outside of Iraq in intervening to protect their interests.
    Senator McCain. Including great tensions between Turkey and 
the Kurds?
    Secretary Gates. Yes, sir.
    Senator McCain. Again, I think that, Mr. Secretary, if 
those are your views, that we ought to emphasize that more, 
because those who are calling for withdrawal are somehow 
conveying the impression, either intentionally or 
unintentionally, that then it is all over. I think it is far 
from all over. I think it is a situation which sooner or later 
would threaten our vital national security interests and we 
would have to act accordingly.
    I also wonder if you agree that our failure in Iraq has 
emboldened the Syrians, emboldened the Iranians, caused greater 
difficulties with Hezbollah and Hamas, and contributed to 
increased tensions and dangers in the region.
    Secretary Gates. Yes, I do, and in fact when I participated 
in and co-chaired the Council on Foreign Relations study with 
Dr. Brzezinski in 2004 on Iran, an important premise of that 
report was that in fact the Iranians had been put on their back 
foot by our success in Afghanistan and by the invasion of Iraq, 
that the Iranians were quite concerned about having U.S. forces 
on their east and west borders, and that they in fact had shown 
some interest in helping us in some respects in Iraq.
    As the situation in Iraq has deteriorated, that mixed 
record of Iran in terms of doing things that hurt us and doing 
a few things that were helpful has become very one-sided, as 
they have gained confidence that we are in trouble there, that 
in effect we are on the defensive, and there have been no 
positive things and in fact they are now participating in and 
supporting efforts to kill American troops.
    I would say that I think there is an alternative scenario, 
it could happen within the timeframe that is being discussed, 
and that is that, if these operations actually work, you could 
begin to see a lightening of the U.S. footprint both in Baghdad 
and potentially in Iraq itself. If we are able to be successful 
in quelling the violence, we will continue to be at the mercy 
of anybody who straps on a suicide vest, but if you lower the 
level of sectarian violence significantly, and they meet some 
of these political commitments that have been made before and 
not met, then you could have a situation later this year where 
you could actually begin withdrawing.
    But I think that would be dependent on success on the 
ground, not on having announced something beforehand.
    Senator McCain. Thank you very much.
    Mr. Chairman, thank you.
    Chairman Levin. Senator McCain, since you made reference to 
a letter which was signed by the two leaders, which I would 
say, in all due respect, is somewhat different than the 
characterization, but let it speak for itself in any event----
    Senator McCain. It does.
    Chairman Levin. It does speak for itself and I think very 
powerfully. In any event, we will make that letter part of the 
record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Senator Kennedy.
    Senator Kennedy. Thank you. Thank you very much, Mr. 
Chairman.
    Mr. Secretary, thank you, again, and General, for your 
service.
    Some of us believe that as long as we are going to be a 
crutch over there the Iraqis will not make the judgment and 
will not make the decisions which are in the interest of a more 
secure Iraq. That is what basically part of the debate is 
about. Many of us who have supported it believe that you have 
to start redeployment before they really get the message that 
they are going to have to take a decision, are interested 
because they were criticized because of establishing some time 
frame, and yet the administration now has a time frame because 
they have a surge.
    The administration denies that it is an escalation; it is 
just a surge. ``Surge'' by definition, there is a beginning and 
an end to it. So this runs into this other issue, which I never 
felt a lot of, that suddenly al Qaeda is going to go away or 
disappear for a period of 6 or 8 months and then come out and 
fight it at a different time.
    But let me go back to three concerns that I have in terms 
of the administration's policy. First, when we go back to what 
the authorization was in terms of the Armed Forces, it was 
effectively that Saddam had violated United Nations (U.N.) 
resolutions, had weapons of mass destruction (WMD), and 
operational contacts with al Qaeda.
    Saddam is gone now, and the President, in his statement, 
talks about a new policy that he has. He has a new policy, and 
he talks about the surge. We look back in terms of the history 
of surges. We had one in Najaf in 2004, you had the surge, and 
we had a loss of a good number of American troops. We had the 
Fallujah surge, where over 300 American troops were lost. We 
had the surge in 2005 at the time of the elections. They were 
peaceful elections but there was an escalation of violence 
against American servicemen just after that. Then in 2006 we 
had the surge after Samarra and we had a spike in American 
deaths.
    Many of us who listened to General Abizaid and General 
Casey, who were sitting in those seats, believe that they 
thought that the lesson from those experiences was that the 
surge and the escalation was not really what was in the 
interest of the United States or security or achieving our 
goals there.
    Now we have the announcement of the President's program and 
we ask ourselves, well, what is the reaction from Mr. Maliki? 
If you look at this morning's paper with the Pulitzer Prize-
winning author of the New York Times, John Burns, this is his 
report: ``Iraqi Shiite-led government offered only grudging 
endorsement on Thursday of the President's proposal deploying 
20,000 additional troops in an effort to curb sectarian 
violence and regain Baghdad. The tepid response raised 
questions about whether the government will make a good faith 
effort to prosecute the new war plan. Iraqi leader, Prime 
Minister, Maliki failed to appear at a news conference and 
avoided any public comment.''
    Now we are asking the American people to support an 
increase in sending American servicemen over there when we have 
this kind of reaction from the leader in Iraq.
    At least, Mr. Secretary, if we are going to have this kind 
of departure from what was in the original authorization, if we 
have this kind of reaction in terms of Mr. Maliki, and 
understanding that American foreign policy is best when the 
American people are behind it. When they are behind an American 
foreign policy, that is when it is at its best. Why not come 
back to Congress? Why not come back and permit us to have a 
vote on this surge? Let the American people speak through their 
elected representatives to find out whether the American 
people--with the time it took the President now, 2 months, to 
make this judgment, let us have 10 days to try and make a 
judgment and a decision whether the American people are behind 
this.
    If we find out that they are, it is going to at least 
enhance, from the administration's point of view, your view. If 
we find out at this time that they are not, it is going to be 
of value in terms of policymakers.
    Secretary Gates. Senator Kennedy, I take your point. I will 
certainly pass the message to the President. I think he feels 
that he has the authority that he needs to proceed. I think 
quite honestly that he believes that sometimes a President has 
to take actions that contemporaneously do not have broad 
support of the American people because he has a longer view.
    I remember that when the first President Bush made the 
decision to throw Saddam Hussein out of Kuwait the polls showed 
about 15 percent of the American people supported that action. 
After it was successful, about 90 percent supported it. So 
there are times when a President has to take actions as he sees 
the long-term national interest and sometimes he pays a 
political price for that.
    Senator Kennedy. I appreciate the comments that you make 
and the basic concept. But we have been in this war now for 4 
years with the policy of this administration, and he has 
indicated that this is a new policy. Basically, many of us 
believe that we are increasing and enhancing the chances that 
American servicemen are going to get caught in this civil war--
the basic strife between the Sunni and the Shia.
    We can talk about an escalation of sectarian violence. We 
can talk about what Senator Hagel, Kofi Annan, and others have 
called the civil war. It is escalation of sectarian violence, 
Americans getting caught between the Sunni and the Shia on 
these battles. That is the basic conflict there; the Kurds in 
the north, but the basic conflict there.
    Basically, many of us believe that we are exposing 
Americans to a civil war and that we ought to have some 
opportunity to express our views on that. We do not believe and 
I do not believe the American people would authorize it. You 
ask them or the Senate would. I might be wrong. Do we want to 
have Americans involved in making judgments and decisions in 
this escalated sectarian conflict and in a civil war?
    I think we saw at the end of the Vietnam War how this 
country, Republicans and Democrats, came together and passed 
the War Powers Act. You can say that does not apply now, but it 
was an expression at that time, across the country of 
bipartisan support. 78 Senators--Republicans and Democrats--
said they had been left out of the decision on Vietnam; we do 
not want that to happen again.
    It is happening again, Mr. Secretary, and I think the 
American people through their representatives should have an 
opportunity to speak.
    My time is up, but I thank you. Thank you.
    Chairman Levin. Thank you very much, Senator Kennedy.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    First, Secretary Gates, thank you and your family for once 
again returning to the public sector to take on this arduous 
assignment. I have had the privilege of working with many 
Secretaries of Defense and indeed serving a number of years in 
that building myself, and it is an enormous challenge. I really 
believe, drawing on my own lifetime of experience, this moment 
in American history is a very critical one.
    I observed the President's conclusion that it would be a 
disaster if we were to allow Iraq to implode, be divided, and 
scattered to the winds in that region. So we must find a way to 
avoid that. I do not call it victory, I do not call it win, but 
to enable this government and its people to continue to seek 
their own level of democracy and freedom.
    I have studied very carefully the President's program and I 
am continuing to study it. He was responsive to some of us. As 
early as last October, I came back from Iraq, felt that the 
situation was just drifting sideways and that we needed to have 
an intensive reexamination. I commend the President and his 
team, including you and your staff, General Pace, for doing a 
very thorough study. What he laid before the American public 
here a night ago was a credible product and one worthy of very 
careful consideration.
    But among the things that I want to consider before I make 
final judgments is the National Intelligence Estimate (NIE). 
Our committee recommended that that be done. The administration 
has it underway. Yesterday, in that seat, I asked Ambassador 
Negroponte, our chief of intelligence, and he said it would be 
finished toward the end of the month.
    Are you acquainted with the drafts thus far? Were you fully 
aware of the conclusions that they were reaching in the NIE 
from the President's announcement the other night?
    Secretary Gates. No, sir.
    Senator Warner. General Pace, are you familiar with it?
    General Pace. Not in the form of a written document, sir. 
But certainly in the dialogue that we have been involved with, 
the intelligence input has been very much in the forefront. So 
I have to believe, although I have not seen the document, that 
the people who are making the recommendations and giving us the 
intelligence on which we base our estimates.
    Senator Warner. It will be available to Senators, I hope, 
before the end of this month.
    Now, General Pace, as so often is the case, and I think 
ever since World War II, we as a country have contributed a 
great deal of money to provide facilities within the military 
to wargame strategies--the National War College, your Joint 
Services Command, and other entities. To what extent has this 
plan been thoroughly vetted by, I call it, a wargame scenario 
or an A team, a B team, a red team, a blue team, the various 
types of analytical mechanisms that DOD utilizes to carefully 
scrub it before it gets on the table and you implement it?
    General Pace. Sir, several ways. First, in Iraq itself with 
General Casey, General Odierno, General Zilmer, the Marine 
commander out there, working on the plan with their Iraqi 
counterparts, doing the troop-to-task analysis of how many 
individuals are going to be needed to do the work involved, 
then doing the tabletop and rock drill type exercises that go 
along with those, and having red teams themselves looking at it 
from the enemy's viewpoint. That was all done inside of Iraq.
    Back in Washington, DC, myself and the chiefs for several 
months have taken a good hard look at where we are, where we 
should be, what the impediments are, how to make changes to 
that, and have been taking a look at the plans coming up.
    The Joint Forces Command in Northern Virginia has the 
responsibility also to provide assistance and General Smith 
from Joint Forces Command has assisted in that regard. General 
Petraeus' command out in Kansas right now is also involved.
    Senator Warner. All right. I would indicate to you that I 
would like to examine that. I will come back to you and ask to 
look at some of those reports.
    Did they consider some of the conclusions in the Baker-
Hamilton ISG report? I find this a very helpful document. I do 
not agree with much of it, but there are some things in here 
which strike me as very important.
    General Pace. Sir, every single one I can guarantee you 
within the Joint Chiefs were looked at. We took all 79. We took 
a look where we were. We cross-referenced those that we were in 
agreement with and we specifically took a look at those that we 
were not in agreement with to make a conscious decision that we 
were either with them or not with them, for whatever reasons we 
believed.
    Senator Warner. I misspoke when I said I disagree with much 
of it. I have looked it over. I am not trying to pronounce the 
quantum of how I agree.
    But I want to point out recommendation 43: ``Military 
priorities in Iraq must change.'' Indeed, I and others asked 
for a change. This is their concept of change: ``With the 
highest priority being given to the training, equipping, 
advising, and support missions and to counterterrorism 
operations,'' which essentially says the current mission should 
be augmented, strengthened, and given greater emphasis.
    Was that given consideration?
    General Pace. Absolutely, not only given consideration, 
sir, but in fact it is part of the way forward. We are going to 
double and triple the size of the embedded trainers with all 
Iraqi units and we are going to take them below the 600-man 
battalion level down to the 100-, 150-man company level within 
the Iraqi army.
    Senator Warner. My estimate here, that recommendation would 
not require anywhere near the 20,000-plus that you envision. It 
seems to me several thousand could be put in as a start and to 
see whether or not in fact the Iraqis do swing in and become 
full partners, which they failed to do in the previous Baghdad 
operation, my point being it seems to me should we not walk a 
few steps along this line and then see how quickly, hopefully, 
the Iraqis begin to take up their responsibilities, rather than 
this massive plan pushing forward all at once?
    General Pace. Sir, I understand your point and I think that 
we should in fact increase, as the Baker-Hamilton report 
recommended. But as we took a look at the military plan to 
support Prime Minister Maliki's initiative, understanding the 
changed political and economic environment and in concert with 
that----
    Senator Warner. My time is up. I have just one last thing 
for Secretary Gates. The President made a very important 
statement the other night regarding Iran and Syria. He said, 
``Succeeding in Iraq also requires defending its territorial 
integrity and stabilizing the region in the face of extremist 
challenges. This begins with addressing Iran and Syria. These 
two regimes are allowing terrorists and insurgents to use their 
territory to move in and out of Iraq. Iran is providing 
material support for attacks on American troops. We will 
disrupt the attacks on our forces. We will interrupt the flow 
of support from Iran and Syria and we will seek out and destroy 
the networks providing advanced weaponry and training to our 
enemies in Iraq.''
    I remember Vietnam. I was in the Pentagon in those many 
years. I am concerned about whether or not this would require 
U.S. forces to cross the borders into Iran and Syria to 
implement this program, or does this program envision just 
actions within the territorial area of Iraq?
    Secretary Gates. Senator Warner, I will ask General Pace to 
comment. First, I believe it refers strictly to operations 
inside the territory of Iraq, not crossing the border.
    With respect to your earlier point, the practical effect of 
the flow of our troops is going to accomplish I think what you 
suggest. One brigade will go the middle of this month. A second 
brigade will not go until the middle of next month, and then 
they will flow at roughly monthly intervals. As I said in 
response to Senator McCain's question, before we have sent in 
very many additional American troops, we will have a pretty 
good idea, at least on the military side, whether the Iraqis 
have stepped up to the plate in terms of fulfilling their 
commitments.
    General Pace?
    General Pace. Sir, from a military standpoint, there is no 
need to cross the Iranian border. We can track down and are 
tracking down and have added resources to go after the networks 
in Iraq that are providing tools to kill our troops, regardless 
of where they are coming from. It is instructive that in the 
last couple of weeks we found Iranians twice.
    Chairman Levin. Thank you.
    Senator Warner. My last comment to you, General, would be 
that I hope your rules of engagement to your forces are such 
that you do everything you can to avoid American GIs getting 
into a crossfire of sectarianism, so much of that crossfire 
predicated on religious doctrine which has been debated within 
this theory of Sunni and Shia religion for over 1,000 years. 
That is not our responsibility. It is the Iraqi forces' 
responsibility to settle that.
    General Pace. The Iraqis will lead and, as you have seen on 
TV in the last couple of days, the Iraqi forces have been in 
the lead in places like Haifa Street. We have been providing 
fire support, and our troops will continue and always will have 
the right to defend themselves with the force needed.
    Chairman Levin. Thank you.
    Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thank you, Mr. Secretary and General, for your service. I 
want to begin by going back to perhaps the first sentence of 
the chairman's opening remarks, in which he said all of us 
share the common goal of maximizing the chances of success in 
Iraq. I start with that premise, I accept it, and I think it is 
true, because no matter what your opinion is about what we 
should do, I think everyone understands it would be a disaster 
to fail in Iraq, for all the reasons that have been spelled 
out.
    The President presented a plan the other night. I support 
it because I believe it can maximize our chances of success in 
Iraq. There are no guarantees. We all know that. But it does 
move forward toward the goal that Senator Levin has spoken of 
of maximizing our chances of success in Iraq.
    It does, incidentally, grow out of, exactly as General Pace 
has said, statements and requests that we heard--the group of 
us who were there in Iraq in December, from our military, the 
commanders in charge, the colonels--the boots on the ground. 
They want to finish the fight. They believe in the cause for 
which we are fighting. They believe they can win it, but in 
Baghdad, because of sectarian violence, and in Anbar because of 
al Qaeda insurgency, they need reinforcements.
    So I support the President's plan. I think those who do not 
support it have an obligation to offer a plan that also moves 
toward the goal of maximizing our chances of success in Iraq, 
and so far I have not heard that, with all respect. There seem 
to be two responses that are contemplated here in Congress. One 
is a resolution that would simply express, a sense of the 
Senate expressing disapproval of the President's plan for 
increasing troops. That would have no effect on our ability to 
implement the plan, but I fear it would send a mixed message to 
our enemies and to our troops, in fact.
    The second alternative being discussed is to take some 
action to stop the President as Commander in Chief, the 
Secretary of Defense, the military, from implementing this 
increase in troop strength.
    Senator McCain asked you a series of important questions, 
Mr. Secretary, about the impact of beginning a withdrawal in 4 
to 6 months on sectarian violence and the prospects of a 
political solution. My interpretation--please tell me if I am 
wrong--of your answers is that you feel very strongly that 
beginning to withdraw our troops from Iraq does not maximize 
our chances of success there. Am I correct?
    Secretary Gates. Senator, my view is that if, as I 
suggested, this operation is successful, we in fact may be able 
to begin drawing down some of our troops later this year. But 
that will depend entirely on the situation on the ground. What 
I was trying to differentiate between was that, in some period 
of time later this year, based on the conditions in Iraq, we 
might be able to begin doing that, and announcing beforehand 
that we were going to begin withdrawing during a period 
regardless of the conditions on the ground.
    Senator Lieberman. Absolutely, I understood that. Or 
beginning to withdraw our troops without the increase in troops 
that the President is now implementing, that also would not 
maximize our chances of success.
    Secretary Gates. It certainly is the view of the commanders 
on the ground that this increase will enhance our chances for 
success.
    Senator Lieberman. Let me ask you this question. Consider 
the alternative proposal that I presume will be put before the 
Senate and the House, that Congress in some way take action to 
stop the Commander in Chief from implementing the plan that he 
proposed the other night. What impact do you think that would 
have on the current state of sectarian violence in Baghdad if 
Congress acted to stop the funding for the additional troops 
requested by the Commander in Chief?
    Secretary Gates. I will defer to General Pace, but I think, 
first of all, it is important to understand that the reason for 
the change in policy, strategy, tactics, however you want to 
characterize it, is that everybody agreed that where we have 
been for the last several months is unsatisfactory.
    Senator Lieberman. Correct, I agree.
    Secretary Gates. The President himself has said that it is 
unacceptable.
    Senator Lieberman. Agreed.
    Secretary Gates. So there is a broad consensus that 
something needs to change.
    Senator Lieberman. Right.
    Secretary Gates. So the view of our commanders is that the 
plan that the Iraqis have put forward, that our commanders have 
worked to flesh out with them, offers the best chance of having 
some success through a changed approach, and the changes are 
familiar to everyone in terms of the role of the Iraqis. But I 
defer to the General.
    Senator Lieberman. General Pace, so if Congress blocked the 
implementation of the troop increase now contemplated, what 
would be the effect on sectarian violence in Baghdad?
    General Pace. Sir, I think sectarian violence would 
continue, that the commanders on the ground have made the 
proper assessment that, given the changed political environment 
in Iraq, led by the Iraqi government, and the increase in 
economic activity, that we do have a proposal that can be 
successful. Without the resources to execute that mission, then 
it will certainly not be successful. I do not know then the 
direct impact, but it will clearly not be successful if not 
allowed to execute.
    Senator Lieberman. Secretary Gates, if a motion to block 
implementation of the plan that the President announced the 
other night passed Congress, what would be the impact on the 
political leadership of Iraq insofar as we all know that in the 
end Iraq has to go forward as a result of an Iraqi political 
solution?
    Secretary Gates. I honestly do not know the answer to the 
question. It is hard to imagine that it would have a positive 
effect.
    Senator Lieberman. That is certainly my fear, that if we 
took action to block the funding, it would damage the morale of 
the troops which remains extremely high.
    Let me ask two different kinds of questions. There are some 
rumors around that in the normal course of things General 
Petraeus, who I think was an excellent choice to assume command 
in Iraq--a lot of us know him and are impressed by his 
experience, his commitment, his feeling that we can succeed in 
Iraq. But I have heard that it may be that he will not arrive 
there until April. Is that true, and if so is there any way 
that that can be expedited because of the urgency on the ground 
and because of the fact that you are implementing this new plan 
now?
    Secretary Gates. We certainly will get the nominations of 
the three officers that I have recommended to the President. 
All three I signed out this morning to the White House. They 
were hand-carried to the White House and, believe me, after 
this hearing I will let the White House know of the desire to 
move as quickly as possible.
    Senator Lieberman. Thank you. That is very important.
    General Pace, a final quick word. Tell us a little more 
about the action in Irbil that ended up in capturing some 
Iranians?
    Chairman Levin. If you could do that briefly, General, 
because the time is running.
    Senator Lieberman. Thank you.
    General Pace. Yes, sir. As I mentioned, Senator, we are 
tracking across Iraq all networks that provide weapons to our 
enemies, that provide the opportunity for the IEDs and the 
like. In the pursuit of that network, most recently in Irbil 
but also recently in Baghdad, twice in the last 2 or 3 weeks, 
in pursuit of those networks, when we have gone and captured 
those cells, we have captured Iranians.
    Chairman Levin. Thank you.
    Senator Lieberman. Thank you.
    Chairman Levin. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me just echo the words of Senator Warner 
on how much I appreciate the service you have rendered for your 
country in the past and what you are doing today.
    It is going to be unpopular for me to say what I am saying, 
but somebody in this hearing has to do it. A lot of the 
criticism from yesterday's hearings and today's and future 
hearings are highly politically charged. It may be just a 
coincidence that those six people who were most outspoken in 
their criticism of the effort and of the President yesterday 
are all six running for president.
    I am glad that Senator Lieberman talked about people who 
are opposing this. If you oppose it, you need to come up with 
why you are opposing it and what are the solutions. A lot of 
people who are opposing the President today were opposing him 
before he made his speech.
    Now, let me be a little bit positive on some things because 
all we have heard is negative so far. I have had occasion in 
the last few years to be in the Iraqi area of responsibility 12 
times, probably more than anybody else has. As I think back, 
after the first election, I remember so well how people risked 
their lives to get out and vote, women, knowing that they were 
going to have opportunities they had never had before.
    One lady, through an interpreter, told me, ``as I was 
voting, it occurred to me, this is not just the first time in 
30 years of a brutal dictator; this is the first time in 4,000 
years we have had an opportunity for self-determination.'' She 
said, ``I could not see the ballot for the tears in my eyes.''
    I think it was 6 months later, the day after Zarqawi was 
taken--we have talked a lot about Maliki--but there was Prime 
Minister Jassim, Dr. Rubaie, all of them. I became really 
convinced that there is a high quality of leadership there. 
They have the capability of doing this, and they impressed upon 
me that a lot of what we hear over here about the Sunnis and 
the Shia is really a western concept. Those were their words. 
He said, ``We are Iraqis first.''
    I thought the President did a great job in his speech, and 
I would just like to repeat one thing that he said, the fact 
that he took responsibility for the failures, and there have 
been failures. He went on to say, ``The gloves have to come 
off.'' The implications of failing in Iraq will be faced by our 
children and grandchildren, of which I have 20. There will be 
sectarian cleansing, civil war, and probably genocide. Radical 
Islam will have a safe haven to carry out training, to use as a 
base of operations to target free societies.
    Senator McCain, who is not here right now, but he made the 
comment that they would follow us home.
    Let me just make a comment. One thing that I do not want to 
hear in the years to come is that we did not resource this 
thing right. Let me suggest a couple things here and get your 
response to them very briefly. First of all, we must give our 
commanders and the troops what they are asking for and give 
them the resources they need, including the rules of 
engagement.
    Second, equipping the Iraqis. One of the experiences I had 
in Fallujah was that these guys are really committed. I am 
talking about the Iraqis now. They say, yes, we are going to be 
able to take care of our own security. Look at the weapons they 
are carrying around. Most of it is old Chinese and Russian 
stuff that does not work. They are out there, instead of with 
any kind of armor, they are in pickup trucks.
    So I would ask you, either one of you, are we in a position 
to provide the necessary equipment? Because you do not hear 
anything about that. I am talking about equipment to the 
Iraqis.
    Second, if you determine in the near future that we need 
more troops, will you come back and ask for them?
    General Pace. Sir, yes to both. On the Iraqi side, the 
equipping of the Iraqi armed forces is at about 98 percent of 
what we need to give to them. The other 2 percent is being 
produced and delivered.
    Senator Inhofe. That is good.
    General Pace. They have flak jackets, helmets, rifles, 
machine guns, small vehicles, trucks, Humvees, and the like.
    Senator Inhofe. A lot of that was done since the last 
election took place, I assume?
    General Pace. Since the last election in Iraq?
    Senator Inhofe. Yes.
    General Pace. Yes, sir, that is correct.
    With regard to troop levels, yes, sir, we will continue to 
ask for the troop levels. The commanders on the ground have 
asked for in this instance two brigades for Baghdad and one 
brigade in al-Anbar. In the process of providing those, we gave 
them not only what they asked for, but put in the pipeline to 
be delivered at a later date troops that can reinforce success. 
So they are going to get what they need, and the commanders are 
happy to have that additional capacity should they need it.
    Senator Inhofe. I assume you agree with that statement, Mr. 
Secretary?
    Secretary Gates. Yes.
    Senator Inhofe. I was going to, but time is not going to 
permit me to, get into the justice problem that is over there. 
We have these qualified attorneys right behind me, Senators 
Sessions, Graham, and Cornyn, and I am sure that they will 
address this. So let me jump into something else.
    I want to commend you, Secretary Gates, for coming out and 
recommending the 92,000 additional soldiers and marines. With 
the drawdown of the 1990s, I saw this coming. Many of us did. 
We went to the Senate floor, and now we are correcting that. So 
I appreciate that.
    In your written statement you said something I do not think 
you said in your spoken statement. I just want to read this 
because I think it really puts it in perspective: ``Significant 
mistakes have been made by the United States in Iraq, just like 
in virtually every war in human history. That is the nature of 
war. But however we got to this moment, the stakes are now 
incalculable.'' Essentially, that is almost exactly what 
Winston Churchill said at one time.
    Now, for clarification, General Pace, because I may not 
understand this right, on the nine districts that we have, we 
are talking about having a brigade of Iraqi army, a brigade of 
police, and then they would be fortified by a battalion of our 
troops or coalition troops; is that correct?
    General Pace. Sir, when all the forces are there, there 
will be 18 Iraqi brigades--9 Iraqi army and 9 Iraqi police. 
There are currently six Iraqi army, nine Iraqi police.
    Senator Inhofe. I am breaking it down to each one of the 
districts.
    General Pace. Yes, sir. In each of the nine brigade areas, 
the mix will be either one Iraqi army and one Iraqi police or 
two of one kind or two of another, based on the capacity of the 
police and the types of----
    Senator Inhofe. The problems.
    General Pace. Yes, sir, whether police would be most useful 
or soldiers would be most useful in those districts.
    Senator Inhofe. It would be two brigades, though, in each 
district?
    General Pace. It might be three, it may be three in a 
particular district and one in another, sir. But the math ends 
up being on average two per district.
    We then have a battalion per district, but we have six 
brigades already in Baghdad, with a seventh brigade, which is 
our mobile brigade, which is our Stryker brigade, and we 
propose to add two brigades to that. So we would end up having 
a total of nine brigades in Baghdad. The Iraqis would have 18.
    Senator Inhofe. Okay. I just think it is important to let 
the American people know the mix that is there. It is heavily, 
heavily weighted toward the Iraqi participation and we are in 
the back supporting them on somewhat of an embedded basis.
    General Pace. Yes, sir. The Iraqi casualties today are 
twice what ours are. The Iraqis are in this fight and they are 
taking the responsibility, and they need some help.
    Senator Inhofe. General Pace, the Iraqis I talk to when I 
am over there say that they are very proud of that. They want 
to be out front.
    My time has expired but I would like for the record to have 
you respond to this hugely successful operation in Somalia. Two 
of the programs that I have supported very much are train and 
equip and the Commander's Emergency Relief Program (CERP), and 
I think probably, with train and equip, the biggest success 
story that we can use as a model took place in Ethiopia, and I 
would like to have you for the record respond as to what 
lessons we learned there that are going to be helpful for the 
two of you as we address the problems in Iraqi.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    We have reviewed our historical files, and we have no record of a 
train-and-equip mission with Ethiopia that would be the model for 
lessons learned applied to problems in Iraq.

    Chairman Levin. Thank you very much, Senator Inhofe.
    Let me now call on Senator Byrd. I want to thank Senator 
Jack Reed for his usual courtesies in allowing this deviation 
from our strict early bird rule.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman.
    Mr. Secretary, we hear a great deal about a new strategy. I 
do not see much that is new in this approach. We have escalated 
our forces in Baghdad before and yet we remain caught in the 
crossfire of a civil war. We have provided nearly $36 billion 
in reconstruction funding for new schools and hospitals and 
roads and electrical systems and oil lines, and yet the 
violence continues unabated. I have little confidence that this 
time the results will be any different.
    At the outset of this war, the Bush administration believed 
apparently that democracy could be exported through the barrel 
of a gun. That belief was wrong then. It is wrong still today. 
20,000 more guns and 20,000 more soldiers will not make it 
right.
    In December, the ISG reported that the violence in Iraq is 
now primarily a sectarian conflict. But in his speech to the 
Nation, the President threatened that starting to bring our 
troops home would mean new terrorist threats to our Homeland. 
That is exactly the same sales job that was used to justify the 
start of this misguided war, that Saddam Hussein was planning 
for the day in which he would unleash WMD on our cities. We 
heard about mushroom clouds and lethal drones from Iraq 
targeting our cities. Those claims were little more than hype 
and fright.
    The trust that the people gave this administration was 
squandered long ago. Secretary Gates, when the American people 
hear the administration's claim about terrorists taking over 
Iraq and committing another September 11 on our country, why 
should anyone believe the hype? The White House refuses to 
recognize that Iraq is in a civil war, that the violence is 
between religious groups and not, as the President would have 
the people believe, driven by terrorism.
    How can there be a new plan for Iraq if the President does 
not acknowledge the new reality on the ground in Iraq? Do you 
want to comment on that question?
    Secretary Gates. Yes, sir. I think in reality there are 
four wars going on in Iraq right now simultaneously: a Shia on 
Shia conflict in the south; sectarian violence, particularly in 
Baghdad but also in Diyalah and a couple of other provinces; an 
insurgency; and al Qaeda. The extremists, the insurgents, and 
al Qaeda in particular, have tried for some time to provoke the 
kind of sectarian violence that we are now seeing. The Shia 
were actually quite restrained for some time, until the bombing 
of the mosque at Samarrah, and now we see the sectarian 
violence that you have referred to.
    But we also continue to see the extremists from time to 
time engaging in particularly violent acts intended to keep 
stoking the fires of this sectarian violence. This effort that 
we are talking about now is to try and bring that kind of 
sectarian violence under control under Iraqi auspices.
    Whatever was the case when the war started--and I cannot 
and will not speak to that--the reality is that virtually all 
of the bad guys in the Middle East are now active in Iraq. 
Hezbollah is providing training. Al Qaeda is active. The 
Iranians are interfering. The Syrians are interfering. They are 
all there. So the situation is both violent and complex.
    We are having some success against al Qaeda. Al Qaeda and 
the insurgents, and the Shia extremists, the Jaysh al-Madhi, 
continue to inflict the vast preponderance of American 
casualties, not the sectarian violence, not being caught in a 
crossfire.
    So I cannot speak to the claims that were made at the 
beginning of the war, but we face a very complex situation 
today.
    Senator Byrd. When you appeared before this committee in 
December, you said, Mr. Secretary, that any military action 
against Iran should be a last resort. I keep hearing about 
Iran. The President seems to have placed diplomacy on the back 
burner again. The American people have little faith in this 
administration. The war in Iraq was based on a foundation of 
manipulation and machination. Now we see the specter of a new 
war front in Iran. The American people have not signed up for 
our troops to be the pawns for any new wargames. The country 
has far too much respect for the men and women who wear the 
uniform.
    But it seems to me I heard the President tell the Nation in 
his speech, we will interrupt the flow of support from Iran and 
Syria and we will seek out and destroy the networks providing 
advanced weaponry and training to our enemies in Iraq. How will 
that be accomplished, Mr. Secretary? Will our forces cross the 
border into Iran?
    Secretary Gates. Let me respond, Senator Byrd, and then 
invite General Pace to add his comments. We believe that we can 
interrupt these networks that are providing support through 
actions inside the territory of Iraq, that there is no need to 
attack targets in Iran itself. I continue to believe what I 
told you at the confirmation hearing, that any kind of military 
action inside Iran would be a very last resort.
    Senator Byrd. General Pace?
    General Pace. Sir, we have our Special Operations Forces 
every day working against the networks that provide the weapons 
that kill our troops. They continue to raid and they will 
continue to raid. I think one of the reasons you keep hearing 
about Iran is because we keep finding their stuff in Iraq.
    Senator Byrd. Let me just change the subject. Under what 
authority were the air strikes in Somalia executed?
    General Pace. Under the authority of the President of the 
United States, sir.
    Senator Byrd. What authority did he have? What did he base 
his authority on? Did the President authorize this action?
    General Pace. There was an order that was published a 
couple of years ago that received the proper authorities from 
the Secretary of Defense and the President to be able to track 
al Qaeda and other terrorist networks worldwide, sir.
    Senator Byrd. Do you think that authority was sufficient?
    General Pace. I do, sir.
    Senator Byrd. My time is about up. Was there any 
consultation with or notification in Congress regarding the 
decision to take military action against suspected terrorists 
in Somalia?
    General Pace. There was notification to the proper Members 
of Congress, by then Under Secretary of Defense Cambone, who 
specifically briefed the proper members on the worldwide 
authorities.
    Senator Byrd. Who are the proper members?
    General Pace. Sir, I will have to find out from the current 
Under Secretary, but it is in the Intelligence Committee, I 
believe, sir. I will find out, but I do know he specifically 
came over and briefed and came back and told me and then 
Secretary Rumsfeld that he had done what he was supposed to do.
    Senator Byrd. Mr. Chairman, my time is up, but I think this 
question bears further examination.
    Chairman Levin. Thank you very much, Senator Byrd.
    If you, General Pace, could let us know who was notified, 
if in fact that happened, we would appreciate that for the 
record.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I have to say that a little over a year ago, I was very 
pleased that General Casey indicated he thought we could draw 
down troops. But as you noted, Mr. Secretary, the attacks by 
the terrorists and al Qaeda did provoke the Shia, and we ended 
up with sectarian violence, particularly in Baghdad. This 
destabilized that very large city and makes it even more 
difficult to create the political settlement that we need in 
the long run. So I do think Baghdad is a critical matter.
    I suppose we have three options. Number one, we can have a 
4-month type withdrawal and just pull out immediately. Number 
two, we can continue the same. Or number three, we can adjust 
tactics and our capabilities to meet the new situation that 
occurs on the battlefield. General Pace, is that not the 
history of war, that you have to continue to not think that you 
are going to be able to do the very same thing indefinitely but 
change is necessary when the situation changes?
    General Pace. Sir, change is most definitely necessary, and 
I think all of us--the Joint Chiefs and the commanders on the 
ground--realize that where we were a couple of months ago in 
Iraq and where we thought we would be were not the same place, 
and therefore we collectively undertook to determine, okay, 
where are we, where should we be, how do we get there, what are 
the impediments, and what do we need to change? That is what 
this has resulted in, sir.
    Senator Sessions. When I came back from Iraq in August with 
Senators Levin, Warner, and Pryor, I asked you about conducting 
a review and you said you had just commenced one. How many 
weeks or months did you work intensively on developing a new 
strategy for Iraq?
    General Pace. Sir, we started intensively the first week of 
September and are still doing it.
    Senator Sessions. You should continue.
    Now, we talked about, many of us and you in the military, 
talk about benchmarks or metrics. One of the key things is 
Iraqi participation. This is a serious matter. Mr. Secretary, 
do you have right now formally completed the kind of criteria, 
benchmarks, that we will be looking at to determine whether or 
not the Iraqis are participating adequately?
    Secretary Gates. Yes, sir. I think that the benchmarks that 
I will be looking at specifically in the early stages, are the 
Iraqis providing the troops that they promised to provide at 
the time they promised to provide them, is there political 
interference at the senior governmental level in tactical 
decisions and military operations, and are the military forces 
of Iraq and the United States being allowed to go into all 
parts of the city of Baghdad? Those are the first three 
criteria that I believe are benchmarks, where I believe we will 
get some measure of the performance of the Iraqis in this 
operation.
    Senator Sessions. Let me just follow. I think there should 
be some more. But my question to you is, will you keep us 
informed, and if this is failing to occur do you understand 
that our commitment here is not unlimited?
    Secretary Gates. Absolutely.
    Senator Sessions. With regard to General Petraeus and his 
leadership, I met with him right after the first hostilities 
when he commanded the 101st Airborne in Mosul. I met with him 
again when he commanded the training of the Iraqi army when he 
was in Baghdad. Two years he has been in Iraq. He has now 
written the counterinsurgency manual for the military on how to 
defeat an insurgency. I think he is the best person you can 
send. Will you allow him to tell us in his best military 
judgment if things are not occurring satisfactorily and if we 
are in a position where we will not be successful, or will you 
tell us that at the earliest possible date? Because I see no 
need to commit American soldiers and place them at risk in a 
situation that is not winnable or successful, where we do not 
see success as a possibility.
    Secretary Gates. Absolutely, Senator.
    Senator Sessions. General Pace?
    General Pace. Yes, sir.
    Senator Sessions. Do you feel that is a responsibility of 
you as Chairman of the Joint Chiefs?
    General Pace. I absolutely do, yes, sir.
    Secretary Gates. If I might add, Senator, I think it is my 
responsibility as well.
    Senator Sessions. I agree.
    Now, both of you, just for the record, you believe that 
this new strategy will meet the test that Senator Levin and 
Senator Biden have insisted on--and I think it is legitimate. 
Will it significantly enhance our ability to be successful in 
Iraq?
    General Pace. Sir, the military strategy coupled with the 
changed political atmosphere, coupled with economic 
development, can be successful. It will not be successful by 
itself as a military strategy, nor will the other two parts be 
successful without the military strategy. It is a three-pronged 
plus-up. All must move forward together.
    Senator Sessions. I could not agree more. Mr. Secretary, 
these other aspects are important, other than just military. We 
all know that. It is very much a team concept when you are part 
of an administration. You do not want to be critical of other 
agencies and departments, but other agencies and departments 
have critical roles in this situation.
    Will you tell us if those agencies and departments are not 
sufficiently meeting their responsibilities to help create a 
lawful system and economy, oil production, and infrastructure?
    Secretary Gates. Senator, we will be prepared to report to 
this committee on performance in all three aspects of the 
operation that General Pace described.
    Senator Sessions. Is this plan that has been proposed here, 
does it call for increased performance from the other 
departments and agencies of this government?
    Secretary Gates. Yes, sir.
    Senator Sessions. I think that is important.
    Now, finally, you have written me a letter in response to 
my letter to you about the total inadequacy of prison bed 
spaces in Iraq. But I have not gotten a briefing from your 
staff yet and a plan to fix it. According to my calculations, I 
believe we have about 10,000 bed spaces in Iraq today, but in 
fact it is about one-ninth the number of bed spaces per capita 
that we have in my State, for example.
    We have a situation of real violence. We are going to have 
Iraqi and American troops and Iraqi police doing enhanced work 
in Iraq, in Baghdad, that city. We cannot have a catch-and-
release policy. We cannot have a revolving door. But if we do 
not dramatically and immediately increase significantly the 
number of prison bed spaces, there is no place to put them.
    Do you understand the seriousness of that matter? If we are 
going to commit troops and soldiers and police to catch bad 
guys, do you know that we have to have a place to put them?
    Secretary Gates. Yes, sir. After you mentioned this problem 
to the President the other day, Secretary Rice and I agreed 
that it was a high priority matter that needed to be addressed.
    Senator Sessions. I thank both of you for your commitment 
and leadership. I do not think this matter is a lost cause. I 
think with good work and smart efforts we can make a 
difference, and it is going to take the entire government, more 
than just the military, to make that happen.
    Thank you.
    Chairman Levin. Thank you. Thank you, Senator Sessions.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. Secretary Gates, 
thank you particularly for signing up at a very difficult and 
challenging moment in our history.
    General Pace, General Petraeus labored many months to write 
a new counterinsurgency manual. Clearly, within that manual it 
calls for a range of 20 to 25 counterinsurgents for every 1,000 
of population, which in Baghdad translates to 120,000 troops. 
How many American forces will be there after we finish this 
buildup?
    General Pace. 31,000, sir.
    Senator Reed. How many Iraqi forces will be there?
    General Pace. 50,000, sir.
    Senator Reed. So we are about 40,000 short of the doctrine.
    General Pace. With pure math, yes, sir, not forgetting that 
in places like El Salvador we helped with 55 soldiers total.
    Senator Reed. Right, but we are talking about a situation 
which always seemed to require more resource than less, and 
with this increment we are 40,000 troops less than the 
doctrine.
    Also, I think you are aware that some of the major 
proponents of this argument, General Jack Keane and Dr. Robert 
Kagan, suggest that a minimum of 30,000 troops would be 
necessary. These are the most, I think, vociferous 
spokespersons for an increase in troops. Given that, was your 
advice to the President of the United States that 20,000 troops 
would be sufficient to conduct this operation?
    General Pace. Sir, my advice to this committee and my 
responsibility to give my best military advice to the Congress 
of the United States includes the fact that I believe that this 
plan, which is a military part of an overall plan that includes 
most fundamentally the Iraqi leadership and change of political 
will and guidance to their own forces and our ability to 
operate in Baghdad, and, equally important, an economic piece, 
that, given the three-legged stool, that the troop-to-task 
analysis to get the job done in Baghdad by adding three 
additional Iraqi brigades and two additional U.S. brigades was 
sufficient. In case they are needed, three more brigades that 
have not been asked for by the commanders on the ground have 
been put into the pipeline to arrive.
    Senator Reed. I must express my concern. We are talking 
about a huge deviance from the doctrinal notion of how many 
troops. I understand that is a rough measure, but we are 40,000 
troops below that, but also, I think what your answer 
illustrates, General, is that the critical issue here is not an 
increase in military forces. It is a stiffening of the will of 
the Iraqi political parties to do what they must do. In fact, I 
do not know if you would agree, but if they today would commit 
themselves immediately, realistically, and on the ground to do 
these things, this troop increase would be not necessary.
    General Pace. Sir, I agree with most of what you said, but 
not all. It is absolutely fundamentally true that for this to 
be successful it must be embraced by the Iraqi government, 
which it has been since this is an Iraqi initiative. The 
promises that they have made must come to pass, and so far the 
ones they are supposed to have done by now they have done. But 
at the final analysis, when they deliver all that they have 
promised, our analysis, militarily, team between George Casey, 
General Casey, the Iraqis, General Odierno, and with General 
Petraeus' assistance in his role as the doctrine person, all of 
that analysis indicates that this number of troops is correct 
for this mission, not without regard to doctrine, but doctrine 
is a template. As I mentioned, some places you only need as 
many as 55, as you have in El Salvador. Other places you need 
more.
    Senator Reed. General, Baghdad is not one of those places.
    Mr. Secretary, the premise, the logic of this operation, is 
that it will produce effects by the Iraqi government--
principally under the rubric of reconciliation--the change in 
oil allocation and having provincial elections. What is going 
to give the Maliki government--the Shia government--the 
incentive to include Sunnis in their government when the effect 
of most of our operations will be to attack the Sunnis, 
eliminate their perceived enemies, and take the heat off them 
from doing anything? Why should they be more cooperative now 
when we are essentially doing what they want us to do? You and 
I both have visited Mr. Maliki and the interior minister and 
the defense minister, and they will tell you about the 
insurgency: ``It is a Sunni insurgency, that is the problem; 
you help us with that problem.''
    So I think the highest probability of what will happen is 
that our forces and their forces will engage Sunni insurgents 
and attrite them, politely speaking, while they handle the Shia 
insurgents. But the logic here of forcing them to act, I think, 
in fact, this might give them a reprieve.
    Your comments?
    Secretary Gates. I think that one of the fundamental 
premises of the operation is that the sectarian violence has 
become so great in Baghdad that it has kept the political 
process from moving forward. Clearly, the insurgency is 
principally Sunni, as you indicate, and we will continue to go 
after the insurgency just as we will al Qaeda.
    But I think central to the success of this entire operation 
is the willingness of the government to allow these forces, 
both Iraqi and American, to go into mixed neighborhoods, where 
they are taking on lawbreakers who are both Sunni and Shia, and 
that includes Sadr City.
    Senator Reed. Mr. Secretary, I think perhaps one of the 
different perspectives here is that there is a view perhaps 
that the sectarian violence in Iraq is part of their political 
process. The Shia are clearing neighborhoods, they are 
reorganizing, because they won. I think the notion that this 
sectarian violence is different than the political forces and 
that the political leaders are not encouraging or ignoring it, 
et cetera, defies the facts on the ground. I do not have to 
tell you. You are quite knowledgeable, but there are people in 
that government that feel they are benefiting from this 
sectarian violence.
    Secretary Gates. There is no question about that, and I 
think that is one of the reasons that the willingness to move 
against the Shia neighborhoods where there are militias 
operating and people breaking the law is an essential part of 
this operation and it has to be one of the benchmarks that we 
look at in terms of whether the strategy is succeeding.
    Senator Reed. Mr. Secretary or General Pace, will the Iraqi 
government move Peshmerga units into Baghdad to help them 
bolster their military effort?
    General Pace. Sir, the Peshmerga term applies specifically 
to the militias up north. From those militias that have 
existed, the Iraqi army has had brigades formed that are now 
Iraqi army brigades that are mostly Kurd. Yes, from the Iraqi 
army units that used to be Peshmerga soldiers two of the 
brigades, I believe, sir, will be coming from the north to join 
up.
    Senator Reed. So there will be two brigades of Kurdish 
troops going into Shia and Sunni neighborhoods, which certainly 
complicates the sectarian nature of this struggle; is that 
correct?
    General Pace. Or gives it balance, in that they are not 
either for Sunnis or for Shia but for Iraq.
    Senator Reed. I think they are for the Kurds.
    My time is up, but one other question, Mr. Secretary, if I 
may. You talked about in some circumstances you could redeploy 
forces if this sectarian violence abates. But that presumes, I 
think, a lingering responsibility to go after al Qaeda, to 
provide territorial integrity. But yet, you would still 
contemplate a withdrawal if this sectarian violence abates?
    Secretary Gates. I think if we see an abatement of the 
sectarian violence and the government moving forward on the 
commitments that they have made, for example on provincial 
elections and oil and so on, that we would see the kind of 
progress in Iraq that would make possible certainly bringing 
back at some point whatever troops had been sent over as part 
of this surge, but also looking toward further drawdowns in the 
future.
    Senator Reed. Let me ask the other question: If the 
violence does not abate, will you commit more U.S. troops to 
Baghdad?
    Secretary Gates. I would have to wait and see what the 
recommendations of the field commander would be, sir.
    Senator Reed. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Gates, I was pleased this morning to hear you 
describe the challenges that we are facing in Iraq as fighting 
four wars, because that was exactly my impression during my 
recent trip. I was struck by how different the war is depending 
on where you are in Iraq. In Anbar Province, the fight is with 
al Qaeda, it is not sectarian, and there I think we do need 
more troops, particularly to take advantage of the recent 
positive development where local tribal leaders have switched 
allegiance to our side and are joining in the fight against al 
Qaeda, and there the American commanders did ask for more 
troops during our trip.
    That was not the case in Baghdad. In Baghdad where, as we 
all know, the violence is sectarian, one American commander 
told me that a jobs program would do much more to quell the 
sectarian violence than more troops.
    I want to go back to an issue raised by Senator Kennedy and 
that is the effectiveness of surging troops. The fact is that 
we have had at least four surges since the initial invasion in 
March 2003. In the first part of January 2004, there was a 
surge over the next 4 months of some 30,000 troops. In January 
2005, in preparation for the elections there was a surge of 
25,000 troops. There was a third surge toward the end of 2005 
of 15,000 troops.
    So our troop level has gone up and down and they have 
varied considerably. We have tried surges. That leads me to two 
questions. First, why would this surge, which is actually 
slightly smaller than previous surges that we have tried, be 
successful when those surges were not. Second, even if we 
change the rules of engagement, what happens when the surge 
ends? Why would we not just see once again a resurgence of 
violence?
    Secretary Gates. Senator, let me start and then ask the 
General to pick up because I am not as familiar with the 
previous events as he is. I think what is different certainly 
from the experience last fall in Baghdad is the understanding 
that there were insufficient forces. If the strategy is clear, 
hold, and build, there were enough forces for the clear, but 
not enough for the hold. In some ways, if you will, it 
replicates the situation at the very beginning of the war. 
There were enough forces to overthrow Saddam Hussein and beat 
the Iraqi army, but not enough to maintain control of the 
country, in my opinion.
    So there were not sufficient forces for the hold phase of 
the operation last fall, and there really was not a strong 
enough program, for the build part--the economic development--
and especially moving in quickly. So I think one of the 
differences between this effort to quell the sectarian violence 
in Baghdad and that last fall is there has been a lot of 
attention paid to the mistakes that were made, and particularly 
in the hold and build phases of the strategy.
    But let me ask General Pace to contribute.
    General Pace. Senator, each of the previous surges was 
built for a specific reason and each was successful for the 
reason it was sent there--referendums, elections, and the spike 
in violence in al-Najaf. All resulted in the commanders on the 
ground receiving the troops they asked for and being able to 
provide for successful elections, successful referendums, and 
the like. So those surges were successful.
    There was no surge requested nor applied to the Baghdad 
plan that recently was not successful. This surge is 
specifically focused on doing the military piece of the three-
pronged surge for Baghdad.
    But you are absolutely right. If all we do is go into 
Baghdad with X number of troops and provide increased security 
for a period of time and during that period of time the 
leaders, religious and political, do not take advantage of that 
opportunity, if the economy is not changed and jobs are not 
provided, then when the troops leave and the other two things 
have not happened you will have exactly what you said.
    Senator Collins. That leads me to my second question and 
that is that we have seen so many broken promises from the 
Iraqi leaders. Just last month when I was in Iraq and we had 
the discussion with the Prime Minister, the Prime Minister 
expressed great frustration over the lack of control over his 
own troops. But he also did not seem to welcome more American 
troops at all.
    So not only am I skeptical about whether the Prime Minister 
and other Iraqi leaders will forge the political compromises 
that are needed to more fully integrate the Sunnis into the 
governmental power structures, but I am very skeptical that the 
Prime Minister has really bought into this plan, because just 3 
weeks ago when I was talking to him he did not seem to welcome 
the prospect of additional troops.
    I guess my question is what has changed? What has changed 
in such a brief time to give you confidence that the Prime 
Minister is fully on board, that he is going to fulfill the 
pledges, and that he is going to make the hard choices, the 
tough decisions that need to be made? I really fear the 
opposite. I fear that, rather than giving him breathing space 
to make those changes, that we are in fact lessening the 
pressure for him to do so.
    Secretary Gates. It was quite clear to me when I visited 
Baghdad before Christmas in my meeting with Prime Minister 
Maliki that he was very eager for Iraqis to move into the lead 
in trying to deal with their security problems. As I mentioned 
earlier, he said to me, how can you hold me responsible for 
success in the security arena when I do not have control of my 
own troops? The arrangement has been worked out so that by 
March he will have control of all but one of his divisions.
    There is no question in my mind that Prime Minister Maliki 
wanted to do this operation on his own, and I think what 
happened is that as his own military and security leaders began 
looking at the operation and began working out the details and 
then began talking and consulting with General Casey and the 
American military planners that they essentially persuaded the 
prime minister that additional American forces were necessary 
in order to make his plan successful.
    One other thing that is different in this case is, also as 
I indicated, we have not put all of the entire weight of this 
operation, if you will, on Prime Minister Maliki. The President 
has talked to President Talabani. He has talked to Vice 
President Hashemi, a Sunni. He has talked to political leader 
Hakim. They all have affirmed the importance of this operation 
and their commitment to carrying out the promises and the 
commitments that Prime Minister Maliki has made.
    As I indicated, I think there is considerable basis for 
skepticism based on the history, but the reality is--and I 
think a little perspective is in order--this government in Iraq 
was formed less than a year ago after the first real election 
in Iraqi history. Most of the people who are running this 
government were either in prison or were dissidents living 
outside of Iraq until just 3 years ago or so. They are learning 
as they go, and the truth is I think to a certain extent they 
may be getting better as they go along and get a little 
experience. I think they are beginning to see that they are 
risking their country falling apart if this sectarian violence 
continues, and I think that is what has prompted the prime 
minister to want to get control of the security situation in 
Baghdad.
    We will see, and as I have indicated earlier, I think we 
will see fairly quickly, whether they are prepared to step up 
to the plate and perform as they have promised.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. Mr. Secretary, I certainly hope you 
are right.
    At what point, if the sectarian violence does not abate, do 
we stop the flow of the new troops going in? You said that by 2 
months we should know. Is that when this committee should visit 
with you and say it is or is not working?
    Secretary Gates. I think the first element of ``is it 
working'' is whether they have in fact fulfilled their 
commitments on the military plan, as I was indicating earlier, 
did the brigades show up in the numbers that were promised, are 
they going into all the neighborhoods, are they going into true 
mixed neighborhoods and settling those down?
    Regarding the hold and build parts of this, it will take 
much more time to see whether they are being effective, 
although we should see over time a reduction in the overall 
level of violence. So I think that the first indicators for 
this committee, for Congress, and frankly for the President, of 
whether this operation is being successful or not is whether 
the Iraqis fulfill the commitments they have made on the 
military side. We should know that in a couple of months.
    Senator Bill Nelson. When you say ``if they show up,'' 
indeed that assumes the problem that has been there, that a 
number of Iraqi troops that are part of a military unit do not 
show up when deployed of their home area.
    General Pace. Sir, that is true, and part of the incentive 
for them this time is that in addition to following the orders 
they are given, there is a stipend of about $150 per month for 
the time that they are deployed, to help offset some of the 
strain on their families. So they will get the first $150 
upfront and they will get the remainder of that when they 
redeploy.
    It is not about money, but their government is in fact 
trying to provide some assistance to the families in a way that 
would help those soldiers leave their families and go do the 
job their government wants them to do.
    Senator Bill Nelson. I want to encourage you to follow up 
with the Saudis. I had been asked by General Hayden to go talk 
to them about using their tribal Sunni contacts to try to help 
in this sectarian violence. But also, clearly the hammer ought 
to be brought down on the Saudis to encourage them to help 
finance some of these jobs programs that you are talking about, 
because the Saudis have a huge stake in Iraq being stabilized, 
as we do.
    Mr. Chairman, I cannot help but note how the tenor of this 
meeting today contrasted with that of the Senator Foreign 
Relations Committee yesterday, in which the witness was 
Secretary Rice. Because you represent a breath of fresh air, 
Mr. Secretary, there is much more deference and respect. There 
is a great deal of frustration, as you hear expressed here. 
That came out in a partisan way yesterday in the Senate Foreign 
Relations Committee.
    Let me ask you, General, do we have enough military assets 
to do operations in both Iraq and Afghanistan and also be 
prepared if we face some additional emergency such as Iran or 
China?
    General Pace. Sir, the answer is yes, but it is not without 
pain to ensure that we are properly prepared. First of all, the 
units that will be going into Iraq were already in the pipeline 
and they will be moved forward in the pipeline a couple of 
months. None of those units will go over with less than 1 year 
at home, but that still is not the goal that we seek, which is 
to be able to have 2 years at home before going over.
    Then some of the units that are currently in Iraq will be 
extended on the ground for 3 to 4 months to ensure that this 
20,000 stays at the level it needs to. That is Iraq.
    In Afghanistan, the pipeline is fine, sir, and we have 
about 22,500 troops in Afghanistan right now. We will be able 
to maintain that.
    Most important for the American people and for anybody who 
is a potential enemy of ours out there, we have 2.4 million 
American servicemembers who are Active, Guard, and Reserve. We 
have about 200,000 plus of those currently involved in this 
operation in the Gulf region. We have the enormous might of our 
Navy and our Air Force available. We can handle anybody out 
there who might make the mistake of miscalculating our 
strength.
    It will not be as precise as we would like, nor will it be 
on the time lines that we would prefer, because we would then, 
while engaged in one fight, have to reallocate resources and 
remobilize the Guard and Reserve and the like. But there would 
be no doubt in anybody's mind in this country or anyplace else 
that, if you challenge the United States, we can handle it.
    Senator Bill Nelson. You are making the assumption that 
22,000 troops are enough in Afghanistan?
    General Pace. No sir, I am not. If we need to plus-up in 
Afghanistan, sir, we can. What I am saying is we still have 2 
million plus Americans in uniform and in the Guard and Reserve 
available to do this Nation's duty, and they can do it and our 
enemies should know that.
    Secretary Gates. Senator, I might just mention that I am 
going back out to the region myself in a few days. I am 
starting in Afghanistan and one of the things that I am focused 
on particularly is what it will take to reverse the trend line 
in Afghanistan and to strengthen the Karzai government. We must 
not let this one slip out of our attention and, where we have 
had a victory, put it at risk.
    Senator Bill Nelson. Yes, Mr. Secretary.
    Both of you or one of you, please share with the committee: 
When we embed our troops in Baghdad, in the midst of all that 
sectarian violence, how are we going to prevent our troops from 
being sitting ducks?
    General Pace. Sir, thank you, thank you for that concern. 
You are absolutely right to ask that question. One of the 
reasons that the size of the teams is going to be doubled or 
tripled is because we are now going to take them from a unit 
that is about 500 troops, a battalion-sized unit, and not only 
increase the size there, but also go down to the company size 
levels of about 100 to 150 troops.
    We want to make sure that when our soldiers and marines go 
forward with these units that they have enough of our own 
riflemen with them to make sure that they will be protected 
close in. That is part of the doubling and tripling of the size 
of the units to ensure that we can self-protect. In addition to 
that then are the quick reaction forces, which are a part of 
what the battalions married or partnered with those Iraqi 
brigades are all about. They will not only be able to respond 
to activity across the spectrum, but specifically be there to 
come quickly to the aid of the U.S. embeds. So this has been 
thought through very carefully, sir, with regard to protecting 
our guys and gals, and, in fact, I think one of the very bright 
spots is that all of our teams that have been working with 
Iraqi units in the past have been well-protected by the Iraqi 
units with whom they are embedded.
    Senator Bill Nelson. Mr. Secretary, let me just ask it. 
Does General Abizaid support the President's plan?
    Secretary Gates. Yes, sir, he does. But let me ask General 
Pace because he has talked to General Abizaid directly about 
this.
    General Pace. The short answer is yes, sir. The longer 
answer is that all of us in uniform have been looking at this 
saying: Do not just plus up and have X number of U.S. Armed 
Forces doing what Y number have been doing in the past. Do not 
just change the number of troops on the ground. That will not 
satisfy the problem. Eventually, the Iraqis must take this on, 
and to do that we must have a changed political environment and 
we must have a changed economic environment.
    If the political environment and the economic environment 
can be supported by an increase in troops, then we are for it. 
So the quotations of both General Abizaid, General Casey, and 
myself, that we have made publicly about ``just do not add 
troops'' are all true, but we have also said given a specific 
mission and specific time, we should consider it. As we have 
looked at the prime minister's initiative and we looked at his 
troops' capacity to do it, we are convinced that this plus-up, 
which has been requested by both General Casey and General 
Abizaid in addition to their subordinate commanders, that this 
increase in troops does make sense.
    Senator Bill Nelson. Thank you.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Ensign.
    Senator Ensign. Thank you, Mr. Chairman.
    All of us have different opinions of whether this is going 
to work or not and I do not think anybody really knows. I think 
all Americans should be praying that it works because it is 
critical that we have success in Iraq. I agree with all of 
those statements, and to pull out would be a monumental mistake 
for the United States.
    I want to address some of the tactics on going in though. 
This is much more urban warfare, any time you are in Baghdad, 
door to door, probably the most dangerous kind of fighting for 
the troops on the ground that there is. In the past, some have 
accused us of not giving all the tools necessary over in Iraq.
    So I want to start with you, General Pace. It would seem to 
me that we should be giving our forces all of the tools 
necessary to minimize American casualties and to minimize 
civilian casualties. Those are two paramount things that I know 
our military is about. If you were a sergeant on the ground 
over there, the idea of a riot control agent, tear gas--not 
pepper spray, but tear gas--is that something, if you were a 
sergeant leading some troops in urban warfare, going door to 
door, and you are approaching, you do not know whether they 
have civilians, possibly civilians, maybe they have captured an 
American in there and there are hostiles in there, is tear gas 
something that would help you from a tactical standpoint?
    General Pace. Sir, I need to give you a very precise answer 
because there are treaties to which the U.S. Government is a 
signatory that forbid us from using that kind of tear gas for 
anything other than defensive reasons when we are trying to 
break up a crowd that includes women and children and the like. 
So we do not teach that technique because it is illegal 
internationally and we have signed up to that treaty.
    Because we do not have that, we do have stun grenades and 
we do have smoke grenades. We do have the kinds of things that 
help divert the enemy's attention as we clear. We are very good 
at clearing. What we need are the additional troops to be able 
to hold and build.
    But I want to be precise in my answer because it is not 
legal for us to proceed along that line.
    Senator Ensign. There is some disagreement on the situation 
that I just described, when you are in a situation where there 
were major military activities as we had seen, we took over, we 
went in, and now we are more of, whether you call it an 
occupying force, trying to keep the peace, whether that is 
wartime or peacetime, certainly there are wartime types of 
activities. But I have described a type of activity where there 
are potentially women, in many cases there are women and 
children, similar to in a crowd situation. You are trying to 
protect civilians in a defensive posture. You are not just 
trying to get the bad guys, which you are in, in a crowded 
situation like that, but you are trying to protect women and 
children.
    Secretary Rumsfeld testified that he felt like he was in a 
straightjacket. I have talked to many troops on the ground and 
different lawyers, some lawyers, mostly at the State 
Department, who would disagree with the characterization that I 
have made.
    But it would seem common sense that the Chemical Weapons 
Treaty that we have signed on to would at least not be 
violated, the spirit would not be violated, when you are trying 
to save innocent lives. It also has a nice side effect that it 
decreases our casualties.
    General Pace. Yes, sir. The bottom line, sir, is if it is 
offensive it is illegal.
    Senator Ensign. I agree with that. Clearly, I have not 
described an offensive situation.
    General Pace. If it is defensive, it is legal. But we need 
to be very careful not to leave Private First Class Pace on the 
battlefield having to make the decision in his or her mind 
whether or not this is a defensive event. We have to be very 
careful.
    Senator Ensign. I agree. But what if we are not even 
training them to make those decisions and we are not giving 
them the tool that could save lives, we are not giving them 
those tools to do that. You just said we are not training in 
those kinds of situations.
    General Pace. We are not training offensively, sir. We are 
training defensively, but we not training offensively.
    Senator Ensign. Has military tear gas--not pepper spray--
been used anywhere in Iraq?
    General Pace. Yes.
    Senator Ensign. No, it has not; only pepper spray.
    General Pace. Iraq, you said.
    Senator Ensign. In Iraq.
    General Pace. It was used in Afghanistan. Not to my 
knowledge in Iraq, sir.
    Senator Ensign. From all the information that I have 
received, it has not. There have certainly been many situations 
where, whether it is mosques with civilians or whatever it is, 
from a defensive situation, I just think that lawyers looking 
at crossing every ``t'' and dotting every ``i'' are costing 
civilian lives and U.S. military lives and we ought to take a 
hard look at this.
    I just received a report back from the military on this 
and, frankly, I found it highly dissatisfactory. We are not 
doing the right things and giving all of the tools, I believe, 
to our men and women in uniform, especially when it comes to a 
situation that they are in with this, with this new change in 
procedures. I realize that there are some differences as far as 
what we are giving the rules of engagement, but it would seem 
to me that we need to take a hard look at that to save 
Americans.
    I do not think the average American out there looks at this 
and thinks this is common sense at all.
    General Pace. I appreciate your intent, sir. I will find 
out if it has ever been used. We do use it defensively, and I 
will see if there is a way that we can be more precise. But 
again, the bottom line is we want to make sure that our young 
guys and gals are, A, properly defended and, B, not put in 
legal jeopardy.
    [The information referred to follows:]

    [Deleted.]

    Senator Ensign. Thank you. I think a lot of the other 
questions would be pretty redundant for me to talk about. I 
have some of the same opinions that those who have said that 
this strategy is a failed strategy need to offer alternatives 
and I think it is incumbent upon them to explain why that would 
be successful.
    I have not heard anybody who has criticized this suggest 
something else that they think would work as well. If we do a 
phased withdrawal it would seem to me, because they want to put 
Iraqis more in charge, it would seem to me that the new change 
in strategy is to have the Iraqis doing more. If we are doing a 
phased withdrawal and they cannot handle what we are talking 
about handling in Baghdad, they certainly could not handle a 
phased withdrawal where we are actually giving them less help.
    So my prayer is that this new change in strategy is going 
to work and I think all Americans should join in that in 
getting behind our troops.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Ensign.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. Mr. Secretary, it is 
always difficult and problematic to speculate on what happens 
and what the ``or else'' is if the Iraqis fail to be able to 
achieve the benchmarks that we are setting out. I am going to 
ask you something about that.
    But first let me commend the administration for setting 
forth benchmarks and conditions for staying. You will have to 
help me understand whether they are conditions for staying or 
whether they are just conditions that the government must meet, 
because for 2 years I have been saying that, as opposed to 
dates for withdrawing, we ought to be establishing what it 
would require of the Iraqis so that we can break the cycle of 
dependence. What would be the benchmarks or the expectations we 
have for them to be able to fulfill their duties to take on the 
responsibility?
    But the question is, what is the price if the Iraqis fail? 
What is the price if Prime Minister Maliki cannot meet the 
three things that you talked about? I have identified those 
three things as the essential benchmarks. What does happen? Is 
it just a reassessment of our position? Does it show that they 
cannot meet what we want them to do and that they are not 
capable of taking on the responsibility themselves?
    Secretary Gates. I think the honest answer to your 
question, Senator, is that if they do not perform, if they do 
not fulfill the commitments that they have made, when I say we 
will have to reevaluate the strategy, we have to evaluate where 
we are in the context of our national interest in Iraq and 
whether there are other strategies that protect our national 
interest, but may have implications for other aspects of Iraqi 
society.
    Do we focus just on al Qaeda and on the borders and on the 
insurgency and let the house burn down in Baghdad? I asked 
General Pace the other day, I said, ``What happens if we are 
hosing down the outsides of the house while the inside is 
burning down, and obviously the structure cannot stand?''
    So the honest answer is--and yesterday marked the 
anniversary of my third week on the job--that I do not know 
what the consequences are. What I do know is that we would have 
to go, we would have to reopen this issue of strategy and we 
would have to look at what some of the other alternatives are 
that do not seem very attractive right now.
    Senator Ben Nelson. What does Prime Minister Maliki believe 
the consequences to be if he fails to deliver?
    Secretary Gates. I think the first consequence that he has 
to face is the possibility that he will lose his job. There is 
some sense--and perhaps part of a growing of the Iraqi 
political culture--that there are beginning to be some people 
around that may say, I can do better than he is doing in terms 
of making progress. So the first question would be if his 
strategy, if his initiative, if you will, that he brought to 
President Bush in Amman fails, then he has to perhaps face some 
domestic political consequences for that.
    I go back to what I said to Senator Collins. I think the 
thing that has struck me at least in all of this is the Prime 
Minister's sense that his government has to take control of 
this situation. I was not here for the earlier conversations 
and promises that Maliki has made, but my impression is that 
this is different on his part and that he has an understanding 
that the country is on the verge of coming apart if he does not 
get control of this.
    Senator Ben Nelson. But these are not conditions for 
staying in Iraq. These are conditions perhaps for his keeping 
his job or for our not reevaluating our next strategic 
position. Are there any real conditions for staying in Iraq?
    Secretary Gates. As I indicated, I think if the strategy 
does not work, and I think we have to focus on making it work 
and we will certainly do our part and try to make sure that the 
other two legs of this stool are on the ground as well, but if 
it does not work, then I think we have to evaluate, as I said, 
our national interest.
    If we talk about the consequences of American failure and 
defeat in Iraq, then saying if you do not do this we will leave 
and we will leave now, does not strike me as being in the 
national interest of the United States. So the question will be 
what different kind of strategy might we be able to come up 
with that would have some prospect of avoiding a failure or a 
defeat in Iraq.
    Senator Ben Nelson. Would that be part of the idea of a new 
way forward? I have been concerned about that the American 
people want a change in direction in Iraq, not a change in 
slogans. Can we assure the American people that this plan is a 
new direction in Iraq, a new way forward?
    Secretary Gates. I think it is in the sense that it 
represents a change. In my prepared remarks I called it a pivot 
point, because it puts the primary responsibility for this 
operation on the Iraqis, not on the Americans.
    Senator Ben Nelson. I have considerable concerns about 
whether or not the Prime Minister can achieve the benchmarks. 
But I salute the idea that benchmarks have been established, 
because at least now we have some way of evaluating success or 
failure, at least with respect to a major mission. In the past 
I think it has been very difficult for the American people and 
maybe for Congress and perhaps for the administration to even 
measure success, because at one point you had one member of the 
administration saying we are winning and a member from the same 
party, a Member of our Senate, saying we are losing. They 
cannot both be right about the same set of circumstances, the 
same set of facts, at the same time if those are their 
conclusions. So I salute that.
    On a scale of 1 to 10--this is a tough question--but on a 
scale of 1 to 10, what do you think the chances are that the 
Iraqi military under the Prime Minister, in going into Sadr 
City will take on Muqtada al-Sadr and, if necessary, take out 
al-Sadr? General? You do not have to do it on a scale of 1 to 
10, because that is an unfair point. But you get what I am 
really trying to go to.
    General Pace. I got the question and it is a fair question, 
sir. I think that whatever that number is, is going to increase 
as the operations in Baghdad take place, starting in the mixed 
neighborhoods, showing balance in the mixed neighborhoods, and 
then doing the Sunni and Shia neighborhoods, showing in the 
initial neighborhoods that not only will there be clearing 
operations, but that there are economic and day-to-day living 
benefits quickly; as that unfolds, that will strengthen not 
only the desire of the Iraqis to have their armed forces come 
to their neighborhoods, but also I think make the Iraqi army 
and the Iraqi police feel good about what they are doing and 
therefore collectively have a better focus on what needs to be 
done.
    But clearly, you cannot do this through Baghdad except one 
or two areas. It has to be done across Baghdad. It has to be 
done without regard to Sunni, Shia, and mixed neighborhoods. It 
has to be rule of law applied evenly across the board.
    Senator Ben Nelson. I hope and pray that you are right, 
General, and I hope and pray that the mission works. I must 
admit I have serious reservations. I do not see how it is all 
going to happen. But at some point for future debate, I would 
like to ask the question how you can have a democracy with a 
military full of militias and a police force that does not 
necessarily respond to the government. We will save that 
discussion for another day.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman, and thank you, 
gentlemen, as always for your great service to our country, and 
particularly to you, Secretary Gates, for leaving a very 
comfortable position in Aggieland and coming back into public 
service to all the discomforts that we have at the Pentagon 
these days. Certainly the position that you have accepted is 
one in which your leadership is required to help solve the most 
difficult and challenging issue that exist in the world today. 
So to both of you, thank you.
    Mr. Secretary, I want to start out by commending you for 
your decision relative to the troop increase. Those of us who 
have served both on this side of the Capitol as well as on the 
other side have been advocating a force structure increase for 
several years now. I am pleased to see that you not only have 
come to us and said you are going to ask for that increase, but 
the size of it I think is also critically important.
    I received an email yesterday from a young Army captain, a 
member of the 3rd Infantry Division, who is going to be leaving 
in March for his third tour of duty in Iraq. He is accepting 
that, but he said in his email that he will be going out a 
month early to NTC, of course, to get trained up. He has been 
married for 3\1/2\ years and in that 3\1/2\ years he has spent 
11 months with his bride. That is the kind of toll that we are 
seeing on our Active-Duty Force structure, and the decision 
that you have made is not only going to help us in the short-
term, but in the long-term, because I worry about the quality 
of our military as we progress beyond this particular conflict, 
and that should not be an issue. I think your decision goes a 
long way toward ensuring that that will not be an issue.
    I have been very vocal in saying that I do support an 
increase in the troop strength that we send to Iraq, provided 
those troops are given a specific mission and that once that 
mission is accomplished, those troops are redeployed. I think 
you probably answered part of this in response to Senator 
Reed's inquiries, but I would like you to talk a little more 
about that, Mr. Secretary, and maybe you too, General Pace.
    Are these troops going to have a specific mission, and once 
that missions is accomplished what is going to happen to those 
troops?
    General Pace. Sir, they will have a specific mission. The 
specific mission will be to provide assistance to the Iraqi 
army in providing security to the people in Baghdad and 
increase the number of embeds within the Iraqi armed forces to 
help them provide fire support and the like, so that we can get 
this job done and have sufficient Iraq forces in the hold and 
build phases.
    When that is done, these troops, if they have all gotten 
there or not, will then be able to start coming home. The 
desire is to be able to go from the 15 brigades we have now up 
to perhaps as many as 20, but then come back down below 15, 
because right now we have 7 of our 15 brigades allocated to the 
Baghdad region, 6 that are in or around the city and one that 
is in mobile Reserve. With Baghdad under Iraqi control, we will 
be able to bring home some of those brigades as well.
    But there is no guarantee, sir. I know you know this. There 
is no guarantee. But given the plan that is there and most 
importantly again the political and economic changes, the 
military plan can be successful.
    Senator Chambliss. The issue of Maliki and whether or not 
he is capable of providing the kind of leadership that is going 
to allow us to succeed from a government stability standpoint 
is certainly an issue that has been discussed. Mr. Secretary, 
you have expressed some reservations. I have been to Iraq four 
times and I have visited with the leadership. I have a concern 
over that issue also.
    But is it not a fact, Mr. Secretary, that part of the plan 
which the President has implemented includes ideas, issues, and 
a plan that came forward from Mr. Maliki to the President in 
recent discussions between the two men?
    Secretary Gates. Yes, sir, that is true.
    Senator Chambliss. So this is not something where we are 
saying to the Iraqi government, this is what you shall do or we 
will do something different. This is a joint decision that has 
been made by the Iraqi government and the leadership of the 
United States to develop a plan that is going to give us what 
we think to be the best results we can achieve, given the 
current situation?
    Secretary Gates. Yes, sir.
    Senator Chambliss. Having been to Iraq and been on the 
ground and seen General David Petraeus operate with respect to 
the training of the military and the security police over 
there, I will have to tell both of you, you have absolutely 
made the best choice of a leader to go on the ground in Iraq 
that you could possibly make. I have been extremely impressed 
with him both as an individual and, in this case, most 
significantly as a soldier.
    But one of the things that I have heard from General 
Petraeus as well as others who have succeeded him there--
General Dempsey and other leaders on the ground--is that there 
is a significant difference in the quality of the personnel and 
the end result of the individuals who emerge from training with 
the Iraqi military versus training in the security police. The 
military forces seem to be better able to do the job once they 
receive that training than the security police, and in fact the 
security police, as we know, have been infiltrated by the 
enemy. There is a lot of corruption going on there and we have 
seen loss of lives occur in some instances because of failures 
internally within the security police.
    Now, there is one thing the President said the other night 
that I think is critically important, and it was glazed over by 
the press. I have also heard this from other folks inside the 
White House and I would like you to comment on it. It is the 
fact that, as a part of this new strategy, we are going to move 
military personnel into police units or at least into police 
stations where they are going to be headquartered in some 
instances. So they will be side by side with the security 
police, and hopefully they will be able to do a better job of 
monitoring what is going on and making sure that their mission 
is carried out.
    Would you comment on that, please?
    General Pace. Sir, first of all, you are absolutely right, 
there is a difference in quality today between the army and the 
police. We picked up the responsibility for the police just 
over a year ago, October 2005, and have revamped their training 
program. We have had to take brigades at a time off line, re-
vet the individuals, the Iraqis fire those who have not been 
performing, then we reform the units, retrain them, and put 
them back into action. So we are behind our training program 
with the army in our training program with the police.
    In Baghdad, at the police station hubs in each of the 
districts there will be a combination of Iraqi army, Iraqi 
police, and U.S. forces, so it will not be an occasion where it 
is solely police and U.S. forces as designed right now.
    Does that answer your question, sir?
    Senator Chambliss. Yes, sir, it does.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    General Pace, let me just follow up on one of Senator 
Chambliss' questions there. He talked about a specific mission 
and if we are going to have more troops they need to have a 
very specific mission. Just to make sure I understand this, on 
this specific mission where we are in the neighborhoods of 
Baghdad, are we kicking in the doors or are the Iraqis kicking 
in the doors?
    General Pace. Sir, the Iraqis are going to be knocking on 
the doors. If they have to kick in, they will, but you do not 
gain favor by doing that. Preferably, they will be knocking on 
the doors, finding out who is in that house, taking census, 
like they have done in places like Fallujah.
    A lot of the lessons we learned in Fallujah are being 
applied in Baghdad. But it is an Iraqi lead. That is what 
happened the other day on the Haifa Street action in Baghdad. 
The Iraqis were in the lead. They were doing their patrolling 
and they came under fire, and we were able to support them with 
our fire support. So that is how it is designed, sir.
    Senator Pryor. So the design is to allow the Iraqis to take 
the lead immediately?
    General Pace. The design is for the Iraqis to take the 
lead, yes, sir, and for us to back them up.
    Senator Pryor. Okay.
    Secretary Gates, the President's and the administration's 
message this week includes this concept that the Iraqis need to 
take responsibility, that we need to turn more and more control 
over to them, that there is a need for a real commitment by the 
Iraqi leadership on this. In fact, a few moments ago when 
Senator Chambliss was asking questions he used the term ``joint 
decision'' between Prime Minister Maliki and the U.S. 
Government, and you agreed that this plan is a joint decision.
    However, in reading some news accounts--and I will quote 
one, which happens to be from the New York Times. It says: 
``Iraq's Shiite-led government offered only a grudging 
endorsement on Thursday of President Bush's proposal to deploy 
more than 20,000 additional troops in an effort to curb 
sectarian violence and regain control of Baghdad. The tepid 
response immediately raised questions about whether the 
government would make a good faith effort to prosecute the new 
war plan.''
    There seems to be a huge disconnect here. You are here 
before the committee today saying that the Iraqi leadership is 
helping design this and is part and parcel of the planning 
here, whereas the press report and the interpretation on the 
ground there in Baghdad is that it is a grudging endorsement 
and a tepid response. Can you explain that?
    Secretary Gates. Sure, Senator Pryor. I think what lies 
behind this is that Prime Minister Maliki from the very 
beginning of this has wanted to take charge of the security 
situation in Baghdad. As he said to me when I visited before 
Christmas, ``how can you hold me responsible for the security 
when I do not have authority over my own forces?'' Part of the 
process of giving him that authority is the transfer of 
operational authority over their divisions, and by March they 
will have operational control over all but one.
    Senator Pryor. Not to interrupt, but what would be grudging 
there? What would be tepid there? Is it that he does not like 
the timetable you are on?
    Secretary Gates. Let me develop it. I think that his plan 
as he conceived it in fact was for all Iraqis to do it, and I 
think that what happened was that his military and security 
planners sitting down with General Casey and our military 
planners came to realize that in a practical way in terms of 
the opportunity for success they really did need some 
additional U.S. support.
    So to the degree that the Iraqi government is grudging in 
this, I think it is perhaps--and I am speculating, frankly--
that they had hoped to do it themselves, and probably 
grudgingly came to the conclusion that they could not do it 
themselves based on the advice of their own security and 
military leaders. That developed in the course of filling in 
the gaps in the plan with our military planners.
    Senator Pryor. Let me ask it this way: is it your opinion 
today that the Iraqi leadership is 100 percent on board with 
this plan?
    Secretary Gates. Yes, sir, it is. Not only has the 
President talked to Prime Minister Maliki, President Talabani, 
who is a Kurd, Vice President Hashemi, who is a Sunni, and with 
Mr. Hakim, who is one of the key Shia power brokers. So the 
President, the Ambassador, and General Casey I think have 
talked to all of the key players in the Iraqi government on 
this, and they all support the commitments that have been made 
to President Bush.
    Senator Pryor. Do you agree with that, General Pace, that 
the Iraqi leadership is 100 percent on board?
    General Pace. I believe the Iraqi leadership is saying they 
are 100 percent on board. I believe that the benchmarks in this 
that they should have attained by now on the military side have 
each been attained. But the success of this operation is going 
to be based on their delivering on what they have said they 
will deliver. So they are saying 100 percent. So far they have 
delivered 100 percent of what is due. But there is more to come 
and we need to continue to ensure that we focus on all three 
parts of this.
    Secretary Gates. I think General Pace phrased it probably 
better than I did. I agree with what he said.
    Senator Pryor. So, General Pace, in other words, if this is 
to succeed they have to do their part, and if they do not do 
their part it will not succeed; is that fair to say?
    General Pace. That is correct. Yes, sir.
    Senator Pryor. Do you agree with that, Mr. Secretary?
    Secretary Gates. Absolutely.
    Senator Pryor. So I guess if the Iraqi government does not 
support the surge, there is no point in doing it; is that fair 
to say?
    General Pace. But they say they do.
    Senator Pryor. I understand they say they do. But if they 
do not, if they do not put their actions behind their words, is 
there any point in us doing this surge?
    General Pace. Sir, they must put their actions behind their 
words. Otherwise this plan will not work and therefore, as the 
Secretary has pointed out, our flow of forces will allow us to 
modify what we do next.
    Senator Pryor. Thank you.
    Now, Secretary Gates, I am running short on time here, but 
let me ask you about your opening statement. You listed some 
things that you want to do with the Reserve and National Guard, 
and, not to belabor this, but currently a Guard unit can be 
mobilized for 12 to 24 months, and a lot of them are about 18 
months. They do their training for maybe 6 months--these are 
rough numbers--and they get deployed to Iraq for 12 months. 
Again, those are rough and I know that changes from unit to 
unit.
    But you are going to more of a 12-month mobilization with a 
5-year demobilization period between the mobilizations; is that 
right?
    Secretary Gates. That is our intent.
    Senator Pryor. If you are going to a 12-month mobilization, 
to me it seems that they have to do their training and be very, 
very prepared and ready to go when they are activated, when 
they are mobilized. In other words, they need the equipment and 
the resources to do that training in the interim period. I hear 
from Guard units all over Arkansas and all over the country 
that they do not have the equipment.
    So what I want to hear from you is the second part of your 
plan or the unspoken part of your plan from your statement 
today; what is the plan to provide our National Guard with the 
equipment that they are critically short of today?
    Secretary Gates. Let me give you a short answer and then 
ask General Pace to elaborate. You will see in the fiscal year 
2007 supplemental and in the fiscal year 2007 budget additional 
funds for reset and substantial funds. You have already given 
us substantial funds. Our depots are now running at capacity. 
Several of them are in multiple shifts, and there is a lot 
going on there.
    We understand the nature of the problem. You clearly have 
understood it and have helped us address it. So the idea is to 
use the resources that we have been given to try and make sure 
that the Guard has the equipment that they need to be trained, 
because you have it exactly right, they have to be ready to go 
when they go.
    General?
    General Pace. Sir, your analysis is exactly right, with 
regard to the 1 year on and 5 years off, so to speak. That is 
when you have that kind of predictability of when you are going 
to be coming into the year when, if needed, you will deploy, 
you can use the preceding years for your Active Duty to train 
up to that. It is similar to what we do with our Navy and our 
Marine Corps right now. They are on a cycle where when you 
become a battalion commander you know 2 years in advance, 
absent some kind of a national emergency, what you are going to 
do, when you are going to do it, and you are able to train up 
to that.
    This will give predictability to our Guard and Reserve 
Forces as far as when they will be susceptible for employment 
from the United States, if needed, and it will give them the 
time before that then to use to get ready. That will not 
completely compress it, but it will take a 6-month train-up 
maybe down to 2 or 3, so that we can get a deployment of 8 or 9 
months, with the final train-up, deploy, come back, demobilize, 
and keep it inside of a 1-year window.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much, Senator Pryor.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    First, I would like to compliment you, Mr. Chairman, for 
this hearing. I think it has served the country well. To my 
colleagues, you have asked very hard, probing, thoughtful 
questions that need to be asked and answered. To our witnesses, 
you have done an outstanding job, I think, of being candid and 
realistic. Mr. Chairman, you set the tone in your opening 
statement.
    When it comes time to figure out what the Iraqis may or may 
not do, if they are struggling, as we are, to find a consensus 
among themselves as we are struggling, my prayers are with 
them.
    Prime Minister Maliki is a suspect person in terms of will 
in this country. I think he has earned that suspicion. But I 
would like to say something on his behalf and all those who are 
participating in an infant democracy in Iraq. I realize that 
you are risking your lives literally. We may be risking our 
reelections, but probably the worst thing that will happen to 
any of us if we are wrong on Iraq is that we go on and enjoy 
life outside of government.
    If you want to participate in government in Iraq--and I 
think we all understand this--as a judge, as a politician, as a 
policeman, as an army officer, there are a lot of forces who 
wish to kill you and your family. I am just glad the French did 
not have such a pessimistic view of us when they came to our 
aid in the Revolution. History has borne out that they were 
right. Sometimes they may not believe that for this moment, but 
our problems with France are at least between two democracies.
    One person that has not been talked about much today is 
Zarqawi, and thank God that he is gone. But General Pace, is it 
fair to say that the doctrine of Zarqawi, the al Qaeda leader 
in Iraq, was to try to create sectarian warfare, and that he 
had a global view of Iraq, that Zarqawi did not have a 
provincial view of Iraq, that Zarqawi and his allies in the al 
Qaeda movement understand that a success in Iraq is a mighty 
blow to their overall world agenda, and that he basically 
struck political gold when he bombed the Golden Mosque; is that 
correct?
    General Pace. I believe that is fair to say, yes, sir.
    Senator Graham. So, to my colleagues who disagree with 
where I come out, I view Iraq as part of a global struggle. We 
know Zarqawi viewed it as part of a global struggle. There is 
one thing I hope we can agree upon: that success in Iraq will 
not be contained to Iraq. To our Syrian and Iranian neighbors 
of Iraq, I think it is their worst nightmare, gentlemen, for a 
representative democracy to emerge on their border. No matter 
how much you want to talk to Syria and Iran about managing the 
situation in Iraq, they will never come on board with the idea 
that the Iraqi people can vote for their leaders and tolerate 
religious differences because it would be a death blow to the 
regimes that exist in Syria and Iran. So I know why Iran is 
trying to destabilize Iraq. It is their worst fear, for us to 
be successful and pull off a functioning democracy on their 
border.
    Now, there are some disturbing things that have come out of 
this hearing for me in terms of the global struggle we face. Am 
I wrong to assume that your testimony indicates that the 
Iranian and Syrian governments are providing sanctuaries for 
forces who are trying to kill our troops in Iraq?
    General Pace. We know that we have had foreign fighters 
come through Syria. I do not know the complicity of the 
government, but we do know that foreign fighters travel through 
Syria. We do know that Iranian-made and supplied weapons are on 
the streets of Baghdad killing our troops.
    Senator Graham. I would like to be on record for my Senate 
colleagues to hear this from me: if in fact the Syrian and 
Iranian governments are complicit with organizations and groups 
that are trying to kill American troops, I hope we will have 
the resolve in a bipartisan fashion to put them on notice that 
this will be unacceptable and all options are on the table when 
it comes to defending Americans who are doing the jobs 
assigned. Do you agree with that, Secretary Gates?
    Secretary Gates. Yes, sir.
    Senator Graham. It is in my opinion, ladies and gentlemen, 
part of the overall war on terror, not some side venture.
    Eighty percent of the casualties being suffered now, 
General Pace, are by IED explosions; is that correct?
    General Pace. Between 70 and 80 percent, yes, sir.
    Senator Graham. This is one sign of success in this new 
strategy that I would suggest to you should be a benchmark. 
IEDs are being made somewhere throughout the country, and I 
would imagine that the neighbors around the bomb-making plants 
are probably afraid to turn them in because there is no law and 
order; is that correct?
    General Pace. That is probably correct, sir.
    Senator Graham. If there was somebody down the street 
making IEDs and you were a moderate, on the fence Iraqi, would 
you feel secure enough to go to the police and turn them in 
without reprisal coming your way?
    General Pace. In some neighborhoods yes, but not in 
Baghdad.
    Senator Graham. Okay. One of the reasons people are making 
IEDs is they are being paid to do so; is that correct?
    General Pace. That is one. Yes, sir.
    Senator Graham. So if we can have economic progress, taking 
off the economic incentive to engage in IED bomb-making, that 
would be helpful to our troops, is that correct?
    General Pace. I believe it would be very helpful, sir.
    Senator Graham. Now, if we had a rule of law where the 
people would not need to take the $500 to make a bomb to kill 
Americans, but if the person down the street got caught and 
went to jail for 30 years, that might be another way to deter 
IED bomb blasts, is that correct?
    General Pace. That is correct, sir.
    Senator Graham. These are two strategies apart from 
military force.
    General Pace. They are, sir.
    Senator Graham. The third part is that we are going to put 
pressure on the IED bomb-makers to always be on the run and not 
be secure through military involvement; is that correct?
    General Pace. Yes, sir.
    Senator Graham. Now, when it comes to troops, Senator Pryor 
did a very good job and I think Senator Reed did a very good 
job of trying to explain what levels we need. A million troops 
will not matter if the Iraqis do not change themselves, is that 
correct, Secretary Gates?
    Secretary Gates. I agree with that.
    Senator Graham. Is that correct, General Pace?
    General Pace. It would have short-term impact, but not 
long-term success, sir.
    Senator Graham. There have been so many statements made in 
the last couple of days about this new strategy. One came from 
the House of Representatives that said this is the craziest, 
dumbest plan I have ever seen or heard of in my life. We have 
the right to say almost anything in this country, but I hope we 
understand that as Members of Congress we have some 
responsibilities. Criticism and skepticism are the heart and 
soul of a democracy, but our statements are being viewed not 
just by the Iraqi government, but those who wish us harm 
throughout the world.
    To my colleagues, I would ask, at least in the short-term 
here, that we measure our words, that we not have a political 
stampede to declare the war lost when it is not yet lost, or to 
embrace strategies that would lead to defeat, because I do 
believe this is part of the overall war on terror.
    General Petraeus has not yet had a chance to rebut the idea 
this is the craziest, dumbest plan I have ever seen or heard in 
my life. I would just ask every Member of the Senate, no matter 
how much you dislike what we are about to do or disagree with 
what we are about to do from a Commander in Chief perspective, 
that you allow General Petraeus to come up here and explain his 
plan.
    Secretary Gates, you sit at the top of our military in 
terms of civilian leadership. You have been asked this 
question, but I am going to ask you very directly: Are we 
sending additional troops for a lost cause?
    Secretary Gates. Absolutely not.
    Senator Graham. General Pace, are we sending brave young 
Americans, 21,500 plus, for a lost cause?
    General Pace. Absolutely not, sir. But we must have the 
entire weight of all three prongs of that stool present to make 
sure that these troops' mission is properly supported.
    Senator Graham. I got your message.
    I am not going to ask you to rate from 1 to 10, but I would 
like you both to comment again. Whatever doubts we have about 
the right strategy to lead to victory in Iraq, are there any 
doubts in either of your minds about the consequences of 
failure in terms of our long-term national interest? What would 
they be?
    Secretary Gates. There is no doubt in my mind that a 
failure, which I regard as our leaving Iraq in chaos or an Iraq 
that has a government that is supportive of terror, would have 
enormous impact for the region and for us for a long time to 
come.
    Senator Graham. Thank you, Mr. Secretary. I appreciate it.
    One last question. I know my time has expired. To General 
Pace--and this is very important to me--reenlistment rates are 
high among those who have served in Iraq, is that correct?
    General Pace. They are, sir.
    Senator Graham. Why is that so?
    General Pace. I think several reasons. First of all, most 
fundamentally, they believe in the mission they have been 
given. Second and also fundamentally, they believe that the 
American people support them in their mission and support them 
as military.
    Senator Graham. Do they believe their mission is directly 
related to the security of their own children and 
grandchildren?
    General Pace. Absolutely, sir.
    Senator Graham. Thank you very much.
    Chairman Levin. Thank you, Senator Graham.
    Senator Webb, Senator Martinez just wants to ask consent to 
put his statement in the record, so we will recognize him just 
for that purpose.
    Senator Martinez. Mr. Chairman, thank you very much. I 
would appreciate the opportunity to put a statement in the 
record and just take this moment to thank the chairman for this 
very important hearing and let you know how delighted I am to 
be on the committee and thank the witnesses for their patience 
and their very valuable testimony.
    [The prepared statement of Senator Martinez follows:]
               Prepared Statement by Senator Mel Martinez
    Chairman Levin, Senator McCain, I am honored to have the 
opportunity to serve on this great committee. Thank you for your 
leadership and for holding this important hearing to discuss a new U.S. 
strategic approach to the situation in Iraq.
    Secretary Gates, General Pace, thank you for taking the time to 
join us today.
    Earlier this week President Bush articulated to our fellow citizens 
a change of course for our strategy in the Iraqi theater of this 
current war. 1 think we are all in agreement that the current strategy 
has not been successful, and I think that the components laid out by 
President Bush earlier this week represents a reasonable chance for 
success in the current environment.
    This is not to say that the road ahead will not be difficult. Or 
that any one solution is a silver bullet solution. But there is no 
alternative but success. We need to give this a chance.
    Not since World War II has our Nation had so much at stake. It is 
vital that as elected leaders we outline what is at stake in this 
current war and what it means to our national security.
    It is important to remember that Iraq is only part of a much 
broader war against radical Muslim fundamentalists that is ongoing in 
Afghanistan, the Philippines, Indonesia, the Horn of Africa, Iraq, and 
elsewhere. This current struggle and the wider war that is being waged 
against us and other freedom-loving countries is an ideological 
struggle about the future of our world--the future of freedom.
    I am concerned about the degree to which this war and many of the 
solutions offered to current difficulties, has become politicized. I 
know that my colleagues on both sides of the aisle share my grave 
concerns about the current situation in Iraq, but once again, I can't 
stress again how important it is to work together.
    The damage to our reputation, our clout, and our efforts at curbing 
terrorist activity would be disastrous if we cannot find a way to 
succeed.
    I had the good fortune to be able to visit our troops in Iraq 
recently, many of whom happen to live or train in my State of Florida. 
I was very glad to see that morale was high, and belief in the mission 
at hand was strong. I can't say enough about the caliber of young men 
and women serving in our military at such sacrifice to their family and 
loved ones.
    What also I took away from my trip was the strong belief that the 
Iraqi government really needed to step up to the plate and start taking 
some serious measures to secure and govern their country.
    I am encouraged that a strong component of the comprehensive 
strategy laid out by President Bush requires the Iraqi government to 
take the lead role in the stability and defense of their own country 
and by putting a serious financial commitment into reconstruction and 
job creation in Iraq, the Iraqi government has made the type of 
commitment that must occur if this plan is to succeed. We must give it 
a chance.
    The stabilization of Iraq is paramount. Only after security has 
been established can reconstruction efforts and the training of Iraqi 
security forces be expedited. I am hopeful that the Iraqis will do 
their part--first and foremost--to reconcile the profound sectarian 
divisions that exist in Iraq. This is the central obstacle to peace, 
stability, and development in the country. The Iraqi government must 
also combat the complex sectarian violence, the internal insurgency, 
and the threat of al Qaeda elements in Iraq.
    The coalition can help--but Iraqis themselves--and not the 
coalition--must work to strengthen institutions, eliminate corruption, 
and rehabilitate the political and economic system so that Iraqi 
citizens have a chance at peace.
    The Iraqi government is at a key crossroads and they must meet this 
challenge. I see increasing indications that they know this and I am 
hopeful that together we can make real progress that the American 
people are demanding of our sacrifice.
    I join my colleagues in thanking you Secretary Gates and General 
Pace for your service and for your testimony here. General Pace, I want 
to thank you for the tremendous job you have done throughout this war--
first as Vice Chairman and now as Chairman for the last 16 months. 
Secretary Gates, thank you for accepting this most challenging duty at 
a truly profound moment in our history.
    I would like to make a brief comment and ask two questions, one 
regarding the diplomacy phase of the strategy--and one on the 
enhancements to the program of training Iraqi security forces.
    First I want to make a comment about the criticism I have heard 
today of the so-called, ``surge strategy.'' I don't think it is 
appropriate to frame this discussion around the pros or cons of the 
troop increase.
    While I understand that adding to the number of U.S. troops in Iraq 
is of concern to all of us, it is inappropriate to condemn the ``surge 
strategy'' out of context of a discussion of the larger strategy.
    The components of U.S. strategy are: the ends (goals), ways 
(concepts of employing resources), and means (resources).
    The troop increase that the President approved is not the strategy; 
rather it is one component of the ``means'' being employed in the 
strategy.
    Even the bipartisan Iraq Study Group (ISG) allowed for a 
possibility that a surge might be an appropriate component of a new 
Iraq strategy.
    Despite rejecting a substantial increase in troop levels (100,000-
200,000), the ISG report said that it ``. . . could support . . . a 
short-term redeployment or surge of American combat forces to stabilize 
Baghdad or speed up the training and equipping mission . . . .'' The 
adding (or subtracting) of this level of troops (20,000-30,000) does 
not amount to the change in the strategy in itself.
    The current strategy has a full range of political, economic, and 
security components and it is sound. We should allow the tactical and 
operational level commanders in Iraq the flexibility that this increase 
allows--and not oppose the strategy simply because it includes a 
measured troop increase.
    I think it is extremely important that this panel, the Senate, and 
this Congress dutifully fulfill their oversight responsibilities--and I 
think we are doing that. I also think that we need to be careful not to 
undermine the Nation's chance of success with divisive rhetoric or 
legislative actions that seek to constrain the Commander in Chief.
    I also hope that, after we perform an appropriate level of 
oversight, we--as a Congress--can come together in a bipartisan 
consensus behind the new strategy (even though there may be parts of it 
some do not like) to send a signal of resolve to our friends and 
enemies.
    But more importantly, that consensus is important for our soldiers, 
sailors, airmen, and marines to see.
    Our service men and women and their families need to know that they 
have the full support of this Congress and the American people.
    In conclusion, Secretary Gates and General Pace: much is at stake 
and the American people are looking to us for answers. I very much 
appreciate your thoughts on the best way forward in Iraq and how it 
will involve the brave men and women of our Armed Forces. I pledge to 
work with you and with my colleagues to provide every resource 
necessary to ensure victory.

    Chairman Levin. We are grateful to have you on the 
committee and we are sorry that we could not get to you in 
terms of your schedule.
    Senator Martinez. Thank you.
    Chairman Levin. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I have a statement and some questions I may not be able to 
ask and I would like to insert them for the record for a 
written response at a later time.
    [The prepared statement of Senator Webb follows:]
                 Prepared Statement by Senator Jim Webb
    I raised early warnings regarding this administration's decision to 
invade Iraq. Like many people with strong national security 
backgrounds, I believed this action following September 11 ran counter 
to our Nation's long-term security interests and the stability of the 
region. Very little has happened since 2003 that was not both 
predictable and predicted.
    The committee's hearings provide a critical opportunity to forge a 
new strategic direction for Iraq and the entire region. This change in 
direction is long overdue. I hope all Americans will eventually be able 
to rally behind a new plan for Iraq if the President honors his earlier 
commitment to accommodate improvements recommended by Congress.
    The President's plan for a new course in Iraq runs contrary to the 
well-established recommendations of the Nation's top military leaders. 
The plan continues a pattern of seeking to resolve Iraq's security 
primarily from the inside out rather than from the outside in. By that 
I mean the United States must create a regional diplomatic umbrella 
before we can guarantee the long-term security and stability of Iraq. 
The President's plan falls well short of what is needed to achieve the 
necessary international diplomatic outcome. Its primary emphasis is 
tactical.
    I recognize that Iraq faces severe and growing economic hardship as 
the result of its increasing spiral of violence, but I believe that 
providing an additional $1 billion in U.S. funding for reconstruction 
projects would only worsen the rampant waste and corruption as a result 
of the lack of effective oversight and control of similar billions in 
funding over the past 4 years. The administration's intention to 
increase economic aid to Iraq is especially troublesome when we still 
have victims in critical need of assistance more than a year after 
Hurricane Katrina's devastation along our Gulf Coast.
    We went to war in Iraq recklessly; we must move forward 
responsibly. The war's costs to our Nation have been staggering. These 
costs encompass what we hold to be most precious--the blood of our 
citizens, including many hundreds of servicemembers from the 
Commonwealth of Virginia who have been killed or wounded. The costs 
also extend to the many thousands more Iraqi people killed and wounded 
as their country slides into the chaos of sectarian violence and civil 
war. We have incurred extraordinary financial costs--expenses totaling 
more than $380 billion and now estimated at $8 billion a month.
    The war also has diverted our Nation's focus from fighting 
international terrorism and deflected our attention to the many 
additional threats to our national security abroad and national 
greatness at home--costs difficult to measure, perhaps, but very real 
all the same.
    The Iraqi government and the Iraqi people must understand that the 
United States does not intend to maintain its current presence in their 
country forever. They must make the difficult but essential decisions 
to end today's sectarian violence and to provide for their own 
security. The American people are not alone in seeking that day; 
indeed, the overwhelming majority of Iraqi citizens also does not want 
our forces present in their country for any longer than is absolutely 
necessary.
    The key questions of the moment are how long the United States 
should be expected to keep our forces in Iraq as its government seeks 
to assume its own burdens? How and when will we begin to draw down our 
combat presence and conclude our mission in a way that does not leave 
even greater chaos behind? What is the administration's strategic 
vision and, as it relates to our presence in Iraq, its eventual end 
point?
    This administration has never clearly affirmed that the answers to 
these questions are not to be found in Iraq alone. Achieving our goals 
in this war requires a coherent strategy encompassing the entire 
region. The need for an overarching diplomatic solution is now, more 
than ever, an imperative if we are to end the war.
    I have said for many months that the United States should not 
singly focus on a military solution to end the war in Iraq. We must 
seek a diplomatic solution immediately--one that engages all nations in 
the region with historic and cultural ties to Iraq. Because they are 
part of today's problem, Syria and Iran also must be party to 
tomorrow's solution. Strong diplomatic pressure on such regimes is 
always preferable to policies that give them leverage as outsiders to 
the process. I believe that this overarching diplomatic solution, one 
supportive of a coherent strategy, will lead to four outcomes. First, 
it will enable us to withdraw our combat troops from Iraq over time. 
Second, it will lead to progressively greater regional stability. 
Third, it will allow us to fight international terrorism more 
effectively. Lastly, it will enable us to address our broad strategic 
interests around the world with renewed vigor.
    During an earlier era in our Nation's history, we were faced with 
an unpopular war that had gone on too long. The then-recently retired 
General Dwight David Eisenhower spoke out against the conduct of the 
Korean War in the summer of 1952. ``Where do we go from here,'' he 
asked; ``when comes the end?''
    Today, the members of this committee--indeed all Americans--still 
await answers to these same questions: Where do we go from here? When 
comes the end?

    Chairman Levin. We would be happy to do that.
    Senator Webb. Secretary Gates, I want to add my thanks to 
you for coming back into public service. I had 5 years in the 
Pentagon, 1 year as a marine and 4 years in the executive 
department, and I do not think there is a harder job, certainly 
in the executive branch and possibly in the Government, than 
serving as Secretary of Defense. I look forward to working with 
both you and General Pace. My door is open and I hope to be 
able to make your task more functional, if not always more 
pleasant, but I am looking forward to working with both of you.
    General Pace, I was not going to say this, but I want to 
say something, just my own little interjection here on the 
reenlistment rates and why people serve. I come from a family 
that has spent a lot of time in the military generationally and 
I think it is fair to say that in my experience people rarely 
enlist for political reasons and rarely serve for political 
reasons. They serve because they love their country, they serve 
because they have a family tradition, and they serve for 
camaraderie. So I do not agree with the characterization that 
preceded me on that in toto. There are people who are serving 
because of the political mission, but there are people who, 
perhaps even in spite of the political mission, are serving.
    I also want to say something about my long-time friend 
Senator McCain's comments when he was talking about the 
consequences of pulling out of Iraq, and in your statement, 
Secretary Gates, you list some of these as an emboldened and 
strengthened Iran, a base of operations for jihadist networks 
in the heart of the Middle East, and undermining of the 
credibility of the United States. In many ways, quite frankly, 
those have been the results of the invasion and occupation. 
There is really nothing that has occurred since the invasion 
and occupation that was not predictable and, in fact, most of 
it was predicted. It was predicted in many cases by people with 
long backgrounds in national security, people like General 
Shinseki, whose name has been before this committee many times, 
people like General Tony Zinni, who commanded Central Command 
and warned about the strategic misadventure of invading and 
occupying Iraq, people like General Greg Newbold, who served as 
the director of operations on the Joint Chiefs and whose 
professionalism I greatly respect, and with whom I had many 
conversations even before the invasion, and people like General 
Paul K. Van Riper, who was something of an icon to a lot of us 
when we were young marines, given his service in Vietnam, who 
later was the president of the Marine Corps University, who 
directed Marine Corps intelligence.
    In many cases there were people who saw their military 
careers destroyed and who were personally demeaned by people 
who opposed them on the issues, including members of this 
administration. They are people in my judgment who will be 
remembered in history as having had more conscience. We all 
know that when you put your uniform on and you say you are 
going to serve your country and then you take that difficult 
step to speak in a way that may sometimes even be misconstrued 
by people serving, that you often pay a price, and I think it 
is important to say that.
    I also would like to say that it is not really true that an 
American withdrawal would in and of itself be catastrophic. I 
think we all agree, I hope, that eventually we will withdraw. 
The question is the circumstances under which we will be 
allowed to do so. I would share with the administration the 
goals of an increased stability in the region, a better ability 
to address international terrorism, and also the ability to 
address our strategic interests around the world. In my view 
that is not particularly happening now, and we have had this 
whole discussion today about this new strategy and, quite 
frankly, I do not particularly see it as a new strategy. I do 
not see it as strategic at all. I see it, particularly in terms 
of national strategy. What I am looking at here is a tactical 
adjustment to a situation on the ground.
    One question that I would have, Secretary Gates, 
particularly since you served on the ISG, is whether you would 
agree with the conclusion of the ISG and other people that a 
strong and inclusive regional diplomatic effort is really the 
key to eventual political stability in Iraq?
    Secretary Gates. Two things, Senator. First of all, I would 
agree with your characterization that whether or not our 
withdrawal is a catastrophe will depend very much on the 
circumstances under which we withdraw. Our goal is in fact 
eventually to withdraw, and in circumstances that are the 
opposite of catastrophic. That will depend on the situation on 
the ground.
    I think that a strong diplomatic initiative is very 
important as a part of this endeavor. I think it is not perhaps 
central to it, but it is important to it. It is important that 
I think we make a renewed effort to try and bring progress to 
the Israeli-Palestinian conflict. There is just no question 
that, while the connection to what is going on in Iraq is not 
direct, it sets a tone and a mood in the Middle East that makes 
our job harder.
    It is clearly important to get the Saudis more directly 
engaged and others in terms of trying to support this fledgling 
government. So I agree that diplomatic initiatives are very 
important.
    With respect to the proposed increase in the end strengths 
of the Army and the Marine Corps, I have one concern. On the 
one hand I would fully agree with you that the ground forces 
are getting pretty well burnt out. I have had conversations 
with the new commandant. He is on record talking about wanting 
to get away from the seven and seven and the one for one into a 
one for two, which is more traditional. At the same time, quite 
frankly, I am a little bit worried that if we just vote to put 
these increases in effect over a period of years that they 
might be ratifying what I and a number of people believe is the 
current lack of strategic vision in Iraq, since this is where 
so much of the burden is falling.
    I would hope that you will be able to justify these 
increases in an environment where our troop levels in Iraq 
might be dramatically reduced.
    Secretary Gates. Yes, sir. I would add that, as I have 
indicated, we are trying to construct it in a way that there 
are off-ramps in this increase, so that if world conditions 
should change surprisingly for the better, you do not 
necessarily have to go to the full extent of the buildup.
    Senator Webb. I appreciate that. Thank you.
    General Pace. Senator, if I could have 30 seconds, I 
absolutely agree with the fundamental things that you said 
about the reason why people join the Armed Forces. They do not 
serve for a political purpose. We strive very hard and mightily 
to not have a political affiliation. So I want to make sure 
that I align myself with you, with what you say on that.
    Senator Webb. I appreciate your saying that. It was more in 
my view an attempt to clarify a series of leading questions 
that were being put to you by my predecessor, because it is 
very important I think for people to understand that it is rare 
in my view that people decide to serve purely for some 
political reason, whatever the issue is. We become the stewards 
of their service as a result, because we are the political 
entity here.
    Thank you very much.
    General Pace. Thank you, Senator.
    Chairman Levin. Thank you very much, Senator Webb.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    I want to also echo my appreciation to our panel for their 
service to our country and for being here today and answering 
what I think are hard questions and rightfully so. This is a 
very difficult time, a high-stakes struggle for our country, 
and one that generates enormous emotion around the country.
    I think it was expected, probably after the President's 
speech the other night, that there would be a lot of debate. 
There are lots of criticisms of it, obviously, and I think that 
was somewhat expected, too. I guess those criticisms hover 
around a couple of just general areas, and I would like just 
for the record to have you respond to a couple of those because 
I think it is important for the American people to understand 
what is at stake here and what is and is not true, what is and 
is not factual.
    First off, one of the arguments against this new approach, 
this new strategy, is that it is not new, that all these things 
have been tried before. So I would like to have you comment, 
what in fact is new about what we are attempting to accomplish 
now?
    Secretary Gates. As in the earlier questions, we will do 
this as a duet. First, I would say that the leading role of the 
Iraqis is new. This is the first time on the scale that we are 
talking about a joint Iraqi-U.S. operation with the Iraqis 
having the principal responsibility for success.
    I think that having sufficient troops for the hold part of 
clear, hold, and build is new. That clearly was a lesson 
learned from the operation last fall.
    Our understanding of the need for an integrated economic 
strategy that brings jobs and some relief and a sense of 
success locally is not a new concept, but integrating it into 
the plan in this way I think is different.
    The willingness of the Iraqis to commit up to $10 billion 
of their own money I think is a new thing.
    A number of the benchmarks put forward by the Iraqis, I 
think, represent something new in terms of a commitment to 
avoid political interference in the military operations and a 
commitment to allow the troops to go after all lawbreakers 
regardless of their religious background.
    So I think those are just some of the things that are 
different than have been the case in the past.
    Senator Thune. General Pace, one of the other criticisms 
that has been made, is that this was run roughshod over our 
commanders, over our generals, that our generals do not support 
this. You heard statements made earlier, quotes from previous 
testimony in front of the committee from General Abizaid and 
General Casey. I visited with you the other day about this and 
you indicated to me that this is something that really 
originated with our commanders and with our generals. Could you 
answer that question about whether or not the generals who are 
both present and coming into the operation--General Petraeus, 
Admiral Fallon obviously and General Odierno--what their views 
are on this?
    General Pace. I can, sir, and I have spoken to each of them 
both in person and by phone multiple times on this issue. The 
request for the increase is coming from General Casey, 
Lieutenant General Odierno, and General Zilmer, who are the 
primary U.S. commanders on the ground--General Casey is the 
commander on the ground--through General Abizaid, who has 
forwarded it with his endorsement that this is the right thing.
    In fact, when the Secretary and I were in Baghdad we had a 
private meeting with General Abizaid and General Casey, the 
Secretary and myself, and it was at that meeting where those 
two generals brought forward to the Secretary their desire for 
additional troops.
    In addition to that, General Petraeus in his current role 
as responsible for doctrine on counterinsurgency operations has 
been consulting with the generals in Iraq and he is very much 
on board with this and has said so both publicly and privately. 
Admiral Fallon knows a little bit less about this plan because 
he has been busy doing what he is doing and I do not know 
exactly where he is on it, but I do know that each of the 
generals who has been involved in this and has current 
responsibilities for parts of this is requesting this increase. 
The Joint Chiefs, who began our deliberations in early 
September because we realized about the middle of August that 
where we thought we were going to be this year and where we 
were going to end up being this year were not the same place, 
therefore something was wrong, and we asked what might be 
changed. We began meeting multiple times per week, bringing in 
external experts, talking amongst ourselves to determine what 
we thought was right, sending ideas both down and up the chain 
of command, and working as part of this.
    So this has been a collaborative effort for at least 4 
months amongst all the senior leaders and it is in fact the 
commanders on the ground, supported by all of us, who are 
asking for this.
    Senator Thune. I appreciate it. In response to your 
comments, there are in my view changes. I have been there three 
times. I just got back from my third visit, and I think this is 
an approach and a strategy that is different. But I ask these 
questions simply because these are obviously a lot of what the 
debate both here in Washington, the political debate, and the 
debate in public is about.
    The other question I would ask, because this is another 
point that is often a criticism that is leveled, is that, can 
we achieve a political solution or a diplomatic solution. In 
your opinion, can a political solution succeed if there is not 
security in Baghdad?
    General Pace. No, sir, and vice versa.
    Senator Thune. Mr. Secretary?
    Secretary Gates. I agree.
    Senator Thune. The other question I guess I would ask is, 
do you think that the number of troops that we are putting in 
there is adequate?
    General Pace. For the plan that is being executed and with 
the other two parts of the plan, the economic and the 
political, the answer is yes, sir. If one of those two others 
do not show up, then the military plan as written will not 
succeed.
    Senator Thune. Do you have in your minds ideas framed about 
how to measure whether or not the Iraqis are making progress 
against the benchmarks? Are there measuring devices? Clearly, 
the number of brigades that come in and the level to which 
their troops are performing in the lead, but also some of the 
economic criteria that have been put forward, the 
reconstruction monies, and provincial elections, which I assume 
are going to be down the road. I guess what I am trying to find 
out is are there ways of measuring whether or not they are 
succeeding? The question was asked earlier how soon we will 
know that, but I am trying to get at this question because I 
think it is our responsibility in terms of oversight to ask 
these questions as well.
    Secretary Gates. I think there are four categories of 
benchmarks that we can have and I think that they are of 
varying specificity. The first category, and an area where I 
think that they are perhaps at least early on the most 
specific, is the military benchmarks: Have the brigades shown 
up on time with the people that they said would be there or 
close to on time? Are they allowed to go into all 
neighborhoods? Is there political interference? I think we will 
see these things fairly early. Those are examples.
    I think a second category of benchmarks will be our success 
in the hold operations. Has the level of violence been reduced 
in the areas that have been cleared so that economic 
reconstruction and other things can be done?
    The third category would be in the ``build'' part of the 
strategy and that is are the Iraqis spending their $10 billion 
and are there signs of progress and improvement in those areas? 
The hold and build phases are probably ones that will take 
longer to be able to discern whether there has been success, 
but I think there are some benchmarks there.
    Then the fourth in terms of the political benchmarks will 
be whether the Iraqis fulfill their commitments in terms of 
oil, the sharing of the oil revenue, setting a date for 
provincial elections and several of these things that they have 
committed to do.
    So I would say that there are potential benchmarks in each 
of these four areas and our ability to measure them will vary 
in terms of how soon we will be able to see something.
    Senator Thune. I appreciate your answers. My sense is that 
finally, they get it. I think that Prime Minister Maliki and, 
based on this last trip that we made and our discussions with 
them and how very blunt we were about the importance of them 
taking on the militias, about them getting the Iraqis into the 
lead, about the oil revenues and those sorts of things, it 
seems to me at least that this is our chance, this is our 
opportunity, and I do not think we can miss it.
    So thank you again for your service and for your testimony.
    Chairman Levin. Thank you, Senator Thune.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Thank you both for your service to our country and your 
patience with all of our questions today. I hope I can count on 
that patience just for a few more minutes.
    Is it a fair assessment to say that in fact the Maliki 
government has made many, many commitments to us that they have 
been unwilling or unable to keep?
    Secretary Gates. I think that is a true statement. But I 
would remind of an earlier comment that I made, that this is a 
government that came into existence, not just as political 
leaders, but the existence of the government itself only came 
into existence less than a year ago, and I am not sure how much 
it has been the inability of the system to deliver on promises 
that have been made because the bureaucracy does not work, 
because they do not have a banking system, and things like 
that, and how much it was a conscious decision simply to break 
a promise.
    Senator McCaskill. But certainly under those circumstances 
it would be incredibly important that the leader would remain 
strong because of the failure of the underlying systems to 
support that leader in any regard?
    Secretary Gates. Yes.
    Senator McCaskill. Is it an unfair statement to say that 
Maliki today as a leader is not in as strong a position as he 
was when he made the commitment for six brigades and only two 
showed up?
    Secretary Gates. Actually, I think that I do not have the 
kind of in-depth knowledge that probably is necessary to answer 
your question, but my impression is that, in fact, Maliki 
probably is somewhat stronger today than he has been in the 
past. When he first took the job, he replaced somebody who was 
politically stronger, as I understand it, but did not have the 
will or the ability to carry out actions that had been 
promised.
    One has the sense that the other leaders have come in 
behind Maliki on this program to support him--Talabani, 
Hashemi, Hakim, and the others. We will see.
    Senator McCaskill. It is certainly clear that this entire 
plan is premised on the strength of the Iraqi government at 
this juncture to, in fact, finally deliver on some of the 
commitments that they have made?
    Secretary Gates. Yes, ma'am.
    Senator McCaskill. If they fail again to deliver on the 
commitments, this plan completely fails.
    Secretary Gates. It is very difficult to see how this plan 
could succeed if they fail to fulfill their commitments.
    Senator McCaskill. Senator Graham indicated a few minutes 
ago that this is General Petraeus' plan, but it was my 
understanding in the briefing with Mr. Hadley that this in fact 
is the Iraqi government's plan, not our plan. Which is it? Is 
this our plan or is this the Iraqi plan?
    General Pace. This is the Iraqi government's initiative, 
Prime Minister Maliki's initiative, agreed to by our President, 
that was then given to General Casey and his Iraqi counterpart 
to work through the military details. General Petraeus' 
involvement has been in his current position as responsible for 
counterinsurgency doctrine where he has been an adviser to 
those in Baghdad who have been doing the work on our side.
    For the United States, this is very much a General Casey, 
General Odierno, General Zilmer plan, and on the Iraqi side, it 
is their Iraqi counterparts, as a military part of the three-
legged stool that was proposed by Prime Minister Maliki.
    Senator McCaskill. I would like to hone in a little bit now 
on what some people have said, and I do not think they meant to 
be flippant and I am certainly not wanting to be flippant. But 
the billion dollars that is being asked for, for what they call 
``walking around money,'' but specifically the money that would 
be given to the military to try to do immediate things on the 
ground after areas have been cleared, to try to help stabilize 
those areas with something other than the brave men and women 
who we are so blessed to have serve this country. It is also my 
understanding that there is now a $10 billion surplus that the 
Iraqi government holds.
    If the purpose here is to make the Iraqi government strong 
enough to stand on its own, and if the purpose here is to 
strengthen the Iraqi military and the Iraqi police for this 
work, then why do they not use some of their $10 billion 
surplus and why are they not spreading that money around, as 
opposed to us going back to our much beleaguered treasury for 
another billion dollars of our great-grandchildren's money that 
frankly is going to follow another at least $16-$17 billion 
that have been spent without getting any of the results in 
terms of reconstruction or progress in Iraq?
    Secretary Gates. First of all, the Iraqis have committed to 
spend $10 billion of their money as part of this program, it is 
that surplus that you described, and that is clearly an 
important part of it.
    I will ask General Pace to describe the value of the CERP 
money, but it is generally regarded as short-term relief that 
followed immediately upon the military operation of clearing, 
to start to get people to work in terms of clearing trash, 
hooking up sewer lines, and things like that.
    But the basic point is the Iraqis, and one of the 
benchmarks that I mentioned here is, the Iraqis have committed 
to spend $10 billion as part of this enterprise.
    Senator McCaskill. How is their $10 billion going to be 
spent?
    Secretary Gates. That is really more in Secretary Rice's 
bailiwick than mine, but my impression is that we are working 
with them on that. I think that their original plan was for 
some longer-term projects and I think we are working with them 
to try and get them to break it down into smaller, earlier 
projects that can have an impact in Baghdad in the relatively 
near-term.
    Senator McCaskill. I think you understand the point I am 
making. If the idea of this money is to begin to win the hearts 
and minds of the people that live in these neighborhoods, these 
families that are living under incredible pressure every day in 
terms of the violence that surrounds them, if the idea here is 
to win their hearts and minds, then why would it be the 
American military that is distributing this money instead of 
the Iraqi government distributing their own money, their oil 
revenue, instead of our revenue?
    What would be the military advantages of us doing that as 
opposed to the Iraqi military doing that?
    General Pace. First of all, Senator, I like your premise. I 
think you are absolutely right that in the long-term and as 
short-term as possible that it be Iraqi money, with Iraqi 
leaders who are doing that. So I like that premise.
    It is also true that, for the sake of our own force 
protection, the CERP money that is available to our commanders 
has in fact made it possible to have immediate impact after we 
have swept neighborhoods. Before Congress authorized us to do 
this, what we had was a private first class who had a $90,000 
missile that he could fire whenever he wanted to, but he did 
not have 5 bucks in his pocket to be able to help to do 
something good immediately on the streets to get an Iraqi 
employed, for example.
    This money is not in the PFC's pockets but it is commanders 
who then sweep through a neighborhood and are able to, through 
immediate hiring, provide immediate benefit to the local 
population, take some of the angry young men off the streets, 
get things done like showing, in addition to knocking on doors 
and killing those who resist, that you also have the 
opportunity here to have sewers cleaned up, trash cleaned up, 
and the like.
    That has worked extremely well for our forces where we have 
been in the lead. But I agree with you that in fact some of 
this $10 billion that the Iraqis are planning on would be well 
used in a CERP-like program for their commanders so that they 
could have the same kind of impact that we have been having.
    Senator McCaskill. Better yet, if they would, in return for 
all that we have spent and all we have done for their country, 
they could spend $9 billion and give us $1 billion of it for us 
to use in our CERP program, instead of us going back to our 
taxpayers for another billion.
    Thank you both very much. I know my time has expired.
    Chairman Levin. Thank you, Senator McCaskill.
    Just one clarification. Is that $10 billion over what 
period of time?
    Secretary Gates. My impression is that it is immediately 
available.
    Chairman Levin. Thank you.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Secretary Gates and General Pace, Senator Akaka and I are 
the last things standing between you and a little sustenance. 
Thank you for your endurance. Thank you for your service and 
thanks for discussing what I think is the most important issue 
facing our generation.
    My dad was a B-17 pilot in World War II and part of what 
Tom Brokaw called ``the greatest generation,'' facing an enemy, 
Imperial Japan and Nazi Germany--that threatened to completely 
annihilate our way of life. I think this threat that we are 
facing today is no less serious.
    I am struck a little bit and maybe I confess to a little 
bit of cognitive dissonance when it comes to, when we start 
discussing these plans. General Pace, we have had as many as 
160,000 American troops in Iraq at one time, have we not, sir?
    General Pace. We have. Yes, sir.
    Senator Cornyn. So even with this so-called surge of an 
additional 21,500 troops, we will not reach that previous high 
level of 160,000, will we?
    General Pace. We will not, sir.
    Senator Cornyn. There has been some suggestion that the 
President and his advisers, including you, Mr. Secretary and 
General Pace and others, have not listened to outside sources 
and differences of opinion. Yet I quote the ISG, a bipartisan 
group that I know, Secretary Gates, you advised or you served 
on until you resigned to serve as Secretary of Defense. On page 
73 they said: ``We could, however, support a short-term 
redeployment or surge of American combat forces to stabilize 
Baghdad or to speed up the training and equipping mission, if 
the United States commander in Iraq determines that such steps 
would be effective.''
    Is that essentially what has happened here, General Pace?
    General Pace. It is, sir.
    Senator Cornyn. It is amazing to me that when a number of 
members of this body, United States Senators, have over a 
period of time called for the deployment of more troops, more 
boots-on-the-ground, on both sides of the aisle, now when 
finally admitting that mistakes have been made up until this 
point, but looking forward at how to solve this very different 
problem, the President and his advisers have finally said, yes, 
we agree with you, but yet it seems that some simply do not 
want to take yes for an answer.
    You will have to forgive me. In suffering from this 
cognitive dissonance that I mentioned a moment ago, it seems to 
me that there are two choices. One is to admit failure and 
quit. That is 100 percent guaranteed to cause failure in Iraq. 
The other alternative is to try this last best perhaps plan we 
have for salvaging the situation in Iraq.
    It strikes me that there are so many people, unfortunately 
too many people, maybe not outside of Washington but at least 
in Washington, who are ready to call it quits, to throw in the 
towel, to give up, even though we have just heard earlier that 
there seems to be more or less a bipartisan consensus that the 
consequences of failure are simply unacceptable.
    It just strikes me as unusual. Thinking back on our own 
history, I remember reading David McCullough's book 1776 about 
the Revolutionary War and how improbable the success of George 
Washington leading the United States Army was and that America 
would actually be able to establish its independence from one 
of the most powerful nations in the world at the time. Whether 
you look at the Civil War history or even World War II or other 
situations, obviously success is not guaranteed.
    But I take it from your testimony today and everything we 
have heard from the Commander in Chief to the people who are 
empowered to execute that plan, that you believe that this is 
the best plan at this time for achieving probable success; is 
that correct, Secretary Gates?
    Secretary Gates. Yes, sir.
    Senator Cornyn. General Pace, is that your testimony as 
well, sir?
    General Pace. Yes, sir, it is.
    Senator Cornyn. Now let me just ask you for a second about 
the consequences of failure. Senator McCain mentioned this one 
consequence of failure. We have considered what if Iraq 
descends into a failed state, perhaps serving as a place where 
terrorists can organize, train, and export terrorist attacks, 
much as al Qaeda did in Afghanistan after the Soviet Union 
left. We have learned a little bit about the possibility of a 
regional conflict if, for example, Iran continues its 
aggressive moves into Iraq and supporting the Shiites killing 
Sunnis as part of the ethnic cleansing there that Sunni 
majority nations like Saudi Arabia, might feel compelled to 
come to the rescue of the Sunni minority in Iraq, just to 
mention one of the possibilities.
    But I would like for you to answer this question if you 
will. What would be the humanitarian consequences? What would 
be the likely outcomes in terms of loss of life to innocent 
men, women, and children in that region if some of these dire 
consequences do occur, if in fact we fail? Secretary Gates?
    Secretary Gates. I think one of the consequences, we are 
already seeing some internal immigration and to a limited 
extent ethnic cleansing, and I would suspect that one 
consequence would be a fairly dramatic increase both in 
internal immigration, the number of displaced persons, and also 
ethnic cleansing.
    Senator Cornyn. General Pace, do you have any additional 
comments?
    General Pace. Sir, clearly in my mind there would be 
increased murders and sectarian violence. I do not know how 
much, but certainly a large increase in that. You would have an 
impact in Afghanistan as well. I think folks in Afghanistan 
have made enormous strides, but if we were to fail in Iraq then 
the forces that would have been victorious in Iraq would turn 
to Afghanistan next and they would begin to do the same thing 
in Afghanistan that they are doing in Iraq and eventually if we 
determine to come home that they would follow us home.
    For those who do not believe that this is still a real 
threat, we need to look no further back than when the United 
Kingdom was able to thwart a threat of multiple airliners being 
blown up en route here to the United States. This is a real 
threat to the United States and collectively we must find a way 
to deal with it.
    Senator Cornyn. If I could just say in closing that many 
people in this country are justly concerned about the genocide 
in Darfur where hundreds of thousands of people have died. With 
others who have traveled to Iraq, I remember traveling with the 
chairman to Iraq in 2003 and standing on the edge of a mass 
grave site where the U.N. said in that and similar sites 
400,000 perhaps Iraqis lay dead at the hand of Saddam Hussein 
and perhaps a million more people had simply exited the country 
during his regime in order to avoid a similar fate.
    So I hope that we will focus a little bit more on the 
consequences of failure in Iraq and that will steel us and 
encourage us to at least try to heed the advice of the 
President's most expert military advisers, present company 
included, to try to avoid that failure, because I agree that 
the consequences of failure are simply unacceptable and I 
believe that it will make America endangered as a result.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Thank you, Secretary Gates and General Pace, for your 
leadership and for responding to our concerns here.
    I first want to acknowledge the courageous men and women in 
our Armed Forces who have served to provide security for our 
country and the freedom of our country. That also includes the 
National Guard and Reserves, and I would like to add the 
veterans of the past as well, for their dedication and service 
to our great country.
    I also want to say that I stand committed to support our 
troops, as I have since we went into Iraq, and I look forward 
to continuing that kind of support through the best training 
and equipment and support that our country can give them and we 
will continue to do that until we come home from Iraq.
    I am very concerned about several things that have been 
mentioned and discussed already today. One of them is about the 
National Guard, Mr. Secretary. I am very concerned about the 
mobilization and/or remobilization of our National Guard units, 
both nationwide and in my home State of Hawaii. I would like to 
recall a press conference you had yesterday when you stated 
that today's global demands will require a number of selected 
Guard and Reserve units to be remobilized sooner than has been 
the standard procedure.
    My question to you is, what criteria would you use in 
selecting the Guard units?
    Secretary Gates. Let me answer your question broadly and 
then ask General Pace to respond to the specifics. There is no 
question that we have had a growing problem in the way that the 
Guard and Reserve Forces have been used, particularly drawing 
on individual volunteers rather than mobilizing units. The 
problem has become more and more serious and I am told that now 
to put together one unit to deploy often will take going to 
many units and bringing them together, often people who have 
not trained together and who do not even know each other for 
that matter.
    So what we are doing is trying to rationalize this whole 
process, and as part of that rationalization not only make more 
force available to the military commanders in a variety of 
potential circumstances, not just Iraq by any means, but also 
to reestablish greater predictability for the members of the 
Guard and Reserve.
    The transition period while we rationalize this process, 
this period of some months, will impose, there is no question 
about it, an extra burden on some selected units. But our hope 
is to get back to our policy of 1 year mobilized, 5 years 
demobilized, and 1 year mobilized for the Active Force and 2 
years at their home post.
    In an effort to mitigate the consequences, I have also 
directed that the involuntary mobilizations be limited to a 
year rather than the 18 to 24 months that has been the practice 
in recent years. We are also looking at additional compensation 
for those who are being remobilized early or who are being 
extended in Iraq, and also looking at having the units and 
commanders look at the hardship waivers to ensure that those 
are being applied effectively and that we are taking advantage 
of that for families that are meeting extra hardships.
    But let me ask General Pace to address your specific 
question.
    General Pace. Senator, the U.S. Joint Forces Command in 
Norfolk, VA, has the responsibility to do this on a daily 
basis. What they will do is, as an example, if there is a need 
overseas for an engineer battalion, they will look at the 
entire inventory. They will look at Army engineers, Marine 
engineers, Navy Seabees, Air Force Red Horse squadrons, and put 
all that in a pile, Active and Reserve, and take a look at 
which ones have already been used, take them out of the pile 
and determine which ones then are next up.
    Or if they have all been used, which is what we are getting 
to, then when we are going to go back for a second deployment 
on the Active side, and see what is the relationship to that 
unit's 1 year over and 2 years back; on the Reserve side, we 
will see what is the relation to 1 year over and 5 years back. 
They take out two or three units that are the next most likely 
to go forward because they have the most time home, then work 
with the Services to see what it is that we do not know about 
that unit, whether it be manning or training or equipment, and 
then come forward to the Secretary of Defense and lay out for 
him the requirement, the proposed solution, and the cost in 
dollars, but more importantly the cost in human capital with 
regard to how they have been deployed before, et cetera.
    So there is a very strict set of criteria we go through.
    Senator Akaka. Will there be a cap on the number of units 
that you will be looking for to remobilize?
    General Pace. Not a cap other than the time that we would 
mobilize them would now be 1 year total from the time they left 
their front door until the time they walk back through their 
front door, to include training, deployment, and 
remobilization. But there is not a cap on the number of units 
because we look at the total force, Active, Guard, and Reserve, 
and again using those criteria come forward with the units that 
are next susceptible for a deployment. I should not say 
``susceptible'' because this is not punishment. These Active, 
Guard, and Reserve units are serving the Nation extremely well 
and we need to acknowledge what they are doing for the Nation.
    Senator Akaka. I am concerned about the Guard and Reserves 
because there is a hardship for families that you mentioned as 
well, and I am glad that attention is being given to this.
    I want to wish you well. My time is up all of a sudden, Mr. 
Chairman. But I want to wish you well in what you are doing and 
to say that I know everyone feels that what we are trying to do 
here is to help our country do the best we can with what we 
committed to do there in Iraq. We are looking for answers, this 
is an effort to do that, and we are pleased with the kind of 
leadership you have given and our military leadership as well 
has really brought us to this point in time.
    Also, I am so glad to hear that there is a three-pronged 
attempt here. It is not only defense, but economics as well. We 
need to also strengthen our diplomatic efforts there as well, 
and I look forward to helping them economically, as was 
mentioned here earlier, to create jobs for young people. We 
understand they are causing mischief there and to put them to 
work is one way of bringing about a change in that.
    So I am looking forward to finding solutions to the 
problems we have there.
    Secretary Gates. Senator--I think I can speak for General 
Pace as well as myself in this--there is no doubt in our mind 
that the members of this body are all trying to do what is best 
for the United States and also look out for the men and women 
in uniform.
    I would just say, since I may not have another chance, that 
some nice things have been said to General Pace and myself here 
today and I would just like to thank you, Mr. Chairman, and all 
the members of the committee for a very comprehensive, 
productive, and thoughtful hearing.
    Chairman Levin. Thank you.
    A few clarifications factually. This will be brief. How 
many units in Iraq have currently been extended beyond the 
normal 12-month tour for the Army and 7-month tour for the 
Marine Corps? Do you know the numbers, just the numbers?
    General Pace. I do, yes, sir. Currently in Iraq one unit, 
the First Brigade of the First Armored Division out of Europe, 
is currently on an extension.
    Chairman Levin. In the Marines?
    General Pace. Currently zero.
    Chairman Levin. How many additional units will be having 
their tours extended beyond that normal length under your 
announcement?
    General Pace. Yes, sir. Assuming all flow, on the Marine 
side of the house there will be one Marine expeditionary unit 
and two Marine battalions in al-Anbar, and then there will be 
one National Guard brigade, the First of the 34th, and they got 
their orders for extension yesterday, and then there will be 
two Active brigades that will be extended as well.
    Chairman Levin. Tell us, if you would, there is currently 
8,600 soldiers under stop loss. What would that go up to under 
your announcement?
    General Pace. Sir, I do not know, we will find out.
    Chairman Levin. Get us that for the record.
    [The information referred to follows:]

    Based on the announcement of five additional Brigade Combat Teams 
being sent to Iraq (all from the Active component), by the end of the 
deployment, the five ``surge'' Brigade Combat Teams will have 
approximately 1,900 soldiers effected by stop loss. This number added 
to the average number of Active component soldiers in a stop loss 
status (7,500) provides a projection of approximately 9,500 Active 
component soldiers in stop loss by May 2008. The number of soldiers 
impacted by stop loss does vary from month to month. As of December 
2006, the number of Active component soldiers impacted by stop loss was 
7,072 as compared to the November 2006 number of 8,600 accurately 
stated by Chairman Levin.

    Chairman Levin. Next, in terms of the number of persons 
displaced, the numbers that we have say that, due to the 
violence, there are 2.3 million internally displaced Iraqis now 
and about 2 million who have fled abroad. Do those two numbers 
strike you as accurate?
    Secretary Gates. I will have to find out, Senator.
    Chairman Levin. All right, if you could, give us those two 
numbers as well.
    [The information referred to follows:]

    The United Nations High Commissioner for Refugees estimated there 
were 1.7 million internally displaced Iraqis and about 1.5 million 
people who have fled Iraq as of January 2007.
    I would further recommend the committee contact the United Nations 
High Commissioner for Refugees for more details on these figures and 
this issue.

    Chairman Levin. You have answered I think it was Senator 
Bill Nelson who said that there is an agreement among the 
commanders that for a specific mission and a specific time that 
a surge would be something they support. Is there a specific 
time attached to this addition of troops? Have you attached a 
specific time for the length of this surge?
    Secretary Gates. No, sir. But as I said yesterday, I think 
most of us involved in this process assume that it will be 
months and not years.
    Chairman Levin. When is General Petraeus going to be taking 
over?
    Secretary Gates. To a certain extent that depends on the 
Senate.
    Chairman Levin. Is he ready to take over in 2 or 3 weeks? 
We heard April, somebody said. Is that accurate?
    Secretary Gates. I do not know the answer to that.
    Chairman Levin. Could you let us know that, too?
    Do you know, General?
    General Pace. Sir, it is very much dependent upon 
confirmation. All three packages have been signed and will be 
sent over when----
    Chairman Levin. If we can confirm him in 3 weeks, does he 
take over in 4 weeks? Do you know? If not, can you let us know?
    General Pace. Yes, sir. I will.
    Chairman Levin. Because that can affect confirmation. If he 
is not ready to take over until the middle part of February, 
then we can try to fit in a hearing or otherwise get him 
confirmed before that time. Let us know what that plan is as 
well.
    Finally, we will keep the record open for 48 hours in case 
there are additional questions. We know there are a couple of 
Senators who were on that preplanned visit to Iraq, I believe, 
and Afghanistan, and others may have questions as well.
    Did you have a clarification?
    Senator Cornyn. Mr. Chairman, may I just offer something in 
response to your question? This needs to be confirmed 
obviously, but I am advised that the State Department has 
briefed the staff and indicated that there are 1.5 million 
internally displaced people is the figure they have; 1.1 
million pre-2006; 700,000 up to 2003; and 1.5 million asylum 
seekers, that is people outside of the country. 50 to 60 
percent of those were pre-2003. About 300,000 refugees in Iraq 
is the figure that we have.
    But I would be delighted, as you would, to hear what the 
confirmed figures are.
    Chairman Levin. We appreciate that.
    Senator Akaka, Senator Cornyn, most importantly our 
witnesses, thank you for being with us today. It has been a 
very helpful hearing and we appreciate your obvious 
contribution in making that possible.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Robert C. Byrd
                  authority for air strikes in somalia
    1. Senator Byrd. General Pace, under what authority was the 
standing order that authorized the airstrike in Somalia promulgated?
    General Pace. [Deleted.]

    2. General Pace, was this order issued pursuant to the 2001 
Authorization for the Use of Military Force, or under some other 
authority?
    General Pace. [Deleted.]

    3. Senator Byrd. General Pace, will you provide a copy of this 
order to the committee?
    General Pace. [Deleted.]

    4. Senator Byrd. General Pace, you stated that Under Secretary 
Cambone briefed members and committees of Congress about the airstrike 
and reported to you and Secretary Rumsfeld. However, Secretary Rumsfeld 
left office on December 18, 2006, nearly a month before the airstrikes 
were carried out. Could you provide a precise written record of which 
members or committees of Congress were consulted or notified of the 
airstrike and when?
    General Pace. [Deleted.]

    5. Senator Byrd. Secretary Gates, the President apparently has not 
provided Congress with a 48-hour notification for the airstrike in 
Somalia, as appears to be required by the War Powers Resolution. Does 
the administration assert that the War Powers Resolution does not apply 
to this military action? Please explain the administration's view in 
detail.
    Secretary Gates. The presence of combat forces in the Horn of 
Africa has been reported to Congress, consistent with the War Powers 
Resolution. Specifically, since September 19, 2003, the President has 
informed Congress in his semi-annual reports on the war on terror 
consistent with the War Powers Resolution, that U.S. combat equipped 
and combat support forces are located in the Horn of Africa region, and 
that the U.S. forces headquarters element in Djibouti provides command 
and control support as necessary for military operations against al 
Qaida and other international terrorists in the Horn of Africa region. 
As stated in the President's reports, these actions are consistent with 
the 2001 Authorization for the Use of Military Force, Public Law 107-
40, and have been taken pursuant to the President's constitutional 
authority to conduct U.S. foreign relations and as Commander in Chief 
and Chief Executive.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                  national guard mobilization criteria
    6. Senator Akaka. Secretary Gates, I am very concerned about the 
mobilization and/or remobilization of National Guard units both 
nationwide and in my home State of Hawaii. In your January 11 press 
conference, you stated that today's global demands will require a 
number of selected Guard and Reserve units to be remobilized sooner 
than is standard. What criteria will be used to select these units?
    Secretary Gates. There are a number of criteria used to select any 
unit for mobilization. Some of those considerations are:

         identification of all units that can perform the mission
         length of time since the unit last mobilized
         duration of unit's last mobilization
         location of unit's deployment during last mobilization
         unit's assigned and available strength, to minimize cross-
        leveling
         number of personnel in the unit who have never mobilized

    Our intention is that such exceptions be temporary and that we move 
to the broad application of the 1:5 goal as soon as possible.

    7. Senator Akaka. Secretary Gates, will there be a cap to the 
number of units asked to remobilize sooner than is standard?
    Secretary Gates. Of course, we must remobilize as few as possible. 
Our intention is that such exceptions be temporary and that we move to 
the broad application of the 1:5 goal as soon as possible.

                          regional escalation
    8. Senator Akaka. Secretary Gates, during the President's address 
to the Nation, he asserted that succeeding in Iraq also required 
defending its territorial integrity. He stated that he had sent an 
additional carrier strike group to the Persian Gulf area. He then 
stated that Iran was providing material support for attacks on our 
troops, that we will interrupt the flow of support from Iran and Syria, 
and that we will seek out and destroy the networks providing advanced 
weaponry and training to our enemies in Iraq. I am concerned about how 
this will be done, and what potential it creates for a regional 
escalation. In your January 11 press conference, you stated that you 
believe that if the violence in Iraq goes unchecked, it could escalate. 
What do you believe is the potential for our efforts to interrupt the 
flow of support from Iran and Syria to cause an escalation to a 
regional conflict?
    Secretary Gates. The Iranians are contributing to instability in 
Iraq and promoting the killing of Americans. We are not ``provoking'' 
Iran; we are responding to its behavior. Our response is to deter, not 
to provoke. Regarding engagement with Iran, Secretary Rice has said 
that she would sit down at any time, and at any place with her 
counterpart from Iran--if Iran would commit to verifiably end its 
uranium enrichment programs. In addition, the President has made clear 
that we are not planning for a war with Iran.
    With respect to Syria, the United States and others in the 
international community have called on Syria repeatedly to stop 
permitting its territory from being used by those who seek to 
destabilize Iraq and other countries in the region. A series of U.N. 
Security Council resolutions make clear that Iraq's neighbors have 
obligations to assist Iraq in achieving stability and security. The 
Iraqi and Syrian governments have recently re-established diplomatic 
ties and are discussing cooperation on stabilizing Iraq. We hope Syria 
will respond to this opportunity by demonstrating a constructive change 
in its policies.

    9. Senator Akaka. Secretary Gates, does the administration's new 
strategy increase the risk of an escalation?
    Secretary Gates. We are deterring, not provoking. We are countering 
Iranian behavior that is endangering and killing our forces in Iraq. 
With the deployment of the second carrier group to the Persian Gulf, we 
are reaffirming our long-term commitment to the region, reassuring our 
allies at a critical point, and demonstrating our resolve to be a 
presence in the region for a long time into the future. The United 
States considers the Persian Gulf to be of vital national interest. 
This has been U.S. policy for decades and under many Presidents.

    10. Senator Akaka. Secretary Gates, what specific strategies have 
you developed to protect our troops if it does escalate?
    Secretary Gates. We have made it very clear to the Iranian and 
Syrian governments that we do not expect them to engage in behavior 
that endangers our forces and that we will do what is necessary for 
force protection. As General Pace said at a January 11, 2007, press 
conference, we will continue to track the networks that are providing 
weapons inside Iraq designed to kill U.S. forces regardless of their 
nationality.

                        national guard equipment
    11. Senator Akaka. General Pace, the war in Iraq has taken a severe 
toll not only on the personnel capabilities but also on the equipment 
that these brave men and women need in order to train and fulfill their 
mission objectives. Quite often when units return from overseas they 
are under-equipped for their responsibilities at home as their 
equipment has been left overseas, destroyed during operations, or is in 
desperate need of repair upon return. Will additional equipment be sent 
to Iraq to meet the needs of additional troops? If yes, how will this 
affect National Guard units' ability to not only train their men and 
women for future deployments but fulfill their domestic obligations as 
the National Guard is already facing severe equipment shortages?
    General Pace. Yes, there will be additional equipment required for 
the plus up of Active and Reserve Forces. Any Army unit, regardless of 
component, that is slated to deploy in support of the global war on 
terrorism, is the top priority for equipping. These units are equipped 
to 100 percent of their mission-essential equipment list through use of 
new procurement, cascaded equipment, theater-provided equipment, and 
cross-leveling from other units that are not a candidate for 
deployment. This procedure applies to the ARNG units as well. In sum, 
all ARNG units in a combat theater will have a full complement of their 
essential equipment.
    Equipment for domestic missions is currently at less than desired 
levels.
    To ensure that the ARNG is able to successfully perform its 
domestic mission, 342 pieces of equipment have been identified as 
``dual-use,'' meaning they are available for both domestic and Federal 
missions. The Chief of the National Guard Bureau has made a commitment 
to the States that we will endeavor to leave States with at least 50 
percent of their NG forces so as to preserve capability in the 
Homeland. This is not always possible in all States at all times. In 
those rare cases, NGB works with States to help assure that 
capabilities are accessible from other States in times of need.
    Governors are also able to access equipment and forces through 
Emergency Management Agreement Compacts with neighboring States.

                         jobs program oversight
    12. Senator Akaka. General Pace, part of the new strategy includes 
a jobs creation program in Anbar province and Baghdad to support 
operations. I am concerned about the implementation and oversight of 
this program. This war has not been a model for ensuring that the 
taxpayers' money is not wasted. Can you tell us how this program will 
be implemented?
    General Pace. While assessments vary, unemployment and 
underemployment are somewhere near 50 percent; we estimate that this 
translates to somewhere around 1.5 million in need of jobs. While the 
Commanders' Emergency Response Program (CERP) has been an invaluable 
tool in the hands of our commanders on the ground, the effects created 
by these projects in terms of employment and goodwill are often short-
lived and must be followed up by mid-term and long-term programs that 
will provide employment opportunities to Iraqis. U.S. programs such as 
U.S. Agency for International Development (USAID) microcredit programs, 
agribusiness programs, and temporary jobs programs can be helpful if 
properly targeted. In the past, coordination between development and 
reconstruction programs across agencies and with the military effort 
has been ad-hoc. The lack of unity of effort has meant that our desired 
effect--stabilization of these areas--has not been obtained. While 
coordination significantly increased in support of the Baghdad Security 
Plan in the summer and fall of 2006, under the direction of Ambassador 
Khalilzad, security issues in Baghdad (spiraling sectarian violence, 
lack of political will by the Government of Iraq (GOI) to take on 
illegal militias, insufficient Iraqi and coalition forces to hold 
cleared areas) diluted the impact of these efforts. The security 
strategy laid out in the New Way Forward will reduce violence, creating 
breathing room for longer-term economic initiatives to take hold. The 
need for close coordination with our Iraqi and interagency partners is 
crucial; short-term, medium-term, and long-term jobs creation efforts 
must be standing by, ready to be employed as soon as areas are cleared 
by coalition forces.
    The addition of Ambassador Tim Carney to oversee economic 
reconstruction efforts will be key to our success in this area. 
Ambassador Carney will coordinate economic initiatives throughout Iraq. 
Admiral Giambastiani, the Vice Chairman of the Joint Chiefs of Staff, 
has spoken with Ambassador Carney about the need for close coordination 
to ensure synchronization of effort. He has assured us that he will 
work closely with General Petreaus to identify target areas and 
coordinate U.S. Government and GOI efforts to improve economic 
conditions in those areas. I will defer to Ambassador Carney and my 
State Department colleagues to answer specifics of the programs they 
are engaged in and are preparing to support our efforts in Baghdad and 
Anbar. I will comment that the U.S. Government effort, though critical 
for short-term and mid-term stabilization, will not be sufficient 
unless the GOI follows through with their commitment to expend $10 
billion for economic reconstruction programs. As you are aware, the GOI 
has a poor track record of executing its budget. This is something we 
have addressed with Ambassador Carney and he knows how critical the GOI 
effort will be. Ambassador Carney told us that Iraqi budget execution 
is one of his top priorities.
    The military effort will create another window of opportunity for 
the GOI and U.S. Government to improve the lives of Iraqis and convince 
them that their opportunities are greater if they support the GOI 
rather than terrorists, militias, or criminal enterprises. Our Iraqi 
and interagency partners must take advantage of this opportunity if we 
hope to stabilize Iraq.

    13. Senator Akaka. General Pace, what oversight of the program will 
be maintained to ensure that the resources provided are utilized in a 
way that minimizes potential for fraud and abuse?
    General Pace. The only effort controlled and executed by the 
Department of Defense (DOD) is the CERP. This has been an invaluable 
tool in the hands of our commanders on the ground. In the past, General 
Accounting Office (GAO) and Special Inspector General for Iraq 
Reconstruction (SIGIR) identified administrative deficiencies in the 
CERP program. Those deficiencies and accompanying GAO and SIGIR 
recommendations are addressed in current OSD Comptroller and Multi-
National Coalition-Iraq CERP policy. I will defer to the State 
Department to answer this question with regard to programs they 
administer.

                         general petraeus' role
    14. Senator Akaka. Secretary Gates and General Pace, last week it 
was announced that General Petraeus was selected to be the next 
commander of the Multinational Force in Iraq. It is my understanding 
that General Petraeus is one of the Army's leading authorities on 
counterinsurgency. As such, I'm interested in whether or not he was a 
resource utilized in the development of the new strategy for the surge. 
Did General Petraeus provide input into the new strategy for the surge? 
If so, did he make any additional recommendations that were excluded 
from the new strategy?
    Secretary Gates and General Pace. Yes, General Petraeus provided 
input to the new strategy. He explained his involvement in the 
development of the strategy in a written statement submitted to the 
Senate Armed Services Committee in anticipation of his testimony on 
January 23, 2007. The following excerpt is from General Petraeus' 
written statement:

          SASC: ``What role, if any, did you play in the development of 
        the new Iraq strategy recently announced by the President?''
          General Petraeus: ``I met with the Secretary of Defense a 
        couple of days after he took office and before he left for his 
        first trip to Iraq, and we discussed the situation there during 
        that meeting. We subsequently talked after his trip, as well. I 
        also talked to the Chairman, Joint Chiefs of Staff (CJCS) 
        several times during this period, noting that a population 
        security emphasis, in Baghdad in particular, was necessary to 
        help the Iraqis gain the time/space for the tough decisions 
        they faced and discussed the general force levels that were 
        likely to be required. As the strategy was refined, I talked on 
        several occasions to LTG Ray Odierno to confirm that his troop-
        to-task analysis required the force levels that are part of the 
        new strategy, and I relayed my support for those levels to the 
        CJCS and the Secretary. I also supported the additional 
        emphasis on the advisory effort and the additional resources 
        for the reconstruction effort (both in terms of funding and 
        personnel for Provincial Reconstruction Teams and governmental 
        ministry capacity development).''

    I do not know of any additional recommendations on the new strategy 
that General Petraeus may have made.

    15. Senator Akaka. Secretary Gates and General Pace, did General 
Petraeus recommend against any of the tactics that are included in the 
new strategy?
    Secretary Gates and General Pace. General Petraeus testified before 
the Senate Armed Services Committee on January 23, 2007. In that 
testimony, he articulated the new strategy and his support for it. He 
made no comments as to recommending against any of the tactics that 
were included in it.

                          troop family support
    16. Senator Akaka. Secretary Gates and General Pace, in Secretary 
Gates' opening remarks, he discussed some of the new policies that are 
being implemented to ease the burden of extended and multiple 
deployments on our Active and Reserve military. I applaud the efforts 
in this area. But I must note that the burden of deployments is not 
only financial, and it is not only a burden to the troops. We must 
remember that their families also carry the burden of deployments. Can 
you tell us if you have studied the effects of deployments on the 
families of our troops, and if so, what is being done to support the 
families of our troops?
    Secretary Gates. Our military families are the heart and soul of 
troops on the battlefield and clearly our military families sacrifice--
especially during wartime. Our Social Compact with families recognizes 
that families also serve. The most pressing issues for military 
families involved in the war deployments are communications and 
counseling support, child care, and education. The Department's 
Military OneSource service provides troops and families with 24/7 
access to professional consultants by toll free telephone and the 
internet. Thousands of troops and family members now call to get help 
with issues ranging from locating a reliable source for car repair to 
help with a child's issues at school. The Department has also made 
private counseling services available to troops and families to help 
them cope with stress, ease the reunion period, improve family 
communications, and maintain financial stability. The availability of 
child care has been increased, including returning home care, extended 
hours and weekend care, and free summer camps.
    General Pace. With nearly 60 percent of our military personnel 
having dependents, all the Services understand the importance the 
families play as we continue to conduct the war on terrorism. A major 
part of the new policy was the establishment of goals pertaining to 
extended service in the theater of operations. These goals serve to 
give an element of predictability to the members and their families. 
However, as long as we wear the uniform, we stand ready to do what our 
Nation asks us to do, when they need us to do it. Because we recognize 
that families also serve, the Department has continued to focus on them 
and offers many programs and services to assist them throughout 
deployments. Additionally, each military service has organizations and 
agencies down to the installation level with a primary mission to look 
out for the interests of military families. The welfare of our 
families, especially when the member is deployed, is a priority we all 
share.

                 recruiting for increased end strength
    17. Senator Akaka. Secretary Gates and General Pace, in Secretary 
Gates' January 11 press conference, he stated that he recommended an 
increase in the end strength of the Army and the Marine Corps to the 
President. To what extent do you believe that meeting the increased 
end-strength goals will mandate new recruitment strategies and/or 
revised entry requirements for military enlistment?
    Secretary Gates. An increased end strength will necessitate 
increases in both recruiting and retention. Appropriate resources for 
recruiting and retention to achieve numerical and quality goals are 
essential. Army and Marine Corps funding for recruiting must be 
sufficient to meet increased goals, and is being requested in the 
budget documents now before Congress.
    New recruiting strategies and entry requirements for enlisting 
personnel were established in the last year and a half, and facilitated 
success in fiscal year 2006. Services can now target a larger 
population by expanding the years of eligibility and increasing the 
maximum payment bonus using authority granted by Congress.
    General Pace. The proposed increases to the end-strengths of the 
Army and the Marine Corps announced by Secretary Gates will require 
review of recruiting and retention programs as this fiscal year 
continues. However, I am happy to report that due to the outstanding 
professional recruiting force for both Services and the tremendous 
support of Congress, both Services are enjoying success in recruiting 
and retention thus far during fiscal year 2007. Through the end of the 
first quarter, both the Army and the Marine Corps exceeded their Active 
component recruiting and retention goals. At the current time, there 
are no plans to revise any entry requirements for military service.
    The key components to continued success in this challenging 
recruiting environment will be adequate funding and the ability to 
evaluate and adjust incentives and programs as the recruiting situation 
changes. Both Services are postured to do that. The Marine Corps has 
already increased their recruiting mission once and are postured to do 
so again, and the Army is working toward implementation of initiatives 
approved by Congress in the National Defense Authorization Act for 
Fiscal Year 2007.
    Lastly, our success in recruiting is also tied to our ability to 
change the mindset of the influencers (parents, teachers, coaches, et 
cetera) who are not inclined to recommend military service. It will 
take the entire Department and our Nation's senior leaders pulling 
together collectively to ensure the American people understand and 
appreciate the critical importance that our All-Volunteer Force 
provides to our Nation. We will continue to closely monitor the 
progress of all recruiting programs as they proceed during fiscal year 
2007 and beyond.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                            urban operations
    18. Senator Clinton. Secretary Gates and General Pace, an 
additional 21,000 servicemembers are being deployed to Iraq in support 
of the administration's new Iraq strategy with the stated intent of 
reducing violence and restoring security. The majority of these troops 
will deploy to the urban sprawl of Baghdad and conduct high-intensity 
urban combat operations that will require a 24-hour, 7-day presence. 
Historically, combat in built-up areas have produced high casualty 
rates--the assault of Falluja in November 2004 produced the highest 
casualty rates of the war. The planned disposition of troops either in 
static positions or while patrolling will expose them to constant 
insurgent and sectarian threats. What is the force protection plan for 
units operating under these conditions?
    Secretary Gates and General Pace. First, all U.S. forces will 
remain at all times under U.S. command. This ensures that U.S. units 
maintain the appropriate level of force protection based on their 
mission and threat level. Second, as we embed U.S. forces to lower 
levels, down to the battalion and company level, they will be large 
enough to protect themselves as they complete the advisory work with 
Iraqi security forces. As always, a layered approach of physical 
barriers, check points, and self protection measures will be employed 
at those locations U.S. units will be housed. In addition, U.S. rules 
of engagement will continue to be used and enforced at all times.

    19. Senator Clinton. Secretary Gates and General Pace, do the 
troops have sufficient armored vehicles, materials, training, and 
logistical support?
    Secretary Gates and General Pace. With regard to armored vehicles, 
the Marine Corps armored vehicle requirements will be met by cross-
leveling assets already in theater. The Army, with the larger number of 
forces involved, will have some equipping challenges with up-armored 
HMMWVs (UAHs--M1114/M1151), and medium and heavy tactical wheeled 
vehicles. There is a gap between when the required vehicles can be 
delivered and when the units are currently scheduled to arrive in 
theater. To mitigate this gap, operational commanders will redistribute 
existing vehicles within the U.S. CENTCOM area of responsibility to 
ensure each unit has the required number of properly armored vehicles 
to meet their operational requirements. In all cases, no one will 
conduct operations off our bases unless equipped with the very best 
armored vehicles we have.
    With regard to materiel, both the Marine Corps and the Army have as 
their number one priority the proper equipping of their soldiers and 
marines. Both Services will meet the needs of the individual. With some 
cross-leveling of existing assets and the continued delivery of already 
programmed assets, both Services will meet the overall materiel needs 
of deploying forces.
    The Army and Marine Corps will continue to meet their individual 
and unit training needs based on the planned deployment timelines. The 
proper training of individuals and units remains a ``red line'' for 
both Services. Troops going outside the forward operating base will 
have no less than a Level 1 (or Service-approved Add-on-Armor) armored 
vehicles and command directed individual protective equipment.
    Overall logistics support for the additional forces is adequate 
with some additional enabling capabilities flowing as part of the 
deploying forces. These additional requirements are still being 
determined but could include capabilities such as additional route 
clearance, more convoy security capability, and added base operations 
support.

    20. Senator Clinton. Secretary Gates and General Pace, who will 
have command and control of the security posture for these exposed 
troops? Will they be Iraqi security forces or the U.S. military?
    Secretary Gates and General Pace. U.S. forces will remain at all 
times under U.S. command.

                               readiness
    21. Senator Clinton. Secretary Gates and General Pace, as recently 
as November 2006, General Abizaid testified that ``Moreover, we do not 
have the troops to send. Any attempt to send more troops to Iraq would, 
at the moment, threaten to break our Nation's All-Volunteer Army and 
undermine our national security.'' Against this very public analysis of 
Army and Marine Corps readiness levels, the President will escalate 
troop levels in Iraq by 21,000 servicemembers within the next 3-5 
months. What impact will these additional troop deployments have on 
readiness in the Army and Marine Corps?
    Secretary Gates. Army and Marine Corps units that have been 
identified for deployment are given the highest priority of resources 
in terms of personnel, training, and equipment. This ensures that when 
units do deploy, they are at the highest level of readiness and fully 
prepared to successfully accomplish their mission.
    Deploying additional forces to Iraq does mean we will have fewer 
ground-based forces for other contingencies. However, the Department 
retains sufficient capability to respond effectively anywhere around 
the globe.
    The plus-up of forces will result in a total of 20 Army Brigade 
Combat Teams (BCTs)/Marine Regimental Combat Teams deployed to Iraq. 
This represents less than 25 percent of the total combat formations 
within the Army and Marine Corps. Our Armed Forces will remain ready to 
protect the Homeland, prevent conflict, and prevail over adversaries.
    General Pace. I was not aware that General Abizaid testified to 
this view, but the Army, to date, has not provided any such assessment 
of the immediate and dire impact of this plus-up on readiness and 
national security. This increased demand will, without doubt, 
exacerbate stress on soldiers, leaders, families, and equipment. Units 
deploying into combat will continue to be fully manned, trained, led, 
and equipped for their assigned missions. To meet the combatant 
commander's immediate needs, the Army will pool equipment from across 
the force to equip deploying units. This practice, although absolutely 
necessary to ensure Army soldiers are prepared when they go into harm's 
way, creates holes in the readiness of next-to-deploy units. This 
reduced readiness in our next-to-deploy units limits the Army's ability 
to respond to emerging strategic contingencies and limits the Army's 
strategic depth.

    22. Senator Clinton. Secretary Gates and General Pace, how will the 
Army and the Marine Corps man, train, and equip these units for full-
spectrum operations in Iraq without undermining U.S. national security?
    Secretary Gates and General Pace. All forces committed to Iraq will 
continue to be manned, trained, and equipped for combat. The commitment 
of additional forces to Iraq is an acceleration of existing unit 
deployment schedules and is calculated to enhance the national security 
posture of our Nation in the long run. However, under current resource 
projections, strategic flexibility of the total force is somewhat 
limited.
    All plus-up related units will be fully manned to accomplish their 
assigned mission. The challenge of providing key leaders to plus-up 
units before their mission rehearsal exercise will be met. The Army 
would face a similar challenge in manning non-deployed units to respond 
to strategic contingency operations.
    Soldiers, leaders, and units associated with the plus-up will be 
trained to standard prior to deployment into Iraq. Adjustments to the 
original training plan are required but will not impact training 
standards. Time, force structure, and end strength limitations have 
caused us to focus training on counterinsurgency operations, which 
affects our flexibility to respond to other contingencies. Limits on 
training resources require timely receipt of requested supplemental 
funding to meet our training objectives.
    All plus-up related units will be equipped to execute their 
assigned mission. There are significant challenges to meet equipment 
requirements, but acceptable solutions have been developed to address 
unit needs. Our biggest challenge is in the up-armored medium and heavy 
tactical wheeled vehicle fleets, where we will have to re-task and 
organize existing armored vehicles within the U.S. CENTOCM AOR to 
ensure each unit has equal capability. Equipment shortages for non-
deployed units exist primarily as a result of three factors. First, the 
operational needs of commanders in Iraq and Afghanistan conducting 
counterinsurgency operations differ from the modular equipment set 
designed for full spectrum operations. Second, the Army has 
aggressively reorganized and activated units in a standard (modular) 
design to meet operational requirements. However, the demand for units 
has outpaced scheduled resources. Coupled with procurement lag time, 
this mismatch of demand and resources has required the Army to maneuver 
equipment and accept shortages in nondeploying units. Finally, the Army 
entered the war with a force that was equipped to a tiered readiness 
standard, maintaining known equipment shortages in later deploying 
units. As a result, the Army has been forced to prioritize resources to 
deploying units at the expense of the remainder of the force.
    In sum, forces deploying to Iraq will be trained, manned, and 
equipped for operations; strategic flexibility will continue to be 
limited, increasing strategic readiness; and flexibility of Army units 
will take time and a steady commitment of resources.

    23. Senator Clinton. Secretary Gates and General Pace, under the 
current Army Force Generation Model and Marine Corps Deployment 
Guidance, are additional combat BCTs available for other contingencies?
    Secretary Gates and General Pace. The U.S. military has 82 brigades 
in the Active, Reserve, and Guard force. As the new strategy in Iraq is 
executed, there will be 20 brigades deployed for a period of time. If 
there were another contingency that required U.S. military action, we 
could respond appropriately. There are more than 2.4 million Americans 
in the Active, Reserve, and Guard. 200,000 servicemembers are currently 
deployed in the Gulf region. Allowances would have to be made with 
regard to speed of movement and precision, but we would be able to 
successfully respond to any challenge militarily.
    In order to maintain our combat edge, the Secretary of Defense is 
recommending an increase of 92,000 soldiers and marines in the Army and 
Marine Corps over the next 5 years (65,000 soldiers and 27,000 
marines). The increase will be accomplished in two ways. First, a 
temporary increase of 30,000 for Army soldiers and 5,000 marines will 
be made permanent. Second, increases of 7,000 troops per year for the 
Army, for a total of 547,000 and 5,000 per year for 5 years for the 
Marine Corps until they reach 202,000.

                               equipment
    24. Senator Clinton. Secretary Gates and General Pace, will every 
servicemember being deployed to Iraq as part of the increased number of 
troops be fully equipped? Will they have the same equipment as 
servicemembers currently serving in Iraq?
    Secretary Gates and General Pace. Yes, we are working intently to 
ensure our servicemembers are equipped fully with our most modern 
equipment to accomplish their missions. The forces being surged will be 
treated no differently and will not enter Iraq without adequate force 
protection equipment, including individual force protection equipment. 
The number one priority of our Services is the proper training and 
equipping of their soldiers, sailors, airmen, and marines and that will 
not change.

                        reserves/national guard
    25. Senator Clinton. Secretary Gates and General Pace, Guard and 
Reserve members who have already served a year-long tour in Iraq or 
Afghanistan can now be recalled to Active Duty for a second year's 
tour. This reverses the policy that limited Guard and Reserve 
deployment times and kept members' cumulative time on Active Duty to 
not more than 24 months in a 5-year period. How will this policy 
reversal impact overall readiness of Active, Reserve, and National 
Guard units?
    Secretary Gates and General Pace. This is not a policy reversal. 
Secretary Gates' new mobilization policy is compatible with the policy 
laid down by Secretary Rumsfeld in 2003 for 1:5 utilization/dwell. This 
new policy provides greater predictability for the Services, States, 
members, their families, and civilian employers. This new policy 
coupled with the implementation of Army Force Generation (ARFORGEN) \1\ 
will improve overall readiness for all Army components. The improvement 
to unit cohesion plus the number of available, experienced personnel 
will be a force multiplier to unit readiness and reduce the amount of 
training required prior to a deployment.
---------------------------------------------------------------------------
    \1\  ARFORGEN (Army Force Generation)--A structured progression of 
increased unit readiness over time, resulting in recurring periods of 
availability of trained, ready, and cohesive units prepared for 
operational deployment in support of regional combatant commander 
requirements.

    26. Senator Clinton. Secretary Gates and General Pace, what 
missions at the State level will be short-filled when these Guard and 
Reserve members are deployed?
    Secretary Gates. There should not be any missions at the State 
level that will not be filled. The National Guard Bureau has stated 
that their goal is to have at least 50 percent of a State's assets 
available for use in the State role. All States have in place Emergency 
Management Assistance Compacts to provide resources in case of a large 
scale incident. The National Guard Bureau communicates with all the 
States, territories, and the District ensuring no State mission is at 
risk.
    General Pace. None. To ensure that the ARNG is able to successfully 
perform its domestic mission, 342 pieces of equipment have been 
identified as ``dual-use,'' meaning they are available for both 
domestic and Federal missions. The Chief of the National Guard Bureau 
has made a commitment to the States that we will endeavor to leave 
States with at least 50 percent of their NG forces so as to preserve 
capability in the Homeland. This is not always possible in all States 
at all times. In those rare cases, NGB works with States to help assure 
that capabilities are accessible from other States in times of need.
    In addition, all States have Emergency Management Agreement 
Compacts to help their neighbors during natural or manmade crises.
    States also have the capability to call on Federal forces and 
equipment to augment their forces.

    27. Senator Clinton. Secretary Gates and General Pace, how will 
these Reserve and National Guard units identified for deployment be 
manned and equipped given the shortage in equipment and personnel?
    Secretary Gates and General Pace. All units (Active and Reserve) 
deploying to Iraq will be fully manned, trained, and equipped to 
complete their assigned missions. The new policy of deploying as units 
vice individuals will minimize the need for cross-leveling personnel. 
Equipment shortages continue to be problematic. The Army's tiered 
readiness system of the past, war-time losses, and stay behind 
equipment necessities have drawn our equipment down to unacceptable 
levels. Short-term: The Army is cross-leveling equipment to units 
training and deploying to the war fight. Long term: The Army 
leadership's stated goal is to equip the Army National Guard to 100 
percent of its fully modernized ``AC like'' Modified Table of 
Organization and Equipment requirement. This new strategy to fully 
equip the Reserve component to Active component standards represents a 
major paradigm shift from the Cold War practice of tiered resourcing. 
As an example of this commitment, during fiscal year 2006, the Chief of 
Staff of the Army fenced $21 billion for procurement of Army National 
Guard ground equipment and another $1.9 billion for aviation.

                          political benchmarks
    28. Senator Clinton. Secretary Gates and General Pace, can you 
describe whether any conditions or benchmarks have been set for the 
Iraqi government to meet?
    Secretary Gates and General Pace. The Department shares the belief 
that the Iraqi government must meet the goal it has set for itself--
establishing a democratic, unified, and secure Iraq. Believing the 
Iraqi government understands very well the consequences of failing to 
make the tough decisions necessary to allow all Iraqis to live in peace 
and security, President Bush has been clear with Prime Minister Maliki 
on this score, and we expect the prime minister to follow through.
    Iraq's Policy Committee on National Security and Presidency Council 
(in September and October 2006) agreed upon a set of political, 
economic, and security benchmarks. While the original timeline has not 
been completely met, the open benchmarks remain valid and should be 
achieved this year:

        -  Approve the Provincial Elections Law and set date for 
        provincial elections
        -  Approve a hydrocarbons law
        -  Approve de-Ba'athification law
        -  Approve provincial council authorities law
        -  Approve a flag, emblem, and national anthem law
        -  Implement CPA Order No.91 concerning armed forces and 
        militias
        -  Approve amnesty, militias, and other armed formations law
        -  Committee amending the constitution ends its work
        -  Form independent commissions in accordance with the 
        constitution
        -  Constitutional Amendment Referendum

    Additionally, as the President has said, Prime Minister Maliki has 
made additional commitments:

        -  Refrain from political interference in security
        -  Even handed enforcement of the law against all who break it
        -  Provide three Iraqi brigades to support Baghdad operations
        -  Use of $10 billion (of Iraqi funds) for reconstruction

    29. Senator Clinton. Secretary Gates and General Pace, if 
conditions or benchmarks have been set, please describe them. What, if 
any, consequences will there be if the Iraqis fail to meet these 
benchmarks?
    Secretary Gates. We will know the most important aspects of Iraqi 
compliance over the next few months as the additional forces begin 
operations in Baghdad. This will be an indication of the capability and 
the willingness of the GOI to make the tough decisions, and the ability 
of the Iraqi security forces to conduct difficult operations.
    I understand your concern that you be kept informed on how the 
Iraqis are meeting their commitments and on how the plan is 
progressing. We are in the process of developing the appropriate 
benchmarks and metrics that will allow us to monitor Iraqi performance 
and track progress in fulfilling the plan's goals, and we will refer to 
these in our future discussions.
    With respect to the military steps for implementing the Baghdad 
Security Plan, we will meet our U.S. forces commitments and have every 
expectation that the Iraqis will as well.
    As we measure and discuss Iraqi performance, we should bear in mind 
that the Iraqi government and security forces include many brave and 
dedicated people who risk their lives daily, as do our forces, to bring 
a democratic government to the Iraqi people. We are measuring the 
performance of friends.
    General Pace. The conditions or benchmarks are listed in the answer 
to question 28. We will continually assess Iraq's progress in meeting 
commitments as well as other initiatives critical to Iraq's 
development. The President has made it clear to Prime Minister Maliki 
and other Iraqi leaders that America's commitment is not open-ended. 
However, in his January 10 address, he also made it clear that after 
careful consideration he decided that announcing a phased withdrawal of 
our combat forces at this time would open the door to a collapse of the 
Iraqi government and the country being torn apart. Short of announcing 
a phased withdrawal, the U.S. Government can apply incentives and 
disincentives from across the spectrum of U.S. national power to help 
the Iraqi government if they are unwilling or unable to make the 
difficult decisions required to move Iraq forward.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                           coalition addition
    30. Senator Pryor. Secretary Gates, has there been any recent 
effort to add another partner to the coalition forces?
    Secretary Gates. We are routinely working with a number of 
countries to both extend and enhance their coalition participation for 
both military and nonmilitary missions. We are currently engaged with 
our colleagues at the NSC and the Department of State to bring other 
talented countries together with us to expand our collective abilities 
to provide infrastructure reconstruction and build ministerial 
capacity.

    31. Senator Pryor. Secretary Gates, is there a nation that could 
contribute a significant number of troops to those we have in Iraq? It 
just seems as though there must be another country that would see the 
importance of the struggle there and want to help us.
    Secretary Gates. Currently, 33 other countries are deployed with us 
in Iraq. 25 are part of Operation Iraqi Freedom (OIF) and eight 
additional countries are part of the NATO training mission. Many of 
these countries are as committed as we are. However, virtually all of 
the countries have much smaller populations and correspondingly smaller 
militaries. Many of these countries have suffered casualties in Iraq 
disproportionate to the size of their forces. Most of these militaries 
also have defense of national territory (homeland defense) missions and 
are bound by legal constraints that limit the number of troops 
deployable at any given time outside their borders. In addition, many 
of these countries have forces deployed in support of missions in 
Afghanistan, the Balkans, the United Nations Interim Force in Lebanon 
(UNIFIL), and other global U.N. peacekeeping missions (Poland, Romania, 
and Denmark, to name but a few, are deployed in support of all of these 
missions). While these countries share our views of the importance of 
the mission in Iraq, they all are still limited by both military 
capacity and capability. We continue to work with allies and partners 
on contributions to the mission in Iraq.

                                  iran
    32. Senator Pryor. Secretary Gates, what are we doing differently 
as part of the surge, or just as part of regular operations, to secure 
the border with Iran, and keep Iranian funds, weapons, and fighters out 
of Iraq?
    Secretary Gates. The GOI has a department totally focused on border 
security within the Ministry of Interior. The prime minister is 
considering a plan for border point of entry (POE) closings. The 
Ministries of Interior and Defense are working on a plan to close all 
POEs with Iran and Syria, but not Jordan, for 72 hours and re-open them 
gradually as they increase their inspection procedures and enhance the 
equipment required to control the border entry points. Further 
information is contained in the answer to question 53 for Senator 
Martinez.

    33. Senator Pryor. Secretary Gates, are we seeing more of this type 
of traffic from Iran into Iraq recently, or are we keeping it under 
control?
    Secretary Gates. [Deleted.]

                     reasons for previous draw-down
    34. Senator Pryor. Secretary Gates, last November 3rd we had nearly 
147,800 troops in Iraq. The civilian death tolls in October, November, 
and December were 1,289, 1,850, and 1,930. By January 3, our troop 
strength had dropped to 128,500. With civilian casualties increasing 
each month, why did our troop strength drop by 19,000, only to result 
in the President's request for a surge of 21,500?
    Secretary Gates. [Deleted.]

    35. Senator Pryor. Secretary Gates, if sectarian violence was 
increasing steadily, why didn't we keep the troops there that we needed 
to fight it, or bring in Reserves from Kuwait when the violence 
escalated?
    Secretary Gates. We have historically adjusted out troop strength 
based on the conditions on the ground. We have surged in the past for 
operations against Al Sadr in Najif (August 2004) as well as election 
support in December 2005. In fact we have made troop strength 
adjustments since the beginning of the war. Just in the last year (July 
2006), General Casey asked to keep the troop strength in the country to 
15 brigades, although we had established a plan to reduce to 10. 
Numerous times we have brought the operational Reserve brigade forward 
from Kuwait to change the conditions on the ground. Since February 2006 
as violence has increased in Baghdad, we have steadily increased our 
forces in an attempt to quell that violence.
                                 ______
                                 
                Questions Submitted by Senator Jim Webb
                             iran authority
    36. Senator Webb. Secretary Gates, is it the position of this 
administration that it possesses the authority to conduct military 
operations in Iran, other than in response to direct attack, without 
the approval of Congress?
    Secretary Gates. The President is responsible under the 
Constitution for the defense of the United States and the American 
people. As Commander in Chief, he must be able to defend the United 
States, for example, if U.S. forces come under attack. Whether and how 
to do so in any specific situation would depend on the facts and 
circumstances at that time. Administration officials communicate 
regularly with the leadership and other Members of Congress with regard 
to the deployment of U.S. forces and the measures that may be necessary 
to protect the security interests of the United States and will 
continue to do so.

                 consequences of iraqi non-cooperation
    37. Senator Webb. Secretary Gates, in specific terms, what is this 
administration prepared to do if Iraqi forces do not live up to your 
expectations--and when?
    Secretary Gates. We will know the most important aspects of Iraqi 
compliance over the next few months as the additional forces begin 
operations in Baghdad. This will be an indication of the capability and 
the willingness of the GOI to make the tough decisions, and the ability 
of the Iraqi security forces to conduct difficult operations.
    We remain committed to the plan, as do the Iraqis. Iraqi force 
deployments, as well as the command and control arrangements, 
demonstrate how serious they take this effort. Prime Minister Maliki's 
January 25, 2007, speech before the Council of Representatives and his 
February 6, 2007, speech to his military commanders demonstrate his 
willingness to adhere to his commitments. At this point, we should 
focus on supporting this plan and ensuring its success.

                   view of the joint chiefs of staff
    38. Senator Webb. General Pace, Secretary Gates testified that 
professional military officers in Washington believe in the efficacy of 
the President's strategy for Iraq and believe it is a sound plan. Was 
that the unanimous view of the Joint Chiefs of Staff?
    General Pace. The Joint Chiefs and I have had a number of 
discussions with the President regarding Iraq. Each time, the President 
asked for our views and recommendations, which we then provided. As a 
matter of principle, however, discussions with the President are 
intentionally kept private for a number of reasons. Foremost among 
those reasons is the notion that I want to protect the trust and 
confidence of all dialog with the President as I execute my legally 
binding responsibilities under title 10.

                    equipment for additional troops
    39. Senator Webb. General Pace, will the additional U.S. military 
units ordered to Iraq to implement the President's plan be equipped 
with properly armored combat vehicles in sufficient numbers?
    General Pace. Yes, we will equip the troops with the best armor 
protection we can provide to ensure they are able to accomplish their 
mission. No one will conduct operational missions from our bases in 
Iraq without properly armored vehicles.

        -  Marine Corps vehicle armor requirements will be met by 
        cross-leveling assets already in theater.
        -  The Army, with the larger number of forces involved, will 
        have some equipping challenges with uparmored HMMWVs (UAHs--
        M1114/M1151), and medium and heavy tactical wheeled vehicles. 
        To reduce the risk associated with this challenge, operational 
        commanders will redistribute existing vehicles within the U.S. 
        CENTCOM AOR to ensure each unit has the required number of 
        properly armored vehicles to meet their operational 
        requirements and to guarantee that no one conducts operations 
        from our bases unless equipped with the very best armored 
        vehicles we have.

                           arabic proficiency
    40. Senator Webb. General Pace, for the U.S. units and advisors 
slated to embed with the Iraqi Army, will you increase the number of 
personnel proficient in Arabic?
    General Pace. Transition teams throughout the theater of operations 
have requested increased translator/interpreter support to better 
maintain the increased operations tempo. In response to this 
requirement, we have increased our requirements for contract linguists 
for Operation Iraqi Freedom. There are some challenges with providing 
translators/interpreters with Secret level security clearances, 
especially to fill immediate requirements. U.S. forces in Iraq have, 
however, stated they will support an increase in Category (CAT) Is 
(uncleared personnel) in addition to the CAT IIs (cleared up to Secret) 
that can be provided. The Department is working to fill these 
requirements as effectively as possible.

                             reconstruction
    41. Senator Webb. Secretary Gates, please provide a specific 
accounting of past U.S. investment in Iraq's reconstruction 
administered by DOD.
    Secretary Gates. In Iraq reconstruction, DOD has received funds 
through direct appropriations and also through both transfer and 
drawdown authority in appropriations acts.
    PL 108-11 (Apr. 16, 2003) provided DOD with transfer authority of 
up to $489.3 million of Iraq Freedom Fund and an additional (uncapped) 
authority to transfer from the Defense Cooperation Account to fund the 
Natural Resources Risk Remediation Fund (NRRRF). A total of $802 
million was apportioned to this account for DOD for Restore Iraq Oil.
    PL 108-11 also appropriated $2.475 billion to Funds Appropriated to 
the President, the first Iraq Relief and Reconstruction Fund (IRRF-1). 
Of this amount, DOD received $518.2 million for three responsibilities: 
Restore Iraq Electricity (RIE), Restore Iraq Oil (RIO), and First 
Responder Network and Drills.
    PL 108-11 further provided DOD with the authority to transfer $48.1 
million from the Iraq Freedom Fund to train the new Iraqi army.
    PL 108-106 (Nov 6, 2003) appropriated to Funds Appropriated to the 
President, $18.4 billion in the Iraq Relief and Reconstruction Fund 
(IRRF-2) for providing security, relief, rehabilitation, and 
reconstruction. Funds could only be apportioned to the Coalition 
Provisional Authority and four specified departments including DOD. The 
total amount of IRRF-2 funding that was apportioned to DOD was $13.5 
billion.
    PL 108-106 also authorized DOD to use up to $180 million of its 
operation and maintenance funds to fund the Commander's Emergency 
Response Program, (CERP) for Iraq and Afghanistan. This program enables 
military commanders in Iraq to respond to urgent humanitarian relief 
and reconstruction requirements within their area of responsibility. 
DOD allocated $140 million to Iraq and $40 million to Afghanistan.
    PL 108-287 (Aug 5, 2004) authorized up to $500 million in train and 
equip transfer authority covering both Afghanistan and Iraq. The 
Department allocated $210 million to this mission in Iraq, with the 
rest of the authority dedicated to Afghanistan.
    PL 109-13 (May 11, 2005) first appropriated funds to train and 
equip the Iraqi army and police under the Iraq Security Forces Fund 
(ISFF). A total of $5,490 million (including $99 million for Jordan to 
establish a regional training center) was appropriated to the ISFF, for 
Iraq.
    PL 109-13 also provided $854 million in authority for CERP, of 
which $718 million was allocated to Iraq.
    PL 109-148 (December 30, 2005) and PL 109-234 (June 15, 2006) 
provided $923 million in funding authority for CERP for fiscal year 
2006; $708 million of this was allocated to Iraq.
    PL 109-234 also appropriated $3,007 million to the ISFF.
    PL 109-289 (September 29, 2006) provided $1,700 million under Title 
IX to train the Iraqi security forces under ISFF.
    PL 109-289 further provided $500 million in CERP funding authority, 
of which $375 million was allocated to Iraq.

    42. Senator Webb. Secretary Gates, what U.S. oversight and 
accountability measures are planned to ensure the administration's 
increase of $1 billion in reconstruction funding will reach the hands 
of its intended recipients in Iraq?
    Secretary Gates. Since the Coalition Provisional Authority 
established the Commander's Emergency Response Program (CERP) in Iraq 
and Congress extended the program to Afghanistan, the Department has 
had procedures in place to ensure that military commanders properly 
account for all CERP funding. DOD has issued guidance on the financial 
management and internal control of CERP. The various implementing 
organizations have issued additional guidance to include more detailed 
standard operating procedures. The Commander for Multi-National Force-
Iraq (MNF-1) requires that all CERP use be aligned with U.S. strategic 
objectives for Iraq. The field commanders coordinate CERP-funded 
humanitarian and reconstruction efforts with other U.S. Government 
rebuilding efforts ongoing in Iraq and Afghanistan. Approval authority 
for CERP is tied to total cost and the commander's rank. The Department 
has internal monthly execution reports and provides Congress with 
quarterly reports on the execution of appropriated funding. The Army 
has had its audit agency conduct reviews of CERP and has found no 
violation of established regulations and guidance with regard to 
accountability. The Special Inspector General for Iraq (SIGIR) has 
conducted two audits of CERP covering the fiscal year 2004 and fiscal 
year 2005 programs, and recognized improvements made between the two 
program years. They did, however, make some recommendations, including 
a strengthening of coordination with the State Department and USAID. 
The SIGIR has also announced that it plans to conduct an audit of the 
fiscal year 2006 CERP. With help from the various audit agencies 
oversight and accountability for CERP have been strengthened through 
the years.
    I would like to clarify for the record that DOD is not requesting 
an increase of $1 billion for CERP. Congress provided $923 million for 
CERP in fiscal year 2006. In the fiscal year 2007 supplemental request, 
we are asking Congress to provide the Department with an additional 
$456 million to fund the CERP in Iraq and Afghanistan through the 
remainder of the fiscal year. This would be additive to the $500 
million that Congress provided in Title IX of the fiscal year 2007 DOD 
Appropriations Act. If Congress approves the Department's request, the 
total for CERP in fiscal year 2007 would be $956 million for both Iraq 
and Afghanistan--$33 million more than the $923 million provided in 
fiscal year 2006.

                                  iran
    43. Senator Webb. General Pace, are U.S. military operations 
against Iranian networks in Iraq said to be supporting sectarian 
violence coordinated in advance with the Iraqi government and regional 
Iraqi government officials?
    General Pace. The United States has been clear all along that it 
will go after all those networks in Iraq that are causing 
destabilization. Prime Minister Maliki and his senior governmental 
leaders are fully informed of major military operations by Multi-
National Force-Iraq (MNF-I). Prime Minister Maliki is emphasizing 
throughout the span of the GOI that all parties involved in inciting 
sectarian violence will be held accountable. Coalition forces in full 
partnership with the GOI and without regard to nationality or ethnicity 
will disassemble networks that are providing and employing technologies 
to kill or maim innocent Iraqis and American soldiers. There are clear 
signs that Iraqis have begun to take action to stop sectarian violence 
and secure their capital--and this projection of strength is having a 
positive impact.

              need for patriot batteries and carrier group
    44. Senator Webb. General Pace, why is it necessary to deploy 
Patriot missile batteries and an additional carrier strike group to the 
Persian Gulf at this time?
    General Pace. The purpose of deploying these forces is to 
underscore to our friends as well as to our potential adversaries in 
the U.S. Central Command (CENTCOM) area of responsibility that the 
United States considers the Arabian Gulf and the stability in that 
region to be a vital national security interest. For example, the 
Patriot batteries have the mission of conducting tactical missile 
defense of assets in the region and providing an integrated air defense 
capability in support of U.S. CENTCOM forces and our regional partners 
in a bilateral manner. U.S. forces will continue to maintain an 
unmatched naval and air presence in the region that deters 
destabilizing activities by nations such as Iran while safeguarding the 
region's vital links to the global economy.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                         equipment distribution
    45. Senator Sessions. Secretary Gates, what assessments are ongoing 
within DOD to delineate at what point deployed equipment will be 
returned to depots, refurbished, and returned to units to fill the 
requirements of operational units?
    Secretary Gates. The flow of equipment to higher levels of 
maintenance is determined by the respective military Service, 
synchronizing in-theater requirements with fill requirements of 
deploying units. Equipment in-theater is divided into two categories: 
Unit deployed equipment and theater provided equipment (TPE). Unit 
deployed equipment returns with the unit to home station after an 
assessment that the equipment is not needed in theater for follow-on 
forces. The returning equipment is then repaired at a depot or at field 
level. Determination of the level is based upon technical inspections 
of the equipment and historical lessons learned regarding the repair 
effort needed. Following repair, the equipment remains with the unit 
for training or it may be cross leveled to units preparing to deploy if 
shortages of those items exist. Equipment repaired at depots is 
redistributed in priority--first to deployed and deploying units, then 
to units next to deploy, and then to nondeployed units. TPE is 
maintained in theater. Refurbishment facilities located in theater 
repair TPE. When this equipment is damaged to the extent it cannot be 
repaired in theater, it is redeployed and repaired at the depot.

    46. Senator Sessions. Secretary Gates, what assessments are ongoing 
within the DOD to delineate at what point equipment will be put in new 
prepositioning of material configured in unit sets (POMCUS) sites in 
theater?
    Secretary Gates. The Army Prepositioned Stocks (APS) program 
provides unit equipment and consumable materiel at locations, ashore 
and afloat, that enable Army forces to be responsive to combatant 
commanders' requirements. The POMCUS program was regionally focused on 
speeding the return of Army forces to Europe during the Cold War. APS 
is an evolution of the POMCUS program and is intended to provide global 
capabilities. The stocks in Southwest Asia are referred to as APS-5.
    APS-5 was initially issued to support the rapid deployment and 
employment of the U.S. Army's Third Infantry Division during the 
opening phase of Operation Iraqi Freedom.
    [Deleted.]

    47. Senator Sessions. Secretary Gates, what assessments are ongoing 
within the DOD to delineate at what point how much equipment will be 
turned over to Iraqi or Afghan army units?
    Secretary Gates. Multi-National Security Transition Command-Iraq 
(MNSTC-I) J-4 maintains situational awareness of all equipment required 
for issue from the organization's Modified Table of Organization and 
Equipment (MTOE). The authorized equipment lines of the MTOEs are the 
basis of issue for equipment to Iraqi forces. This equipment is 
property of the GOI upon issue from MNSTC-I.
    Periodically, as mission requirements and/or changes dictate, 
equipment requirements are reviewed by either of the Iraqi ministries, 
coalition forces, or both. Equipment requirements generated by these 
reviews are sourced using Iraqi or coalition resources as available and 
agreed upon by senior leaders. Equipment procured for these missions 
also becomes the property of the GOI upon receipt.

    48. Senator Sessions. General Pace, we have already experienced 
accountability problems with equipment transferred to the Iraqi and 
Afghan armies, and I am concerned about the potential for future fraud 
or theft of vital military equipment. What measures do DOD and the host 
nation governments plan to implement to protect the U.S. taxpayer once 
the equipment is turned over to Iraqi or Afghan army units?
    General Pace. U.S. military and contractor personnel remain an 
integral part of the equipment issuing process. There is a U.S. 
military member appointed in writing as the accountability officer at 
the national receiving and issuing depot.
    In December 2005, direct control of the Afghan National Army (ANA) 
logistics system was transferred to the ANA from the Army. To maintain 
oversight of the process and to mentor the ANA personnel on the proper 
operation of the new system, both U.S. military mentors and U.S. 
contractor personnel continue to work side by side with the ANA, at all 
logistics locations.
    All ANA units have assigned unit identification codes, authorized 
equipment levels, and only selected ANA unit personnel, who must be on 
an official identification and signature card at the depot, are allowed 
to receive material from the ANA depots. There have been regular 100 
percent inventory reviews under the new enhanced logistics system that 
began with weapons in May 2006. Currently, there is a quarterly cycle 
of 100 percent inventories of weapons, vehicles, communications 
equipment, and all other assets.
    An Army ``property book'' tracking system has been fielded to each 
ANA unit that directly receives equipment. There are U.S. military 
mentors down to these levels who mentor their ANA counterparts on 
proper ``property book'' accountability and documentation procedures.
    In the near future, a new central maintenance facility and 
consolidated logistics command and depot facility will be constructed. 
These new facilities will greatly enhance the overall efficiency, 
consolidation, and control of the ANA national logistics system and of 
future U.S.-funded material entering the ANA inventories. The new 
Consolidated Logistics Command and Depot Facility will allow for the 
facility to be completely wired for automation and better inventory 
control and data flow.
    The currently geographically separated depots will be closed and 
moved to this central location. Combined Security Transition Command-
Afghanistan has taken the lead in ensuring command policy guidance 
enforces the proper control and accountability of all U.S.-funded 
material transferred to ANA custody. They also provide senior-level 
mentorship to the Minister of Defense and his subordinate departmental 
and general staff members on this system.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                       iraqi military competence
    49. Senator Dole. General Pace, if we are going to see an 
improvement in the security in Baghdad, it is going to manifest itself 
first in the performance of the Iraqi soldiers serving alongside U.S. 
soldiers and marines, and the Iraqi units in which U.S. forces are 
embedded. Do you see appreciable improvement in the performance of 
Iraqi commanders and their troops, particularly their willingness to 
aggressively patrol through insurgent strongholds?
    General Pace. We assess Iraqi security forces monthly. Over the 
last year, we have seen a very measurable improvement in the 
performance of Iraqi units. For instance, there are 8 Iraqi Army 
divisions, 31 Iraqi Army brigades, and 93 Iraqi Army battalions that 
have the security lead in their areas, up from 1 division, 4 brigades, 
and 23 battalions in October 2005. Further, the GOI has aggressively 
replaced incompetent commanders as well as those identified with severe 
sectarian biases.
    With respect to operations in insurgent strongholds, Iraqi security 
force units are either independent or in the lead in more than 60 
percent of operations across the country. They have shown a willingness 
to conduct aggressive operations in areas that are historically 
contentious and have acquitted themselves well.

    50. Senator Dole. General Pace, what are the metrics used to assess 
their performance?
    General Pace. We assess Iraqi military unit capability in six areas 
called the Transition Readiness Assessment. This assessment is done 
monthly by our embedded transition teams and BCTs. We assess personnel, 
training, equipment, logistics, command and control, and leadership 
down to the battalion level. The transition teams also provide a 
subjective narrative about each unit, which also is considered in the 
evaluated level of readiness. The monthly assessments are rolled up 
into an overall report that is briefed to the Multi-National Force-Iraq 
Commanding General. These assessments are the primary tool in 
determining if and when the Iraqi Ground Force Command will assume 
operational control of Iraqi Army divisions.

                       consequences of withdrawal
    51. Senator Dole. General Pace, what do your intelligence experts 
predict would occur in Iraq if the United States were to withdraw 
substantial numbers of troops over the next several months?
    General Pace. [Deleted.]

    52. Senator Dole. Secretary Gates, a precipitous withdrawal of 
American forces from Iraq would, I believe, have profound and negative 
implications for the region. What in your view would the impact of such 
a withdrawal be for the countries in the region, particularly for 
Israel and its relations with Hamas; for Jordan; for Lebanon, and the 
threat posed by Hezbollah; for Iran and its support for terrorist 
groups in the region; for free and unimpeded access by the west to the 
Persian Gulf and its importance to U.S. security; for Afghanistan; and 
for Pakistan?
    Secretary Gates. I agree. The violence in Iraq, if unchecked, could 
spread outside its borders and draw other states into a regional 
conflagration. In addition, one would see:

         an emboldened and strengthened Iran;
         a safe haven and base of operations for terrorist networks in 
        the heart of the Middle East;
         a humiliating defeat in the overall campaign against violent 
        extremism worldwide; and
         an undermining of the credibility of the United States.

    One consequence of a precipitous withdrawal from Iraq is clear: 
radical extremist groups would grow in strength. As a result, they 
would be in a better position to topple moderate governments, such as 
Jordan and Lebanon, and create chaos in the region.
    One of the basic aspects of our bilateral relationships with 
Afghanistan and Pakistan is to assure them that the U.S. commitment is 
enduring. A quick withdrawal from Iraq could undermine our credibility 
with these governments.
    As to access to the Persian Gulf, the United States has long had, 
and will continue to have, a long-term strategic presence there.
    Hezbollah and Hamas both receive substantial funding and political 
support from Iran. A stronger Hamas could pose an increased threat to 
Israel, further destabilizing relations between Israel and the 
Palestinians.
    The actors in this region--both friends and adversaries--are 
watching closely what we do in Iraq and will draw conclusions about our 
resolve and the reliability of our commitments. Should we withdraw 
prematurely, we could well leave chaos and the disintegration of Iraq 
behind us. Further, governments in the region probably are already 
asking themselves: if the Americans withdraw in defeat from Iraq, just 
how much farther, and from where else, might they withdraw?
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
                            border security
    53. Senator Martinez. Secretary Gates and General Pace, we 
understand that a significant amount of material support for the anti-
coalition forces is coming from outside Iraq. What is currently being 
done and what more can be done to halt or reduce that support?
    Secretary Gates. As the President said on January 10, 2007, 
succeeding in Iraq also requires defending its territorial integrity 
and stabilizing the region in the face of extremist challenges. This 
begins with addressing Iran and Syria. These two regimes are allowing 
terrorists and insurgents to use their territory to move in and out of 
Iraq.
    Iran is providing materiel support for attacks on American forces. 
We will protect our forces and disrupt the attacks against them. We'll 
interrupt the flow of support from Iran and Syria. We will seek out and 
destroy the networks inside Iraq that provide advanced weaponry and 
training to our enemies.
    We have already taken actions in Iraq to counter the flow of 
Iranian-supplied weapons. These weapons are used to attack the 
coalition, the Iraqi population, and Iraqi security forces. At the same 
time, the GOI has been trying, through diplomatic means, to persuade 
the Syrian and Iranian governments to cease their unhelpful activities 
in Iraq. Whatever the Iranian and Syrian governments say in response to 
these Iraqi efforts, the real answer will be whether there is a change 
in behavior.
    General Pace. Improvements in border security are being implemented 
to reduce support to insurgents from outside of Iraq. The objective of 
the Iraq Borders Security Plan is to eliminate or significantly reduce 
the flow of external support to the insurgency from across Iraq's 
borders. In order to create the conditions for success in this effort, 
the Iraqi government must demonstrate that it is capable of controlling 
its own borders and of effectively reducing threats to its sovereignty. 
Tactical and operational integration between Department of Border 
Enforcement (DBE) and Iraqi Army (IA) forces is central to an effective 
Border Security Plan. Border control includes completing and manning 
planned border forts, integrating DBE efforts with IA to create depth, 
enhancing port of entry (POE) capabilities, and influencing border 
tribes to support the effort. Multi-National Security Transition 
Command-Iraq (MNSTC-I) has trained almost 30,000 DBE personnel to 
execute the border security mission. The DBE is also supported by 28 
Coalition Border Transition Teams (BTTs). The 11-man BTTs mentor and 
support the development of the border units. The BTT members are 
trained in various specialties, including logistics and communications, 
and provide critical assistance to the border force commanders in the 
areas of personnel management, intelligence, operations, budgeting, 
equipment accountability, and maintenance. Additionally, Department of 
Homeland Security Customs and Border Support Teams mentor and monitor 
ISF at critical POEs. The Customs and Border Support Teams are critical 
to the development of the POEs. The ISF is in the lead on Iraq's 
borders, with DBE along the border, backed up by IA units in depth. 
This arrangement will require continued mentoring, and DBE will not 
likely take the lead for border security until December 2007. DBE 
leadership has its own Iraqi-led plan, approved through MOI, to expand 
the number of border forts and structures over the course of the next 
6-10 years. This will fill critical gaps along the 2,750 kilometers of 
international border surrounding the country of Iraq between the 
existing 258 coalition-funded border forts.

    54. Senator Martinez. Secretary Gates and General Pace, should more 
coalition troops be employed along the border with Syria or Iran in 
order to gain greater control over Iraq's borders?
    Secretary Gates and General Pace. The expanse of Iraq's borders is 
considerable. Eleven of 18 provinces have international borders. Multi-
National Force-Iraq is developing plans to put coalition forces at all 
Iranian and Syrian points of entry (POEs) in support of a GOI-initiated 
closure of POEs to be followed by a period of enhanced enforcement of 
POE regulations. This initiative is pending a decree from the prime 
minister to initiate the closure. No firm date for closure has yet been 
agreed to. Coalition forces that have been identified to support the 
mission have retained an on order task to support a closure within 72 
hours of notification. MNF-I is also refining a plan to send training, 
enforcement, and oversight teams to POEs to work with the DBE in an 
effort to initiate enhanced operations. A key element to this effort 
will be the Department of Homeland Security Border Support Teams, the 
28 coalition BTTs, and the almost 30,000 Iraqi DBE and POE forces.

    55. Senator Martinez. Secretary Gates and General Pace, what are 
Iraq's neighbors doing to help secure their common borders with Iraq?
    Secretary Gates and General Pace. Most of Iraq's neighbors have 
improved their security efforts along their common borders with Iraq. 
Of course, borders are difficult to seal off completely, but we believe 
Iraq's neighbors are doing their best. However, Syria and Iran need to 
do more. Although Syria has made some improvements, significant numbers 
of foreign fighters and resources still flow through Syria to Iraq. 
While Prime Minister Maliki's government has recently engaged Syrian 
counterparts to redress the flow of foreign fighters from Syria into 
Iraq, the Syrian regime continues to provide safe haven, border 
transit, and limited logistical support to Iraqi insurgents, especially 
former Iraqi Baath Party and other former regime elements. Iran is 
supporting Shia militant groups in Iraq and is, as a matter of policy, 
moving weapons and munitions across its border to supply these groups.

                           iraqi intelligence
    56. Senator Martinez. Secretary Gates, we know that one of the keys 
to winning an irregular war is having intelligence dominance. The 
ability to infiltrate enemy strongholds, mix with the populace, and 
determine capabilities and intentions of enemy forces are particularly 
important. In some ways, despite our technological and technical 
capabilities, the Iraqis may do the human intelligence mission better 
than Americans. Does the Iraqi government understand the importance of 
intelligence and how to get it and use it?
    Secretary Gates. [Deleted.]

    57. Senator Martinez. Secretary Gates, what is your/their vision of 
what an Iraqi intelligence service might look like and where they are 
in developing that capability?
    Secretary Gates. [Deleted.]

                          iraqi army training
    58. Senator Martinez. General Pace, can you outline the general 
concept we are using now to train the Iraqi army?
    General Pace. The institutional training base provided by Multi-
National Security Transition Corps-Iraq accounts for basic and military 
occupational specialty training for soldier, squad leader, and platoon 
sergeant courses for NCOs, and initial-entry cadet and staff officer 
training for the officer corps. As these personnel move to their units, 
embedded transition teams and partner units directed by Multi-National 
Corps-Iraq oversee and mentor collective training in counterinsurgency-
oriented mission-essential tasks. Newly recruited soldiers and officers 
go through initial training in the same manner as U.S. soldiers and 
officers. These new recruits are trained in Iraqi training institutions 
by Iraqi officers and noncommissioned officers with coalition forces' 
oversight. There are 18 training institutions across Iraq, and each of 
them is now led by Iraqis. Once the new soldier or officer graduates 
from the training academy and is assigned to an operational unit, his 
training continues under the guise of our embedded military transition 
teams. These teams assist their Iraqi Army counterparts with the 
development and execution of training plans from platoon to division 
level. The transition teams ensure Iraqi Army leadership at all levels 
is competent to conduct the training and, where applicable, will 
conduct the training themselves. Training is also conducted by 
coalition counterpart units while conducting operations, specifically 
at platoon and company level.

    59. Senator Martinez. General Pace, what changes do you anticipate 
over the next 6-9 months to improve the program?
    General Pace. As the Iraqi military increases its institutional 
capability, the quality of training will increase as well. The de-
Baathification Reform Act that is currently before the Iraqi Council of 
Representatives will allow former Baath Party-affiliated Army officers 
to return to service unless they were individually involved in the 
former regime's crimes. This act may bring back a corps of trained and 
experienced former officers that will have an impact on the training 
competency of the Iraqi training institutions. Further, as the tactical 
situation dictates, coalition forces units will begin to increase the 
size of embedded transition teams, which will provide greater coverage 
at all echelons than is currently available.

    60. Senator Martinez. General Pace, have you explored the 
possibility of bringing Iraqi army trainees to secure third countries 
or to the United States to provide a more productive training 
environment?
    General Pace. We have explored training opportunities outside of 
Iraq. Western European nations, such as Germany, have offered to 
conduct specialized training for the Iraqi Army. The GOI, however, 
specifically desires to keep all Iraqi soldiers in Iraq for training. 
All Iraqi Army training institutions have been turned over to Iraqi 
control, with coalition forces oversight. We believe this enhances the 
sovereignty of Iraq.
    However, we have trained more than 46,000 Iraqi policemen at the 
Jordanian International Police Training Center. There are currently 
more than 2,000 Iraqi policemen still training in Jordan.

    [Whereupon, at 1:53 p.m., the committee adjourned.]


  THE CURRENT SITUATION IN IRAQ AND ON THE ADMINISTRATION'S RECENTLY 
ANNOUNCED STRATEGY FOR CONTINUED UNITED STATES ASSISTANCE TO THE IRAQI 
GOVERNMENT AND FOR AN INCREASED UNITED STATES MILITARY PRESENCE IN IRAQ

                              ----------                              


                       THURSDAY, JANUARY 25, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Bayh, Clinton, Pryor, Webb, 
McCaskill, McCain, Warner, Inhofe, Sessions, Collins, 
Chambliss, and Graham.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Michael J. Kuiken, professional 
staff member; and Michael J. Noblet, research assistant.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Ambrose R. Hock, professional staff member; 
Gregory T. Kiley, professional staff member; Derek J. Maurer, 
minority counsel; Christopher J. Paul, professional staff 
member; Lynn F. Rusten, professional staff member; and Sean G. 
Stackley, professional staff member.
    Staff assistants present: Fletcher L. Cork, Micah H. 
Harris, and Benjamin L. Rubin.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Caroline Tess, assistant to Senator Bill Nelson; 
Eric Pierce, assistant to Senator Ben Nelson; Todd Rosenblum, 
assistant to Senator Bayh; Andrew Shapiro, assistant to Senator 
Clinton; Scott D. MacConomy, assistant to Senator Pryor; Gordon 
Peterson, assistant to Senator Webb; Nichole M. Distefano, 
assistant to Senator McCaskill; John A. Bonsell and Jeremy 
Shull, assistants to Senator Inhofe, Mark J. Winter, assistant 
to Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Jennifer Olson and Matthew R. Rimkunas, assistants 
to Senator Graham; Lindsey Neas, assistant to Senator Dole; 
Stuart C. Mallory, assistant to Senator Thune; and Brian W. 
Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, we are very privileged to hear from three 
distinguished witnesses as we continue to examine the 
President's new strategy for Iraq: Dr. William Perry, former 
Secretary of Defense, most recently a member of the Iraq Study 
Group (ISG), and currently a senior fellow at the Hoover 
Institution; Ambassador Dennis Ross, former Middle East 
Coordinator in the Clinton administration, and currently 
Counselor and Ziegler Distinguished Fellow with the Washington 
Institute for Near East Policy; and General John Keane, former 
Vice Chief of Staff of the United States Army and a man who is 
well known to members of this committee from his many visits 
with us.
    We welcome you all and we give you great thanks for your 
willingness to join us this morning.
    Prime Minister Maliki himself said, on November 27, that, 
``The crisis in Iraq is political, and the ones who can stop 
the cycle of aggravation and bloodletting of innocents are the 
politicians.'' The addition of more than 20,000 American troops 
to the nearly 140,000 now there does not address that 
fundamental problem.
    General Abizaid, before this committee in November, put it 
this way, ``I met with every divisional commander--General 
Casey, the Corps commander, General Dempsey--we all talked 
together and I said, `in your professional opinion, if we were 
to bring in more American troops now, does it add considerably 
to our ability to achieve success in Iraq?' They all said no.'' 
Now, that goes to the heart of the matter.
    There actually seems to be an agreement that an Iraqi 
political settlement is the key to ending the violence in Iraq. 
The principal difference of opinion exists on whether Iraqi 
politicians need breathing space, as President Bush has said, 
to reach required political compromises or whether, as many of 
us believe, Iraqi politicians need to be pressured to make 
those compromises, and that the addition of 20,000 more troops 
doesn't make a political compromise more likely, while just 
getting us deeper into a civil conflict.
    The President has recently said that, ``America will hold 
the Iraqi Government to the benchmarks that it has announced.'' 
I've tried twice to get this administration to provide a list 
of those benchmarks. The Department of Defense (DOD) indicated 
that the Department of State (DOS) would provide them. 
Secretary Rice has not even answered our letters in that 
regard. I have no idea why the administration appears to be 
stonewalling Congress on such a critical issue.
    In any event, unless there are mechanisms to force Iraqi 
politicians to be Iraqi leaders and make the essential 
political compromises, then any benchmarks are just marks on a 
piece of paper--empty promises no more likely to be kept than 
previous Iraqi commitments.
    What is going to pressure the Iraqis to meet those 
benchmarks? What are the consequences if they don't meet them? 
That was the point General Abizaid was making in November, when 
he said that more American troops now would not add 
considerably to our ability to achieve success in Iraq. In that 
same hearing, he went on to explain the following: ``It's easy 
for the Iraqis to rely upon us to do this work. I believe,'' he 
said, ``that more American forces prevent the Iraqis from doing 
more, from taking more responsibility for their own future.''
    General Casey emphasized that same point on January 2 
saying, ``The longer United States forces continue to bear the 
main burden of Iraq's security, it lengthens the time that the 
Government of Iraq has to make the hard decisions about 
reconciliation and dealing with the militias.''
    These two military commanders have testified, on numerous 
occasions, that there must be a political solution, that Iraqi 
politicians need to make the political compromises on 
constitutional issues, on federalism, and on sharing oil 
revenues, which are integral to changing the dynamics in Iraq 
and defeating the insurgency and quelling the sectarian 
violence.
    The Iraqi track record on meeting benchmarks and carrying 
out commitments is not encouraging. The Constitutional Review 
Commission has yet to formulate recommendations, the national 
reconciliation milestones have not been met, little meaningful 
action has been taken to curb militias, and Iraqi support for 
previous Baghdad security plans has fallen way short of what 
was promised. The lack of willingness to compromise has led me 
to believe that Iraqi politicians will not make those 
compromises unless they are convinced that U.S. forces are not 
there, as the President has said, as long as the Iraqis want, 
and unless the Iraqis conclude that our troops cannot save them 
from themselves. Unless so convinced, they will continue the 
political gridlock, which isn't caused by the violence, but, in 
the words of Prime Minister Maliki, is the main source of the 
continuing cycle of bloodletting of innocents.
    Again, our thanks to our witnesses for taking the time to 
address these and other issues and to take our questions.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I want to thank 
you for scheduling this hearing. I also join you in welcoming 
our distinguished witnesses, all three of whom have great 
records of public service and are going to be very helpful, I 
think, to this committee as we debate this ongoing, very 
difficult issue.
    Last week, we heard experts from the intelligence community 
discuss the security situation in Iraq. Earlier this week, we 
heard from Lieutenant General Petraeus, who will soon command 
the multinational forces in Iraq. Mr. Chairman, I want to 
congratulate you, because I think this series of hearings has 
been very useful.
    Today we have the benefit of an outstanding panel of senior 
national security experts who have decades of combined 
experience both in and out of Government, and we're 
appreciative of the impressive history of service that these 
witnesses have provided to our Nation.
    In his State of the Union Address on Tuesday night, the 
President noted, ``This is not the fight we entered in Iraq, 
but it's the fight we're in.'' This statement captures the dire 
circumstances that characterize Iraq today. I regret that we 
have come to this point. In the past, I have been vocal about 
how this war has been mishandled. The many mistakes we have 
made in Iraq have been catalogued in various books, articles, 
and, indeed, in the prepared testimony of our witnesses today. 
All of us agree that the situation in Iraq is bad and getting 
worse, and I hope that we could agree that the consequences of 
a failed state there are potentially catastrophic.
    Regional stability, the international economy, America's 
world standing, and the fate of the Iraqi people are at stake. 
Iraq, the nation liberated by the United States and our 
coalition partners after decades of dictatorship, is living on 
borrowed time.
    In addressing Iraq, all policymakers have an obligation to 
conduct themselves with the seriousness the situation there 
deserves. I have commended the President for recognizing the 
mistakes of the past and for outlining a new strategy earlier 
this month. The administration is, at last, moving toward a 
counterinsurgency strategy that focuses on protecting the 
population and securing areas, rather than on killing 
insurgents, and transitioning to Iraqi responsibility. This 
approach does not, as some have argued, presume that there's a 
military solution alone to the situation in Iraq. On the 
contrary, the solution will be found as much, if not more, 
along political and economic lines, but it is a simple 
reflection of reality that, without security, political and 
economic activity cannot go forward. Security is a precondition 
for everything we wish to see the Iraqis accomplish. By holding 
territory with combined U.S. and Iraqi troops, we can allow the 
economic and political process to move ahead, and Iraq can at 
least have some prospects for a brighter future.
    Those prospects, at this moment, hinge largely on securing 
Baghdad. Baghdad is the epicenter of Iraq's political power and 
its political violence. It is the center of gravity in this 
war. In this exceedingly difficult situation in its historic 
capital city, it has proven very difficult for the new 
government to develop capacity and to address the issues that 
must be resolved.
    On Tuesday, General Petraeus said that the citizens in 
Baghdad, ``take risks incalculable to us just to get to work, 
to educate their children, and to feed their families.'' We 
cannot expect the government to achieve political 
reconciliation and economic recovery when such circumstances 
prevail in its capital city. We can expect, however, and must 
demand, that if we're able to bring down the violence, the 
government of Prime Minister Maliki meet the political and 
economic benchmarks to which he has committed. It is not 
certain that this new approach will succeed. The only guarantee 
is that, if we do not try, we will certainly fail. It is 
imperative that we understand the likely consequences of 
failure, and it is imperative that we understand that.
    I hope our witnesses will share their views on this matter, 
but already many experts have predicted a failed state in Iraq, 
with extreme levels of sectarian violence well beyond those we 
see today. They predict larger refugee flows, a terrorist safe-
haven, greater Iranian influence, and the potential for 
regional war. The mission on which our country is sending 
General Petraeus is critical and this is likely the last chance 
for success. I have great confidence in General Petraeus. I 
think he's one of the finest generals that our military has 
produced. He told the committee this week that the task ahead 
is, ``clear cut, though difficult.'' He reminded us that he 
will need support from all elements of the United States 
Government.
    The degree to which Federal agencies and departments are 
assisting our military as they carry out this difficult mission 
is a matter on which this committee must keep close watch and I 
hope that we, as Senators, will apply the same standard to 
ourselves. General Petraeus says he cannot carry out his 
mission without additional troops. He must have them. He needs 
the support of Congress to give this new strategy a chance and 
I urge my colleagues to give him that too.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Dr. Perry?

     STATEMENT OF WILLIAM J. PERRY, SENIOR FELLOW, HOOVER 
          INSTITUTION; AND FORMER SECRETARY OF DEFENSE

    Dr. Perry. I have submitted a written statement for the 
record and, with your permission, I will only give highlights 
of that testimony.
    Chairman Levin. It will be made part of the record, as will 
all the testimony.
    Dr. Perry. In December, the ISG concluded 9 months of study 
and proposed a new way forward. Earlier this month, President 
Bush announced his new way forward that is significantly 
different from the ISG recommendations. So, in my talk today, I 
will briefly explain the differences in the two approaches and 
why I continue to believe the ISG proposals serve our country 
better.
    We are in a very deep hole in Iraq. We may never know 
whether our goal of achieving a democratic, stable government 
in Iraq was, in fact, feasible since the administration's 
attempts to do so were burdened with strategic errors. We 
failed to get support from regional powers and key allies. As a 
consequence, U.S. forces comprise about 90 percent of the 
coalition, as opposed to about 50 percent in Operation Desert 
Storm or Bosnia. The administration did not send in enough 
troops to maintain security after the Iraqi army was defeated, 
giving the insurgency a chance to gain a foothold. They 
disbanded the Iraqi army, police, and civil servants a few 
weeks after the Iraqi army was defeated. As a result, 500,000 
angry young men were turned loose on Iraqi towns with weapons 
and with no jobs, and Iraq was left with no security force 
except for an undersized coalition military force. Finally, the 
administration pushed the Iraqi Provisional Government to 
establish a constitution and hold elections, which was good, 
but in a faulty process that did not adequate protect minority 
rights; thus, setting the stage for a bloody power struggle 
between Sunnis and Shias. The cumulative effect of all of these 
strategic errors is the disastrous security situation in Iraq 
which continues to deteriorate.
    This committee knows all too well that, to date, more than 
25,000 U.S. military personnel have been killed, maimed, or 
wounded, and that, last year, more than 30,000 Iraqis were 
killed in the sectarian violence sweeping the major cities in 
Iraq. Not so well known is that more than a million Iraqis 
already have left the country, including large numbers of 
teachers and doctors, and the violence is still trending 
upward. Last Saturday, 27 American servicemen were killed, and 
last Sunday, 100 Iraqis were killed in multiple suicide 
bombings. As grim as this situation is, it could become even 
worse when U.S. soldiers leave. But, in the absence of 
political reconciliation, that could be true whether we leave a 
year from now or whether we leave 5 years from now.
    In the face of this growing disaster, the U.S. Congress 
commissioned an independent bipartisan study charged to reach 
consensus on a way forward in Iraq. The ISG Report called for a 
change in mission, a reinvigoration of diplomacy in the region, 
a strengthening of the Iraqi Government, and the beginning of 
troop redeployments. The change in mission proposed was key to 
everything else in the report.
    We believed that we should try to strengthen the ability of 
the Iraqi Government to hold off a full-scale civil war. We 
believed that we should continue our efforts to defeat al Qaeda 
in Iraq. Although al Qaeda was not a significant factor in Iraq 
before the war, it has since established a strong foothold, 
specializing in mass killings. We believed that we should 
reduce the commitment of our ground forces in Iraq and 
reestablish their readiness for other missions. The United 
States has important security responsibilities outside of Iraq 
which cannot be met if our ground forces are tied down in Iraq 
for the indefinite future.
    We recommended the following actions to carry out these 
missions: shift the mission of U.S. troops from combat 
patrolling to training the Iraqi army, including embedding some 
U.S. soldiers so that they can provide role models and on-the-
job training for Iraqi soldiers; begin pulling out American 
combat brigades, with the goal of having all out by the first 
quarter of 2008, except for a very strong rapid-reaction force 
needed for force protection and needed for continuing fight 
against al Qaeda in Iraq; continue to support Iraqi forces with 
intelligence, logistics, and air support; provide both positive 
and negative incentives for the Iraqi Government to accelerate 
the reconciliation process and the oil revenue-sharing so the 
Sunnis have a stake in a stable Iraq; and mount an intense 
diplomatic effort to persuade friendly regional powers to 
assist economically, politically, and with training, and to put 
pressure on unfriendly regional powers to stop arming militias 
and fomenting violence.
    If the recommendations of the ISG were to be followed, many 
of our combat brigades would pull out of Iraq this year. As our 
Army combat brigades and Marine Corps units returned to their 
bases in the United States, the Defense Department would have a 
huge budget and management problem in restoring them to full 
combat readiness. The Army, all of whose brigades were at high 
readiness levels at the beginning of the war, is dangerously 
close to being broken. Today, less than a third of these forces 
are at readiness levels needed to meet military contingencies, 
and lower readiness levels invite such contingencies. Indeed, 
our security has already suffered because of the perception of 
Iran and North Korea that our forces are tied down in Iraq.
    The DOD also needs to reconsider the role of the National 
Guard since the compact with these citizen soldiers has been 
shattered by the extended deployments that have caused many of 
them to lose their jobs and some of them to lose their 
families. This committee has a special responsibility to deal 
with restoring the combat capability of the U.S. military 
forces.
    Earlier this month, the President proposed what he called 
``A New Way Forward in Iraq.'' His strategy calls for adding 
more than 20,000 combat troops, the bulk of them to be employed 
in securing Baghdad. When the ISG was in Baghdad, we discussed 
the Baghdad security problem with General Casey and General 
Chiarelli, as well as General Dempsey, and asked if they could 
increase the likelihood of success if they had another three to 
five American brigades. Both generals said ``no.'' They argued 
that the problem of conducting combat patrols in neighborhoods 
of Baghdad had to be carried out by Iraqi forces. They said 
that they believed that bringing in more American troops could 
delay the Iraqis assuming the responsibility for their own 
security. They said that any solution to the security problem 
required the Iraqi Government to start making real progress in 
programs of political reconciliation that they had earlier 
committed to do. This assessment was consistent with what we 
had heard from General Abizaid in an earlier briefing in the 
United States. Of course, not all of our military leaders 
agree, including General Petraeus, but I think the views of our 
commanders with recent on-the-ground experiences carry special 
weight.
    The best chance of bringing down the violence in Iraq lies 
with the Iraqi army, and we can improve their chance of success 
by using American ground forces to provide the on-the-job 
training that results from embedding American troops in Iraqi 
combat units as proposed by the ISG. Moreover, none of this 
military action will be effective unless the Iraqi Government 
moves promptly to carry out the programs of political 
reconciliation that they have committed to do. This involves 
the sharing of power and the sharing of oil revenues with the 
Sunnis. The Iraqi Government has delayed carrying out these 
programs for almost a year now.
    The ISG proposal puts maximum pressure for timely action on 
the part of the Iraqi Government; whereas, sending in 
additional American troops provides them with a rationale for 
further delays that effectively avoids making the fundamental 
changes that are necessary.
    The President's announced strategy also entails diplomatic 
actions that are far less comprehensive than envisaged by the 
ISG, and none at all with Syria, which plays a pivotal role in 
the region and with whom we could have considerable leverage.
    In sum, Mr. Chairman, I believe that the President's 
diplomatic strategy is too timid and his military strategy is 
too little and too late to effect the lasting and profound 
changes needed. His strategy is not likely to succeed, because 
it is tactical, not strategic, because it does not entail real 
conditiality for the Iraqi Government, and because it will only 
deepen the divide in this country.
    The ISG proposal has a better chance because it recognizes 
that the key actions needed in Iraq to effect lasting results 
must be taken by the Iraqi Government and the Iraqi army, and 
because it provides the incentives for those actions. Most 
importantly, the recommendations of the bipartisan ISG provide 
an opportunity for Americans to come together again as one 
Nation, indivisible.
    Thank you.
    [The prepared statement of Dr. Perry follows:]
              Prepared Statement by Hon. William J. Perry
                        introduction and summary
    It has become clear to the American public that we need a new way 
forward in Iraq. In December the Iraq Study Group (ISG), a bipartisan 
group formed by Congress, concluded 9 months of study and proposed a 
new way forward. The ISG proposal recognized that the key actions 
needed in Iraq must be taken by the Iraqi government and the Iraqi 
Army, and provided the incentives for those actions. The ISG proposal 
also recognized that we needed to begin the redeployment of our 
overstretched ground forces in order to meet our security 
responsibilities outside of Iraq.
    Perhaps most importantly, the recommendations of the bipartisan ISG 
provided an opportunity for the Nation to come together on Iraq. Last 
week President Bush announced what he called a ``New Way Forward'' in 
Iraq that does not follow the ISG recommendations. He has instead 
chosen a course of action that I believe is not likely to succeed 
because it is tactical, not strategic; because it does not entail real 
conditionality for the Iraqi government; and because it will only 
deepen the divide in the country. So in my testimony today I will 
explain the differences in the two approaches, and why I believe that 
the ISG proposals better serve the interests of the United States.
                         historical background
    But before I discuss the ISG and its new way forward, I will first 
look back to consider the disastrous situation in Iraq.\1\
---------------------------------------------------------------------------
    \1\ References for my assessment include ``Squandered Victory'', 
Larry Diamond; ``Assassin's Gate,'' George Packer; ``Fiasco,'' Tom 
Ricks; and ``State of Denial,'' Bob Woodward.
---------------------------------------------------------------------------
    The administration gave three reasons for the invasion of Iraq. The 
first was the alleged imminent danger from Iraq's weapons of mass 
destruction (WMD) programs. I believe that military action to stop an 
illegal nuclear program would have been warranted, but it would have 
been targeted against nuclear facilities, and not entail the occupation 
of Iraq. In any event, there was no imminent or even gathering danger 
from Iraqi nuclear weapons or other WMD. It appears that the United 
Nations inspections had, in fact, been working.
    The second reason was the alleged imminent danger to the United 
States from Iraq's support of terrorism. Military action to defeat al 
Qaeda could have been justified, as it was in Afghanistan. But while al 
Qaeda used Afghanistan as a training area, it had no significant 
presence in Iraq prior to the invasion, and had no relationship with 
Iraq's government.
    The third reason was to bring stability to the Middle East by 
creating a democratic government in Iraq. Certainly a democratic 
government in Iraq could be a blessing to its people and a boon to the 
region. But the task of imposing a democratic government in Iraq turned 
out to be substantially more difficult than the administration 
imagined. Indeed, it is not clear that any strategy could have fully 
succeeded in achieving a democratic, stable government in Iraq. But we 
may never know whether it was possible, since the administration's 
attempts to do so were burdened with serious strategic errors.
    In particular, four errors were the most consequential:

          a. The administration failed to get support from regional 
        powers and from key allies. As a consequence, United States 
        forces comprise almost 90 percent of the coalition, as opposed 
        to about 50 percent in Operation Desert Storm or Bosnia.
          b. The administration did not send in enough troops to 
        maintain security after the Iraqi army was defeated. Thus, 
        after the Iraqi army was defeated and Iraq broke out in 
        looting, the United States did not have enough troops to 
        maintain control, giving the insurgency a chance to gain a 
        foothold.
          c. The administration disbanded the Iraqi army, police, and 
        civil servants a few weeks after the Iraqi army was defeated. 
        As a result, 500,000 angry young men were turned loose on Iraqi 
        towns with weapons and no jobs, and Iraq was left with no 
        security force except for the undersized coalition military 
        force.
          d. The administration pushed the Iraqi provisional government 
        to establish a constitution and hold elections, but in a faulty 
        process that did not adequately protect minority rights, thus 
        setting the stage for a bloody power struggle between Shias and 
        Sunnis. The cumulative affect of all of those strategic errors 
        is a disastrous security situation in Iraq, which continues to 
        deteriorate:

                <bullet> More than 25,000 United States military 
                personnel have been killed, maimed, or wounded.
                <bullet> This past year more than 30,000 Iraqis were 
                killed in the sectarian violence sweeping the major 
                cities of Iraq.
                <bullet> Well over a million Iraqis have left the 
                country, including large numbers of Iraqi 
                professionals.
                <bullet> The violence is still trending upward.

    As grim as this situation is, it could become even worse when U.S. 
soldiers leave. But that could be true whether we leave a year from now 
or 5 years from now in the absence of political reconciliation.
                          the iraq study group
    In the face of this growing disaster, Congress commissioned an 
independent bipartisan study charged to reach consensus on a way 
forward in Iraq. Jim Baker and Lee Hamilton were named as the co-
chairmen and each of them selected four other members from his own 
party. Additionally they recruited 40 expert advisors. Neither the 
members nor the advisers received any compensation. We met 2 to 3 days 
each month from March to August of last year being briefed by military 
and political experts. A very important part of our factfinding was 
consulting with the Iraqi government. So we went to Baghdad in 
September, and spent 4 days meeting with all of the top officials of 
the Iraqi government, as well as our military commanders in Iraq.
    After we returned from Iraq, we spent 6 intensive days trying to 
reach a consensus. This process was very difficult, and it is a tribute 
to our co-chairmen that we were able to succeed. All of our members 
were motivated by the belief that Iraq posed a serious problem for our 
country, and that to be of constructive help we had to reach a 
bipartisan consensus on how to move forward.
    The ISG report was released to the public on December 6. It called 
for a change in mission, a reinvigoration of diplomacy in the region, a 
strengthening of the Iraqi government, and the beginning of troop 
redeployments.
    The change in mission proposed was the key to everything else in 
the report. We believed that we should try to strengthen the present 
government's ability to hold off a full-scale civil war. We believed 
that we should continue our efforts to defeat al Qaeda in Iraq. 
Although al Qaeda was not a significant factor in Iraq before the war, 
it has since established a strong foothold, specializing in mass 
killings. We believed that we should reduce the commitment of our 
ground forces in Iraq and reestablish their readiness for other 
missions. The United States has important security responsibilities 
outside of Iraq, which cannot be met if our ground forces are tied down 
in Iraq for the indefinite future.
    We recommended the following actions to carry out these missions:

        <bullet> Shift the mission of U.S. troops from combat patrols 
        to training the Iraqi army, including embedding some U.S. 
        soldiers so that they can provide role models and on-the-job 
        training for Iraqi soldiers.
        <bullet> Begin pulling out U.S. combat brigades, with the goal 
        of having all out by the first quarter of 2008, except for a 
        strong rapid reaction force needed for force protection and the 
        fight against al Qaeda in Iraq.
        <bullet> Continue to support Iraqi forces with intelligence, 
        logistics, and air support.
        <bullet> Provide both positive and negative incentives for the 
        Iraqi government to accelerate the reconciliation process and 
        oil revenue sharing so that Sunnis have a stake in a stable 
        Iraq.
        <bullet> Mount an intense diplomatic effort to persuade 
        friendly regional powers to assist economically, politically, 
        and with training and to put pressure on unfriendly regional 
        powers to stop arming militias and fomenting violence.
               impact of iraq on ground forces readiness
    If the recommendations of the ISG were to be followed, many of our 
combat brigades would be out of Iraq by the first quarter of next year. 
As our Army combat brigades and Marine units return to their bases in 
the United States, the Defense Department will have a huge budget and 
management problem in restoring them to full combat readiness. This 
problem is of special concern to this committee because of the 
constitutional responsibility of Congress in constituting and equipping 
our Armed Forces. The Army, all of whose brigades were at high 
readiness levels at the beginning of the war, is dangerously close to 
being broken. Today, less than a third of these forces are at readiness 
levels needed to meet other military contingencies. And low readiness 
levels invite such contingencies; indeed, our security may have already 
suffered because of the perception of Iran and North Korea that our 
forces were tied down in Iraq. The Defense Department also needs to 
reconsider the role of the National Guard, since the compact with these 
citizen soldiers has been shattered by extended deployments that have 
caused many of them to lose their jobs or even their families.
    a comparison of the president's new strategy with isg proposals
    Last week the President announced what he called a new way forward 
in Iraq. I fully agree with the President's assessment that failure in 
Iraq could have serious consequences for security in the region and, 
ultimately, American security. I agree that we should make a serious 
effort to avoid such a failure. But I firmly believe that the 
bipartisan proposal made by the ISG gives us a better chance of 
avoiding that failure than does the President's proposal. The new way 
forward proposed by President Bush differs from that recommended by the 
ISG in several important respects. It calls for adding more than 20,000 
combat forces, the bulk of them to be employed in securing Baghdad. 
When the ISG was in Baghdad, we discussed the Baghdad security problem 
in some detail with General Casey and General Chiarelli. In particular, 
we noted that Operation Together Forward (designed to establish 
security in Iraq) was not succeeding, and asked if they could increase 
the likelihood of success if they had another three to five American 
brigades. Both generals said no. They argued that the problem of 
conducting combat patrols in the neighborhoods of Baghdad had to be 
carried out by Iraqi forces, and that bringing in more American troops 
could delay the Iraqis assuming responsibility for their own security. 
They also said that there was no purely military solution to Baghdad's 
security. Any solution to the security problem required the Iraqi 
government to start making real progress in the programs of political 
reconciliation that they had earlier committed to do. They argued that 
more American troops tended to fuel that part of the insurgency that 
was fighting against American occupation forces. Finally, they noted 
that bringing in more American ground forces would be unlikely to have 
positive results on Baghdad's security, but very likely to have 
negative results on the readiness of American ground forces. These 
assessments were consistent with what we had heard from General Abizaid 
in an earlier briefing in the United States.
    Subsequent to our discussions in Baghdad, the President has 
replaced these generals and adopted a new strategy that is contrary to 
the advice they gave us. I note that the situation in Iraq has 
dramatically changed with the intense sectarian violence that was 
sparked by the bombing of the Blue Mosque about a year ago, and that 
our recent commanders' assessments reflect on-the-ground experience 
with this intensification. Consequently, I believe we should stay with 
the recommendations of our most recent commanders in Iraq and not send 
in more American combat forces. The best chance of bringing down the 
violence in Iraq, if indeed it still can be done, lies with the Iraqi 
army, and we can improve their chance of success by using U.S. ground 
forces to provide the on-the-job training that would result from 
embedding American troops in Iraqi combat units, as proposed by the 
ISG. Moreover, none of this military action will be effective unless 
the Iraqi government moves promptly to carry out the programs of 
political reconciliation they have committed to do--this involves the 
sharing of power and the sharing of oil revenues with the Sunnis. The 
Iraqi government has delayed carrying out these programs for almost a 
year now--not surprising given their desire to maintain full control of 
the government and given the political difficulty of implementing these 
programs even if they wanted to. The ISG proposal puts maximum pressure 
for timely action on the part of the Iraqi government, whereas sending 
in the additional American troops provides them a rationale for further 
delays that effectively avoid making the fundamental changes that are 
necessary.
    Finally, the ISG proposed a comprehensive diplomatic initiative 
involving all of the neighboring countries. We fully recognized that 
those diplomatic goals would not be easy to achieve. They would require 
the dedicated efforts of the best American diplomats, both in and out 
of government. And even with such an effort, we probably would not 
succeed in all of our diplomatic goals. But we will never know how 
much, in fact, can be accomplished through diplomacy unless we give it 
such a dedicated effort. Two noteworthy precedents of successful 
American diplomacy in the face of equally daunting odds were the 
diplomacy by the first Bush administration that facilitated a peaceful 
ending of the Cold War, and the diplomacy by the Clinton administration 
that ended the Bosnian War. The President's announced strategy entails 
diplomatic actions far less comprehensive than envisaged by the ISG and 
none at all with Syria, which plays a pivotal role in the region and 
with whom we could have considerable leverage.
                              conclusions
    In sum, I believe that the President's diplomatic strategy is too 
timid and his military strategy is too little and too late to effect 
the lasting and profound changes needed. His strategy is not likely to 
succeed because it is tactical not strategic; because it does not 
entail real conditionality for the Iraqi government; and because it 
will only deepen the divide in the country.
    The ISG proposal has a better chance because it recognizes that the 
key actions needed in Iraq to effect lasting results must be taken by 
the Iraqi government and the Iraqi Army and because it provides the 
support and the incentives for those actions. Most importantly, the 
recommendations of the bipartisan ISG provide an opportunity for 
Americans to come together again as one Nation, indivisible.

    Chairman Levin. Dr. Perry, thank you so much for your 
testimony.
    Ambassador Ross?

 STATEMENT OF AMBASSADOR DENNIS B. ROSS, COUNSELOR AND ZIEGLER 
 DISTINGUISHED FELLOW, THE WASHINGTON INSTITUTE FOR NEAR EAST 
    POLICY; AND FORMER DIRECTOR FOR POLICY PLANNING IN THE 
   DEPARTMENT OF STATE UNDER PRESIDENT GEORGE H. W. BUSH AND 
  SPECIAL MIDDLE EAST COORDINATOR UNDER PRESIDENT BILL CLINTON

    Ambassador Ross. Thank you, Mr. Chairman.
    I too have submitted a statement for the record and I'm 
just going to summarize some of its key points.
    I start with a premise, and the premise is that the answer 
to Iraq is going to be found within Iraq. Many of Iraq's 
neighbors have leverage and influence, we obviously have 
leverage and influence, but the fact of the matter is, it's 
going to depend on what Iraqis decide, and not what we, or 
others, ultimately decide.
    When I listened to President Bush as he laid out his plan 
for a surge, he also seemed to take this into account, because, 
after all, he said the surge was dependent upon an Iraqi 
security plan, and he also laid out what were a series of 
commitments that Prime Minister Maliki had made to him: 
commitments in the security area, the political area, and the 
economic area. These were important, and they included the 
following: (1) that the Iraqis would, in fact, provide forces 
for us to partner with; (2) that there would be equal 
protection for Sunni neighborhoods and Shia neighborhoods; (3) 
that there would not be interference, political, or sectarian 
considerations would not interfere with security operations; 
(4) that there would be a new law for sharing of oil revenues, 
and, presumably, that it would then be implemented; (5) that 
you would actually have a new law on de-Baathification--in 
effect, if it was implemented, that you would rehabilitate 
former Baathi officials; (6) that there would be $10 billion 
worth of reconstruction monies, and those reconstruction monies 
would go to Sunnis in Anbar province, as well; (7) there would 
be a fair process for amending the constitution; and (8) that 
there would be empowerment at the local level by having 
elections for provincial governors.
    That isn't all of them, but I highlight these because if 
those were carried out, they'd be very important. Now, the 
problem is, we've heard many of these promises before, and the 
critical question is, what's going to make it different this 
time?
    Presumably, from my standpoint, it could be different this 
time if Prime Minister Maliki really does believe that Iraq is 
on the brink of the abyss, if he really does believe that, if 
Iraqi leaders don't finally take these actions now, or at least 
act to try to take these actions now, the situation in Iraq, 
though bad, is going to become vastly worse and imperil not 
only him, but the Shia, as well. Maybe he would take these 
moves if he heard from the President, in private, that, while 
the President was making these surge commitments himself in 
public, in private he was making clear to him that if there 
wasn't a good-faith effort to act on Maliki's promises, the 
President, in 6 months, would then decide to begin to draw 
down, and he would not continue to provide security assistance 
or arms to the forces that Maliki most wants.
    My point here is, the key thing to get Iraqis to make 
decisions they haven't been prepared to make up until now is to 
create a stark set of consequences for them if they don't. My 
experience in dealing with historic conflicts is that you 
rarely induce parties who are part of a historic conflict, 
especially sectarian conflicts, to make what are excruciating 
decisions for them--decisions that require them to confront 
history, confront legacy, confront mythology--it is very hard 
for them to cross those thresholds unless, in fact, they see 
the consequences, in their eyes, of not doing so. What we see 
today, I think, in Iraq are Shia who are a majority but fear 
that they will lose power at any moment. They are convinced 
that the Sunnis have not made a decision to reconcile with the 
Shia having a dominant position--Sunnis who don't believe that 
the Shia are, in fact, prepared to give them a piece of the 
pie--and at a time when, I would say, Sunnis continue 
emotionally to find it difficult to adjust to a reality where 
they're no longer the dominant force. So, if there's going to 
be a change, it seems to me there's going to have to be an 
unmistakable sense of consequences, in their eyes, if they 
don't make the kind of changes that are necessary.
    That's the context, I think, in which the President has 
made his decision. I would just make a general observation, 
then suggest, I think, there are basically three options for 
where we go from here.
    The general observation, I'm afraid, is that, if we look at 
Iraq, I suspect that we could have a civil war that goes on for 
another 10 or 15 years and that eventually, at the end of that 
time, after enormous cost--with every neighbor in the region 
intervening, because they're going to try to protect their 
equities or the groups that they identify with--and after 
exhaustion, maybe we will end up with an Iraq that has a 
central government with limited powers, with provinces with 
extensive autonomy, with some formula for sharing the wealth 
there.
    Now, the alternative to that is some kind of a transition 
that doesn't go through that incredible pain, with all the 
instability in the region. The issue here is whether we can 
manage that transition.
    It seems to me that the President is offering one option to 
try to do it, but it still depends upon Iraqis making political 
decisions that they haven't been prepared to make for the last 
several years.
    So, one question is, can you forge a new national compact? 
Will it come if there isn't a set of consequences? I don't 
think it will come if there isn't an unmistakable set of 
consequences. If the President has privately warned Maliki 
about the consequences, maybe he'll change, maybe others will. 
If he hasn't made that warning, then I would suggest that 
Congress should focus on how it can identify what would be key 
consequences.
    My suggestion to you would be the following: You said, Mr. 
Chairman, that you haven't been able to get the benchmarks from 
the administration. I outlined eight or nine promises that were 
made that the President has publicized. Now, it seems to me, 
if, in fact, those were acted upon, that would be a pretty good 
indication that we now see an Iraq that is trying to do what is 
required to cross the political thresholds that are necessary 
to produce a new national compact. Pick out the ones you 
consider to be the most important.
    The ones I would focus on are the provision of forces; not 
just the law on sharing oil revenue, but the actual 
implementation of it; the de-Baathification; and the equal 
protection. Those strike me as being the most important. I 
didn't mention the disbanding of the Shia militias, not because 
I don't think it's important, but because I don't believe, in 
the next 6 months, that's even a possibility. This is not only 
for emotional reasons, but for practical reasons. Yes, it would 
be very important. But the other measures that I identified 
would be an indication that there was a genuine commitment to 
trying to forge a new political reality within Iraq.
    Now, if that's not done by this government, then you can be 
in a position to say the consequences, from the congressional 
standpoint, would be putting a cap on the forces or reducing 
security assistance--because, in a sense, that was the crux of 
what the ISG was suggesting: ``Fulfill your political 
responsibilities and we support you; don't fulfill those 
political responsibilities, and, in a sense, we begin to reduce 
our support for you.'' So, it seems to me that this would be 
what Congress could do, and it fits what I see as the most 
desirable option, at this point, which is, you are forging a 
new political reality in Iraq. We are providing the means to 
help the Iraqis through that transition but they have to step 
up to the plate themselves.
    Now, what if they're not prepared to do that? Then there is 
an alternative. One alternative would be what is called, or 
referred to, as a ``soft partition.'' Senator Biden, Les Gelb, 
and Michael O'Hanlon have talked about it. In the past, those 
who were critics of a soft partition, or a Bosnia kind of 
option, were critics of it because they said, ``While in Iraq 
you can see areas in some places that are clearly distinct from 
a sectarian standpoint, there are plenty of areas in this 
mosaic that are mixed, and to produce a soft partition, you're 
going to have to have extensive ethnic cleansing, and it's 
going to be so ugly and so bloody that it simply is too painful 
to try to go down that path.'' The problem is that we're seeing 
about 100,000 Iraqis displaced a month, which means the reality 
of a soft partition is beginning to emerge. Prime Minister 
Maliki himself is now talking about having people allowed to go 
back to their homes. But I think people are voting with their 
feet, because they're forced to, the death squads are acting in 
a way that leaves them no choice and they're not likely to 
return. So, the question is whether the soft partition, the 
Bosnia approach, is an alternative if they're not prepared to 
forge the kind of political compromises that are necessary and 
that they haven't been willing to take up, up until this point.
    If this were something that was seen as a possibility, then 
you would look for ways to create financial incentives and 
safeguards to make it possible to carry this out. If that's not 
possible, it seems to me the other fallback is a containment 
strategy because we cannot stay in the midst of a civil war.
    Now, truth be told, a containment strategy sounds good, but 
it's really hard to execute, from a military standpoint. Again, 
I would say the implications of the ISG were moving in that 
direction, but the fact is a containment strategy is one that 
depends on what I would describe as a political/military 
approach. Here is where I would put the emphasis on a regional 
forum or a regional conference that includes the Iranians and 
the Syrians. I wouldn't single the Iranians and the Syrians 
out; I would treat them as neighbors. All the neighbors have 
something to contribute.
    If you had a regional conference, where you could really 
bring all the neighbors together and they would decide to play 
a constructive role, in theory, they could help with the first 
option, of trying to use their leverage to promote what would 
be a political set of understandings, a new national compact. 
I'm afraid, once again, that we see that all the neighbors are 
much more capable of agreeing on what they're afraid of in 
Iraq, and much less capable of agreeing on what they want for 
Iraq.
    So, even though I would go for this in a context of trying 
to forge a political set of understandings, I think it probably 
makes more sense in the context of a containment strategy 
because the neighbors themselves have reason to fear millions 
of refugees. I would say, the Iranians and the Saudis have an 
equal fear in this regard; they have a reason to fear that 
there is competition from each of the neighbors to go in to 
make sure that they don't lose out; they have a reason to fear 
that Iraq doesn't become a platform for terror against them; 
and they have a reason to fear that instability in Iraq doesn't 
suddenly create a kind of situation that radiates out and 
affects the whole region.
    So, it's conceivable to me that a containment strategy that 
is governed by a political/military approach could be an 
ultimate fallback.
    The point is, there aren't a lot of good options at this 
juncture and we face an unfortunate paradox. As bad as the 
situation is in Iraq today, the reality is, it isn't bad enough 
for most Iraqis who are in leadership positions and most of the 
neighbors to change their behavior. For those who say that the 
Saudis and the Jordanians aren't helping because they're held 
back by the Palestinian issue, in a sense I would say they're 
not helping because they don't want to promote Shia dominance 
within Iraq and they don't want to promote what they see as 
Iranian dominance in Iraq, but they will intervene if they 
think everything's going to fall apart.
    So, we're in this paradoxical situation where we help to 
keep the lid on--and we want to keep the lid on, because having 
it come off is actually, in many respects, unthinkable but, in 
keeping the lid on, we don't create enough discomfort so 
anybody on the inside or anybody on the outside is prepared to 
change their behavior.
    The trick for us is to find a way to create the impression 
that the lid could come off without having it come off and to 
position ourselves to try to create what will be a political 
outcome that manages the transition, but positions ourselves, 
if we can't do that, for a containment strategy which at least 
prevents the absolute worst from happening and doesn't keep us 
sucked into what would be a worsening civil war.
    Thank you.
    [The prepared statement of Ambassador Ross follows:]
              Prepared Statement by Ambassador Dennis Ross
    The challenge today in Iraq is internal. Iraq's leaders must find 
salvation by reaching across sectarian lines, not waiting for their 
neighbors or anyone else to take care of their internal adversaries or 
do for them what they are unwilling to do for themselves. While Iraq's 
neighbors certainly have influence on different sectarian groups within 
Iraq, their influence is limited and cannot be exercised in a way that 
will end the conflict. Iraq's neighbors may be able to contain the 
conflict, assuming they are prepared to work together, but they will 
not be able to resolve it.
    Nor can the United States resolve the conflict in Iraq. Surely, our 
troop presence gives us leverage. But it is more limited now than 
previously. Iraqi governmental or sectarian leaders view our troop 
presence almost exclusively in terms of how our forces can be used to 
serve their particular interests. Today, Sunnis seek our protection and 
our readiness to go after the Shia militias and their death squads. The 
Shias want our forces to go after the Sunni insurgents and leave theirs 
alone.
    President Bush's decision to provide a surge of American forces, 
principally for Baghdad, is designed to provide security in Iraq's 
largest city. However, in explaining his decision, the President 
explained that the surge was tied to an Iraqi security plan and to 
Prime Minister Maliki's commitments on a number of security, political, 
and economic issues. According to President Bush, Prime Minister Maliki 
has committed to:

        <bullet> Provide significant Iraqi forces to partner with ours 
        in Baghdad.
        <bullet> Assume security responsibility in all provinces by 
        November.
        <bullet> Ensure equal protection for Sunni as well as Shia 
        neighborhoods.
        <bullet> Pursue those who threaten security and stability 
        without political interference or regard for sectarian 
        concerns.
        <bullet> Adopt a new law for the sharing of oil revenues and 
        see it implemented.
        <bullet> Pass new legislation to correct the abuses on de-
        Baathification.
        <bullet> Guarantee a fair process for amending the 
        constitution.
        <bullet> Deliver a $10 billion fund for reconstruction and 
        assure that monies will also go to Sunni areas, including Anbar 
        province.
        <bullet> Empower localities by conducting provincial elections.

    Even if the Shia militias, particularly the Mahdi Army, are not 
likely to be seriously confronted any time soon, all of the 
aforementioned commitments would be very meaningful if carried out. The 
problem is that most Iraqis are unlikely to believe them. They remember 
only too well that Prime Minister Maliki's first big initiative was to 
provide security in Baghdad. He is, by my count, on his third national 
reconciliation plan. He will have to act on these commitments not 
merely talk about them.
    The irony is that, had he performed on his previous promises, we 
would not need a surge of American forces today. Unfortunately, if he 
fails to deliver on these commitments now--either because they are too 
hard or his heart isn't in them or the sectarian divide is simply too 
deep--it is difficult to see how the surge can make much difference.
    Inevitably we are driven back to what Iraqis have to be willing to 
do for themselves. If Maliki is willing to change course and now take 
hard steps and press his colleagues and counterparts to do likewise, 
the surge might be helpful in reinforcing new Iraqi behaviors and 
showing that there is a payoff for them, particularly in terms of 
increased security. But if the Sunnis remain emotionally unwilling to 
accept a subordinate position to the Shia and the Shia continue to act 
as if they are a majority who can lose power at any moment and can ill 
afford to accommodate any Sunni needs as a result, neither will adjust, 
and the surge will be one more failed tactic.
    The only tactic that even potentially has the chance of changing 
Iraqi behaviors at this point is one that demonstrates the cost of 
nonperformance. For the different Iraqi leaders, the current situation, 
while bad, is not intolerable. In any case, it is preferable to having 
to cross historic thresholds on reconciliation. Iraqi leaders have to 
see that they run the risk of everything unraveling because the United 
States won't keep the lid on much longer.
    In my experience, deep-seated conflicts are not transformed by 
simply offering inducements to the parties. Inducements, on their own, 
are never sufficient to confront history and mythology; on the 
contrary, it takes an unmistakable awareness of the daunting costs of 
continuing to hold out that finally motivates parties to cross historic 
thresholds and change their behavior. From this standpoint, I believe 
the surge only makes sense if President Bush has explicitly told Mr. 
Maliki in private that he has 6 months to act credibly on his 
commitments, and if he does not, we will begin to withdraw forces and 
we will stop the process of bolstering those Iraqi forces that Maliki 
most wants to receive arms.
    If President Bush has not conveyed such a warning in private and 
remains unwilling to create consequences for nonperformance, I would 
suggest that Congress identify which of the Maliki commitments are most 
critical for indicating a readiness on the part of the Iraqi government 
and sectarian leaders to transform themselves and actually forge a 
national compact. While taking on the militias and the Mahdi army might 
be the best measure, I would not create an impossible standard. 
Instead, I believe a number of other measures would offer better 
indicators of the Iraqi government's intent to make reconciliation a 
genuine priority: the sharing of oil revenues and the rehabilitation of 
former Ba'athi party members (and not just the adoption of laws which 
might never be implemented); the actual investment of monies in Sunni 
areas; and the provision of protection to Sunni neighborhoods.
    If these or other measures that Congress decides are important and 
reasonable are not met--and once again Maliki has promised but not 
delivered--then I would cap our forces, limit security assistance, and 
begin to develop a strategy for containing the conflict within Iraq. We 
cannot remain in the midst of a civil war and yet we don't want the 
conflict within Iraq, particularly if we are going to reduce our 
presence over time, to give rise to a wider war in which nearly all of 
Iraq's neighbors are intervening to protect their equities or those 
sectarian groups who are their natural partners.
    In circumstances where Iraqi leaders are not willing or able to 
forge national reconciliation, a Bosnia-model might offer a tolerable 
outcome for Iraq. Previously, the argument against any kind of soft 
partition or Bosnia-type outcome was that inevitably the areas of mixed 
Sunni-Shia populations were too numerous and population transfers would 
inevitably turn ugly and very bloody. I took those arguments seriously, 
but when 100,000 Iraqis are being displaced every month, population 
transfers are already taking place. Shia death squads by design or 
through retribution are forcing Sunnis out of mixed neighborhoods and 
Sunni insurgents and militias have done the same to Shia in Sunni 
dominated areas. Like it or not, the landscape of Iraq is changing and 
a soft partition is beginning to emerge and become a reality.
    The irony is that international forces might become far more 
available in a context in which they are safeguarding a soft partition 
or Bosnia-type outcome. To be sure, this should not be our first 
choice; however, desirable outcomes in Iraq appear less and less 
likely. One thing is for sure: we must begin to position ourselves to 
make the least bad choice in Iraq--namely, containment of a civil war--
possible if hopeful outcomes cannot be engineered.
    Whether positioning ourselves for a containment strategy, a Bosnia-
type approach or a new national compact in Iraq, Iraq's neighbors can 
play an important role. But for any of these different outcomes to 
materialize, they will have to behave differently. Iraq's Sunni 
neighbors have not provided the political or economic help that we have 
long sought. Saudi Arabia and Jordan, in particular, have much 
potential leverage with the Sunni tribes, but they have not exercised 
it. It is not because they have no stakes in Iraq; Saudi leaders are 
now contemplating the construction of a $12 billion security barrier 
along their border with Iraq to prevent terror and instability in Iraq 
from bleeding into their country. Jordan, which has already absorbed 
750,000 Iraqi refugees, cannot afford to absorb any more.
    It is also not because of the Palestinian problem. Some argue that 
the Saudis, the Gulf States, and Jordan cannot do more in Iraq because 
the sense of grievance over the Palestinians holds them back from 
appearing helpful to us in Iraq. That creates a linkage where none 
exists. The principal Sunni neighbors have not been helpful because 
they have no interest in promoting Shia dominance in Iraq. The Sunni-
Shia divide in the Middle East is becoming more acute. Look at the 
fixation in the Arab world--as expressed in the Arab media--on how 
Saddam Hussein was executed.
    But it is not only their reluctance to see Shia dominance in Iraq 
that produces their hesitancy. It is also their view that Iran will 
dominate a Shia-run Iraqi state. Were there a readiness on the part of 
the Maliki government to truly reach out to the Sunnis within Iraq, 
that could alter the behavior of the Saudis, Kuwaitis, Jordanians, and 
others.
    Of course, a complete convulsion within Iraq might also alter their 
behavior. None of Iraq's Sunni neighbors are likely to remain on the 
sidelines if there is an all-out civil war. They will not remain 
indifferent if the Sunni population's survival in Iraq is more 
fundamentally threatened, if there is the danger of millions of Iraqi 
refugees approaching their borders, or if Iran intervenes more openly 
in such a circumstance.
    The same is true for Iran and Syria. Presently each is content with 
an Iraq in which the United States is tied down, preoccupied, and less 
able, in their eyes, of threatening them. But like Iraq's other 
neighbors, they have little interest in an Iraq that begins to unravel. 
A convulsion in Iraq that might be precipitated by a rapid American 
withdrawal represents a danger for the Iranians and the Syrians. 
Neither wants to face huge streams of Iraqi refugees, instability that 
radiates out of Iraq, the need to compete with the Saudis and others 
who may intervene within Iraq, and the dangers of Iraq becoming a 
platform for terror against them.
    Much like the different sectarian groups within Iraq, all of Iraq's 
neighbors might be motivated to change their behavior by their 
perception of the costs of not doing so. They might cooperate in a 
containment strategy--with understandings worked out in a regional 
forum--if they became fearful that the United States was leaving and an 
all-out civil war would ensue. Ironically, so long as we keep the lid 
on in Iraq--or at least it is perceived that we will do so--none of 
Iraq's neighbors or its leaders will likely feel sufficient discomfort 
to change their behavior.
    Our challenge is to create the impression that the lid is going to 
come off without actually having it come off. That is a hard balance to 
strike. But that is also why it is important to establish measures on 
Iraqi performance and to create real consequences for nonperformance. I 
continue to believe that one way to impress both Iraqis and Iraq's 
neighbors that there is a consequence (and that the lid might come off) 
is to declare that we will negotiate a timetable for our withdrawal 
with the Iraqi government and Iraqi performance will influence how we 
approach the timing of our drawdown.
    Ultimately, our objective in Iraq is still to change the politics 
to the point that a transition to a new Iraq is possible without 
massive bloodshed and without an all-out civil war. In these 
circumstances, our presence would help to manage the transition and 
gradually be reduced. That objective may no longer be achievable--or if 
it is, changes in the behavior of Iraq's government and sectarian 
leaders must be revealed in the very near future. If it is clear that 
the objective is not achievable, we need to fall back either to a 
Bosnian model or a containment alternative. But none of these 
objectives from the most desirable to the least objectionable is likely 
to be achievable if Iraq's leaders and neighbors believe that the 
United States will continue to keep the lid on in Iraq. The trick is 
convincing them of that without making the worst outcome--an all-out 
civil war, with every neighbor intervening to ensure that their Sunni 
or Shia partner does not lose--a self-fulfilling prophecy.

    Chairman Levin. Ambassador Ross, thank you so much.
    General Keane?

 STATEMENT OF GEN JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                  OF STAFF, UNITED STATES ARMY

    General Keane. Senator Levin, Senator McCain, and members 
of the committee, it's good to be back here and see you all in 
this forum again.
    I feel privileged and honored to sit here next to Secretary 
Perry and Ambassador Ross, and to share the panel with them.
    We all agree that the situation in Iraq is grave; it's of 
crisis proportions, and time is running out for the Maliki 
government and also for ourselves and our allies.
    In my judgment, the lack of security is the central issue, 
and it subsumes all these other issues. It's that harsh reality 
that we have to come to grips with.
    The political strategy that we had, as ambitious as it was, 
has failed to stem this violence. Probably, if we admit it, 
it's based on our naiveness about the political culture in 
Iraq. The Iraqis really don't have the art of compromise as 
part of their culture. I think it's pretty surprising, as 
educated a society as they are, how many things they choose to 
resolve with violence. The level of violence that they tolerate 
in their society is pretty shocking to all of us. When you lose 
in Iraq, you lose forever, and revenge is very important. I 
think we underestimated the psychological and emotional impact 
of 35 years of Saddam Hussein's repression on that society. 
While everybody understands the historical differences between 
Shias and Sunnis, the applications of those differences in 
everyday life in Iraq, I think, is something we underestimated 
as well.
    So, in terms of not understanding the political culture, 
we've rushed to a representative government and we clearly do 
not have one. They have been incapable, because the Sunnis are 
truly not participating, of stopping this violence.
    I've been on the Defense Policy Board, so I've stayed 
involved, from an intelligence perspective and an operational 
and policy perspective, with what's taking place in Iraq, and 
I've made multiple trips. In the fall and winter of 2004, we 
first saw evidence that the Sunnis believed that they were 
winning this insurgency. This is in their discussions with each 
other, this is not bombastic conversations on Al Jazeera; this 
is eavesdropping on what they're doing and document 
exploitation. That clearly continued on into 2005 and 2006. 
That's very instructive, because, I totally agree with the 
Ambassador, we are here about changing behavior and if the 
Sunni insurgents believe that they are winning, we have to 
change that attitude and that behavior and show that they 
cannot win, that they cannot continue to achieve their 
political objectives through armed violence, which is where 
they are right now. They have every evidence to believe, as we 
sit here today, that they are winning, particularly with the 
erosion of political and moral will in our country and the 
great debate that's raging in our country, as well, in terms of 
our commitment to Iraq.
    We continuously talk about a political solution, and we 
want Maliki to do many of the eight things that the Ambassador 
laid out, but, quite frankly, even if we have an oil law, the 
Sunnis do not want to share the revenue. Even if we talk to 
them about reconciliation and amnesty, they're not coming to 
the table. That's the reality of it. We want to modify the de-
Baathification program, as we should, but right now, while they 
believe they're winning, they're not coming to that table. 
That's the harsh reality of what we're dealing with, with this 
insurgency.
    The military strategy has also failed; it failed in the 
sense that it did not stem the violence. We made a decision, in 
the summer of 2004. At the time, we thought it was an informed 
decision and, at the time, I was supporting that decision. The 
decision was to transition, as a centerpiece of our military 
strategy, to the Iraqi security forces and let them defeat the 
insurgency. We never had it as a mission, ever, for the United 
States military to defeat the insurgency. I think many people 
in Washington--I think maybe even the President of the United 
States--believed that we were defeating the insurgency; and 
thus, you hear talk of victory and winning, et cetera. But the 
military never had it as a mission to defeat the insurgency. 
The military made a conscious decision to give that mission to 
the Iraqi security forces and train them up to a level so that 
they could, in fact, defeat that insurgency. We have continued 
with that mission up until today.
    What is wrong with that is that each succeeding year, the 
enemy exploited the fact that we were never protecting the 
people. The only way you can reasonably defeat an insurgency is 
by protecting the people and we made a conscious decision not 
do that. They exploited that conscious decision so the level of 
violence in 2005 was considerably higher than it was in 2004, 
and, despite the fact that in 2005 we began discussions about 
withdrawing. The enemy exploited our vulnerabilities, because 
the Iraqis did not have the capability to protect the people, 
and we chose not to do it ourselves. Therefore, the people were 
vulnerable and you saw that exploitation. That's the harsh 
reality of what took place in 2004 and, of course, in 2005.
    That doesn't mean that we didn't have success with the 
Iraqi security forces. I think we have. Quite frankly, we 
started to have some success when General Petraeus got hold of 
this thing and made some remarkable success in a relatively 
short period of time. It should be a credit to the Iraqis and 
also to ourselves in what we did in making progress. But the 
problem is that the level of violence continued to rise beyond 
the capacity level of the Iraqi security forces' capability to 
reach that level of violence so they could control it. We have 
been chasing that ever since. That is why that strategy, in 
fact, has failed, because we have run out of time to wait for 
the Iraqi security forces to get to that level, because the 
violence is too high for them to cope with. That's the harsh 
reality of this military strategy and what has been wrong with 
it. When you look back on it, we probably should have made the 
adjustment in 2005, when we realized that the enemy was 
exploiting us and exploiting our vulnerabilities.
    I don't like admitting it, but we have consistently 
underestimated this enemy from 2003 to the present. That's the 
harsh reality of it and we have to come to grips with that.
    So we find ourselves, then, with a political strategy that 
has not been able to stem the violence and a military strategy 
that has not been able to do that. We have not been able to 
protect the Sunnis and the Shias, and Maliki has no leverage. 
He has absolutely no leverage with the Shia militias 
whatsoever. In fairness to the Shia militias, despite the 
horrific nature of the killing that they are doing and despite 
the political advantages that their leaders are seeking for 
themselves in advantaging their position and using the level of 
violence against their people as excuses to gain that political 
leverage, despite all of that, the harsh reality there is that 
they waited 2\1/2\ years for the United States or the Iraqi 
security forces to protect them. The fact is, we did not. Now 
we have this high level of sectarian violence, which frustrates 
all of us. But that is the tangible explanation of what has 
happened. It's also the reason why Maliki has no leverage with 
them, because he has not been able to protect them. They all 
know that he cannot. We can flog Maliki all we want, but the 
harsh reality of those militia leaders is they know that the 
Iraqi security forces don't have the capability to protect 
them. They know what their capabilities are. That's why Maliki 
has no leverage.
    So, we have a political strategy that hasn't worked. We 
have a military strategy that hasn't worked, as well. This is a 
difficult, challenging, complex problem, but it is a human 
problem. But I think if you break it down into some of the 
components and truly understand it, you can begin to resolve 
some of this. I've looked at a number of alternative issues, 
just like you have, and I looked seriously at what the ISG 
proposed and what others have proposed, and, while there's 
merit in a lot of the recommendations here and merit in what 
the two gentlemen next to me have said, the problem is, you 
have to deal with the central issue; and the central issue, 
that is ignored in many of these recommendations, is the simple 
reality that the overarching problem is security, and we have 
to change that. We have to gain control of the situation, and 
the only way you're going to be able to do that is to apply 
some force to gain a political solution. We all want a 
political solution but I would suggest to you that the 
conditions are not there to get a political solution unless we 
change the security situation. That is why, I believe, an 
additional use of force here to obtain that security situation 
by protecting the people, finally doing the mission that, in 
hindsight, we should have done from the beginning, offers us an 
opportunity. I believe that opportunity is certainly a 
political solution.
    Now, Iraq really is a regional problem and I think we 
should approach it as a regional issue. It has global 
implications for us and it should be treated as such. I agree 
with everybody, in terms of what the consequences of failure 
are. They are absolutely unacceptable--what they mean in the 
region. Ken Pollack, from the Brookings Institute, made a 
presentation that I listened to. He did a historical analysis 
of civil wars and what the conditions were and tried to make an 
analogy to the situation in Iraq. His conclusion is that the 
situation in Iraq is ripe for a spillover regional civil war. 
Certainly none of us want that. There are also other 
implications of Iranian hegemony and our own credibility in the 
world, and the al Qaeda sanctuary. We all understand how 
difficult this situation is if we let Iraq spin out of control.
    In doing something about it, in my judgment, it has to be a 
combination of political, economic, and diplomatic initiatives, 
many of which have been discussed at this table already, and it 
has to be a comprehensive strategy. I have concerns about the 
political, economic, and diplomatic initiatives. I'm not 
certain we have enough visibility in what they all are, and, 
given our track record, and using the interagency effort in 
Iraq, and our diplomatic initiatives, I share the frustration 
that many military leaders have, that much of this effort has 
been far too disproportionately military, and the other 
elements of national power by our Government have not been 
nearly as effective. I'm not confident, sitting here in front 
of you today, that, even with a new strategy, that part of it 
is going to be effective. I'm not sure, because of the track 
record that we've had for the last 3-plus years. The 
interagency effort has not been effective and numerous people 
have talked about it and spoken about it more eloquently than 
I, but I do have an overriding concern about it.
    In terms of the military initiative, as you've been told, 
it is a fundamental change in mission. Yes, we are going back 
to Baghdad, and that has a painfully familiar ring to it, 
particularly in view of the fact that we've failed there twice 
before. But you have to understand why we failed. We failed 
because we never applied the correct mission and we never 
applied the correct force level as well. We're also going back 
to al Anbar province, obviously, to do pretty much what we have 
been doing, but at least increase the level of force so that 
the sanctuary of al Qaeda there and the base of the Sunni 
insurgency cannot undermine the operation in Baghdad. That's 
why that supporting operation is taking place.
    But the military mission has two major objectives. The 
first one is to obtain a political solution. It is to take the 
people away from the Sunni insurgency so that they can no 
longer exploit them and to begin to move the people and connect 
them to local officials and also, indirectly, to a central 
government for the first time--by protecting Shias and Sunnis 
in doing that. By doing that, we begin to move the attitude and 
behavior of the Sunnis, where they can be conditioned to come 
to a reconciliation table, because they believe that armed 
violence will not achieve their political objective.
    So, that is very important, in terms of why we're doing 
this military operation. It is to seek a political objective. 
By protecting the Shias, it also gives Maliki the leverage that 
he does not have now to deal with the militia leaders to stop 
their offensive operations. I believe, at the same time, we can 
target some of these militia leaders who are responsible for 
these horrific deaths and horrific assassinations. You can see 
some of that targeting going on right now. Obviously, we're not 
moving into Sadr City in any wholesale fashion, but we are 
targeting certain leaders, because we know where they are, and 
we certainly know what they've been doing, and we should be 
doing that.
    The second part of the military mission is to buy time for 
the growth and development of the Iraqi security forces, bring 
the level of violence down to a level that permits their 
capacity levels, their organization, their skill, and their 
leadership to cope with it. We need time to be able to achieve 
that.
    Those are the two overriding objectives of what the 
military initiative is about. So, from my perspective, the 
underlying reality is, is that the security issue has subsumed 
all other issues, and, by obtaining security in Baghdad, which 
is the center of gravity, mostly because of what the enemy has 
chosen, we can begin to make political, economic, and social 
progress.
    The economic package is very important. The Ambassador 
mentioned it, and it's something, also, that senior military 
leaders worry about, because if the economic package shows up, 
and it's free of bureaucracy and red tape and the rest of it so 
that we can get the money into the hands of the people and 
start making a difference in improving the quality of their 
life experience, then that will also mitigate the success of 
the military initiative.
    But we will also be challenged by a dual chain of command 
that has just been announced in Iraq. By that, I mean that the 
Iraqis are in the lead. I think it's unfortunate that with the 
most decisive military operation we're going to conduct since 
the invasion in 2003, we've decided this time, to put the 
Iraqis in the lead, which sets up a dual chain of command on 
the streets of Iraq for U.S. forces and Iraqis. From a military 
perspective, that violates a very important principle called 
``unity of command.'' What is wrong with that is that it 
doesn't get you unity of effort.
    Can we mitigate against that? Yes, certainly. There are 
ways to do it with joint headquarters and liaison teams, but 
it'll be very frustrating for our people on the streets doing 
that. When a platoon or company of U.S. forces and a platoon or 
company of Iraqi forces, both involved in action together, are 
reporting to different chains of command, it makes no sense to 
you and makes no sense to me, but that's exactly what we're 
going to do. That'll be a problem for General Petraeus and his 
commanders to sort out. Hopefully, they'll be able to get that 
resolved, at least at the tactical level.
    We need all five of these brigades and I don't believe they 
should be held hostage by benchmarks by the Maliki government. 
I think that's a strategic mistake to do that. If this military 
operation is going to succeed, it has to have the right level 
of force to be able to get in there with Iraqis and protect the 
people.
    Listen, war is a test of wills when you really get down to 
it, and the psychological impact of this is important. We 
already have started to see some handwringing going on among 
the Sunnis and the Shias, based on this level of force. It 
looks like we're serious. ``It looks like the United States is 
really going to make a difference this time, we have to rethink 
what we're doing.'' I don't want to get Pollyannaish about 
this, but it's interesting to see that kind of reaction. It's a 
psychological reaction to the level of commitment. So, the 
level of force is important in practical terms on the streets 
of Iraq, but it's important in terms of the message we're 
sending to them about our intentions and how serious those 
intentions are.
    We're going to make some progress initially, and I would 
not take that progress that we make to start thinking about 
withdrawing our forces or start changing the military mission. 
We should not do that. This mission--it'll take some time to 
secure Baghdad, most of 2007--it'll take them some time to 
secure the population in al Anbar, which we're not doing. 
That'll take well into 2008, including some of the other 
provinces where conflict is being contested. So, the operation 
will take some time, and I would ask you to have some patience 
and let this operation pan out in front of you. You'll know 
whether it's making some progress or not, that'll be obvious to 
all of us. You have a commander in General Petraeus who's going 
to come in here and tell you what he thinks about it anyway. 
You already know that; he's told you that. He'll tell you 
whether this thing is working or not, and, if it's not working, 
why it's not, and can we still do something about it.
    But I believe this military initiative can work. I think it 
can work and set up some political solutions for us that we're 
all seeking. It is a definable mission. It's achievable, and 
it's also measurable.
    We also have a new team, one that believes in the mission, 
understands what the problems were in the past, and knows why 
we have failed in the past. That new military team is General 
Odierno, the operational commander on the ground--General 
Petraeus will sit on top of him, as the Iraqi commander--and 
Admiral Fallon, who will be the new Central Command commander. 
We also have confidence in the new Ambassador, in terms of his 
reputation and his experience. I think this bodes well for us. 
It is a new strategy and we have a new team to execute it, with 
the passion to get it done. There are no guarantees in this 
war. There never are. But this military initiative has a good 
chance to work, and certainly to be able to assist us in 
getting the political solution we want and desire for the 
Iraqis and their people, and for our own national interests.
    I look forward to your questions. Thank you.
    Chairman Levin. General, thank you very much.
    Dr. Perry, your testimony purports that you had 
conversations, as a member of the ISG, with the two generals on 
the ground there, and that both generals said that it would not 
increase the likelihood of success if they had another three to 
five American brigades. Was this a military success they were 
talking about, security, or was this military and political 
success combined?
    Dr. Perry. In all of our conversations with General Casey 
and General Chiarelli, they emphasized the importance of the 
political, as well as military. They always thought of it as a 
package.
    Chairman Levin. In other words, even five additional 
brigades would not help achieve either or both?
    Dr. Perry. That was the view that they expressed both in 
the group and to one-on-one discussions that I had with both 
General Casey and General Chiarelli.
    Chairman Levin. All right. That's your own conclusion and 
the ISG's conclusion?
    Dr. Perry. That's our conclusion and that conclusion was 
certainly fortified by what we heard from those two generals, 
not only from the fact that they held that view, but for 
reasons they gave for holding the view we found compelling.
    Chairman Levin. Now, the argument the President made the 
other night is he has a new strategy, why not give it a chance? 
What's your comment on that?
    Dr. Perry. I think time is running out in Iraq. We proposed 
a strategy in the ISG. We said, ``Why not give that a chance?'' 
So there are two different strategies being considered here. I 
must say, in all candor, Senator Levin, I'm not sure any 
strategy, at this stage, is capable of stopping the civil war. 
But I do believe the importance of doing that is so great that 
we should make every effort to try to do so. But I firmly 
believe that the strategy outlined in the ISG report has a 
better chance of doing that.
    Chairman Levin. Now, Ambassador Ross, you've heard the 
President's decision that he's going to have five additional 
brigades go to Iraq. Do you think that's a successful strategy?
    Ambassador Ross. I think the number of brigades, at this 
point, is basically less relevant, in some ways. I understand 
what General Keane was saying about, ``You need security 
first,'' but I'm looking for some manifestations that there's a 
political will to change behavior on the side of the Iraqis. 
The fact is, we are 3\3/4\ years into this war now, and, at 
this juncture, I'm afraid what's happened is that the sectarian 
divide has deepened. I look at what happened with the execution 
of Saddam Hussein. Here was a moment for Prime Minister Maliki 
to send a signal to the Sunnis that, ``We are Iraqis now. We 
all suffered. We were all brutalized. That was the past. We're 
going to write a new chapter.'' He could have sought to reach 
out. He didn't seek to reach out.
    So, for me, the most important measures, at this point are, 
what are the signs that there is a genuine decision being made 
to act? I don't doubt, by the way, that Maliki has real 
limitations, but the fact is, we need to see some unmistakable 
manifestation that there's a new political will to match the 
will that we're now offering. The surge can work only in the 
context that you see some change in political behavior.
    Chairman Levin. The argument is that you're not going to 
see a change in political behavior unless there is security in 
Baghdad. That's the argument. Putting aside for a moment 
whether or not five brigades will achieve security in Baghdad, 
there's obviously a difference of opinion on that. You've 
talked to generals there in Baghdad that don't think it'll make 
a difference, Dr. Perry. General Keane and others think it will 
make a difference. Obviously, the new commander going there 
thinks it will make a difference, too. Lay that issue aside for 
the moment. Is the reason they have not reached political 
settlement because of a lack of security in Baghdad?
    Dr. Perry?
    Dr. Perry. I think they haven't reached a political 
settlement because the political group in power, the Shia, do 
not want to give up that power; they're not interested in 
political sharing and I understand why they are not.
    So I believe that, in order for them to be willing to share 
power, there have to be substantial incentives for them to do 
it. I thought it was very important for our Government to give 
both negative and positive incentives to the Iraqi Government 
to make them take the actions to do this very difficult task. 
They don't want to do it, and it's very politically difficult 
to do it, so they keep putting it off, even though they have, 
in fact, committed to do so.
    Chairman Levin. But the argument is that they're not going 
to be able to do that while there is political insecurity and 
chaos in Baghdad. Is that the reason they haven't reached a 
political accommodation, in your judgment?
    Dr. Perry. That's, of course, a chicken-and-egg problem. I 
think the lack of political accommodation has been a fuel for 
the military conflict and sectarian violence we're seeing 
today.
    Chairman Levin. Now, on that chicken-and-egg problem, 
Ambassador Ross, is the lack of security in Baghdad the reason 
they have not reached a political settlement?
    Ambassador Ross. I think it is a factor. It's inescapable 
as a factor. But I think you're also now dealing with a legacy. 
The question is, do they want to share power? I don't see a lot 
of signs that they want to share power. One of the important 
factors here is that Maliki has made a series of promises. He's 
made promises before. We should try to hold him to the promises 
and make those promises measures. If the argument is that 
security in Baghdad is going to make a difference, then we 
ought to see him acting on the promises he's made.
    Chairman Levin. We are in the middle of a vote now in the 
Senate, and we're going to have, by the way, an 8-minute round 
here--I should have announced that--on the usual early-bird 
basis.
    Ambassador Ross, what about the argument, ``Give this a 
chance to work?''
    Ambassador Ross. I'm sympathetic to the idea of ``give it a 
chance to work,'' but, again, I think, given where we are at 
this point, I tend to focus much more on, ``what are the 
demonstrations that there is a change in behavior now on the 
part of Iraqis?'' If there's no change in behavior on the part 
of the Iraqis, it doesn't matter how much time you give them. 
If there is a change in behavior on the part of Iraqis, then 
actually you can manage a transition. So, I'm looking for signs 
that there's a change in behavior. At this point, I see some 
symbols; I'm not sure I see real signs.
    Chairman Levin. Now, the President has said that the 
presence of the United States will be in Iraq so long as the 
Government of Iraq asks us to be in Iraq. That sounds like, to 
me, an open-ended commitment, not putting the kind of pressure 
on the Government of Iraq that at least the two of you have 
talked about. There are no consequences, as you've described, 
in the statement that the President has made that we'll be 
there as long as the government asks us to be. There's no 
conditionality, as I believe one of you has said. Dr. Perry, I 
think you used that word. Do you believe the position of 
President Bush contributes to the kind of pressure which you 
both describe, which you believe is essential to the Iraqis 
coming up with a political settlement?
    Dr. Perry. I think that's the wrong statement to make. I do 
believe the President is backing away from that statement. I 
think his more recent statement, that we will not make an open-
ended commitment in Iraq--that we cannot make an open-ended 
commitment--is tending to walk away from that statement.
    Chairman Levin. So, you think he intends to walk away 
from----
    Dr. Perry. I think he intends to walk away, but I'd like 
him to be more explicit in the conditionality.
    Chairman Levin. All right. Do you believe, Ambassador Ross, 
that that statement contributes to the kind of pressure which 
you've described as being necessary?
    Ambassador Ross. I do not.
    Chairman Levin. All right.
    Now, in terms of consequences, the President has said that, 
``The consequences of failure are that extremists would grow in 
strength, gain new recruits, they'd be in a better position to 
topple moderate governments, create chaos in the region, and 
use oil revenues to fund their ambitions. Iran would be 
emboldened in its pursuit of nuclear weapons. Our enemies would 
have a safe haven from which to plan and launch attacks on the 
American people.'' That's the description. Those are the 
consequences of failure. Do you agree, Dr. Perry, that our goal 
should be to maximize the chances of success in Iraq?
    Dr. Perry. I agree with that, but I think we need some 
discussion about what ``success'' means.
    Chairman Levin. But, however you define ``success,'' do you 
agree that that should be our goal in Iraq and that the plan 
that you've outlined is the best way of maximizing chances of 
success, however you define it, in Iraq?
    Dr. Perry. I would say that our goal should be to maximize 
U.S. security, but one element of that security is to have some 
success in Iraq.
    Chairman Levin. All right. Would you say that the plan that 
you've outlined is the best way of maximizing the chances of 
U.S. security being increased?
    Dr. Perry. I think it has a better probability of doing 
that, yes.
    Chairman Levin. Ambassador Ross, would you agree that we 
should maximize the chances of success in Iraq?
    Ambassador Ross. Absolutely.
    Chairman Levin. Would you agree that increasing the 
military presence by adding troops is not the way to maximize 
chances of success?
    Ambassador Ross. I think it only maximizes success if it's 
tied to a set of consequences.
    Chairman Levin. Consequences for the Iraqis? Expand what 
you mean.
    Ambassador Ross. The consequences that, if they don't 
perform on what they themselves have promised, that we should 
consider then, in fact, moving in a different direction.
    Chairman Levin. What would that direction be?
    Ambassador Ross. That direction would be capping forces. 
That direction would be redeploying forces. That direction 
would be making the kind of assistance we provide contingent on 
whether, in fact, they're prepared to do what they say they're 
prepared to do.
    I just want to add one point here. I wouldn't create 
impossible standards for them, because the truth is, we don't 
want to see a convulsion in Iraq. That isn't in our interest. 
That would be, I think, quite disastrous. But a measure of 
where they make a genuine effort, even if they can't fully 
succeed at it, we can ourselves see how difficult it is, at 
times, to succeed. So, don't create standards that no one could 
meet. But we ought to hold them to what they say they're going 
to do. I don't want to use this necessarily as an analogy, but 
we used to have a measure with the Palestinians on security. It 
was 100 percent effort, it wasn't 100 percent success. Let's 
see 100 percent effort. I haven't seen anything approaching 100 
percent effort.
    Chairman Levin. Should that be made explicit to them?
    Ambassador Ross. Absolutely.
    Chairman Levin. Has it been, do you know?
    Ambassador Ross. I don't believe so.
    Chairman Levin. Finally, General Keane, you said that it is 
``unfortunate'' that there will not be unity of command of 
American forces in Baghdad. You said it will be 
``frustrating.'' Those are the two words that you've used 
because General Petraeus is going to Baghdad with this dual-
command structure. In addition to being ``unfortunate'' and 
``frustrating,'' is it also ``dangerous'' for our troops, 
unless there is unity of command?
    General Keane. Yes, it is more dangerous. What'll happen 
is, our commanders will mitigate that danger by establishing 
joint command posts with the Iraqis and maximize the number of 
liaison teams. You can work around it, but usually when we do 
an autopsy on why operations don't succeed, many times this 
unity-of-command issue is one of the reasons why they do not 
succeed. So, it's a fundamental precept and it's unfortunate we 
have to deal with it. General Petraeus has the skill sets with 
General Odierno to mitigate it quite a bit, I believe, but, 
nonetheless, it is a problem and we shouldn't try to hide it. 
It is a problem.
    Chairman Levin. Even if you mitigate it, there's still 
increased danger to our troops.
    General Keane. Sure. As I said, we can mitigate it, but 
there'll be more danger to the troops. Certainly, when you have 
Iraqis on the same street with them responding to another 
authority, troops can be moved around at will if they want to 
be, and the 60 or 70 people that were going to help you do this 
task all of a sudden are gone, so you have more exposure. We 
can come up with all sorts of hypothetical situations to 
characterize that danger, but yes.
    Chairman Levin. Okay, we're going to adjourn after my final 
question unless someone comes back here who's already voted.
    The press reported that when Prime Minister Maliki met with 
President Bush in Jordan in November, he proposed that U.S. 
troops withdraw to the outskirts of Baghdad and let Iraqis take 
over security. He allegedly said that he did not want any more 
U.S. troops at all; he just wanted more authority over Iraqi 
troops. Have any of you heard that that is the case? If so, 
what is your reaction to the press report that Maliki allegedly 
said that he doesn't want U.S. troops to leave, but he did not 
want more U.S. troops? Do you have a reaction to it? Have you 
read those reports?
    Dr. Perry. Mr. Chairman, all I know on that subject is what 
I read in the newspaper.
    Chairman Levin. Do you have a reaction to Maliki saying he 
wants no additional U.S. troops, if he said that?
    Dr. Perry. If he said that, it was similar, probably, from 
the same point of view that the American generals were saying, 
that it puts an American face on the war, and, in that point of 
view, it contributes to the political problems in the country.
    I must say, though, I do not believe the Iraqi army then, 
or even now, is capable, by itself, of taking over the security 
of Baghdad.
    Chairman Levin. Ambassador Ross?
    Ambassador Ross. I see it more, again, in terms of wanting 
to unleash what would be Shia forces against the Sunnis within 
Baghdad.
    Chairman Levin. General Keane?
    General Keane. I think it's well known that, ever since 
Prime Minister Maliki assumed his duties, he's been pressing to 
gain control of his own military. I think it's a badge of honor 
for them and I think he feels some pressure within the 
political constituency. But I have not heard that recent 
statement at all. I know that there's lots of collaboration 
that's taking place between Maliki's military leaders and our 
military leaders, in terms of how to execute this upcoming 
operation.
    Chairman Levin. Thank you.
    Okay, Senator Reed will preside.
    Senator Reed [presiding]. First let me thank you gentlemen, 
not only for your testimony this morning, but for your 
extraordinary service to the Nation in so many different ways. 
Thank you very much.
    General Keane, you said in your remarks that we made a 
conscious decision not to protect the population of Iraq. Who 
made that conscious decision?
    General Keane. That was a strategy that was put together in 
the summer of 2004 by General Casey, acceded to by General 
Abizaid and also Secretary Rumsfeld. It became the campaign 
plan for Iraq and I don't know how it made its way to approval. 
But, logically, I'm sure General Casey made the proposal to 
General Abizaid and he agreed to it as did Secretary Rumsfeld 
and it became, in a sense, our military strategy.
    Senator Reed. You suggest that the President might not have 
been aware of that strategy?
    General Keane. I don't know. It's always been a mystery to 
me, whether people really understand what we are doing in Iraq, 
and, just as important, what we are not doing? That's why I was 
suggesting that there may be, even, leaders in our Government 
that don't understand this important subtlety that's taking 
place, that we never took on the mission to defeat the 
insurgency with our coalition allies; we had given that mission 
to the Iraqis so that they could do it, at some point, when 
they had the capacity to do it.
    Senator Reed. One of the points you mentioned was the lack 
of unity of command, which is a concern that I share, and many 
others share. But there's another significant issue, in terms 
of doctrine, and that is sufficient forces. You're well aware 
that General Petraeus labored for many months with his 
counterinsurgency manual which would call for a minimum force 
of approximately 120,000 effective combat troops in Iraq. By my 
calculation, based on General Pace's testimony, we'll have 
about 85,000, but 55,000 of those troops are Iraqi forces, 
which, I presume, are not all combat effective. Will we, 6 
months or 6 years from now, look back, as we are looking back 
at 2003 and 2004, and say we didn't have enough forces on the 
ground, regardless of the strategy?
    General Keane. Yes, that's a great question, Senator. I've 
looked at this, myself. The operation is going to begin in the 
mixed Shia/Sunni neighborhoods east of the Tigris and west of 
the Tigris. The population base there is about 1.8 million. The 
operation will focus there, because that's where most of the 
violence is and it also gives the military operation the 
opportunity to demonstrate evenhandedness to both the Sunnis 
and the Shias.
    In the Sunni enclaves to the west, which come close to 
about 2 million in population, there's not that much violence. 
There would be a minimum amount of military presence and 
certainly a strong economic package because they deserve to get 
that just as much as anybody else does. Then you have the other 
2 million, which are Sadr City, to the east. It occurs to me 
that if we're able to protect the Shias and the Sunnis 
evenhandedly and do that for a number of weeks or months, for 
the first time, Maliki has a political instrument and leverage 
with the Shia militias, demonstrating that we can, in fact, 
protect their people--and they'll know whether we're 
effectively doing it or not--so that we, hopefully, can resolve 
the situation in Sadr City politically. At least it offers us 
the opportunity to try that. If we cannot resolve it 
politically and we have to contest the Shia militias because 
they're continuing to stay on the offense, then we would have 
to go into Sadr City. It's certainly militarily feasible to 
achieve our objectives there but I don't think it's desirable 
to do it if we can solve it politically.
    All that said, you're not dealing with a population of 6 
million, so you don't need the 120,000 to do that. You're 
dealing with a population, possibly, of 1.8 million, primarily 
with the other possibility that you'll have to deal with the 
additional 2 million in Sadr City. So the force level is 
appropriate for what you're dealing with in Baghdad.
    Senator Reed. You can refresh my memory, but I believe your 
proposal with Mr. Kagan was a minimum of 30,000?
    General Keane. Right. We were sizing our units differently. 
We were adding all the support forces into the brigades, and I 
think our number of brigades for Baghdad were the same, to be 
frank about it, and there is a difference in the size of them. 
We had also recommended two Marine regiments for al Anbar, and 
the military mission is two Marine battalions. So that is the 
difference in the units.
    Senator Reed. I think you've raised another issue which 
should be of concern; you were also counting support 
personnel--enablers. The critical issue here, and I addressed 
it to General Petraeus, is, where the translators are coming 
from, the civil affairs officers, and the noncombatants. That 
is a constrained resource in our military. Without them--
particularly in this type of operation, where you disperse 
small units into neighborhoods--these units are marginally 
effective. Frankly, General Petraeus--I was surprised--said he 
really doesn't have a handle on that today, that General 
Odierno is working on it. But without these enablers--and I'm 
just talking now about the military--operations of this nature 
are very difficult to perform.
    General Keane. There are a number of conditions, I think, 
for any military operation to succeed at the tactical, 
operational, or strategic level--certain conditions that should 
be in place to help with success. You've put your finger on one 
of them. Detention facilities are another one. At the 
operational level they are wholly inadequate and detention is 
going to go up. Also, how we control the population--these are 
issues out there. So there are a number of these kinds of 
things that should be in place.
    Now, General Odierno is aware of them, he's put them down 
in writing. He's told people what they are. With some of them, 
I believe, there are at least indications from him that those 
conditions are being met and some of them are still to be 
resolved. But it's an important issue. What are the necessary 
conditions to have tactical, operational, and strategic success 
for a military operation? What you've identified is certainly 
very important.
    Senator Reed. General, your opinion is very valued by me, 
obviously, by all of us on this committee, but I just have this 
nagging fear that, once again, we're defining the mission to 
fit the force, rather than the force to fit the real mission. 
We're ignoring some critical military elements we have to have 
in place, like translators and civil affairs officers.
    I will move to Ambassador Ross, but you've also expressed 
the deep concern I've had. It is that DOD shows up, but nobody 
else shows up.
    Ambassador Ross, you've been in the State Department. 
You've seen the interplay of military forces and diplomatic 
forces. Do you think that there's a significant change in the 
culture and the commitment of non-Defense departments here that 
will vigorously and actively support, with personnel on the 
ground, what has to be done?
    Ambassador Ross. I would like to be able to say yes. I wish 
I could say yes. At this point, I don't see it.
    Senator Reed. I don't want to put words in your mouth, 
General Keane, but you've said that this is a multifaceted 
approach and that it could fail if one leg of the stool is not 
there--and it could be military, because we don't have the 
enablers, it could be economic or political, because we don't 
have the resources. I'm not talking about General Odierno and 
General Crocker, I'm talking about agricultural experts, legal 
experts, people who will set up judicial systems--if they're 
not there--and they have not been there for 3 years now. This 
20,000, regardless of the politics, makes a headline, but 
doesn't make an impact. I'm deeply concerned that we can do 
this.
    Dr. Perry, my time is expired, but do you share the concern 
about our ability to marshal not just additional military 
forces but additional diplomatic and governmental expertise 
from our Government?
    Dr. Perry. Absolutely.
    Senator Reed. I think, General Keane, you'll agree that we 
have never been able to fill up the provincial reconstruction 
teams (PRTs), and we've never been able to put State Department 
officials down at the local level in sufficient numbers. We've 
never been able to do these things and I don't see anything 
that this administration is doing to fix that.
    General Keane. I think those are real concerns and 
definitely challenges in front of us. The PRTs are going to go 
down to brigade-level, now, and I think that's a very good 
plan. They'll be down on the street, they'll have protection, 
and I think they'll be considerably more effective than what 
they have been. But that means they have to be properly manned. 
We need the numbers, and they need to have access to resources 
to make a difference. That's all, a check that has to be 
issued. It is based on the track record that I raised a 
concern, because, in the past, we haven't been successful at 
it.
    Senator Reed. Those checks have bounced.
    General Keane. Yes.
    Senator Reed. Senator Warner.
    Thank you.
    Senator Warner. Gentlemen, may I say, first, thank you for 
your long public service, each of you, and your willingness, 
even though you're not in an official capacity today, to remain 
a viable and vibrant part of the infrastructure that does come 
forward and help our Government, irrespective of who might be 
President or who may be in the Congress. It's been valuable for 
us.
    I yield to you, Senator McCain.
    Senator McCain. Since you have already begun, please go 
ahead.
    Senator Warner. All right, thank you very much.
    Now, I'd like to start with you, General. I've had the 
privilege of knowing you for some time. I've had the privilege 
of serving on this committee for many years and have gotten to 
know many fine military officers. I have the highest respect 
for General Abizaid. I have a respect for General Casey. You 
said with a great deal of enthusiasm--and I think I copied it 
down clearly: ``We have a new team. They believe in the 
mission.'' I remain of the view that both of those 
distinguished officers believed in their mission and believed 
they were doing the right thing, unless Secretary Rumsfeld had 
directed them to take actions and to follow a mission which was 
inconsistent with their own professional judgment. I would have 
to think, if that were the case, that they would have gone to 
the Secretary and said to him, ``We do not think this mission 
is working. We should change it.'' Can you amplify on your 
statement, ``new team who believe,'' in contrast to those two 
officers and their performance?
    General Keane. Certainly. It's an awkward situation, 
certainly, to talk about my friends here in full public view.
    Senator Warner. It has to be done, frankly.
    General Keane. I understand, and I'm going to do it.
    Senator Warner. This committee sits, year after year, 
hearing after hearing, and we have to place a high degree of 
confidence in our senior military leaders as we formulate our 
own decisions.
    General Keane. Right.
    Senator Warner. So, let's have it. I think the sooner we 
get it out, the sooner that the American people can better 
understand this complicated situation.
    General Keane. General Casey and General Abizaid believed 
very strongly in that strategy. The military strategy was to 
transition to the Iraqi security forces, to get them to a level 
where they can stand on their own, and then they would be able 
to prosecute a counterinsurgency. They believe in that 
strategy, I think, probably right up to this day. But I don't 
want to speak to them, in terms of what their views are right 
now, because I'm not sure what they are. But I do know what 
their views have been, and certainly, they were committed to 
that strategy. They formulated it. I believe that there was 
compelling evidence, beginning in 2005 and certainly in 2006, 
that the strategy was not working, and they did not change it. 
I think it is compelling, in terms of what the facts are, that 
we probably should have made some adjustment to that strategy. 
We have not.
    What I meant by my comments about the new team is, well, 
there is a new strategy here. We can argue how much new it is. 
I realize that. But from a military perspective, it is a change 
of mission, and there's no denying that. We have new leaders, 
who are going in to do that mission, and believe very strongly 
in the mission. That's what I was suggesting. In General 
Petraeus, we have probably the foremost military leader who 
understands irregular warfare and counterinsurgency--proven 
practices and techniques--to execute that mission. So that's 
where my comments were coming from.
    Senator Warner. All right. Let's talk about it. It has been 
said here, and I agree, that war is a test of wills. We have 
trained up several hundred thousand Iraqi military. By my 
understanding, the net figure is about 188,000. Do you agree 
that it is somewhere in that amount?
    General Keane. In terms of the Iraqi military, I think it's 
a little bit less than that, but 150,000----
    Senator Warner. Give or take.
    General Keane. Yes.
    Senator Warner. Now, they're dispersed and serving in a 
number of areas in Iraq, correct?
    General Keane. Yes.
    Senator Warner. Why couldn't this mission--call it the 
third Baghdad surge--have been composed almost entirely of 
Iraqi forces with some embedding on our area, some support 
continuing, and then our forces, if we bring new ones into the 
country, could go into those geographic areas where their Iraqi 
forces have been moved to Baghdad? Was that ever a 
consideration?
    General Keane. Yes. The answer to that is yes, it has been. 
We relied on Iraqi security forces twice before, in Baghdad, in 
those previous operations. Both of those operations failed. 
They failed primarily because we relied too heavily on Iraqi 
security forces and we did not have enough U.S. forces to be 
able to deal with it. So, that's number one. Senator, we've 
made some real progress with the Iraqis, in terms of the 
training programs that we have for their noncommissioned 
officers (NCOs), their officers, and their young soldiers. We 
put them in units together and give them operational experience 
with advisors to do that. I think the initiatives to strengthen 
our advisory program, and increase it, make a lot of sense to 
me.
    But the overwhelming reality is that those Iraqi security 
forces cannot take on the lion's share of this mission by 
themselves to be able to deal with the level of violence that's 
there. They still do not have the organizational depth and 
breadth to deal with that. They don't have the skill sets to 
deal with all of that. I think they're a work in progress, and 
it is steady progress that we're making here.
    Senator Warner. All right. Then I'd have to say to you, I 
think this committee and Congress has been misled because, time 
and time again, military officers have sat there and said, 
``Here's the number of battalions. They're growing and they're 
training, and here is the status of their equipment'' and so 
forth. There has been a breakdown in communication then, 
because I had placed a high degree of confidence in the 
representations that this army was up and standing and ready to 
work. Now, I have to move along here.
    Several of us here have joined in a resolution that is on 
the floor. It is highly criticized today but we're hanging 
tough on it. We clearly come down to this point of benchmarks, 
and the need to not just have words, as Ambassador Ross has 
mentioned many times, but deeds to confirm the commitments of 
Maliki and the Iraqi military forces. One of them has been that 
the Iraqi forces said, ``We want to take the lead. We can take 
the lead. We'll take the point.'' Now, in my very modest 
military career, I've had some experiences. What is ``taking 
the lead?'' In training, what is ``taking the point''? Give me 
your military definition. How do you match that assertion with 
what you've just said?
    General Keane. I think ``taking the lead'' means that they 
clearly want to be in charge and be responsible.
    Senator Warner. Let's go down to the tactical platoon/
company level and then move up to taking charge.
    General Keane. Yes. I think what we'll see unfold there is 
that when we put forces in to protect people in their 
neighborhoods, those forces will be combined forces. That is, 
there'll be U.S. and Iraqis together. Under the current 
arrangement, the Iraqis will respond to their own chain of 
command, and not to our chain of command; we certainly will 
respond to our chain of command and not to theirs. There will 
be an Iraqi commander who's in charge of the entire operation 
in Baghdad, and then there will be another commander who is in 
charge of each one of the nine districts.
    That's how that's going to be layered.
    Senator Warner. When you're moving in on a mission, is it 
the Iraqis out on the point who are the first in the field of 
fire and we're in the support role? Or are we out on that 
point? Are both of us out on that point?
    General Keane. Both. At the tactical level, we'll both be 
doing it together.
    Senator Warner. Well then, that's not, in my judgment, what 
I meant by ``take the lead.''
    My last question goes to the distinguished Ambassador. You, 
I think, really struck on a chord that I've been interested in, 
and that is, at what point does the situation become so serious 
that there's a realization among the Iraqi leadership and the 
Iraqi people, that they have to come to terms with it and 
accept our offer of support and make certain that their forces 
match up and do what they're supposed to do? I think you said 
Iraq is ``not bad enough to force either Iraqis or their 
neighbors to make the tough decisions.'' I think that's very 
sage advice.
    Now, if we move in, as we are now proposing to do in 
Baghdad, we begin to level that bad situation. That's our 
mission, to bring about a greater amount of security. So, to 
follow through on your equation, it has to be bad before 
they're going to act, and here we are taking this mission to 
relieve some of that pressure, namely, to try to improve the 
security. What happens to your theory that they simply will not 
step up and deliver?
    Ambassador Ross. I'm not against creating security. I'm 
against acting in a way where we act, and they never have to. 
We act, and basically it's always up to us, and even when they 
make promises and they don't fulfill their promises, it doesn't 
change our behavior. At some point, they have to see there's a 
consequence for nonperformance.
    Senator Warner. How will we make judgments as this 
operation unfolds? I've indicated that perhaps we take a 
section of Baghdad and go in according to the President's plan. 
By the way, our resolution does not say to the President, ``You 
should not add troops.'' It was just the level of troops. 
Perhaps we should go in and try it and see whether they deliver 
before you start the second and third and fourth of, whatever, 
nine different areas in Baghdad. Does that make sense?
    Ambassador Ross. It could. Look, I'm not going to try to 
look at the specific military tactics. What I'm trying to get 
at is that where Maliki now has made explicit promises, which, 
by the way, as I said, are not necessarily new, it's time to 
say, ``You have to perform.'' Now, performing doesn't mean 
you're 100 percent successful, but performing means there's an 
unmistakable effort. What we've seen up until now is very 
little effort. What we've seen--and you quoted me--we've seen 
lots of words, but we haven't seen performance on the words. 
There comes a point where they have to know there's a 
consequence for nonperformance.
    Now, I laid out simply eight areas where he's made 
promises, each of which, in my mind, constitutes a kind of 
measure.
    Senator Warner. A benchmark.
    Ambassador Ross. Yes. Let's hold them to it.
    Senator Warner. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman.
    This morning in the Washington Post it says, ``Our guess is 
that General Petraeus' concept will govern U.S. actions on the 
ground. Until now, General Petraeus had been the most 
successful American commander in the war. In that sense, 
Senators are right to support him and quickly approve his 
nomination,''--which I believe we will do today or tomorrow. 
``But legislators need a better way to act in their opposition 
to the current policy than the passage of nonbinding 
resolutions that may cover them politically, but have no 
practical impact, other than perhaps a negative one suggested 
by the General.''
    Ambassador Ross, you've been appointed to be our Special 
Envoy in one of the most controversial and difficult parts of 
the world, haven't you? I think you've carried out those 
responsibilities incredibly well. How would you have felt if, 
when you were sent off on your mission, Ambassador, we had a 
resolution that disapproved of your mission or in some way 
circumscribed your mission? How would you have felt?
    Ambassador Ross. I probably would have been able to 
restrain my enthusiasm for that.
    Senator McCain. There you go.
    Ambassador Ross. But I would say this. There is value, when 
you're dealing with people in this part of the world, where 
they know that, in a sense, there is a pressure to perform.
    Senator McCain. Oh, I understand that. I want to get into 
that. But what about one that disapproved your mission or told 
you, you could not do certain things? My friend from Virginia 
said, ``We should not add troops''--just the level of troops. 
So, now with this resolution, we in Congress are going to set 
the level of troops? General Keane, in your many years in the 
military, have you ever heard of a resolution of Congress that 
set the level of troops when a conflict is going on?
    General Keane. There are precedents for capping troops. I 
think we had the numbers capped in El Salvador. I think we've 
capped troops in Colombia.
    Senator McCain. Yes.
    General Keane. But those are very small military 
commitments, by comparison to what is taking place in Iraq.
    Senator McCain. I think the record shows that capping the 
troops in El Salvador was an impediment to the progress that we 
made, in retrospect, rather than any kind of assistance to it, 
would you agree?
    General Keane. I would agree. I certainly don't agree with 
capping our forces here, because it takes away the flexibility 
that the commanders need to prosecute those forces.
    Senator McCain. If we cap the troops, basically what that 
says is that we are pursuing the failed policy of not having 
enough troops--I mean, read any book; we didn't have enough 
troops there from the beginning. Now, we are going to cap the 
troops. Would it not be better to just get the hell out of 
there?
    If you cap the troops, you have no way to succeed, you have 
no way to implement General Petraeus' strategy, where we are 
sending him with a unanimous vote from the United States 
Senate. This is an Orwellian experience.
    General Keane. If we don't permit the proper level of 
forces to be applied, then we will not be able to secure the 
population in Baghdad, and we'll continue on the track that we 
are on, toward the government being fractured and a failed 
state. But the violence will increase. It's predicted to 
increase in 2007.
    Senator McCain. It's increasing as we speak today.
    General Keane. Right.
    Senator McCain. There are mortar shells landing in the 
Green Zone as we speak.
    Ambassador Ross, I totally agree with many of your comments 
and I also agree with what might be the best fallback strategy. 
I am not prepared yet to employ that strategy but I think it 
makes perfect sense. But, most importantly, I agree with your 
thoughts about benchmarks. Tell me how we would write those 
benchmarks into a resolution. By the way, I think we are in 
agreement that Congress has not sufficiently exercised its 
oversight, perhaps, of this conflict. How do you do that? In 
other words, how do you gauge whether the Maliki government is 
cooperating or not? How do you gauge whether the countries in 
the region, which I think should be a benchmark, are being of 
sufficient assistance? How do you gauge some of the other 
parameters that you described in your opening remarks, which I 
am totally in agreement with?
    Ambassador Ross. Look, some of them lend themselves much 
better than others. Have they actually passed a law on the 
sharing of oil revenue? Have they set up a mechanism to act on 
it? That is something you can see. Have they revised the law on 
de-Baathification? Again, if you're trying to reach out to 
Sunnis, that is something you can see. So, I would pick those 
that are not subject to different interpretations where you can 
simply see whether they've done them or not.
    Have they provided forces that they said they would 
provide? You're going to get reports on whether those forces 
are showing up. Are they performing? Here again, it doesn't 
seem to me that those are necessarily the kinds of things that 
are subject to wildly different interpretations.
    In terms of the countries who are neighbors, that's a 
different kind of benchmark. I would say that's not something I 
would focus on, with regard, obviously, to the Iraqis; that's 
something for us. Do we try to put together some kind of 
regional conference? I've said I'm not keen on singling out 
either the Iranians or the Syrians. I think that exaggerates 
their role. I think they're much better at spoiling than 
fixing. Nonetheless, they're neighbors, and the Iranians 
clearly have the capacity to exert influence, if they want to, 
in a positive way although we haven't seen it. In a context 
where you have a regional conference, you basically would focus 
on, what are the measures that you would want all countries who 
are neighbors to do? How would you identify or create means of 
noninterference? Could you create a mechanism for monitoring? 
Who would be the monitors? Here again, it seems to me, you're 
trying to create a basis of leverage on the outside, you're 
trying to put a spotlight on the behavior of those who haven't 
done what they could, including some of our friends, who 
haven't done what they could have done.
    Senator McCain. I would like for my staff to work with you 
as we try to come up with a list of benchmarks that we think 
need to be accomplished, and perhaps even a timeframe 
associated with them. I don't know, like you said, whether they 
are going to share the oil revenues. We expect that law to be 
passed by such-and-such a date.
    General Keane, would you have a problem with that?
    General Keane. No, I would not. I really, truly believe 
that Iraq should be looked at as a regional issue. I don't 
think there is a neighboring country that wants a failed state 
in Iraq, regardless of what their political motivations and 
regardless of how different their political motivations may be 
from ours. Certainly there's something to be gained by bringing 
these people together.
    Senator McCain. Mr. Chairman, I understand your frustration 
about the failure to receive the information on benchmarks. I 
am not sure you are going to get them, but I would like to work 
with you and maybe we could set up a series of our own that we 
could consider in this committee--by the way, the resolution 
that's at the floor should have been through this committee--
and maybe we could come up with something that might gain some 
broad bipartisan support and give some comfort to the American 
people that there are tangible goals that they have every 
legitimate right to expect to be met.
    Mr. Chairman, I would like to commit publicly to working 
with you to achieve that goal. It is clear that the American 
people need something along those lines when we are going to go 
through this increase in troops. There's not going to be a 
cutting off of funds, although I respect my friend Russ 
Feingold, who admonished many that, ``If you're really serious, 
then you should go ahead and vote to cut off funding rather 
than send the wrong message to our troops who are going to be 
over there fighting.'' I look forward immediately to working 
with you on this issue.
    Chairman Levin. I've asked the State Department twice now 
to get us the benchmarks which the President of the United 
States says the Iraqis have agreed to. You haven't seen those 
benchmarks, have you, Ambassador Ross?
    Ambassador Ross. No.
    Dr. Perry. Mr. Chairman, I have seen the benchmarks.
    Chairman Levin. You have seen the actual benchmarks the 
Iraqis have agreed to?
    Dr. Perry. When we were in Baghdad, Maliki gave us the 
benchmarks. They have dates tied to them. They have performance 
tied to them.
    Chairman Levin. Do you have copies? Does the ISG have 
copies?
    Dr. Perry. I imagine, in the files of the ISG, they exist, 
yes.
    Chairman Levin. Could you get us a copy of those?
    Dr. Perry. I will try to do that.
    [The information referred to follows:]

    The benchmarks that Maliki provided are the same as the ones 
printed on pages 62-63 of the Iraq Study Group Report. They are as 
follows:
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Then we'll also send a letter to the 
Secretary of State.
    Dr. Perry. We argue, in the report, that the support of the 
U.S. Government ought to be conditioned on if not meeting those 
benchmarks, at least showing a best effort on trying to achieve 
them.
    Chairman Levin. Thank you.
    Senator McCain. Mr. Chairman, I think we can do a pretty 
good job of using theirs, but we should come up with our own, 
with the advice and counsel of others.
    Chairman Levin. We surely want to see the benchmarks the 
Iraqis have allegedly agreed to. Senator McCain, perhaps you 
and I could send a letter today to the Secretary of State 
expecting those benchmarks to be delivered this week. We'll try 
again. We've been trying it very hard.
    Senator McCain. As importantly, if we are going to exercise 
our oversight responsibilities, Mr. Chairman, we ought to have 
benchmarks. Maybe we could use some of those, maybe not.
    Chairman Levin. I think the first step will be to get the 
benchmarks the Iraqis have allegedly agreed to and I have no 
problem in trying to work out benchmarks. In fact, both 
resolutions talk about benchmarks which are needed, benchmarks 
which have not been complied with in the past by the Iraqis, 
commitments they've made and have failed to keep. Everyone 
agrees that they ought to keep them.
    Senator McCain. If you want to look back, that is fine, Mr. 
Chairman, but the fact is, I am trying to look forward. I am 
trying to stop from sending the wrong message to the men and 
women who are going to be at risk--some of whom are going to 
die--that we disapprove of their mission, but, at the same 
time, exercise the oversight responsibilities and the 
expectations that we, as a Congress have, and that the American 
people have, so they can have some comfort in what is going to 
happen, that we are exercising our legitimate responsibilities. 
Now, if your focus is on digging up what the old benchmarks 
are, fine. But I would like to work with you on trying to set 
some parameters and benchmarks that can be passed by this 
Congress so that we could give the American people some 
confidence.
    I thank you, Mr. Chairman.
    Chairman Levin. We are not just focusing on old benchmarks. 
The President of the United States, a few days ago, said that 
the Iraqis are going to be held to the benchmarks they have 
agreed to. We want to know, as a starting point, what the 
Iraqis have agreed to and you've agreed that you would join 
with me.
    Senator McCain. Yes, sir.
    Chairman Levin. In terms of the message, we're going to 
argue over what the right message is, but I would think our 
troops and their families want us to use our best efforts to 
try to have a successful end to this matter, and, according to 
the public opinion polls, a significant number of the troops 
that are there want us to change the direction in Iraq.
    So it's not us sending a wrong message. The troops and 
their families have indicated very strongly, in large numbers, 
that the message that they want to get to the Iraqis is to get 
on with their own government and get on with their own nation.
    Senator McCain. Mr. Chairman, I think I am familiar with 
the sentiment of many of the troops, and the fact is, they want 
to win.
    Chairman Levin. We all want to win.
    Senator McCain. That's what they want and that is why we 
are changing the strategy, Mr. Chairman, and I am sorry you 
don't support the strategy.
    Chairman Levin. It's a strategy which has failed. Finally 
the President acknowledged that he did not have a winning 
strategy. So, I'm glad we have not, many of us, supported what 
has proven to be a failed strategy. I'm delighted the President 
has acknowledged that he wants to change that strategy, 
finally, after 2 months ago saying, ``We're absolutely winning 
in Iraq.''
    Senator Ben Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Perry, you heard Ambassador Ross tick off a list of the 
kinds of conditions or could-be benchmarks that he thinks we 
ought to consider as part of the ongoing operation in Iraq. Do 
those comport with the kinds of benchmarks that you saw that 
Prime Minister Maliki gave to you?
    Dr. Perry. Yes, they do, Senator.
    Senator Ben Nelson. Very comparable?
    Dr. Perry. Yes.
    Senator Ben Nelson. Okay.
    General Keane, you listened to those benchmarks as well. If 
those benchmarks were put into place, and we all agreed that 
those are the kinds of benchmarks we ought to have, do you have 
a timeframe to evaluate whether Iraq is achieving those 
benchmarks?
    General Keane. Yes. There certainly are ways to know if 
there are means to implement those and monitor the 
implementation of that. I think that would probably take 6 to 8 
months to observe all of that.
    Senator Ben Nelson. You think it'll take 6 to 8 months to 
know whether their troops are going to show up?
    General Keane. Oh, I don't mean that. In terms of the more 
complicated issues like dealing with the de-Baathification.
    Senator Ben Nelson. What about the basic ones? Can you give 
us some idea of how long it would take to know whether Iraq 
would enter into an oil agreement?
    General Keane. If they're going to do oil revenue-sharing, 
and they're going to pass a law to do that, that'll be obvious. 
Then we would have to look at what the implementation of that 
is and see if that really does make sense, and what the passage 
of time will be to do that.
    That's all observable. That's all within oversight to be 
able to determine what that is. That would not take very long 
to see if there really is something there that makes sense in 
terms of implementation.
    Senator Ben Nelson. Do you have any idea how long it might 
take to evaluate whether the Prime Minister is willing to go to 
Sadr City and take on, or take out, Muqtada al Sadr and the 
Mahdi army?
    General Keane. My own view of that is that I don't think he 
has much leverage to do that now, because he hasn't been able 
to protect the Shia people, and that's the catalyst that 
prompted the sectarian violence. I think U.S. forces as well as 
Iraqi forces have to protect the Shia people for a number of 
weeks so that he has some leverage to do that. I think it will 
probably take into the summer to prove that we are doing 
something that's worthwhile in terms of securing the 
population.
    Senator Ben Nelson. How long do you think it will take for 
the Prime Minister to be able to provide the level of security 
that the parliament will begin to show up again? They've taken 
roll day-in and day-out, and gotten as many as 65 members of 
parliament. Without parliament showing up, they're not going to 
be able to pass the laws. Is that correct?
    General Keane. It goes to all the agencies of government. 
The legislature is one of them. The judicial system, the lack 
of judges, as well, and detention facilities--it reaches into 
every aspect of government. Every agency that you put your 
finger on in Iraq pales by comparison to anything that we know 
in our own government, certainly. But even by their standards, 
it is wholly inadequate. Their bureaucracies do not function. 
They don't have the talent or the number of people. It will 
still take time to grow and develop that. You can't get people 
to willingly participate in government if their basic security 
is at risk to the degree that it has been. Certainly, our 
adversaries there have exploited that, they've assassinated 
large numbers of people who have been willing to come forward 
and participate in the government. They have killed judges who 
have participated in the judicial system. We have to get that 
under control so we can get people to come forward to 
participate in the government.
    Senator Ben Nelson. What would be, according to Ambassador 
Ross's description, an unmistakable demonstration of effort 
that would make us all feel more comfortable that the Prime 
Minister is willing, as well as able, to move forward to 
protect his people?
    General Keane. What would be unmistakable?
    Senator Ben Nelson. Right. What would you look at as an 
unmistakable effort on the part of the Prime Minister to 
protect his people?
    General Keane. He has to commit the appropriate level of 
forces to do this and that has not happened in the past. The 
two other times that we tried to do something in Baghdad--
admittedly, the mission was different--we were dependent on 
some of his forces and they did not materialize.
    They have to materialize this time. The early indications 
of this, Senator, are that that is going to take place. We have 
to wait for the final result, here, certainly. Everything is 
more complicated in Iraq. But the fact is that, in talking to 
the commanders there, the indications they have is that the 
forces that have been promised, to date, have arrived.
    Senator Ben Nelson. If they arrived, will that be evidence 
of an unmistakable effort on the part of the Prime Minister to 
begin to achieve what is going to be required in Iraq?
    General Keane. I think it's a step in the right direction, 
but I don't think we could sit here and be completely 
comfortable about it. I won't hide from you; I don't know who 
Maliki is, and I'm not going to suggest I do. I don't think 
anybody in government knows. I don't know what that government 
truly stands for. We will find out, in time. I don't know 
whether they truly want to have a representative government 
where the Sunnis are truly a part of that and are willing to 
share not only oil revenue but also the basic qualify of life 
with those people. I'm not sure that's what they want. We're 
going to find out. That is the truth of it, and every one of 
these steps will be a indicator.
    The rhetoric is certainly right, but, as we've seen before, 
the actions do not par with the rhetoric.
    Senator Ben Nelson. I share your concerns about it. I'm 
more reluctant to think that we ought to send our troops in to 
do battle between the Shias and the Sunnis in order to give 
time until we can find out whether the Maliki government will 
step forward and show these unmistakable efforts. There just 
may be a difference of opinion, but I do share your view that 
this government is shadowy, hard to understand, and we can't 
pinpoint where they are. Some of the lower government leaders 
will be undermining what this surge is all about with their own 
public comments, as well as, apparently, private comments. So, 
it's a very difficult situation for us.
    Ambassador Ross, what would you describe as the first and 
most important unmistakable effort that we could determine and 
evaluate whether or not they're prepared to move forward?
    Ambassador Ross. I think the most important one is whether 
their forces show up? Will they, in fact, provide equal 
protection for Sunnis, as well as Shias? When General Keane 
talks about his not knowing exactly what this government and 
Prime Minister Maliki are about, for me the greatest area of 
doubt and suspicion relates to how they approach the Sunnis, 
whether they have any interest at all in reaching out to them.
    Senator Ben Nelson. If they don't, as an underlying 
premise, everything else begins to topple, is that correct?
    Ambassador Ross. It does for me, because it suggests there 
is no political intent to forge any kind of national compact.
    Senator Ben Nelson. Which is necessary.
    Ambassador Ross. Without a national compact--we've been 
talking a lot, and it goes back and forth; it is a chicken-and-
egg issue, no doubt.
    Senator Ben Nelson. Maybe both.
    Ambassador Ross. Maybe it's both. But for sure, you can't 
succeed if there isn't going to be a national compact. What 
we've seen so far is, there isn't the will to produce it. There 
is a terrible legacy. The war, in the last 3\3/4\ years, has 
deepened the sectarian divide. I think if you look at the way 
Ayatollah Sistani was actually trying to promote a kind of 
restraint on the part of Shia for the first couple of years, 
there's no doubt that there was a point at which a threshold 
was crossed. Then you began to see the emergence of death 
squads. So, I agree with General Keane that the Shia militias 
have emerged because they are seen as being a source of 
protection from the Sunnis. But they've gone from being a 
source of protection to wreaking a lot of vengeance, sometimes 
in response, oftentimes in anticipation. Unless there is some 
unmistakable demonstration on the part of the government that 
they want to be a government of all of Iraq and not just of the 
Shia, it's hard to see how you can succeed.
    So, when I ticked off his promises--and these were what the 
President said in his speech when he laid out his explanation 
for the surge--those promises, even though not new, do embody, 
at least rhetorically, what would be a commitment to creating 
some kind of national compact. Having forces show up is 
obviously the first manifestation, but acting on the other 
promises of sharing oil revenues, of changing the de-
Baathification law, of having a fair process on amending the 
constitution--bear in mind, Sunnis showed up to vote, and they 
supported the constitution, because there was an understanding 
that there would be a 4-month process where the constitution 
would be amended in three basic areas. It hasn't happened yet. 
The President identified, as one of the areas of a new 
commitment, a fair process for amending the constitution. So, 
it seems to me, these are pretty clear. I see no reason why, in 
fact, we shouldn't look for ways to hold them to that.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I think someone watching this might come to the conclusion 
that the only area in which we all agree is that mistakes were 
made. I know that we believe that. At this panel, I think the 
three of you believe that. Certainly the President has said, 
many times, that he believes that, and that's why he wants the 
new course.
    But I think there are other areas where we agree, also. I 
would say this, Dr. Perry, when you listed your things--with 
the exception of the second point--the first thing you were 
talking about was the embedding of U.S. soldiers so they can be 
role models in on-the-spot training of Iraqi soldiers; continue 
the support of Iraqi forces with intelligence, logistics, and 
air support; and provide both positive and negative incentives, 
et cetera, et cetera--with the exception of your pulling-out 
point, I think we agree.
    I found myself agreeing, and you too, Ambassador Ross, when 
you clicked off, very skillfully, your eight points. You had a 
lot more points in your quiver, but there wasn't time. I'm 
asking my staff to get those, so we can review them again. I 
agree with what you're saying. I had different conclusions, but 
I do agree with what you said--and I wrote this down--you said, 
``If he really knows this is his last chance,'' talking about 
Maliki, ``if he really understands what the consequences will 
be''--and maybe just the President alone isn't enough to 
explain those consequences. Maybe that should come also from 
Congress. I think that's probably right.
    But I would like to consider the areas where we don't agree 
and I have a reason for wanting to do this. I am talking about 
a draw-down. One of the generals I'm very close to is General 
Maples, because he was at Fort Sill, Oklahoma, for a period of 
time. The other day, he made this statement, and I'm going to 
ask you if you agree or disagree with it. If it's not a yes or 
a no, then you can do it on the record. He said that, ``A 
continued coalition presence is a primary counter to a 
breakdown in central authority. Such a breakdown would have 
grave consequences for the people of Iraq, stability in the 
region, and U.S. strategic interests.''
    Dr. Perry? Ambassador?
    Dr. Perry. Yes, I agree with the continued presence for 
some period of time.
    Senator Inhofe. Ambassador Ross?
    Ambassador Ross. I agree, as well. That's what I was trying 
to get at. There is an interesting paradox that we hold it 
together and, as long as we make it tolerable, they're not 
going to change their behavior. I'm saying it's a paradox and 
you have to find a way to find a balance.
    Senator Inhofe. Yes. General Keane, do you agree with that? 
You've already stated you do.
    General Keane. Yes.
    Senator Inhofe. John Negroponte and General Hayden also 
gave the analysis and I'm going to quote them now. He said, 
``We know Iran and al Qaeda would see it as a victory and 
continue to expand their influence in the region. The Middle 
East and the entire world would be threatened by a new 
terrorist base of operations.'' Do you agree with Negroponte 
and Hayden?
    Dr. Perry. I think both Iran and the terrorists are already 
emboldened by what's happening in Iraq.
    Senator Inhofe. All right. Good.
    I'm going to cover a couple of things here that Senator 
Lieberman asked when General Petraeus was here.
    It bothers me when people start quoting generals. There are 
so many generals out there. I recognize that certainly General 
Abizaid, who's one that knows the culture, knows all these 
things, but, nonetheless, I think there's general agreement 
that some things went wrong. The guy now who's going to be in 
charge is General Petraeus. I would remind you that he was 
unanimously confirmed by our committee yesterday, and I suspect 
he will be when that reaches the Senate floor. Anyway, Senator 
Lieberman asked him, ``Do you fear that there would be 
disastrous effects for Iraq and the region and the world 
economy if we were to exit or draw down prematurely?'' He said, 
``That's correct.'' Next, Senator Lieberman got a little bit 
more specific, and he asked, ``Do you believe that this new 
strategy, as outlined by the President, is a new strategy? 
Because a lot of people are saying, `no, this isn't a new 
strategy, this is just warming up some of the old ideas.' '' He 
said, ``It is,'' and he elaborated for quite some time. Then he 
was asked a question, ``Am I correct to conclude that you 
believe this new way ahead and new plan is something that can 
work?'' He said, ``Yes, this is something that can work.''
    Lastly, they talked about a resolution of disapproval. It's 
too long to get into, but he did ask the question, and the 
response from General Petraeus--the guy that we're entrusting 
to run the show over there--was, ``It would have a disastrous 
effect on our troops and would embolden the enemy.'' Now, we're 
talking about a resolution of disapproval.
    Do you agree with General Petraeus? Do you agree, Dr. 
Perry?
    Dr. Perry. I do not agree. I do not think this enemy needs 
emboldened.
    Senator Inhofe. Hmmm.
    Dr. Perry. It's as emboldened as----
    Senator Inhofe. All right.
    Ambassador Ross?
    Ambassador Ross. I also agree that the enemy is already 
pretty bold.
    Senator Inhofe. General?
    General Keane. It's just not helpful. It contributes to 
what the enemy sees as an erosion of the political and moral 
will of the American people. I think it's tough for our 
soldiers who are Americans first. They clearly understand that 
there's a political process in this country that they clearly 
support, and there's disagreement here. But, at the end of the 
day, they are going to go out and do a tough mission. I 
certainly would like to see them supported in that mission as 
opposed to declaring nonsupport for a mission that they're 
going to do, but yet they have to do it anyway.
    Senator Inhofe. I believe it would embolden the enemy. I 
think our troops believe that as well. One of the problems that 
I have, General, is maybe I've been in the Iraqi area of 
responsibility (AOR) too many times. I've been there 12 times. 
Each time, I've spent a lot of time talking to our troops--
without any supervision, just talking to the troops--as well as 
the Iraqi security forces. I was in Tikrit when they blew up 
the training headquarters. Not many people in America know that 
the families of those Iraqi security forces-in-training who 
died were replaced by another member of their family, the 
support that they have from within. I'm glad that you came out 
and said that the Iraqi security forces have been a success. 
They're not quite there yet, but the training has been a 
success.
    We saw, in Afghanistan, when the Afghan National Army (ANA) 
started taking over the training of their own people, the 
success was visible. They got to that point. We're not there 
yet in Iraq. But when you talk to them, and you talk to our 
troops who are embedded with them and are training with them, 
they say that they're getting very close to being successful.
    They don't have as good of equipment. I disagree with some 
of the generals who have said we're already there on the 
equipment; I don't think we are, in terms of the light arms, in 
terms of the armor and some of the things that they're going to 
have to have to make this thing work but I really believe that 
you are right when you say--and this is confirmed by my 
conversations with our troops on the ground who are embedded 
with them--Senator Warner, I don't think it's a real problem 
saying, ``What do you mean by `taking the lead'?'' That means 
they go in first. That's what they said.
    General Keane, in needing the five brigades, you said the 
handwringing by the Shias and the Sunnis is already evident. 
What do you mean by that?
    You said they're nervous about the fact that we are going 
to be sending in more troops to support the Iraqi security 
forces and continue our training, and you're seeing 
handwringing.
    General Keane. We had some early indications from Shia 
militia, Sunni insurgents and to a lesser degree, al Qaeda, 
that the military operation that's about to unfold is, from 
their perspective, different, and more decisive on our part, 
and something that they're going to have to contend with and 
reevaluate their strategy and how they're doing. All I was 
demonstrating today, and I don't want to make too much of this, 
but I was demonstrating that what you do has a psychological 
impact on an adversary, as well, and it's very important if you 
believe that war is a test of wills and you're trying to beat 
an opponent physically and materially, but also want to beat 
them psychologically. So, you start to impact them, even 
without having done anything yet, just by intent. It has some 
impact. So, the seriousness of it, the size of the force and 
how fast we move the force are important for us to gain control 
of Baghdad militarily but they are also important 
psychologically.
    Senator Inhofe. All right. I agree.
    My time has expired, but I do agree wholeheartedly with 
you. My opinion comes from experience with the people on the 
ground and I just think it's absolutely necessary to continue 
on this course.
    Thank you very much, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks also to the 
three witnesses.
    I think you have very thoughtfully reflected, in some ways, 
the range of opinions on this committee, as well as throughout 
Congress, and I thank you very much for that.
    I do want to pick up on something. Senator Inhofe went back 
to a line of questioning I did with General Petraeus. I know 
that the answers he gave troubled some of my colleagues on the 
committee and maybe my colleagues outside. I do want to say 
clearly for the record that I know that none of those who are 
supporting the resolution that was reported out of the Foreign 
Relations Committee yesterday intend to discourage our troops. 
I know their feelings are quite the contrary. I know that they 
don't intend to, to use General Petraeus' words, give any hope 
to the insurgents and the terrorists, our enemies there. But I 
raise the question because I think that is one of the 
consequences of it. The reason I raise it is because the 
resolution will have no effect on American policy in Iraq. The 
President has made that very clear. In fact, most of my 
colleagues in the Senate don't want to use the constitutional 
prerogative we have of cutting off funding because they don't 
want to undercut our troops in the field. That's why I have 
raised the question of whether people who are supporting this 
resolution would think about stepping back. Look, when I asked 
General Petraeus about the impact on the enemy, he said what 
you said today, ``War is a test of wills.'' They know they 
can't beat us on the battlefield in Iraq, but they're trying, 
also, to diminish our will.
    Senator Lugar, yesterday, in the debate/discussion in the 
Senate Foreign Relations Committee, said, as I understood it, 
that he really didn't think this surge would work. He didn't 
generally support it but he thought that, although everyone in 
the world, including our enemies, knows there's disagreement 
here in America about what we're doing in Iraq, the resolution 
would quantify that disagreement. It is a nonbinding 
resolution, but the people around the world don't know the 
difference. In that quantification, we would more clearly 
reflect the division here and the divided will than we have, 
previously. General Keane, in your comments today in response 
to Senator Inhofe's questions and in your opening testimony, 
you reflect some of the same sentiment.
    So I wanted to clarify my respect for my colleagues who are 
offering the resolution. They certainly don't intend that 
result, but I fear that will be the result and it will have no 
result on our policy in Iraq, because the President, I repeat, 
is going forward with it.
    I will express what undoubtedly is a naive wish, I wish we 
could come together on something that will matter. I thought 
that the discussion, spirited as it was, between Chairman Levin 
and Senator McCain, offers a different course. Why don't the 
members of this committee see if we can come forward with a 
resolution that does set benchmarks for the Iraqis? I think 
most of us want that to happen. Let's step back and give 
General Petraeus and this very new strategy a chance to work.
    Now, let me just say that I think the kind of agreement 
reflected on this committee is also reflected among the three 
of you. It seems to me you all agree that we have a vital 
national security interest in how Iraq proceeds and how our 
involvement concludes. You all are absolutely right to agree 
that there ought to be the eight benchmarks that Ambassador 
Ross pulled out of the President's statement. I certainly agree 
that those benchmarks are critically important. I think the 
difference is how we get there, and what is the best way to get 
the Iraqis to meet those benchmarks. I just feel that General 
Keane, on this one, makes the convincing argument and it's a 
very practical argument from a person who's had that kind of 
operational military responsibility.
    Those who are committing sectarian violence and terrorist 
violence think they're winning. Unless we show them that they 
can't win by changing the dynamic, which this plan intends to 
do, they're going to keep doing it and there's not going to be 
any incentive for the Iraqi Government, or even the possibility 
for the Iraqi Government, to meet the benchmarks, and those 
million people that Secretary Perry quite rightly says have 
left Iraq--including a lot of doctors and teachers--they're not 
going to come back because they're going to be afraid to come 
back. There are leaders in the Iraqi parliament who are not in 
Baghdad today because they're frightened by the violence. How 
can we expect the government to function, let alone meet the 
benchmarks we want, if people are afraid to go to their jobs in 
the parliament?
    So, General Keane, I want to ask you a few quick questions. 
In the proposal that you made with the military historian, Fred 
Kagan, which is, in many ways, similar to ``The New Way 
Forward'' the President recommended--you recommended more 
troops than we're sending, approximately 35,000, if I remember. 
Is this enough? Can we succeed with the 21,000 or 22,000?
    General Keane. Yes. We recommended the same number of 
brigades for Baghdad and two Marine regiments for al Anbar. The 
difference is the two Marine regiments for al Anbar. The 
President is executing two Marine battalions for al Anbar. So, 
we have a difference in numbers, but not in terms of the number 
of units. That difference comes since we were counting more of 
the support troops, I think, than the Army leaders are 
counting. So, our numbers were off a little bit because of 
that, but not in terms of the substance of it. The answer to 
your question is, yes, I do believe it's enough troops to deal 
with the security issue in Baghdad and also the follow-on 
mission in al Anbar, which would be a security mission also, 
but not initially.
    Senator Lieberman. Okay. That's important.
    Second, I want to ask you again--I think you said this in 
your opening statement. Let's assume for a moment we all agree 
on what the benchmarks should be. You feel very strongly that 
we should not phase in the deployment of additional troops 
based on the Iraqis' meeting of benchmarks in a month or two or 
three, because that will impede the military effectiveness, the 
goal that you have of restoring security. In other words, if I 
hear you correctly, you think we should send the whole new 
deployment in there and whatever benchmarks we agree on should 
be, effectively, after that period of time.
    General Keane. Yes, the military mission is attempting to 
gain security in Baghdad so that you can enable political, 
economic, and social progress. Once you accept that that's the 
mission--to gain security in Baghdad--then if you slow down the 
deployment of those forces, you begin to risk the mission 
because you give the enemy too much flexibility to move around 
on you. While you're securing certain neighborhoods, they can 
create havoc and undermine what you are trying to do, because 
you are not able to bring the amount of force and mass together 
to shut them down.
    Senator Lieberman. Good.
    General Keane. That has always been our problem in the 
past. We bounce around from one neighborhood to another and 
clear them out, but we've never been able to stay and prevent 
them from terrorizing, intimidating, and assassinating those 
who have been cooperating with us.
    The pacing item for the deployment of these brigades will 
be their equipment. We are where we are there, in the sense 
that they have to get this equipment refit and the Army will 
try to move them as quickly as possible. But I don't think we 
should put any constraints on this force other than that 
equipment. The Army should move it as quickly as we can so we 
can get that security done also as rapidly as we can and take 
the initiative away from the enemy. If you gear that to the 
benchmarks, then you begin to undermine the success of the 
military operation and defeat the very purpose for which it's 
intended, which is to get security, so you can enable a 
political solution.
    Senator Lieberman. Thank you.
    My time is up.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Sessions.
    Senator Sessions. I know a number of people have taken to 
suggesting that the families of our soldiers don't support what 
we do and I don't believe that's true. I had the sad duty, last 
night, to call a father, Paul Milliken, in Alabama, whose son, 
Jonathan, a private first class in Iraq, was killed. He told 
me, ``Senator, you tell President Bush we support him 100 
percent. You tell him that our son, Jonathan, who was 15 or 16 
at the time September 11 occurred, made a decision then that 
America needed to do something, and he chose to join the 
military. He was doing what he believed in, and we have to take 
comfort in that.''
    So, I think it is the responsibility of this Congress to 
help develop the policies of the United States. We have the 
funding capability of affecting those policies dramatically 
anytime we wish to, but we have an absolute responsibility not 
to undermine the idealism and the courage and the dedication of 
those who serve us.
    General Keane, I think it is plain to anyone that you are 
correct to say that this is a question of will in many, many 
ways. It's a psychological thing. A resolution that undermines 
the positive psychological impact of a step-up in forces can't 
be helpful. We'll just leave it at that. I think it's unwise.
    I know there's a tension here between how to proceed in 
dealing with the Sunni and Shia situation. General Keane, I'll 
ask you--it seems to be clear to me that the driving force, 
from the beginning, for this violence did not come from the 
Shia side, but really came from the Baathist, predominantly the 
Sunni, al Qaeda side. Would that be correct?
    General Keane. Yes, that's true. It's an important 
distinction to remember, because we get caught up in what's in 
front of us, and it's the sectarian violence, but it's always 
important to understand what started this, and it was certainly 
the fact that the Sunni leadership, the former regime element, 
the Saddamists themselves, did not want to accept the U.S. 
occupation. They wanted to return to power. I think that our 
occupation helped grow an insurgency among the Sunnis as well. 
I think some of the ways we were doing military operations, if 
we're honest with ourselves--and we should be--also helped grow 
that insurgency in the early days, in 2003.
    But then came al Qaeda, enabled by the fact that the Sunni-
based insurgency existed in al Anbar. They had a foothold 
there. Then, of course, the Sunnis and al Qaeda, after the 
general election, in 2005, made a conscious strategic decision 
to provoke the Shias by the mosque bombing and also the 
assassination squads. What they wanted was a fairly predictable 
overreaction on the part of the Shia militia to raise the level 
of violence that would lead to the fracturing of this fledgling 
government. The Shia militias accommodated them.
    But in solving the problem, it's instructive, I believe, to 
understand how it got started, because you have to stay focused 
on the Sunni insurgency. I believe we can stop the Shia 
militias and get them back behind their barricades but the main 
problem will remain and that is the insurgency itself and the 
fact that they are refusing to accept any political 
accommodation because they believe they can win. It's unclear 
how they get there out of a fractured and a failed state and 
that level of chaos with an 80 percent Shia and Kurd majority 
in the country. But, nonetheless, that's somewhat irrelevant. 
The fact is that they believe it. That reality is something we 
have to deal with.
    Senator Sessions. General, it goes on top of what I had 
heard. I had not heard that they thought they were winning, 
although I guess their step-up in activities indicates they 
believe they have a chance to win. But I had heard that--and it 
seemed to me somewhat irrational--that the Shia thought that 
they might lose, that they were insecure, that they'd never 
been in control in Iraq, and the Sunnis had been in control. So 
this adds to the difficulties, I guess, for Mr. Maliki. We say 
he must do A, B, C, and D, but there's so much violence that we 
can't get a quorum in the parliament. People are afraid to act 
in government positions and to demand certain benchmarks before 
we bring security to the country, I can see, as you've 
suggested, might be premature. We have to have some more 
security before some of the things that we want him to do can 
be accomplished. He may want to do them today but may not be 
able to do them. Is that part of the problem?
    General Keane. It definitely is part of the problem. We 
have to get some basic security for the government itself to 
function and certainly equally important, for the people 
themselves to be able to have a basic level of existence so 
children can go to school and businesses can begin to grow. We 
cannot get this economy moving and we cannot reduce this 
staggering unemployment unless we can start to grow some small 
businesses, open some of the former state-owned factories, and 
get some foreign investment. None of that can happen with this 
kind of chaos that's on the streets. That's the reality of it.
    Look, I share everybody's frustration about the government 
and the desire to hold them to task. I think we should, and I 
like the idea of this body doing something to hold this 
government to task. I think it's an appropriate thing to do. 
But the fact of the matter is, we have to get some basic 
security so that Maliki can function and do some of the things 
that he needs to do. I think they can be done in correlation, 
while we're attempting to do this security, as well, because 
we'll see some early results from this and there'll be some 
indications of progress. It's just that we should not create 
some false expectations, based on that, either. We've done that 
in the past because we wind up overselling the progress that 
we're having. This will still take some time. But I do think 
there are opportunities there for Maliki to move politically 
while the military is moving to establish basic security in 
Baghdad as well.
    Senator Sessions. General Keane, thank you for making 
reference to the law enforcement problem and detention problem. 
That catch-and-release cannot continue. It demoralizes our 
soldiers, and clearly--and I have a number of examples of it--
demoralizes Iraqis when they see people that are part of the 
insurgency be released from prison and back on the streets 
again. I believe we need to make that a benchmark and the only 
way it can be done is--I'll just offer this, and I've offered 
it to the administration--we have to have a military tribunal 
to try those who are threats against the state. We cannot 
expect a local judge to try a terrorist organization because he 
and his family will be threatened and he cannot do that 
effectively. If we do that and have prompt trials, we could 
make a difference, in my view.
    Ambassador Ross, just one brief comment and thought. I 
believe the interagency process is not where it needs to be. 
We're in a very unusual circumstance. It seems to me, just from 
my observation, that the one entity that's under the gun every 
day, and has the most intense interest making things happen on 
time, is the military, because their people are most at risk. 
It appears to me that the other government agencies oftentimes 
have the responsibility to do these things but don't have the 
same intensity of effort or the personnel to do it. Don't you 
think that the other agencies have to step up and we have to 
have a stronger unified effort in Iraq across the board?
    Ambassador Ross. I think there is no question. That's 
certainly true. One thing is very clear, that many of the 
objectives the administration has on the nonmilitary side are 
going to be very hard to achieve right now, because it's pretty 
hard to put together people on the ground in Iraq to do them.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Thank you to the panel. I've had the privilege of hearing 
the General and the Ambassador, in the last few days, in the 
Foreign Relations Committee. Your testimony was excellent. Dr. 
Perry, as usual, you give us a great deal of insight.
    As I have already indicated privately, I wanted to respond 
to one my best friends in the Senate, the Senator from 
Connecticut, because I am one of those who voted, yesterday, in 
the Foreign Relations Committee, for the resolution on Iraq.
    All of you make compelling arguments and it's a question of 
whether you believe that the Maliki government can get it 
together and whether or not we are getting accurate 
information. Of course, what this Senator has experienced 
received over, now, some number of years, is misleading and 
inaccurate information, from the get-go, with regard to weapons 
of mass destruction, troop levels, the cost of the war, and the 
sectarian violence. I, as other members of this committee, have 
served in the United States military, and that's a part of my 
background that brings me to the conclusions that I have now. 
So it's a question of whether or not you believe that this plan 
will work in that crucible of sectarian violence.
    Now, Senator Coleman and I were there just before Christmas 
and we were just stunned at some of the comments by high-
ranking government officials whose minds were so focused on 
their sectarian position that it was hard for us to get them to 
see that, in essence, there ought to be reconciliation. This 
Senator's conclusion is that this plan isn't going to work. 
General, I hope you're right, and you had a great deal of input 
into advising the administration on what they should do. I hope 
you're right. I hope what General Petraeus said to us was right 
and my parting comment to him was, ``Godspeed, General.'' I 
hope he's right, and I hope he's successful. But I don't think 
the conditions on the ground, Senator Lieberman, are going to 
allow this to occur.
    So, what is the alternative? There's an alternative, 
presented by the ISG, done in a bipartisan way by some of the 
most eminently respected people in the country. When you look 
at what we're facing with the treasure of lives and money, then 
it seems that we have to change course.
    Now, early on I found Senator McCain to be quite 
persuasive, saying ``If we're going to get in, let's get in 
with sufficient force,'' which, of course, we know now was one 
of the mistakes, also, from the get-go. General Shinseki was 
``dissed,'' as we say on the street. Yet, we are where we are. 
I happen to think that this is the way.
    So, I would ask all of you just for your comments. What 
really troubled me, on my recent 2-week trip, was that while 
talking to all the heads of states in the neighborhood, we saw 
no unity. I'd get one head of state to say, ``We ought to do 
this,'' and another one that would say, ``We ought to do 
that.'' I went there, at the request of General Hayden, to talk 
to the Saudi King about using their Sunni tribal contacts to 
try to bring about reconciliation within. I talked to the King, 
and then talked to the Princes who were carrying out the policy 
and I didn't get the impression that they were really 
foursquare engaged in doing that. So, regarding this 
neighborhood, which we all feel would help the United States so 
much if they would get diplomatically involved, I would like 
you all to comment on that. Please also comment on whether or 
not you think Senator Biden's three-part plan might help.
    Dr. Perry. Senator Nelson, I believe that the regional 
players could play an important and a positive role, but only 
if the Iraqi Government has first embarked on a political 
reconciliation program. If they have a political reconciliation 
program, then the regional powers have something to support. In 
the absence of that, I don't think the regional powers can have 
that much influence.
    On the so-called ``soft partition,'' by Senator Biden and 
Les Gelb, when the ISG was in Baghdad we raised that question 
to each of the government people we talked with. That was the 
only issue on which they were unanimous that this is a bad 
idea, and they would not support it. So, my only comment is 
that I, myself, think the partition is a very well thought out 
idea and a very sensible idea, which perhaps we could have 
imposed 2 years ago or so. It is quite clear now that we cannot 
impose that on the present government. If we want to go ahead 
with the partition, the first thing we have to do is remove the 
present government.
    Ambassador Ross. Senator, so much of how one looks at this 
comes from where you put the emphasis. Where I tend to put the 
emphasis is more on the internal Iraqi side of the equation and 
that's why I focus more on what we have to do to try to change 
their behavior.
    When I say that, it means I haven't given up on changing 
their behavior, although I have to admit, at this point, I have 
increasingly low expectations that their behavior is going to 
be changed. But I haven't given up on changing their behavior 
and I think you have to exert leverage. They have to understand 
there's a consequence for their nonperformance.
    Now, it relates specifically to your question about the 
neighbors, and the Saudis as an example. The reason the Saudis 
don't do what we would like them to do is because they're not 
interested in seeing the Shias dominate Iraq. They're not 
interested in seeing Iran, through the Shias, dominate Iraq. 
One of the reasons one of the benchmarks that I identified is 
so important is because if the Saudis actually saw this 
government beginning to reach out to the Sunnis in an 
unmistakable way, in ways they haven't done up until now, then 
it would give us greater leverage to go back to them and it 
would increase the possibility that they might change their 
behavior. So, again, so much of where I come from--and maybe 
it's because of my own experience--is looking at the internal 
dynamics here and the need to change those dynamics.
    With regard to soft partition, when I talked about it 
earlier, I said that believe somewhere down the road you may 
end up with something like that. The question is whether there 
is a practical way to do it. Until now, there hasn't been a 
practical way to do it, but Michael O'Hanlon talks about how 
you do have 100,000 Iraqis a month being displaced, which is 
beginning to create that reality whether anybody likes it or 
not. So, it may not be so far-fetched now. It certainly 
wouldn't be where I would start, but I think it has to be one 
of the positions that you at least consider as you look at what 
might transpire over the coming year.
    General Keane. My view is that there's always been an 
opportunity to deal with Iraq as a regional problem. Certainly, 
there are divergent interests there. The Sunni Arabs are 
cheerleading this insurgency for all the obvious reasons. I'm 
not suggesting that they're directly aiding and abetting it but 
they are cheerleading it. The Syrians are aiding and abetting 
the insurgency for all the reasons we know. The Iranians are 
directly aiding what's taking place with the Shia militias. 
They want us to fail and they would love to have a proxy state 
there for themselves I'm sure.
    But, nonetheless, the one thing they all have in common is, 
they don't want a failed state. It's not in their mutual 
interest, even the Iranians, to have a failed state, certainly 
in Iraq. Even for the Syrians, the two polar extremes here. So, 
if that's the case, we go in there with our eyes wide open to 
what we're dealing with, in terms of the Syrians and the 
Iranians. But I do believe that there is some basis to have 
some rather important discussions. I think the Iraqis should be 
the ones in the lead in doing this, not us, because I think 
we're somewhat radioactive here in dealing with it. I think 
they should take the lead.
    I agree strongly with the Ambassador, that the influence on 
the Sunni Arabs clearly will come as a result of Maliki's 
commitment to the Sunnis inside his own country. In my own 
mind, we have to change the behavior of those Sunnis quite a 
bit because of what their intent is, and military force will 
help change that behavior. But I think Maliki has to make the 
political commitment as well or we're not going to get there.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    I would simply say to my good friend and my neighbor to the 
south that he and I have a disagreement about this particular 
issue and, like you, I've been to Iraq a number of times. Like 
you, I've visited with men and women wearing the uniform after 
they've come back, as well as before they have been deployed to 
Iraq. I know how badly those troops want to win this conflict. 
It really bothers me when we see a resolution that came out of 
the Foreign Relations Committee yesterday and says, basically, 
as policymakers to the Army, ``You can't win.'' We're going to 
take a policymaking position, telling our troops that. I have 
some real problems with that. But that will be the debate that 
we'll undertake next week.
    Dr. Perry, I notice in your comments, as well as in the 
Iraqi report that you participated in, that you call for the 
withdrawal of combat forces, beginning immediately and being 
completed by the first quarter of 2008. What, in your opinion, 
is going to happen inside of Iraq beginning in the second 
quarter of 2008?
    Dr. Perry. I believe what happens for the rest of the year 
will depend on whether the Iraqi forces are successful and come 
up to proficiency. I have argued from the beginning that we had 
too few troops in Iraq to carry out this mission. I strongly 
believe that. In my testimony, I said that the other 20,000 are 
too little and too late. We need perhaps twice as many, total, 
to do the job that needs to be done there. At this stage, that 
extra 150,000 troops are clearly not available from the U.S. 
ground forces. The only chance of getting them is from the 
Iraqi army. Therefore, the focus in our report was on trying to 
get the Iraqi army up to proficiency. It is not proficient 
enough to do the job today. We were focusing on having U.S. 
troops embedded in their units, down to the company level, to 
try to have a crash course of improvement in leadership and 
proficiency. But if that does not happen, then I think we're 
going to be in deep, deep trouble in Iraq.
    Senator Chambliss. Would you agree with Ambassador Ross 
that the chances are pretty good that we're going to have an 
all-out civil war for 10 to 15 years following that pullout?
    Dr. Perry. I think we should do anything reasonably we can 
to avoid that outcome, but, at this stage, it is not clear to 
me that either of the strategies we're talking about will be 
successful in doing that. In particular, I think the strategy 
of adding another 20,000 troops has a very low probability of 
avoiding that.
    Senator Chambliss. So, are you committed to the fact that 
there is going to be an all-out civil war in Iraq and that it's 
okay for that to happen?
    Dr. Perry. No, I'm not, Senator.
    Senator Chambliss. I'm not sure what you're saying.
    Dr. Perry. The whole purpose of the thrust of the ISG 
recommendation was to recommend a strategy which had a good 
probability of avoiding that.
    Senator Chambliss. Every military expert that we've had 
come testify before us in the last few weeks has indicated, 
just as Ambassador Ross has said, that there's going to be then 
more of an extremist situation than others, but they've all 
generally agreed that there will be ethnic cleansing, that 
there will be an all-out civil war, and that, in effect, there 
will be much more violence inside of Iraq after we vacate our 
combat forces there. I'm not sure, still, with your response, 
where you come down on that, as to whether or not you say 
that's okay or whether these other measures are guaranteed to 
ensure that doesn't happen.
    Dr. Perry. No, my position is that, at such time as U.S. 
combat troops leave, there's a probability that the violence 
will increase in Iraq, but I believe that is true whether they 
leave a year from now or 5 years from now, unless we can effect 
a political reconciliation. To my judgment, everything hinges 
on being able to get the political reconciliation to try to 
avoid that.
    Senator Chambliss. Ambassador, I agree with you that these 
benchmarks out there ought to be imposed on the political side 
rather than the military side and you are dead on with respect 
to your points as to what should happen. As Secretary Gates 
said 2 weeks ago before this committee, and as the President 
confirmed to several of us in a private conversation, Maliki 
actually came forward with proposals, some of which have been 
incorporated into this strategy. We've not gotten a definite 
opinion from anybody that he can produce, or he will be able to 
do what he said he was going to do. I'd like your thoughts on 
that. These are commitments that have been made by Iraqis that, 
``we will do these benchmarks that have been set out there.'' 
If I'm hearing you correctly, if they can produce, there is the 
opportunity for some sense of success with this operation. Am I 
understanding you correctly?
    Ambassador Ross. Yes, I guess what I was saying is that 
this is not the first time he's made these kinds of promises, 
so I don't have high expectations that he's necessarily going 
to act on them. I have put a focus on trying to hold him to it. 
I have put a focus on trying to create a set of consequences 
for nonperformance because I still think there is a 
possibility--that's my point--there is a possibility. I 
understand the consequences of what happens if things all just 
fall apart.
    What I was suggesting is that I don't have high 
expectations that this is going to work. I would try to create 
consequences for nonperformance to increase the probability 
that it would work but I would also begin to position ourselves 
for alternatives, including a containment strategy, so we 
prevent the absolute worst from happening if this doesn't work.
    Senator Chambliss. General Keane, you have been involved in 
the decisionmaking process in this over the last several years. 
You've been very close to the situation. What, in your opinion, 
will happen inside of Iraq if we do complete a withdrawal of 
our combat forces in the first quarter of 2008? In your 
opinion, do the Iraqis have the capability of doing what they 
have said they are willing to do relative to these benchmarks 
we just talked about?
    General Keane. I've spent a lot of time on that issue. 
You're making the assumption that we would not conduct this 
operation and we would begin a withdrawal in 2008?
    Senator Chambliss. Yes.
    General Keane. Is that what you're suggesting?
    Senator Chambliss. Yes, sir.
    General Keane. Yes. The problem with that scenario is that 
the Iraqi security forces in 2008 will not be ready to protect 
their people and keep the level of violence down so we can make 
political, economic, and social progress. That is the reality 
of it. We may not like that but that's the reality of it. So, 
once we start to withdraw, the level of violence will rise 
above what it currently is. There'll be increased chaos in that 
country. I believe the intent of the leaders who want the chaos 
is to fracture the government and I believe they will be able 
to get at doing that over time, which will lead to an all-out 
civil war. We won't have to debate whether it is or not because 
it'll be blatantly obvious that the institutions have broken 
down completely and that we have complete anarchy on the 
streets, and it leads to a failed state. That is why my 
analysis is that there is something else you can do to prevent 
that from happening. Thus, the recommendation we're dealing 
with here today, in terms of a military initiative whose single 
purpose is to buy time for the Iraqi security forces, but, 
equally important, is to get a political solution.
    Senator Chambliss. Thank you.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Clinton.
    Senator Clinton. Thank you.
    I want to thank each of our witnesses for their lifetime of 
service to our country. Thank you very much for spending so 
much time with us and with other committees.
    Obviously, you can see clearly the anguish of members of 
this committee and other committees before whom you have 
appeared. No one wants to see this situation descend into even 
greater bloodshed and violence or a failed state. We understand 
that this is a direct threat to American national interests as 
well as a very tragic outcome for the intervention that we 
commenced.
    The problem we're having, and the reason for this debate, 
is to try to figure out what Congress can usefully contribute 
to this. Again, we have no illusions of whether the President 
is going forward with his policy. Several of you said that. The 
troops are moving and the policy is being implemented. But I 
have three concerns that I would just like you to briefly 
respond to.
    General Keane was eloquent, and I know how much it pains 
him to describe the failures of this strategy in the past. I 
would personally appreciate any insights any of you might have 
into why the strategy failed and why we allowed that failure to 
continue. Clearly, I have strong opinions about the failure of 
oversight and accountability in Congress, but within the 
decisionmaking circles of both the civilian and military 
leadership of our country, why was this failed strategy 
maintained when it became evident to many people that it was 
not working? Because I think if we don't understand that, we're 
going to be sitting here in a year once again talking about 
another strategy that, for whatever reason, has not yet 
succeeded.
    Second--and this, perhaps, goes directly to General Keane--
what is behind the decision to have joint command? You were 
right on point about the necessity for unity of command. 
There's an article in today's New York Times that I think 
illustrates the difficulty our forces are going to confront. 
Once again, it is a joint U.S./Iraqi patrol on Haifa Street, 
which has changed hands so often they can't keep up with it, 
and it became very clear that it was hard to know who was in 
charge, who was supposed to be making the decisions, who the 
enemy was. There is a troubling quote from a sergeant first 
class: ``who the hell is shooting at us? Who's shooting at us? 
Do we know who they are? Is it Sunni? Is it Shia? Is it some of 
the Iraqi soldiers who showed up and then disappeared?'' There 
is a very strong argument, just based on this one story, 
turning and expecting to have that cooperative unity with no 
unity of command instead of having the kind of command 
structure that I think that you would recommend, we're going to 
have a chaotic command structure, which I think plants the 
seeds of disaster from the level of the street fighting all the 
way up.
    Third, I believe strongly in trying to hold the Iraqis to 
the benchmarks or conditions. I absolutely agree with 
Ambassador Ross that we've had no consequences for 
nonperformance and we have squandered a lot of the leverage 
that we have had. I think that our failure to impose any kind 
of conditions on our continued funding of the Iraqi security 
forces and even the personal security for members of the Iraqi 
Government is one piece of leverage that we've abdicated.
    I understand the argument that the proponents of this 
policy are making. We use military force, putting our young men 
and women into situations like the street fight in Haifa, to 
try to quell the insurgents and change the behavior of the 
Sunnis who are supporting them, so that we can get the Maliki 
government secure enough to decide that it's willing to reach 
out to the Sunnis, who, having been, in some respect, quelled, 
are going to be more responsive to such efforts on political 
reconciliation and that's how we're going to reach the point 
where we can begin to resolve these outstanding differences. It 
sounds like a very complicated process that I am dubious can 
have success.
    Could you just comment on some of those points? Perhaps, 
Dr. Perry, you could start?
    Dr. Perry. I must say that I am appalled by a decision to 
move forward on the Baghdad operation without a joint command. 
The operation is called Operation Together Forward. To be 
together forward, we really need to have a joint command. So, 
General Keane has said--and I hope he is right--that General 
Petraeus will do what he can to mitigate that problem, but it's 
still a problem.
    Second, as I have testified before, I think even with the 
troops that are being added, there will be too few to do the 
job. Again, General Keane has said that there's a strategy for 
dealing with that problem--and I think it's a very innovative 
strategy--which is to focus on the mixed Sunni/Shia 
neighborhoods, in which there are fewer than 2 million people. 
So, if you focus on 2 million people, then maybe you will have 
enough to do the job. I think that is our best chance of 
success there and I wish General Petraeus well in being able to 
achieve that. But it is a long shot and I wish so much was not 
hinging on what I consider to be a long shot.
    In any event, whatever we do militarily, if we cannot get 
the Maliki government to move forward meaningfully and 
effectively on political reconciliation, I think it doesn't 
matter whether we have three brigades or five brigades or seven 
brigades, it will not be enough to deal with the problem.
    I strongly believe that we need to move forward with the 
political reconciliation and security jointly, and not do the 
security, hoping we can do the political reconciliation later.
    Thank you.
    Ambassador Ross. I'll just make two quick comments.
    On your first set of observations about why the strategy 
failed and why we held onto a failed strategy for so long, I 
think there's no doubt we went in with far too few forces, we 
went in with far too optimistic assumptions, and we ignored the 
nature of the real sectarian divide and how we were going to 
have to cope with that. Which really leads me to the last set 
of observations you made.
    The fundamental problem we face today--and Bill Perry was 
just saying it--is the lack of reconciliation, and the lack of 
a prospect for it. I see little sign that this Shia government 
is interested in it and the only way to change their behavior 
is for them to see that they have a lot to lose if they don't. 
So we have to find a way to strike the balance between not 
necessarily having the lid come off, because they aren't 
sufficiently uncomfortable with where things are, and yet, 
convince them that they're going to end up producing the very 
scenario that could end up threatening them. Somehow, we have 
to produce consequences and we have to hold them to a standard 
of performance--and I'd say, since they have promised it, let's 
hold them to what they themselves have said. I see no reason 
why Congress can't, in fact, use their own words now as the 
standard by which to judge their performance and to create a 
set of consequences if they don't act.
    General Keane. I appreciate the thoughtful questions. 
They're not easy to deal with.
    Why the failed strategy? I think, right from the beginning, 
we were executing the ideology dealing with the level of force, 
of taking the minimal application of force. This happened in 
Afghanistan, in my judgment, when we put the force levels in 
there, following the collapse of the Taliban, and we were only 
willing to commit the minimum force to deal with it. Actually, 
in my own view, it was a lack of sufficient force. It wasn't 
even enough. It's not surprising that the Taliban are able to 
resurge and commit and exploit the vulnerabilities that exist 
because of it.
    So, here comes Iraq, and a very successful invasion with 
what I believe was the appropriate level of force. Not everyone 
agreed with that but the Joint Chiefs all had their 
fingerprints on the level of force that was applied for the 
invasion. We backed into the insurgency in the sense that we 
did not see it coming. I think you can hold us, as senior 
leaders, accountable for not at least reasoning that this was 
one of those options that they could select and we should have 
had plans to deal with that. If we had plans, we would have 
intellectually thought about how to do this, and, much more 
importantly, we would have had a force list of the kind of 
forces and the size of forces we would need to deal with it. 
Then, when it began to materialize, we would have been ready 
with a much different size of force and also a different 
character of the force, in terms of its content, would have 
been different. So, that was wrong.
    But then as we got into this thing, I believe this minimal 
ideology, in terms of applying force, was in play. We developed 
what I call a short-war strategy, designed to rush to a 
political objective when the political culture was not ready 
for a truly representative government. That's one of our 
challenges that now we're trying to get them to do this. But 
the truth is that they don't have the political maturity to 
deal with a true representative government. So that was one 
issue, and, I think it was a mistake.
    The second one was the military strategy. I believe, 
without publicly saying so, we made up our minds if we go after 
this insurgency and try to defeat the insurgency with U.S. 
forces in the lead, this, by every sense of the word, will be a 
protracted conflict that will go on for years. It will 
eventually erode the American people's will, we'll have to keep 
high force levels for a long time there, and the adverse impact 
on the Army and the Marine Corps will be significant. I think 
that was in play, without ever being put on the table. So we 
had a short-war strategy politically, and then a short-war 
strategy militarily, because we made the conscious decision to 
turn it over to the Iraqis to let them do it, thinking that we 
could get them trained up in sufficient time so we could then 
exit and their readiness would be our exit strategy.
    The problem when I look at it--and I was still supporting 
it, myself, in 2005--is that I knew it had risks associated 
with it. But in 2005 we began to have enough evidence to know 
that the enemy was exploiting that strategy because we were not 
protecting the people ourselves, and the Iraqis could not. They 
began to raise the level of violence beyond anything that we 
had envisioned that the Iraqis would have to be able to deal 
with. So, right then, I think, in hindsight, we knew the 
strategy had failed. Even before the general election we knew 
that the military strategy was failing and we should have 
started to make an adjustment to it and say, ``Look, the only 
way we can bring this level of violence down is to begin to 
secure this population and keep these thugs and killers off of 
them.'' To do that would have meant what? More troops. I just 
think that was off the table, clearly. It was just not an item 
that was on the table.
    I also believe, Senator, that the military leaders, 
themselves--I don't buy this argument that Rumsfeld was 
muscling our generals and they didn't have the moral courage to 
request more forces, but somehow they all knew they needed more 
forces. I believe that General Casey and General Abizaid are 
thoughtful people; they were committed to the strategy, and 
they believed it could work. When you commit yourself to 
something and you're working an
18-, 20-hour day, and you have nothing nurturing your life 
whatsoever, except this one singular mission that you're 
absorbed with, and there's nothing else in your life but this, 
and you're looking for some measures of success for all of this 
effort that you're expending--not just yourself, but this 
entire force--you're going to see some things that are looking 
okay to you, and you have a tendency to fall prey to that and 
to make more out of that than what it should be. You deny 
seeing some of the harsh reality of what's taking place.
    I'm not making excuses. I'm just trying to explain the 
human dynamics of this thing, how very good people who have had 
good judgment in the past can make mistakes.
    Chairman Levin. If we could interrupt you right there. 
Because there are only a few minutes left on the vote, we're 
going to have to recess, if you're done Senator Clinton, for 10 
minutes. If you could all stay with us, we would appreciate it. 
If you're not able to stay and you have to leave, we understand 
that.
    We'll stand in recess for 10 minutes. [Recess.]
    The committee will come back to order.
    I believe Senator Graham would be next.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. I'd like to 
compliment you on a well-timed hearing that's, I think, very 
instructive for us all here in Congress and the country, to 
think through the problems we have.
    I guess the basic dilemma I have is that I do realize that 
we have to change people's behavior. I used to be a divorce 
lawyer and I found that to be very hard to do at times. It's 
probably the best analogy I have for the Middle East, hard-
hearted people who don't want to give an inch.
    But, anyway, the consequences of my action as a Senator are 
going to be viewed by a lot of audiences. I'm trying to make a 
list of the audiences that we're dealing with.
    Domestically, I think some of the resolutions that are 
drawn up--the nonbinding resolutions, in particular--to make a 
domestic political point and that's not lost upon me. I'm not 
criticizing people for doing that, because we want to keep our 
jobs. When the war is at 65-35, I think a lot of people want to 
be on record with their constituents saying, ``This is not 
going well. I see it like you do. I'm not so sure this war is 
going to work out well and I want to be on record saying 
that.'' Regarding too little, too late--Dr. Perry, some people 
feel that--so you want a resolution for your own political 
needs. That's just a reality. I'm not criticizing anybody. 
That's just politics.
    There's another audience and that's the President. I think 
people want to tell him, particularly on the other side, ``Your 
past mistakes are not going to be tolerated in the future, and 
we're going to put them on the record; we're going to hold you 
accountable; we're going to question whether or not anybody 
should follow your new lead, based on your failure to perform 
in the past; you don't have an open-ended commitment; and your 
ability to maneuver and operate in Iraq is not going to be 
unchallenged.'' So, the resolution is designed to put the 
President on notice. I think that's part of what's going on 
here.
    Do you all agree with that, so far? All right, good. Just 
be patient, there's more.
    The other audience, the most important audience to me, is 
Maliki. I'm trying to figure out who he is, what would motivate 
him, and what is his agenda. The central question for me--and, 
I think, for the country--is, does this guy, Maliki, desire to 
unify his country, or does he desire a Shia-dominated state 
where he's the leader?
    What do you think, Dr. Perry?
    Dr. Perry. Based on his actions to this date, they provide 
evidence that he favors a Shia-dominated state.
    Senator Graham. Would you agree there's also some evidence 
that he wants a unified country, because he's willing to talk 
about democracy?
    Dr. Perry. Yes.
    Senator Graham. Would you agree with me that al Qaeda 
considers him the enemy, not an ally?
    Dr. Perry. Yes, I do.
    Senator Graham. So, let's start with that proposition that 
al Qaeda sees Maliki as an enemy. Does that necessarily mean 
he's our friend? No, but that's a good start.
    Ambassador, how do you see Maliki and what his agenda might 
be?
    Ambassador Ross. I think that Maliki basically is a Shia 
leader. I don't think that he's motivated only by keeping 
himself in power, but I think he's motivated by having the Shia 
reverse all the historical abuses and the historical oppression 
of being an underclass, and dominating Iraq. He favors 
democracy, but, in no small part, because the Shia are 60 
percent of the country.
    Senator Graham. You know what we would call him here? A 
Democrat or a Republican, because that's what we try to do. We 
try to capture enough seats in Congress to influence policy, 
but we've done it through the rule of law, in a different way. 
I agree with you.
    So what I'm trying to do is to bring out the best in Maliki 
and communicate that the best hope for the Shia majority is to 
live in peace with the Sunni minority and the Kurd minority; 
and that if you really have hopes and dreams for the Shia 
future, those hopes and dreams are best achieved with a stable 
Iraq that shares the revenue, where you don't have to fear 
sectarian violence, you can practice your religion openly, 
without fear; and you can have an influence on the decisions to 
be made in your country. So, I think that is exactly his agenda 
and my hope is that we can convince him that the best hope for 
his Shia population is to do deals with the Sunnis and the 
Kurds.
    That gets me to my basic point. I've come to the 
conclusion, rightly or wrongly being a politician, myself, that 
I do have some ability to influence people, or I wouldn't be 
here. I have some skills in influencing the other side, and 
they have like skills. Sometimes we do it through tough 
commercials and sometimes we do it through back-room 
negotiations, but I've come to the conclusion that none of us 
would be able to reconcile the differences that exist in Iraq 
with this level of violence. It is my basic proposition, Dr. 
Perry, that, no matter how skilled a politician you might be, 
no matter how good a heart you have, the violence is too high, 
because it's hardening the hearts around those that you have to 
deal with.
    So, I've decided, as a Senator in our Congress here, that 
my number one goal is to restore order to the point that we can 
do everything that all of you have talked about. Dr. Perry, the 
reason I disagree with the ISG's way of restoring order is 
because of the other audiences that are listening out there 
include al Qaeda, extremists groups, and insurgency groups 
within Iraq. I think if you set a timetable to reduce combat 
capability by 2008 on the American side--and I may be wrong--I 
think it emboldens those forces who are friends of chaos. 
That's just an honest, healthy debate. I understand what you're 
trying to do. You're trying to get the Iraqi army out front 
sooner rather than later, and that's the ultimate goal of us 
all.
    General Keane, let's talk about how the surge, as a new 
strategy, would accommodate some of the needs we have in Iraq.
    Seventy percent of our casualties come from improvised 
explosive devices (IEDs), is that correct?
    General Keane. I'm not sure what that number is, but the 
overwhelming majority are IEDs.
    Senator Graham. I think it's 70-percent-plus. That tells me 
something. That means that when we get into firefights, we do 
pretty well. The enemy has withdrawn from those confrontations. 
As someone mentioned, there is not really any possibility that 
the enemy will beat us militarily. They know that. So, they're 
trying other ways to accomplish their agenda. They've been 
pretty clever about it, particularly al Qaeda.
    Now, one way to suppress the IEDs anew would be to go to 
the root cause of the problem. I think there are three problems 
that are associated with these attacks. One of those problems 
is a failed economy. I would argue that there are some people 
involved in the IED business that are not committed jihadists 
or insurgents, but there's no other way for them to make money 
and the militias are preying on their economic problem. Is that 
true, General Keane?
    General Keane. Yes, absolutely true.
    Senator Graham. Do you think that's true, Ambassador Ross?
    Ambassador Ross. Yes.
    Senator Graham. Dr. Perry?
    Dr. Perry. Yes.
    Senator Graham. I think that is true. If you're having to 
raise a family and there's no hope, economically, around you, 
and someone comes along and says, ``Here's $500,'' and that 
gets your family through some hard times, you're likely to do 
it. So, the economic part of this surge, to me, makes a lot of 
sense.
    I'm already out of time. I'm sorry.
    The bottom line is that the economic part of the surge 
makes sense to me to take that off the table. The rule-of-law 
part of the surge makes sense, and that is, if you catch 
somebody making IEDs, the new goal is to punish them severely, 
openly, and swiftly, and have more military capacity to put the 
IED bombmakers on the run. So, it makes military sense.
    I appreciate all of you being here. If I knew how to 
influence people to get what I want, I would have had a more 
successful private life. But I do believe this, that our only 
opportunity to push through these problems is to side with the 
moderates, as imperfect as they may be, and never let the 
extremists get America on the run, because if you're on the run 
in the Middle East, your days are numbered.
    Thank you.
    Chairman Levin. Senator Graham, thank you.
    We'll have a second round, with a few minutes each, unless 
the witnesses can't stay on. We'll just proceed, let's say, 
with a 3-minute second round. There are just a few of us here.
    Dr. Perry, the ISG talked to Generals Abizaid and Casey, 
and they indicated, apparently, to the ISG that additional 
brigades would not increase the likelihood of success. I want 
to make sure that I got that right. Can you tell us why it is 
they did not feel that additional forces would make the 
difference there?
    Dr. Perry. They said that the key to success was to put an 
Iraqi face on the war, not an American face, and that adding 
more troops obviously reinforced the American aspect of it. 
Second, I think a very important point here was that it would 
delay the Iraqi Government doing the actions that it needed 
that could lead to real success. All of the generals we talked 
to there emphasized that political reconciliation was the key 
and that you could not expect military success if you could not 
get the political reconciliation. They feared that any action, 
such as bringing in more troops, would only give the Iraqi 
Government a rationale for delaying moving forward with that 
political reconciliation.
    Chairman Levin. Thank you. Is that also your personal view?
    Dr. Perry. Yes, it is. I found them very persuasive on that 
point.
    Chairman Levin. Ambassador Ross, Secretary Rice has said 
that direct negotiations with Syria and Iran would put the 
United States in a position of being a supplicant. Do you agree 
with that?
    Ambassador Ross. I don't believe you become a supplicant 
unless you go into the negotiations and act like one. So, I 
don't think that direct negotiations with them is necessarily 
something that would make us a supplicant.
    I would say, I don't want to send either of them a message 
that what they're currently doing is working. So, my own 
preference, in each case, would be to deal with them, as it 
relates to Iraq, not bilaterally, but as part of a regional 
conference.
    Chairman Levin. So, at least dealing with them as part of a 
conference does not put us in the position of being a 
supplicant by the fact that we're present at such a meeting?
    Ambassador Ross. Absolutely, it doesn't, number one. Number 
two, the value of doing it in a multilateral setting is that 
you're not exaggerating their significance within Iraq. Yes, 
they each have an impact, the Iranians much more than the 
Syrians, but if you put them in a regional setting, or in a 
multilateral setting, then, by definition, you're treating them 
as one of the neighbors, you're not singling them out and 
making them more important.
    In general, I would say, in dealing with both Iran and 
Syria, the approach ought to be what I call a ``sticks-and-
carrot approach,'' meaning they have to understand that there 
is a price for what they're doing, and then they also have to 
understand what they can gain if they stop. I think it's better 
to concentrate their minds on what the price is first rather 
than trying to induce them first, because I think they read 
inducements incorrectly.
    Chairman Levin. Thank you.
    General, my last question. The Army Times, I believe, on 
December 29, published a poll of our troops. This was one of 
the questions which was asked of our troops in Iraq: ``how 
likely is the United States to succeed in Iraq?'' The answers 
were the following: 50 percent felt we are either very likely 
to succeed or somewhat likely to succeed; 13 percent said very 
likely; 37 percent said somewhat likely; and 41 percent said 
we're either not very likely or not at all likely to succeed. 
Now, does the publication of that kind of a poll that's taken 
among our troops undermine the morale of our troops?
    General Keane. No, I think it's an honest reflection of how 
they feel. The American soldier, as I said before, is an 
American first. Even when it comes to how a war is proceding. 
Thank God they are who they are. They have their own views 
about it and they question it, but they perform their duty 
under enormously stressful conditions. So their thoughts on 
this are healthy, in my judgment. I would share that majority 
view that you just said. I think it's probably an accurate 
description of how people feel about it. I feel the same way 
about it given that question.
    Chairman Levin. The fact that 41 percent feel that we're 
not very likely to succeed or not at all likely to succeed--
that's a large percentage.
    General Keane. It is a large percentage.
    Chairman Levin. Does the publication of that opinion poll 
undermine our troops because 41 percent have a different view 
from the 50 percent?
    General Keane. I think whenever you bring a group of troops 
together and whatever the issue is, they're not a homogenous 
group in that sense. They are thinking people and they're going 
to have their own views about how that war's being fought. I 
think they're entitled to that feeling, frankly, given their 
participation in it.
    Chairman Levin. So do I.
    General Keane. What's good about that is they can have that 
view and they can question it. I was like that when I was a 
young kid in the Vietnam war. I knew something was wrong. I 
wasn't smart enough to figure it out as a young platoon leader 
and company commander, but I knew we weren't getting at this 
right. It didn't look like we were going to be able to finish 
it completely either. So, I think they honestly reflect that 
view.
    If you asked them, also, ``Is there a way we can do 
something about this, and what it is that we can do about it?'' 
That would be interesting too.
    Chairman Levin. Did the election results--which pretty 
clearly indicated, by most observers, that the American people 
wanted to change direction in Iraq--undermine the morale of the 
troops?
    General Keane. I'm not an expert; you all here know much 
more about it than I do, but I think when it came to Iraq, it 
had a lot to do with the lack of progress and the lack of 
success, and their frustration with that.
    Chairman Levin. All right, thank you.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I think these are very good questions to be asking. I'm of 
the opinion that Senator Lieberman is here for a reason. He's 
here in spite of his support for the war in Iraq, because 
people in Connecticut saw in Senator Lieberman an honest, 
decent man who was following his own conscience. If you 
consider the last election a referendum that we should all just 
leave Iraq tomorrow, I think it would be a mistake.
    But the point is that we all understand the consequences of 
a failed state and we're trying to avoid it. I would like to 
continue along the lines that I was asking before.
    Baghdad, I just don't believe it's possible to have 
political reconciliation in a capital where you cannot take 
your kids for a walk down the street or go to the store with 
any certainty of coming back. Now, does anyone deny on this 
panel that Baghdad is an extremely dangerous capital? Do you 
all agree that political reconciliation would be best achieved 
if Baghdad were a more secure place?
    Dr. Perry?
    Dr. Perry. Senator Graham, what we're trying to do in 
Baghdad is pour water on the fire that's burning, to put it 
out. But, while we're doing that, it would be nice if somebody 
would not feed any more coals to the fire.
    Senator Graham. Absolutely.
    Dr. Perry. The political problem is adding the coals that 
are making the fire worse. We need to do them both together.
    Senator Graham. I could not agree with you more, and here's 
where we diverge. General Keane has come up with a way to make 
up for past mistakes. You're coming up with a way that I think 
compounds past mistakes. I may be wrong.
    What are those past mistakes? Economic progress in Iraq has 
not been what we would like it to be. How would you like to be 
Governor of a State where 40 percent of the people in your 
capital are unemployed? The Maliki government is 8 months old. 
We declared our independence in 1776, and it took us to 1789 to 
ratify our Constitution. So, you have Mr. Maliki, who's 
imperfect, but he's presiding over a capital where there is in 
parts of it, 40 percent unemployed. So, with the new strategy, 
General Keane, isn't it to address some of the unemployment 
problems?
    General Keane. We believe you cannot make the economic 
progress you need until you get some basic security. There's 
going to be no foreign investment, you can't get small-business 
loans, you can't even get the state-owned factories opened and 
working until you get some basic security going.
    Senator Graham. Ambassador Ross, what percentage of money 
on reconstruction projects goes to security?
    Ambassador Ross. I don't know the precise percentage, but, 
unfortunately, an awfully high percentage goes to that.
    Senator Graham. It is over 40 percent.
    Ambassador Ross. Yes.
    Senator Graham. Mr. Chairman, we have made many mistakes in 
Iraq. We underestimated how hard it would be to build a 
democracy out of a dictatorship. We've never had enough troops. 
I can go on and on and on. But what we're trying to do is 
rectify those mistakes. To me, economically the new strategy 
will help economic reconstruction. The military part of the new 
strategy will control the violence, at least it is our best 
hope to control the violence.
    Finally, political reconciliation. I'll end on this 
thought. If there was a deal on the oil revenue in the next 6 
months where the Sunnis felt like they had a piece of the 
economic pie, what impact would that have on the overall 
opportunity for political reconciliation? Dr. Perry?
    Dr. Perry. That would be a very important development, 
particularly if it happened 3 months from now instead of 6 
months from now.
    Senator Graham. Yes, sir, I agree with you. Let's say 3 
months, that's better.
    Ambassador Ross. It would be, because of what it would 
symbolize.
    Senator Graham. General Keane?
    General Keane. As a practical matter, unless you change the 
Sunnis' behavior and their attitude--I'm talking about the 
Sunni insurgency, who believes that they're winning--they don't 
want some of the oil, they want all the oil, and you have to 
change that. The security operation is a step towards changing 
it. You need to do both but you have to change that attitude 
and that behavior of that Sunni leadership.
    Chairman Levin. Thank you. Thank you, Senator Graham.
    Senator Reed.
    Senator Reed. General Keane, when we were talking before, I 
got the impression that you attributed the previous strategy 
almost entirely to the recommendations of military officers 
like General Casey and General Abizaid. My understanding--and I 
might be wrong--is that strategy-making is interactive, 
certainly, but flows from command guidance, from the national 
command authority, and that guidance involves not only the 
mission, but also the resources. So, I'm just confused about 
how these two general officers could be free agents. They 
certainly weren't free agents to determine the invasion of 
Iraq.
    General Keane. I'm sorry if I gave that impression. It is 
certainly a shared responsibility. General Casey did put 
together a campaign plan in the summer of 2004.
    Senator Reed. Was that at the direction of the Secretary of 
Defense and with some guidance?
    General Keane. We did not have a campaign plan before, 
under General Sanchez, in 2003-2004. The ingredients of that 
campaign plan were approved by General Abizaid and also by 
Secretary Rumsfeld. Listen, this is a collegial, collaborative 
relationship that these men have. They talk to each other 
frequently and share their thoughts. I think all I was 
suggesting is that there's a shared responsibility here for the 
development of the strategy.
    Senator Reed. I appreciate that, but I think there's also, 
unless I'm mistaken, the Secretary of Defense not answering to 
General Abizaid or to General Casey; they, indeed, were 
answering to the Secretary of Defense.
    General Keane. No, there's no doubt about that. Clearly 
they were answering to the Secretary of Defense and also to the 
Commander in Chief.
    Senator Reed. Right.
    You talk about General Odierno and General Petraeus, and I 
have respect for them. They're good officers. General Odierno 
was criticized publicly in the press about his operations with 
the 4th Infantry Division. The criticism--I'm simplifying it--
was: ``You're sending people in to kick down doors and grab 
people,'' et cetera. Is that what we're going to have to do in 
Baghdad? How do we avoid that? Haifa Street, yesterday, was 
American GIs and Iraqis running through and kicking down doors.
    General Keane. No, General Odierno was criticized, 
particularly in--I think it was Tom Ricks' book, ``Fiasco.'' I 
think the criticism was overdone, but, also, some of the 
criticism, I think, is fair. If General Odierno--and I don't 
want to speak for him--but I know he certainly has looked back 
on that and recognizes that there were some mistakes made. I 
happened to see some of those mistakes. I was there at the time 
observing it. We were conducting very aggressive offensive 
operations in the Kirkuk area where he was doing cordon-and-
search operations. I do think that they helped to grow the 
insurgency--the aggressive nature of those operations. But 
look, I went home on the airplane from that visit, and it was a 
sobering trip for me, because I knew that, intellectually, the 
United States Army, in terms of its education and its training 
and its doctrine, was ill-equipped to fight a 
counterinsurgency. We have not been training our officers and 
our senior NCOs to deal with that kind of irregular warfare. We 
were training them to deal with conventional campaigns to 
defeat other armies and we became preeminent in the world at 
that. But I knew, also, we're Americans and we're going to 
learn very quickly, and very quickly we have learned.
    I think General Odierno, along with a lot of others, to 
include myself, has learned an awful lot that we didn't know 
back in 2003. In this operation in Baghdad, to be specific 
about it, we will have to go house-by-house. We will do that 
with dignity, respecting the people that are there, but also 
understanding that there is enemy in their midst. We know how 
to do this. We've been doing this for 3-plus years now. So we 
know how to do that, be firm about it, and also do it without 
undue harm to the population we're attempting to secure, as 
well. So, we know how to do this operation. I think initially 
we struggled with some of this but our forces are experienced 
and our leaders are educated and much better trained to do this 
when they come in to the area of operations than what they had 
been initially.
    Senator Reed. I have additional questions, Mr. Chairman, if 
you'll allow it.
    Chairman Levin. If you don't mind, we'll call on Senator 
Warner and then come back to you.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I'll pick up right where my distinguished colleague left 
off, aggressive operations, the nature of the operations, and 
kicking down doors in private homes. This troubles me greatly 
and it's why I feel that the Iraqi forces should be doing this. 
It doesn't take a lot of training to teach a person to kick 
down a door, particularly when they understand the language 
that the people inside will respond with, and when they 
understand the culture. Why can't the Iraqis take that part of 
the operation and we simply be there, embedded to work on, 
maybe, plans and tactics and to supply them?
    General Keane. I think they can, Senator, but they just 
cannot do it entirely by themselves. It'll be a shared 
experience. We'll be there with them, as we do combined 
operations right now in various parts of Iraq. This is not new 
to us. But what is new is bringing this amount of force to 
Baghdad to secure that population. The density of the operation 
and the mass of it is new. The fact that there'll be Iraqis and 
Americans operating together, advantaging each other's 
strengths, and certainly having Iraqis as opposed to Americans 
go through doors, makes a lot more sense. I'm sure the tactical 
commanders will take advantage of that as much as they can. 
Iraqis are able to isolate friend from foe much faster than 
what we can, for all the obvious reasons that you're familiar 
with. But, in the same respect, there are not enough of them, 
and they're not trained to the standard that our forces are, in 
terms of coping with the enemy, in terms of the violence that's 
there and having to deal with al Qaeda, Shia militia, and the 
insurgents. Our skill sets are at a higher degree to deal with 
that and we also need the density of the mass to deal with it.
    Senator Warner. Let's get back to that: ``there's not 
enough of them.'' We just, in our earlier colloquy, said there 
are 150,000 of them. That's quite a few. I don't see why we 
couldn't have just allowed them to take this operation on, and, 
to the extent that we had to take added forces and put them 
elsewhere in the nation of Iraq to replace their absence, 
that's what worries me about this plan, that not enough 
emphasis has been put on the Iraqi forces.
    Now, you've been very forthcoming in saying that, in your 
judgment, they're not up to it. But that astonishes me. We've 
been at this training now for over 2\1/2\ years, and, time and 
time again, people have come before this committee to testify 
about the progress that's being made. Here we are at the 
juncture of a very critical campaign, a needed effort to try 
and reduce the violence, and we're learning some details that 
had not been shared with us before--the professional judgment 
of yourself and, I think, others, that they're just not up to 
the task of kicking down a door and inquiring of the people, or 
ascertaining the level of presence in there, as to whether or 
not it's enemy. For myself and, I think, the American people, 
this is what's most troubling of all. I really do.
    General Keane. I understand your concern and the 
frustration that you feel about this. But growing and 
developing an army from scratch does take time, Senator. We 
have to train the NCOs, we have to put the officer education 
programs in place before.
    Senator Warner. Okay, you've been through that, and you've 
made it clear.
    General Keane. We train, obviously, the basic recruits and 
marry them up in units. They need to get operational 
experience. It does take time, and we've made progress.
    Senator Warner. I know, but I came through the training 
camp--commands in World War II in the last year of the war, and 
then again in Korea. Boy, I'll tell you, I saw others whipped 
in to shape in 6 or 8 months and into the face of battle and 
they were brave soldiers. We've been over 2 years working with 
this Iraqi group. I recognize the NCO concept and the officer 
concept. That is important to us. But I tell you, I have a hard 
time understanding why they can't be the ones that promulgate 
this campaign. It's an important campaign. They know the 
language. They know the culture. They know the neighborhood.
    General Keane. I share your desire and I wish they were, 
but the harsh facts are, they're not ready for it.
    Senator Warner. All right. Now let's go to this dual chain 
of command. Would you describe how we've been operating thus 
far as we work with Iraqi forces? Is there a dramatic change as 
we shift into this plan from what we've been doing for several 
years?
    General Keane. By and large, the way we've been operating 
before is that as the Iraqi security forces are trained and 
battalions and brigades and divisions are developed, they 
certainly command those organizations. But when we go out on 
operations, particularly with U.S. forces, they fall under our 
command. So, U.S. commanders can direct and employ those 
forces. What we cannot do and what we find frustrating is, if 
we need five Iraqi brigades to do X, we may not get five Iraqi 
brigades to do X, because the Minister of Defense, for whatever 
the reason, cannot get those forces there. So those are things 
that we've been incapable of doing. But, at the tactical level, 
we have been controlling those forces.
    What will happen now is that, at the very top, there's an 
Iraqi commander in charge of Baghdad. This is a new command 
structure and it's just evolving. Below him will be a commander 
for the new redistricting that has taken place--the nine 
districts. There'll be a commander there. Then there will be 
Iraqi troop commanders below that commander. They will respond 
to that chain of command. Where that gets problematic is at the 
very bottom.
    Senator Warner. Down at the company platoon level.
    General Keane. Down at the bottom where you're on the 
street with the U.S. forces.
    Senator Warner. You have to make decisions in a split 
second.
    General Keane. That's right. So, that's where that's a 
problem. The second place it's a problem is that they can 
control the number of forces that are going to be in each one 
of those districts, and move them around at will, which may at 
times be very different from what we believe is necessary to 
deal with the enemy situation. So, you could have a brigade or 
two that's moving to some other district, at the frustration of 
the American commander who needs those Iraqi units in this 
district for X reason.
    So, those are the two problems, I think, that will manifest 
themselves. One is at the tactical level: Who's in control at 
the point of contact where the shooting's going on? You need 
one commander.
    Senator Warner. All right.
    General Keane. Then the Iraqis are going to be able to move 
their forces around at times where we will disagree with that 
movement.
    Chairman Levin. Senator Warner.
    Senator Warner. Now, at that tactical level----
    Chairman Levin. Could we switch back and forth now?
    Senator Warner. All right, let me just finish this 
question, then. At that tactical level, if there's a dispute, 
who is to resolve the dispute between, say, the American 
company commander and the Iraqi company commander, or the two 
platoon lieutenants? Who resolves the dispute? The Iraqis say, 
``No, we should go here,'' and the Americans say, ``No, to get 
this target, we have to go there.'' Who resolves that dispute?
    General Keane. What they'll do is try to resolve it between 
them. There'll be human dynamics at play.
    Senator Warner. Is there any precedent in history for 
putting our U.S. forces in a comparable situation of such 
duality of command at the tactical level all the way up? I 
can't think of it.
    General Keane. I don't have it at my fingertips, if there 
is a precedent for it.
    I think what they'll also do is, they'll join the 
headquarters together. So, the Iraqi battalion commander and 
U.S. battalion commander will bring their headquarters 
physically together and they'll do that up and down the chain 
of command, as much as they possibly can, to preclude this.
    Now, what I'm hoping, to be quite frank about it--and I 
didn't say this before--is that when General Petraeus gets on 
the ground over there, I hope he puts his two big feet right in 
the middle of this thing and tries to get this resolved, to get 
it out of this situation we've just been talking about and get 
it into something that's much more practical militarily. I hope 
he has his way with the Iraqis to convince them that, while it 
may be desirable on their part to flap their wings a little bit 
and demonstrate some control here while we're doing this 
decisive operation, it actually risks the success of the 
operation.
    Chairman Levin. Thank you.
    General Keane. I hope he can convince them of that.
    Senator Warner. I share that, but I don't want a lot of 
finger-pointing--no one wants that--and the Iraqis laying the 
blame and saying, ``We failed to achieve that goal because of 
what this American captain said over here.'' The next thing you 
know, we're going to have incident after incident after 
incident of that sort of cross-claim and no one accepting the 
accountability for the ultimate decisionmaking.
    Chairman Levin. Thank you, Senator Warner.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General, I want to follow up on a couple of points. As I 
understand this operation, because of the limited number of 
forces we have and because of political reasons, we cannot 
blanket the city, we won't blanket the city of Baghdad. But an 
alternate view, because we're dealing with a very innovative, 
adaptive enemy, is that they will seek sanctuary in those areas 
where we're not operating, they will reduce their profile, and 
they will distribute their activities into other communities if 
they have to.
    The real difficulty I think we all have is that if the 
mission is to go and surge and seek out these insurgents and 
take them out, that's one mission, but essentially they will 
just continue to blow up vehicles, they'll continue to have 
suicide bombers going in, and they will continue to get the 
headlines. Their whole purpose is to create this instability 
and violence. Unless, in my view, you have this decisive, 
overwhelming force going in that literally shuts the whole city 
down--what we did in Tal Afar was build a wall around the 
entire city, channel people in and out, and then put in a huge 
force, relative to that population, or at least a significant 
force. How is this going go work?
    General Keane. As I said before, we will start in the mixed 
Shia/Sunni neighborhoods. The force in there will be 
overwhelming, to be quite frank about it. They will control the 
population. The population will not be able to move freely 
around. They'll segment and control that population. That force 
will have a significant presence that it has never had before.
    So, the force ratio is right for what we're dealing with. 
As I mentioned in my earlier comments, fortunately we do not 
have to deal with the 6 million all at the same time. There is 
key terrain in Baghdad, and in my judgment, it is the Shia/
Sunni neighborhoods on each side of the Tigris River. That's 
where we would start. Now, that's a significant population, in 
and of itself--it's about 1.8 million--that we would have to 
deal with, and we can start to protect that population rather 
significantly. If they attempt to contest us there, whether 
they be Shia militia or al Qaeda or insurgents, our troops will 
have shoot-to-kill orders, or capture them, when they contest 
us. I think there will be some of that.
    But based on the intelligence reports that I've seen, I 
think you're right, they will try to avoid that, at least 
initially, because they lose those fights, by and large, when 
we're on the scene. They'll try to go underground and wait us 
out. That is why this strategy has to continue over time. 
Waiting it out actually will be a losing strategy for them, 
because as we start to bring in economic packages and start to 
deal with basic services and bring security back, it's much 
more difficult for them to get back in and maintain the level 
of influence they had in those communities in the past. We'll 
still be there. Time then starts to work in our favor, in my 
judgment, at that point, if their strategy is to wait us out. 
If they contest us, so be it. We'll deal with that.
    Now, will they be able to create incidences other places 
that we are not? To a certain degree, they will always have a 
capacity to do some of that in Iraq, because we can't be every 
place all over Iraq at the same time. But we will be able to 
bring down that level of violence rather significantly. I'm not 
suggesting for a minute that we'll eliminate all violence, but 
we'll bring it down rather dramatically so that people's lives 
start to change. That's the most important thing here.
    Senator Reed. Just a final point, and that is that in my 
view, the President had two ways he could have gone with his 
strategy choices. One would be to adopt a phased redeployment, 
as suggested by the ISG, the other was to mobilize a 
significant portion of the American Government, not just 
American soldiers. I've seen no evidence that he's mobilizing 
anybody in the State Department, the Justice Department, and 
the Department of Agriculture to complement what everyone 
agrees is a necessary element of the strategy, which is the 
economic recovery, the employment, et cetera.
    Dr. Perry or Ambassador Ross, have you seen any evidence, 
or do you have any suggestions of the top two or three things 
that the President could do to get the rest of the Government 
engaged?
    Dr. Perry. I've seen no such evidence.
    Senator Reed. Ambassador Ross?
    Ambassador Ross. I've seen no such evidence, and I think 
that the plans they have for the PRTs are based on an illusion. 
They don't have the people to fill them.
    Senator Reed. Thank you, gentlemen.
    Let me just add a personal note. I've had the privilege to 
work with all of you and my respect and admiration is immense. 
I thank you for being here today.
    Chairman Levin. Thank you, Senator Reed.
    Just a couple of final questions from me.
    General Keane, General Schoomaker has been quite vocal 
recently in meetings and testimony about the growing readiness 
problems in the Army, especially in the nondeployed units. Do 
you share that concern?
    General Keane. Yes, most definitely. The problem is that 
the United States Army and the Marine Corps are too small. We 
self-imposed on ourselves a 1-year rotation. We don't have to 
fight wars by rotations, so that's self-imposed. We did it to 
maintain the cohesion of our forces.
    But, second, the commitment of 130,000-140,000 troops to 
Iraq should not put the strain on the United States Army that 
it is doing. The Army has that level to strain because it's 
just too small to be able to have forces that are nondeployed, 
that not only are preparing to deploy to Iraq, but are also 
training to be able to deploy to other types of war in the 
event that those emergencies arise. That is not happening, 
quite frankly, and that's a serious problem.
    Chairman Levin. When we had Secretary Gates here discussing 
the question of commitments not being kept and the need for 
benchmarks, he represented to the committee that this was going 
to be a phased-in introduction of these five brigades and that, 
along the way, we could have off-ramps for the further 
deployment of the 21,000. In other words, they're not going in 
all at once for the reasons that you give in terms of 
equipment, but they will go in perhaps one per month on the 
average and that we can look at each moment along that 
continuum as to whether or not commitments have been kept by 
the Iraqis. Because he said that would give us a good 
opportunity to see whether or not their commitments have been 
kept, and that would give us the opportunity to ``reevaluate 
our strategy'' if they haven't been keep, to use his words. He 
said we're trying to construct this in such a way that there 
are off-ramps in this increase so that if conditions change, 
you don't necessarily have to go to the full extent of the 
buildup.
    You seem to disagree with that approach. You seem to feel 
we ought to just put the 21,000 in there, regardless of whether 
or not their commitments have been kept along the way. Is that 
fair?
    General Keane. I'm not suggesting that Maliki should not be 
held to the benchmarks, but I don't believe we should use the 
military force as the lever to do that, because it has a 
mission to perform, and we should get it in there so it can 
perform its mission.
    Chairman Levin. All right.
    Then, Ambassador Ross, as I understand your testimony, you 
believe we must apply maximum pressure on the Iraqis to step up 
to the plate, basically, and to solve their political 
differences. Is it fair to say that, in your judgment, adding 
additional troops is not the way to supply that additional 
pressure?
    Ambassador Ross. On balance, that is my view, although I am 
assuming the additional troops are going. So, given that 
reality, from my standpoint, that puts even a greater premium 
on being able to show that there are going to be consequences 
for nonperformance; and then, identifying what those 
consequences should be. It should be quite clear.
    Chairman Levin. Do you believe that in our resolution we 
should add those benchmarks and consequences?
    Ambassador Ross. I absolutely would put the benchmarks in, 
and as I said, I think already the benchmarks exist, in terms 
of the commitments that the President articulated publicly that 
he had when he announced the surge, to hold them to their own 
words.
    Chairman Levin. Which makes it more wondrous as to why it 
is we can't get a copy of what the Iraqis have agreed to. It 
makes it more incomprehensible, since they've agreed to them. 
The President has, in general, described them but why can't we 
get a copy of them? Senator McCain is going to join me in a 
letter today to the Secretary of State insisting that we get 
those benchmarks.
    Dr. Perry--and I'll ask this of each of you--is there 
anything, in addition, that you would like to add, subtract, or 
whatever, in terms of your testimony today? It's been extremely 
helpful and extremely thoughtful. I know how appreciative we 
all are. So, the hour is late, but I want to give you and the 
other witnesses an opportunity, if you'd like, to add anything.
    Dr. Perry. Thank you, Mr. Chairman. The questions have been 
very comprehensive and I don't want to add to that.
    Chairman Levin. Thank you.
    Ambassador?
    Ambassador Ross. Nothing.
    Chairman Levin. General?
    General Keane. Nothing.
    Chairman Levin. Let me, as I bang my gavel again, thank you 
all. This has been extraordinarily helpful, and every colleague 
who I've had a chance to interact with, either running to the 
floor to vote or otherwise, has felt this has been a very 
helpful hearing. We thank you all.
    We are adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Thune
               consequences of a ``precipitous pullout''
    1. Senator Thune. Ambassador Ross, in October 2006 you published an 
article titled ``A Plan for Iraq.'' In the article you stated: 
``Staying the course is a prescription for avoiding reality. But simply 
setting a deadline and withdrawing might also constitute a form of 
denial--denial of what will happen in the region after a precipitous 
pullout.'' As a Middle East expert, can you expand on what you mean by 
``what will happen in the region after a precipitous pullout?''
    Ambassador Ross. I believe that the effects would be seen in Iraq 
and the region. In Iraq, the fighting would escalate with militias--
Sunnis and Shias alike--anticipating attacks and preempting against 
real and imagined enemies. The escalation and the increasing threats to 
Sunni or Shia areas most exposed and vulnerable would also likely 
induce intervention from Iraq's neighbors. Jordan and Saudi Arabia in 
particular would fear for the survival of certain Sunni areas and might 
increase their material support for them, and, in some cases, the 
actual deployment of their forces to these areas cannot be excluded. 
The same could apply to the Iranians as well. Though more likely to 
simply increase their material support and re-supply Shia militias, the 
Iranians will not sit on the sidelines if they see the Saudis or 
Jordanians sending troops into Iraq. The irony, of course, is that 
mutual fears of everyone intervening could lead Iraq's neighbors to 
some understandings on how to limit a convulsion in Iraq that could 
draw them in, in the aftermath of an American disengagement.

    2. Senator Thune. Ambassador Ross, would the outcome of a 
precipitous pullout be limited to Iraq?
    Ambassador Ross. Instability in Iraq and the surrounding areas 
would certainly be the near and intermediate consequences. Certainly an 
al Qaeda presence and dominance in Anbar province could be a 
consequence. Though in the end, the Sunni tribes there and the Saudis 
and Jordanians would have their own reasons to fight and prevent that. 
I suspect that al Qaeda would find it difficult to have a long-term 
foothold there in the face of such opposition. Much would depend on how 
long it took Iraq's neighbors to come to some understandings on 
containing their conflict in Iraq. Over time, a new modus vivendi might 
emerge but how stable it would be remains unclear. The perception of 
the United States and its reliability would be very low. We would be 
perceived as having created the mess and then left it for those in the 
region to have to live with it.

    3. Senator Thune. Ambassador Ross, what would be the long-term 
consequences of a precipitous pullout for the region?
    Ambassador Ross. See answers to questions 1 and 2.

                           regional diplomacy
    4. Senator Thune. Ambassador Ross, in the article quoted in 
question 1, you also state that, ``a long-discussed regional conference 
with all of Iraq's neighbors should be held. None of them--Iran, Saudi 
Arabia, Jordan, Syria, Turkey--want the Bush administration to succeed 
in Iraq.'' Comparing this with your testimony today, I hear a similar 
message, that Iraq's neighbor states do not want us to succeed but 
neither do they want a failed state on their borders. I am not against 
diplomacy, but I would like to hear what you believe should be the 
outcome of speaking with nations like Iran and Syria. Would we 
negotiate with them or should we send a clear ultimatums that their 
actions leading to the death of American soldiers will not be 
tolerated?
    Ambassador Ross. The two points are not mutually exclusive. The 
fact is in most negotiations one is likely to be more successful if he/
she has leverage. We should never have tolerated Iranian or Syrian 
behaviors that led to the death of American soldiers with impunity. But 
one should only issue ultimatums if one is prepared to act on them. Our 
problem with both Iran and Syria has been a tendency to threaten but 
not to follow through on our threats. I have publicly said that our 
posture toward Syria is one of being tough rhetorically and soft 
practically. I would reverse that. I am not against negotiating with 
either, provided we know what we want and we employ a stick-and-carrot 
approach: concentrate their respective minds with what they lose and 
then show them what they can gain from changing their behaviors.

                               favoritism
    5. Senator Thune. Ambassador Ross, my colleague from Virginia, 
Senator Warner, introduced a resolution calling for a new strategy in 
Iraq. In paragraph 7, his resolution states, ``the Senate believes the 
United States should continue vigorous operations in Anbar province, 
specifically for the purpose of combating an insurgency, including 
elements associated with the al Qaeda movement, and denying terrorists 
a safe haven.'' Based on our lessons learned from Lebanon in the early 
1980s, are you concerned that this paragraph could send the message 
that we are favoring the Shia over the Sunni?
    Ambassador Ross. No, we should define our most important interests 
and then explain them. Presently, we have problems with both Sunnis and 
Shias in Iraq. Sunnis see us as favoring an Iraqi Government that is 
dominated by the Shia. The Shia see our calls for national 
reconciliation and inclusion of Sunnis as designed to limit Shias and 
protect Sunnis who are not prepared to accept a leading Shia role. Al 
Qaeda represents a threat to the Sunni tribes in Anbar province and to 
Shias everywhere. We ought to be able to frame our policy and actions 
in a way that singles out al Qaeda even while our objective should be 
to foster national reconciliation in Iraq. Without such reconciliation, 
every military strategy in Iraq is doomed to fail.

                               embedding
    6. Senator Thune. Secretary Perry, in your testimony you disagree 
with the President's troop increase plan and instead call on the 
President to follow a different path. You state, ``The best chance of 
bringing down the violence in Iraq, if indeed it still can be done, 
lies with the Iraqi army, and we can improve their chance of success by 
using U.S. ground forces to provide on-the-job training that would 
result from embedding American troops in Iraqi combat units, as 
proposed by the Iraq Study Group (ISG).'' However, on page 8 of the ISG 
Report, the group found that, ``Significant question remains about the 
ethnic composition and loyalties of some Iraqi units--specifically 
whether they will carry out missions on behalf of national goals 
instead of a sectarian agenda.'' If you were Secretary of Defense 
today, how confident would you be about embedding American troops in 
Iraqi units that a blue-ribbon panel had found has serious questions of 
loyalty?
    Dr. Perry. American officers in charge of the embedding that has 
already taken place say that there has been no instance in which Iraqi 
soldiers betrayed the embedded soldiers. The primary point of our 
recommendation for embedding American troops in Iraq units was to 
enhance the capability of Iraqi units with on-the-job training they 
would get from the role model of American troops. The on-the-job 
training could also be effectively performed by pairing Iraqi units 
with American battalions.

    7. Senator Thune. Secretary Perry, why do you feel that embedded 
troops would be more successful in providing Iraqi units on-the-job 
training as opposed to pairing Iraqi units with American battalions or 
brigades?
    Dr. Perry. See response to question 6.

    8. Senator Thune. Secretary Perry, by pairing Iraqi and American 
units, couldn't they train together and focus on larger issues raised 
by the ISG like unit cohesion and organizational leadership?
    Dr. Perry. See response to question 6.

    [Whereupon, at 1:40 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
